<html>
<title> - THE JUSTICE DEPARTMENT'S RESPONSE TO INTERNATIONAL PARENTAL KIDNAPING</title>
<body><pre>[Senate Hearing 106-988]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 106-988

 THE JUSTICE DEPARTMENT'S RESPONSE TO INTERNATIONAL PARENTAL KIDNAPING

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON CRIMINAL JUSTICE OVERSIGHT

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   on

   THE JUSTICE DEPARTMENT'S RESPONSE TO INTERNATIONAL PARENTAL CHILD 
                               KIDNAPING

                               __________

                            OCTOBER 27, 1999

                               __________

                          Serial No. J-106-56

                               __________

         Printed for the use of the Committee on the Judiciary

                    U.S. GOVERNMENT PRINTING OFFICE
70-986 DTP                  WASHINGTON : 2001


                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman

STROM THURMOND, South Carolina       PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
ARLEN SPECTER, Pennsylvania          JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     HERBERT KOHL, Wisconsin
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JOHN ASHCROFT, Missouri              RUSSELL D. FEINGOLD, Wisconsin
SPENCER ABRAHAM, Michigan            ROBERT G. TORRICELLI, New Jersey
JEFF SESSIONS, Alabama               CHARLES E. SCHUMER, New York
BOB SMITH, New Hampshire

             Manus Cooney, Chief Counsel and Staff Director

                 Bruce A. Cohen, Minority Chief Counsel

                                 ______

               Subcommittee on Criminal Justice Oversight

                STROM THURMOND, South Carolina, Chairman

MIKE DeWINE, Ohio                    CHARLES E. SCHUMER, New York
JOHN ASHCROFT, Missouri              JOSEPH R. BIDEN, Jr., Delaware
SPENCER ABRAHAM, Michigan            ROBERT G. TORRICELLI, New Jersey
JEFF SESSIONS, Alabama               PATRICK J. LEAHY, Vermont

                     Garry Malphrus, Chief Counsel

                    Glen Shor, Legislative Assistant

                                  (ii)




                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Thurmond, Hon. Strom, U.S. Senator from the State of South 
  Carolina.......................................................     1
DeWine, Hon. Mike, U.S. Senator from the State of Ohio...........     2

                    CHRONOLOGICAL LIST OF WITNESSES

Panel consisting of James K. Robinson, Assistant Attorney 
  General, Criminal Division, U.S. Department of Justice, 
  Washington, DC, accompanied by Richard A. Rossman, Chief of 
  Staff, Criminal Division, U.S. Department of Justice, 
  Washington, DC; and Jamison S. Borek, Deputy Legal Adviser, 
  Department of State, Washington, DC............................     4
Panel consisting of Catherine I. Meyer, co-chair, International 
  Centre for Missing and Exploited Children, Washington, DC; 
  Laura Kingsley Hong, Squire, Sanders and Dempsey, Cleveland 
  Heights, OH; John J. Lebeau, Jr., Palm Beach Gardens, FL; Craig 
  E. Stein, attorney at law, Miami Beach, FL; and Ernie Allen, 
  president and chief executive officer, National Center for 
  Missing and Exploited Children, Alexandria, VA.................    28

                ALPHABETICAL LIST AND MATERIAL SUBMITTED

Allen, Ernie:
    Testimony....................................................   239
    Prepared statement...........................................   241
Borek, Jamison S.:
    Testimony....................................................    10
    Prepared statement...........................................    12
Hong, Laura Kingsley:
    Testimony....................................................    54
    Prepared statement...........................................    56
        Attachment: Case of American Citizen Rhonda Mei Mei Lan 
          Zhang..................................................    61
Lebeau, John J., Jr.:
    Testimony....................................................   101
    Prepared statement...........................................   103
        Various attachments submitted............................   149
Meyer, Catherine I.:
    Testimony....................................................    28
    Prepared statement...........................................    31
        Letter from Prof. Dr. Herta Daubler-Gmelin, MdB, German 
          Ministry of Justice, dated Sept. 9, 1999...............    30
        Status of various cases..................................    40
Robinson, James K.:
    Testimony....................................................     4
    Prepared statement...........................................     7
Stein, Craig E.:
    Testimony....................................................   236
    Prepared statement...........................................   238

                                APPENDIX
                         Questions and Answers

Responses of James K. Robinson to Questions from Senators:
    Thurmond.....................................................   251
    DeWine.......................................................   254
Responses of Jamison Borek to Questions from Senators:
    Thurmond.....................................................   255
    DeWine.......................................................   260
Responses of Lady Meyer to Questions from Senators:
    Thurmond.....................................................   260
    DeWine.......................................................   264
Responses of Ernie Allen to Questions from Senators:
    Thurmond.....................................................   266
    DeWine.......................................................   267

                 Additional Submissions for the Record

Prepared Statement of Thomas A. Johnson, Parent of Wrongly 
  Retained Child.................................................   269
    Letter to Rob Chestnut, Chief, General Crime Section, Office 
      of the U.S. Attorney, Eastern District of Virginia, dated 
      April 25, 1997.............................................   281
    Summary of the Swedish Government System of International 
      Abduction and Wrongful Retention of Children...............   282
Prepared statement of Paul Marinkovich, Parent of Illegally 
  Abducted Son...................................................   304
    Front page article from the Ventura County Star in Southern 
      California, dated Oct. 22, 1998............................   307
    Letter to Inspector General Michael Bromwich, from 
      International Child Rescue League, dated Oct. 21, 1998.....   308
Prepared statement of Attorney Jan Rewers McMillan, On Behalf of 
  Thomas R. Sylvester............................................   309
Prepared statement of The International Centre for Missing and 
  Exploited Children.............................................   311
    Various documents and newspaper articles.....................   313
Letters to Senator Thurmond from:
    David L. Levy, president, Children's Rights Council, dated 
      Oct. 27, 1999..............................................   327
    Michael C. Berry and Associates, P.A., dated Oct. 26, 1999...   330
Case of Danny and Michelle Cooke.................................   327
House of Representatives Report No. 103-390 on International 
  Parental Kidnaping Crime Act of 1993...........................   335
Chart of statistics compiled by U.S. Attorney and Federal Bureau 
  of Investigation for cases under the 1993 International 
  Parental Kidnaping Crime Act...................................   342
News article by Timothy A. Maier, dated Nov. 29, 1999............   343

 
 THE JUSTICE DEPARTMENT'S RESPONSE TO INTERNATIONAL PARENTAL KIDNAPING

                              ----------                              


                      WEDNESDAY, OCTOBER 27, 1999

                               U.S. Senate,
        Subcommittee on Criminal Justice Oversight,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:45 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Strom 
Thurmond (chairman of the subcommittee) presiding.
    Also present: Senators DeWine, and Leahy.

 OPENING STATEMENT OF HON. STROM THURMOND, A U.S. SENATOR FROM 
                  THE STATE OF SOUTH CAROLINA

    Senator Thurmond. The subcommittee will come to order. I am 
pleased to hold this hearing today regarding the Justice 
Department's response to international parental kidnaping.
    Parental abduction is widely recognized in America as a 
serious criminal act that is very harmful to a child's well-
being. It is a growing problem for America, as more and more 
children are taken to live in a foreign country in blatant 
violation of the legal rights of custodial parents in the 
United States.
    In these situations, children are often forcefully removed 
from familiar surroundings and taken to another country and 
another culture. It can be extremely traumatic and difficult 
for children to adapt, especially while being deprived of their 
custodial parents. Meanwhile, the left-behind parents undertake 
long, expensive court battles in a foreign country to try to 
get their children back. Most never succeed.
    It is a complex undertaking to work with independent 
sovereign nations and their judicial systems. Clearly, the 
preferred approach is for the parent to undertake an action 
pursuant to the Hague Convention. This treaty helps eliminate 
national bias by requiring that children be immediately 
returned to the country of habitual residence, where all 
custody determinations are to be made. Unfortunately, many 
countries are not signatories to this treaty. Also, many 
countries that are, including some European countries, do not 
fulfill their obligations under it.
    Children are returned to the United States in only about 30 
percent of these cases. I want to repeat that. Children are 
returned to the United States in only about 30 percent of these 
cases. Clearly, the Hague Convention is insufficient to address 
the problem and the State Department must work diligently to 
improve the treaty and increase the number of countries that 
abide by it.
    The purpose of this hearing is to assess the role of the 
Department of Justice in addressing parental abduction. In 
1993, the Congress passed the International Parental Kidnaping 
Act, which makes it a Federal crime to remove a child from the 
United States in an attempt to obstruct parental rights.
    The law is rarely used. The administration discouraged the 
Congress from passing this statute, which is evident from the 
Department's reluctance to enforce it. Although thousands of 
children have been abducted from the United States in recent 
years, charges have been brought against only about a dozen 
people per year since the law went into effect.
    Although the top priority is the return of the child, we 
should not underestimate the significance of bringing the 
abductors to justice. As with other criminal offense, enforcing 
IPKA could deter future parents from breaking the law. 
Moreover, once an abductor is convicted in America, the court 
may order the offender to return the child as a condition of 
release.
    The Justice Department should develop a consistent policy 
of enforcing the law when the case can be proven and it will 
not interfere in Hague remedies. Also, the Justice Department 
must work closely with the State Department to extradite those 
charged. Currently, many countries recognize the almost 
certainty that they face no real world consequences or even 
adverse publicity from their failure to cooperate.
    Moreover, the criminal process is the only effective means 
to stop an abduction in progress and may be critical to 
discovering the whereabouts of the child. Through the criminal 
process, the FBI, which has extensive resources and offices in 
many countries, can assist. Also, passports can be revoked, the 
abductor can be entered into the NCIC database, provisional 
arrest can be sought, and color notices can be issued through 
INTERPOL. There are many reasons to use the criminal process in 
many cases.
    We cannot know if the statute will succeed in bringing the 
children home until we adopt a policy of aggressive 
enforcement. Abductors must not be permitted to blatantly 
violate American courts with impunity. They cannot be permitted 
to achieve through illegal means what they could not achieve 
legally through the child custody process.
    I welcome our witnesses here today. I would also like to 
thank Senator DeWine for his personal commitment to this issue. 
I now call upon him.

STATEMENT OF HON. MIKE DeWINE, A U.S. SENATOR FROM THE STATE OF 
                              OHIO

    Senator DeWine. Mr. Chairman, thank you very much. I want 
to thank you for holding this hearing on this very, very 
important issue.
    As you pointed out, this is an issue that is devastating 
for the families that are affected. It is devastating, though, 
not only for the left behind parent. It is also devastating to 
the child who has been denied illegally the love of one of his 
or her parents. Sadly, with an increasing number of cross-
national marriages and divorces, international parental 
kidnapings are likely to occur with more and more frequency in 
the future.
    When the international kidnaping of a child occurs, the 
parent left behind often has no idea where to turn or to whom 
to turn to for assistance. And when the parent does find where 
to turn, he or she often receives conflicting information from 
different governmental sources. Worse still, past experiences 
have shown that once a child is kidnaped and taken across 
international borders, the likelihood, as the Chairman has 
pointed out, the likelihood of having that child returned to 
the other parent diminishes over time. It is crucial that the 
left-behind parent receives accurate, immediate, timely 
information and assistance.
    I learned about the difficulties that left-behind parents 
face when two left-behind parents from Ohio, one of whom is 
here with us today, came to my office for assistance. These 
parents have faced many obstacles in their fights to get their 
children back. Many of their troubles have been the result of 
foreign laws and cultural differences, but sadly, sadly, the 
conduct of U.S. Government agencies many times has been of no 
help in overcoming the legal and bureaucratic obstacles these 
left-behind parents have encountered.
    Can our government do a better job on behalf of these 
parents? I believe that we can. I am most interested today to 
hear from the State Department and the Department of Justice 
and to hear them discuss how their efforts can be of more 
assistance to parents seeking the safe return of their children 
from abroad.
    I am not alone in the belief that this government can and 
should and must do more for these parents. Earlier this year, 
Mr. Chairman, the Subcommittee on International Child Abduction 
of the Federal Agency Task Force on Missing and Exploited 
Children and the Policy Group on International Child Abduction 
issued a report to the Attorney General on international 
parental kidnapings. This report identified gaps, gaps in the 
Federal response to these cases, and they made some 
recommendations on how to fill these gaps. The report 
acknowledged that the Federal Government could do more for 
these families, and must do more.
    I am interested, Mr. Chairman, in knowing how quickly the 
report's recommendations will be implemented. I also find it 
interesting that the international parental kidnaping statute 
and law enforcement response is not mentioned as one of these 
gaps, and I intend to ask some questions about this, as well.
    But I especially want to hear from the parents, parents who 
will be testifying today, as to what they perceive are the gaps 
in our Federal response. It is their suggestions that I hope 
will lead to improved government response.
    Let me thank you again, Mr. Chairman, for convening this 
very important hearing today. I am anxious to get to the bottom 
of some of these issues and to learn more from the families who 
have faced the tragic loss of a child from an international 
kidnaping. Again, I thank you, Mr. Chairman.
    Senator Thurmond. Our first witness today is James 
Robinson, Assistant Attorney General for the Criminal Division 
at the Department of Justice. Following graduation from Wayne 
State University Law School, Mr. Robinson clerked on the 
Michigan Supreme Court and the Sixth Circuit. He served as U.S. 
Attorney for the Eastern District of Michigan during the Carter 
administration. Before assuming the current position, Mr. 
Robinson was dean and professor of law at Wayne State 
University Law School. Mr. Robinson is accompanied by Mr. 
Richard Rossman, his Chief of Staff to the Criminal Division.
    Our second witness is Ms. Jamison Borek, Deputy Legal 
Advisor at the Department of State, where she has worked in the 
office of the Legal Adviser since 1979. Ms. Borek holds a law 
degree from the University of California at Berkeley and a 
bachelor's degree from the University of California at San 
Diego.
    I ask that the witnesses please limit your opening 
statements to 5 minutes. Your written testimony will be placed 
in the record, without objection, in full.
    I want to start with Mr. Robinson. Mr. Robinson, we would 
be glad to hear from you.

   PANEL CONSISTING OF JAMES K. ROBINSON, ASSISTANT ATTORNEY 
    GENERAL, CRIMINAL DIVISION, U.S. DEPARTMENT OF JUSTICE, 
  WASHINGTON, DC, ACCOMPANIED BY RICHARD A. ROSSMAN, CHIEF OF 
     STAFF, CRIMINAL DIVISION, U.S. DEPARTMENT OF JUSTICE, 
  WASHINGTON, DC; AND JAMISON S. BOREK, DEPUTY LEGAL ADVISER, 
              DEPARTMENT OF STATE, WASHINGTON, DC

                 STATEMENT OF JAMES K. ROBINSON

    Mr. Robinson. Thank you, Mr. Chairman and Senator DeWine. I 
am pleased to appear before the committee today to address the 
important subject of international parental child abduction, 
and I appreciate your receiving my prepared statement, which 
covers the spectrum of Department of Justice activities and 
programs which are underway to address this difficult subject. 
I will concentrate my brief introductory remarks on the 
Department's criminal enforcement effort.
    I also appreciate the chair acknowledging the presence with 
me of Richard Rossman. Mr. Rossman joined me a little over a 
year ago in the Criminal Division. He and I go way back. He was 
my chief assistant when I was the U.S. Attorney in Detroit, and 
then succeeded me as the U.S. Attorney for the Eastern District 
of Michigan.
    Because of the great importance of this topic to me and to 
the Attorney General, and one which I must say I had 
conversations with Senator DeWine about during my confirmation 
hearings in which he made it clear his very, very intense 
interest in this topic, I asked Mr. Rossman to lead the 
Criminal Division's efforts in this area on all policy and 
interagency initiatives on international parental abduction, 
and I think that reflects the importance that I place on this 
topic. In fact, just a few weeks ago, Mr. Rossman testified 
before the House International Relations Committee on these 
subjects.
    At the end of my brief remarks today and after Ms. Borek's 
remarks and during the questions, Mr. Rossman and I will be 
pleased to answer the questions and I would defer to the 
superior understanding of some of the details of this to Mr. 
Rossman.
    As the chairman noted, in 1993, Congress passed the 
International Parental Kidnaping Act. This statute has proven 
to be a very useful supplement to the laws in all 50 States, 
criminalizing parental child abduction. IPKA can be 
particularly helpful because it reaches wrongful abduction or 
retention, even in the absence of preexisting custody orders, 
an option not always available under State parental kidnaping 
laws.
    However, it is also crucial to understand that this Federal 
criminal statute is not a substitute for civil remedies in 
obtaining the return of internationally abducted children. 
Prosecutions under this statute, as with any Federal criminal 
statute, are brought by Federal prosecutors on their own 
merits, evaluating the facts of the case in relationship to the 
legal requirements of the law. Once Federal prosecutors 
determine that IPKA charges may be appropriate under the facts 
of a particular case, and only then is it appropriate to 
consider the impact of such charges on the very worthy but 
quite different goal of obtaining the return of the child.
    We agree with Congress, as was stated in its sense of the 
Congress which accompanied the passage of IPKA, that when 
available, the Hague Convention should remain the option of 
first choice for a parent who actually seeks the return of his 
or her child. Even when the involved foreign country is not a 
party to the Hague Convention, it is not necessarily the case 
that IPKA criminal charges will facilitate rather than 
frustrate child recovery efforts, as the chairman indicated in 
his opening remarks.
    For example, there is at least some anecdotal evidence that 
some foreign judges are reluctant to order the return of a 
child to the United States when one of the parents faces 
criminal prosecution and potential incarceration. Moreover, 
there are real cases in which IPKA prosecutions, even when 
successful, have not resulted in the return of the abducted 
child.
    For example, in 1995, in the Eastern District of New York, 
a father who abducted his children and moved with them to Egypt 
was arrested, tried, and convicted after he reentered the 
United States. That is the Ahmed Amir case. He was sentenced to 
24 months' incarceration followed by 1 year of supervised 
release with the special condition that he return the children 
to New York. He served his term, he was released, he violated 
his probation by not returning his children, and then he served 
additional time and he now is once again a free man and the 
children remain abroad.
    Despite these limitations, IPKA can, in appropriate cases, 
provide an effective vehicle for charging and punishing 
abducting parents. While the number of indictments brought 
pursuant to this still relatively new statute, 62, as we 
continue to train agents and prosecutors on its existence and 
availability, we expect the numbers will grow. It will remain 
the case, however, that IPKA supplements and was not intended 
to preempt the State statutes which criminalize parental 
abduction.
    Moreover, the resources of the Department of Justice, 
whether the investigatory resources of the FBI or the Criminal 
Division's resources in securing the arrest and extradition of 
offenders, are equally available in State cases. Thus, we will 
continue to seek international extradition when possible and 
appropriate for violations of State parental kidnaping laws and 
the Federal IPKA statute.
    However, once again, it is important to keep in mind that 
extradition of the abducting parent will often not result in 
the return of the abducted child. We do make efforts to 
coordinate the extradition process with the Hague Convention or 
other civil recovery efforts in the foreign country, but, of 
course, there are no clear guarantees.
    The initial decision to seek criminal charges, whether to 
seek extradition, is a decision made on the merits of the facts 
of each case, taking into account all of the relevant 
considerations and the applicable laws and treaties. In each 
case, we will need to determine whether parental kidnaping is 
an extraditable offense under the applicable treaty and whether 
the other requirements for extradition can be met.
    Thus, we are reluctant to seek extradition from countries 
in which we have no reasonable basis to believe the fugitive is 
located or from countries with which we know that our treaty 
does not cover the offense. Such requests would often be futile 
and, indeed, maybe perceived as bordering on a bad faith 
request.
    Also, it is sometimes the case that the abducting parent is 
located in his or her country of citizenship and we know that 
the country will not extradite its own nationals. Such 
obstacles, however, do not mean we close our case. If the 
parent moves to another jurisdiction, then extradition may 
become possible and should be sought.
    Thanks to recent action by Congress, extradition for 
parental kidnaping may now be possible from several countries 
from which we could not request such extraditions just a short 
time ago. Last year, Congress passed the Extradition Treaties 
Interpretation Act of 1998, and pursuant to it, we may now 
interpret the crime of kidnaping in our old list treaties to 
include parental kidnaping. So far, officials in 11 foreign 
countries have responded to a State Department survey 
indicating that they agree with the United States that parental 
kidnaping is covered by an existing list treaty. Thus, 
extradition may now be possible on such charges from places 
like Luxembourg and New Zealand and possibly soon from other 
countries which have not yet responded to the State 
Department's survey.
    In short, while the Justice Department enforcement efforts 
targeting abducting parents cannot and should not take the 
place of civil efforts to obtain the return of abducted 
children, we will continue to make such efforts, including 
charging IPKA criminal violations and seeking extraditions on 
IPKA or State parental kidnaping charges whenever it is 
appropriate.
    Continuous improvement is the order of the day with regard 
to this and many other Federal criminal law enforcement 
efforts, and Senator DeWine's interest and the chairman's 
interest in this activity, these oversight hearings certainly 
keep us constantly reminded of the importance of the 
enforcement of the statute and our other efforts.
    I thank you for the opportunity to appear before the 
committee on this very important topic and would be happy at 
the appropriate time to try to respond to the committee's 
questions and suggestions.
    Senator Thurmond. Thank you.
    [The prepared statement of Mr. Robinson follows:]

                Prepared Statement of James K. Robinson

                            i. introduction
    Mr. Chairman and Members of the Subcommittee: I am very pleased to 
appear before the subcommittee today to address the topic of 
international parental child abduction. This is a subject of particular 
importance and interest to the Attorney General. It is also a difficult 
subject. Difficult both because of its heartbreaking impact upon 
cherished personal relationships, and because of the legal and policy 
challenges created by the need to work with separate sovereign 
countries and their laws. I commend the committee for bringing 
additional public attention to this issue, and thank you for providing 
me with an opportunity to discuss the role the department of justice 
plays in addressing it.
                 ii. interagency and policy initiatives
    One year ago, the Attorney General demonstrated the department's 
commitment to addressing the international parental abduction problem 
by appearing personally at the Senate Foreign Relations Committee's 
hearing on this subject. One of the lessons drawn from that hearing was 
the need for increased coordination between the various agencies which 
play a role in this area, and the development of policies to fill 
``gaps'' in existing procedures. I am pleased to report that 
significant strides have been made during the past year to accomplish 
these goals.
    Specifically, the Attorney General and the Secretary of State 
appointed a senior policy group--on which I asked my chief of staff, 
Mr. Richard Rossman, to serve--to work with the subcommittee on 
international child abduction of the federal agency task force on 
missing and exploited children. As the result of the efforts of the 
subcommittee and policy group, earlier this year a detailed report on 
international parental kidnaping was presented to the attorney general. 
A copy of that report was also provided to the Senate Foreign Relations 
Committee, and is available to this committee. That report identifies a 
series of problems or ``gaps'' which often exist in international 
parental kidnaping cases, and contains a series of recommendations on 
how federal responses to those gaps can be improved.
    We are now working on an interagency basis to implement as many of 
the report's recommendations as possible. The policy group has 
developed an ``action plan'' setting out the tasks to be addressed, and 
the federal offices to address them, and has created an interagency 
working group chaired by the Department of State, Office of Children's 
Issues, to coordinate implementation of this plan. By way of example, 
efforts are underway to create a comprehensive case tracking system for 
international parental child abduction cases; develop an enhanced role 
for the National Center for Missing and Exploited Children; improve the 
overseas implementation of the Hague Convention on the civil aspects of 
international child abduction; further strengthen interagency 
coordination here in the U.S.; increase education and training on legal 
options available in abduction cases and how to pursue them; foster 
more widespread and effective use of the National Crime Information 
Center (NCIC) and Interpol to stop abductions in progress and to locate 
abducted children and abductors; and expand the services available to 
left behind parents. While this remains a ``work in progress'', we are 
pleased that this critical issue is now receiving the high level 
interagency attention and planning it deserves.
                    iii. doj's programmatic efforts
    Within the Department of Justice, the Office of Juvenile Justice 
and Delinquency Prevention (OJJDP) serves an important programmatic 
role in addressing international parental kidnaping--and as a member of 
the interagency working group is actively involved in implementation of 
the interagency action plan. OJJDP has long provided training programs 
for state and local law enforcement on child protection issues, and 
remains the primary departmental office involved in missing and 
exploited children's initiatives.
    Under the auspices of that office's Missing and Exploited 
Children's Program (MECP), new training on the roles of law 
enforcement, state and local prosecutors, private attorneys, and the 
judiciary will be developed in coordination with the working group, as 
will a program to promote the use of a coordinated, multi-disciplinary 
and community based approach for preventing, investigating, and 
prosecuting these cases. Input for these training courses will be 
obtained from the interagency working group; state, local, and federal 
law enforcement and judicial agencies; the National Center for Missing 
and Exploited Children (NCMEC or ``The National Center''); and parents.
    OJJDP's missing and exploited children's program is also supporting 
efforts within the working group to increase the services available for 
victim families in international abduction cases (e.g., counseling, 
identifying legal services resources, mentoring, family mediation, 
translation services), and to help them identify and access more 
quickly and effectively the services that are already available. That 
office, in collaboration with others, is working to address the 
frustration caused by the lack of knowledge which still persists among 
left-behind parents, their advocates, law enforcement, and state and 
local authorities about remedies and resources in international 
abduction cases. To do so, MECP is developing resource guides which 
will assist parents and law enforcement agencies in the investigation 
process, and hopefully in the recovery of, and reunification with, 
abducted children.
    OJJDP also provides funding for the National Center for Missing and 
Exploited Children. For the past few years, through a cooperative 
agreement with the Department of State, the National Center has played 
an important role in handling incoming Hague Convention applications 
from parents outside the United States seeking children who have been 
taken to this country. We are very pleased that the National Center's 
role is being expanded to include activities related to cases in which 
children have been taken from the United States to other countries. 
Among the technical assistance and services which may be available to 
parents and law enforcement in such cases are poster creation and 
dissemination, age progression and reconstruction technology, 
translation of legal documents, law enforcement liaison, international 
contacts, and parental support. In addition, through an interagency 
agreement, OJJDP may upon request transfer monies available from the 
department's federal crime victim assistance fund to the National 
Center to provide needed services through its Victim Reunification 
Travel program (VRT) to victims of parental kidnaping. Thus, in some 
instances the national center may be in a position to provide emergency 
transportation for American parents, crisis intervention services, 
assistance in participating in criminal justice proceedings, and 
payment for forensic medical examinations of the victim.
                     iv. doj's enforcement efforts
    International parental child abduction cases may be addressed 
through the Hague Convention or other civil means to recover the child, 
and when appropriate through criminal statutes combined with 
extradition procedures to prosecute and punish the abducting parent. 
The Department of Justice does not play a direct role in the civil 
mechanisms for the recovery of children internationally, but we do and 
will continue to support and work with the Department of State in its 
efforts to see that wrongfully abducted or retained children are 
returned to their left-behind parents.
    The Department of Justice's role is more significant in the 
investigation and prosecution of parents who violate applicable 
criminal laws. The laws of the fifty states and the District of 
Colombia all provide criminal penalties for parents who wrongfully 
abduct their children. The FBI for many years has, when appropriate, 
obtained federal warrants for Unlawful Flight (UFAP's) for those 
abducting parents charged with state or local offenses who cross state 
or international borders. Such UFAP warrants, while themselves not 
providing an independent basis for extradition, may assist in the 
devotion of federal resources to locating abducting parents who have 
fled overseas. Moreover, for the past six years, international parental 
kidnaping has been a federal crime (International Parental Kidnapping 
Crime Act, 18 USC 1204). Specially trained FBI agents around the 
country designated as ``crimes against children coordinators'' serve as 
points of contact on exploitation, abduction, and other crimes against 
children. They or other agents in their field offices work with 
assistant U.S. attorneys to investigate and prosecute violators of the 
IPKCA statute.
    The department's Child Exploitation and Obscenity Section (CEOS) in 
the criminal division maintains oversight responsibility for IPKCA, and 
provides advice and assistance to agents and prosecutors throughout the 
country who call with questions concerning investigations or 
prosecutions under that statute. Along with the division's office of 
international affairs, CEOS works closely with U.S. attorneys offices 
and the state department's office of children's issues to ensure that 
prosecutorial decisions are closely coordinated with child recovery 
efforts.
    Records obtained from the department's Executive Office for United 
States Attorneys (EOUSA) indicate that since the passage of the IPKCA 
statute through the end of the second quarter of fiscal year 1999, 
United States attorneys opened files on 229 international parental 
kidnaping matters. As of April 30, 1999, 77 investigations were 
pending. Of the 62 defendants actually indicted, 23 cases have been 
concluded resulting in 13 convictions.
    While the numbers of IPKCA prosecutions and convictions are 
relatively small, it is important to keep in mind that a large but 
undetermined number of international parental kidnaping cases are 
charged by state and local authorities under their own laws. We have 
also been informed that the number of IPKCA prosecutions which have 
resulted in the return of the abducted child is very small. Here it is 
important to remember that while we of course hope that such 
prosecutions have the residual effect of facilitating the return of the 
victim child, the IPKCA statute was not designed, nor can it be 
expected to fulfill, that goal.
    Both the National Crime Information Center (NCIC), and Interpol, 
provide considerable assistance in locating and identifying criminally 
charged abducting parents and their victim children.
    In response to the previously mentioned report to the attorney 
general, the FBI is examining the possibility of seeking a change in 
one of the ways the NCIC maintains records. Specifically, the change 
would permit the name of an abducted child located abroad to remain in 
NCIC until issues related to where the child will ultimately reside are 
resolved.
    Interpol's National Central Bureau (USNCB) here in Washington, 
D.C., which is staffed by senior agents from U.S. law enforcement 
agencies, facilitates the issuance of international lookouts (e.g., 
``red notices'' seeking fugitives including abducting parents, and 
``yellow notices'' seeking missing or lost persons including victims of 
parental abductions). Interpol was recently instrumental in a case in 
which an abducting parent, who had a history of violent criminal 
offenses and drug abuse, brought his four year old child to the United 
States. At the request of Interpol Canada, the USNCB coordinated 
investigative actions in eight states and the District of Columbia. 
Thanks to those efforts, the father was arrested by the D.C. 
Metropolitan Police and the United States Marshals Service, and the 
child was taken into protective custody.
    Once an abducting parent is charged by state or federal authorities 
and located abroad, extradition my be considered. However, it is 
crucial to understand that even when successful, an extradition by no 
means ensures the return of an abducted child. There have been sad 
cases in which a fugitive parent is returned for prosecution, but the 
victim child is hidden in the foreign country with friends or 
relatives, or the foreign courts fail to grant custody to the left-
behind U.S. parent. It is even possible that an extradition request may 
complicate the return of the child under the Hague Convention (e.g., 
should the foreign authorities be reluctant to return a child to the 
U.S. when one parent faces the prospect of prosecution and 
incarceration). In short, the decision to seek criminal charges against 
and pursue the extradition of an abducting parent must be made on its 
own merits for law enforcement reasons, and not viewed as a quick, or 
even an effective, means of securing the return of the child.
    Extradition may be available to a state or federal prosecutor for 
international parental abduction if (1) an extradition treaty is in 
force between the United States and the country where the fugitive is 
located; (2) the treaty recognizes parental kidnaping as an 
extraditable offense; and (3) no other treaty provision would bar the 
fugitive's return to the United States for prosecution for the offense. 
When a prosecutor is interested in requesting extradition, he or she 
contacts the criminal division's Office of International Affairs (OIA) 
for advice and assistance. OIA works through the Department of State to 
make such requests.
    There are presently over 100 bilateral U.S. extradition treaties in 
force. Under the most modern of those, extradition is usually based 
upon ``dual criminality''. That means if an offense is punishable in 
both countries by and agreed upon term of imprisonment (often at least 
one year), the offense is extraditable under the treaty.
    Under our older treaties, extradition is provided only for crimes 
listed in the treaties themselves. And while most of these treaties 
list ``kidnaping'' or ``child stealing'' as extraditable offenses, for 
many years the State Department was concerned that those terms were not 
intended by the treaty negotiators or the Senate when it authorized 
ratification to cover parental kidnaping or abduction. Thanks to action 
by Congress in passing the Extradition Treaties Interpretation Act of 
1998, we may now interpret ``kidnaping'' to include parental kidnaping. 
The State Department informs us that twelve of our treaty partners have 
already agreed with the United States that parental kidnaping is 
covered by our existing ``list'' extradition treaties. This has opened 
the door to possible extradition requests on such charges to those 
countries, (e.g., Cyprus, Luxembourg, New Zealand), and possibly soon 
to other countries which have not yet responded to the State Department 
survey.
    Unfortunately, even when a treaty exists and the parental abduction 
crime is extraditable pursuant to it, there may exist other obstacles 
to obtaining extradition. For example, many countries refuse, often 
because of a constitutional or other important public policy 
prohibition, to extradite their own nationals. Our treaties with such 
countries often do not require the surrender of nationals. Because 
abducting parents are often nationals of the countries to which they 
flee with an abducted child, they are able to avoid extradition to the 
United States. And although most of the countries which refuse to 
extradite their citizens can in theory assert criminal jurisdiction 
over them for crimes committed anywhere in the world, as a practical 
matter this is rarely done.
    This is not to suggest that we would not or should not ever request 
extradition knowing that the request well be denied on the basis of 
nationality--such decisions are carefully made taking into 
consideration all of the particular circumstances--but only that the 
existence of a treaty which seems to cover the crime is not always 
sufficient to ensure that the offender is brought to justice. I can 
assure this committee that expanding the number of U.S. extradition 
treaties which mandate the extradition of nationals is among the 
department's highest international law enforcement priorities.
                             v. conclusion
    In a shrinking world with increasing numbers of bi-national 
marriages, the problem of international parental child abduction will 
not disappear anytime soon. However, we at the Department of Justice 
will continue to do whatever we can to address this problem, through 
enhanced interagency coordination, continued programmatic initiatives, 
and vigorous enforcement efforts.
    Again, thank you for the opportunity to appear before this 
subcommittee on this most important topic.

    Senator Thurmond. Ms. Borek.

                 STATEMENT OF JAMISON S. BOREK

    Ms. Borek. Thank you, Mr. Chairman. As you have suggested, 
I will make briefer remarks and ask that my statement be 
accepted in full for the record.
    Senator Thurmond. Your entire statement, of course, will be 
put in the record.
    Ms. Borek. Mr. Chairman and Senator DeWine, thank you for 
holding this hearing today to discuss the important subject of 
international parental child abduction. I will first give 
briefly an overview of the different ways the Department of 
State is involved with this problem.
    First, of course, it grows out of our concern for the 
welfare of American citizens, both who are overseas or who 
become involved in transnational problems. There is no greater 
responsibility than the welfare of our children. The protection 
of Americans abroad, including those children victimized by 
international parental child abduction, is of the highest 
priority to the Department of State.
    As the corollary to our interest in this area, we are also 
responsible for coordinating U.S. efforts in international 
organizations to develop mechanisms and laws to protect private 
citizens in these areas, such as the Hague Conference on 
private international law. It was in 1980 that the Hague 
Conference developed the convention on the civil aspects of 
international child abduction and the United States became a 
party in 1988.
    This convention aims at providing a civil legal remedy for 
prompt return of a child who is either abducted or who may be 
retained in violation of custody rights. The latter case could 
be in a case where there is a court order, or it could be where 
there is no court order but there is simple joint custody prior 
to divorce. So the Hague Convention covers a broad range of 
cases, including not only the classic abduction, but also a 
situation where a mother in a bad marriage simply takes a small 
child and returns home, if the home happens to be a foreign 
country.
    The underlying premise of the convention is that it is bad 
for children. It is not in the best interest of the child to be 
abducted. It seeks to deter abduction and to remedy it as a 
means of forum-shopping. It is understood that every country 
has a mechanism for determining the custody of this child and 
it is based, at least in principle in most countries, on the 
best interest of the child. But under the Hague Convention, the 
decision is made that the custody determination should be in 
the place of habitual residence of a child, and where a child 
is abducted to get a different forum, the child should be sent 
home.
    To implement this convention, the Bureau of Consular 
Affairs started with a small staff an effort and has constantly 
increased it over time. In 1994, they created an Office of 
Children's Issues as a formal office to be concerned not only 
with implementation of the Hague Convention, but other 
situations where children are taken by parents abroad, and 
protection of children in all countries, not only Hague 
countries.
    In addition to the efforts under the Hague Convention, the 
Department of State is also concerned with the question of 
passports and travel, and recently, they have moved the 
function concerned with passport issuance for children into the 
Office of Children's Issues so that it can be better 
coordinated in the case of preventing and deterring 
international child abduction.
    Finally, we also play a role with respect to the criminal 
aspects of international child abduction by virtue of our role 
in connection with extradition. Of course, we coordinate very 
closely with the Department of Justice, who is responsible for 
most operational aspects.
    I might say that the Hague Convention, overall, has been a 
clear success story as compared to the prior situation. In the 
first 10 years that we have been a party, proceedings have 
resulted in the return of over 20,000 children to the United 
States. We believe, although we have no way to know, that the 
existence of the treaty's return mechanism has deterred a 
number of abductions.
    The statistics, unfortunately, within the State Department 
have not been kept especially well or consistently over the 
years. We are trying to improve these efforts. In recent years, 
we believe that the percentage of returns under the Hague 
Convention is closer to 60 percent, so that there is--and, of 
course, it depends on the country--there is a considerable body 
of success under this convention.
    However, it is clearly not a perfect remedy. There are a 
number of grounds even within the convention for non-return of 
the child, for example, if there is a danger of serious harm to 
the child or if the child is old enough to have views and 
objects to the return. In addition, a number of countries have 
created what we believe to be loopholes, taking advantage of 
grounds in the convention but applying it in ways that we 
dispute.
    In addition, there are some additional problems that have 
grown out of either the nature of the legal systems in some 
countries or in some countries their commitment to implementing 
the convention.
    Another problem is that there is ultimately the idea of a 
custody determination under the Hague Convention in the country 
which the child was abducted, and in some cases, the courts 
have gone to lengths to make sure that if the child is 
returned, both parents will be able to participate in that 
custody determination.
    In this context, it can be a serious problem--it has been 
in some cases--if one of the parents is subject to arrest and 
prosecution on return to the United States. Some courts have 
said that is a reason to be concerned about returning the child 
because they would not be able to participate adequately in the 
custody determination in the country from which the child was 
taken.
    There are other problems. I see that I am on the yellow 
light, so I will not go into all of them. I do want to note 
that we have been concerned about improving our efforts for a 
considerable period, and starting in late 1997, both the 
Departments of State and Justice embarked on a serious working-
level review of all of the problems and gaps. This was the 
major input to the report.
    In late 1988, the Attorney General and Secretary of State 
determined to jointly create a senior policy group that would 
work together with the working-level group and take an overall 
comprehensive look at the problems and recommendations which 
resulted in the report, which we have mentioned and which you 
have mentioned, Senator DeWine. It makes a number of 
recommendations for improvement, and as many as possible of 
them that can be implemented within existing resources, we are 
pursuing. But this is in very large part a question of 
resources and some of them are very expensive items, such as an 
entire new computer system, and, of course, there is the 
question of staff.
    I might note that the Office of Children's Issues has had a 
staffing ratio of one person for 120 cases. Recently, we have 
added enough people to bring it down to 80 cases per person, 
but this is still a tremendous burden and, of course, sharply 
curtails the intensity and the level of attention that we can 
give to any one case.
    We seek to systematize and become more aggressive in our 
approach to the problem of implementation. As I said, all of 
these things will go on, but they will go on, to a certain 
extent, in direct relationship to the resources that we are 
able to note to them. In that connection, I have to note that 
the funding for the State Department as a whole has become an 
issue and that full funding--it is not a question simply of 
funding this particular small part of the State Department 
because the overall situation is one of constraint.
    I am told that I may have said that we have returned since 
1988 20,000 children, or had them returned to us. I meant to 
say that there were 2,000 children returned to us.
    I think that is it for my initial remarks, and, therefore, 
I would be happy to close and say that I will take any 
questions, and thank you again for this opportunity to testify.
    Senator Thurmond. Thank you very much.
    [The prepared statement of Ms. Borek follows:]

                 Prepared Statement of Jamison S. Borek

    Mr. Chairman and Members of the Subcommittee: I am pleased to 
appear before the Subcommittee today to address the important topic of 
international parental child abduction.
                    role of the department of state
    As you know, Mr. Chairman, this is a topic that has a number of 
both criminal and civil aspects. Although the focus of the hearing 
today is on the Department of Justice's response, the Department of 
State is also seriously involved in this problem, in a number of ways. 
By way of background, therefore, I would like to give you an overview 
of the Department of State's involvement in this problem.
    First, and most significantly, our concern about international 
child abduction is an extension of our responsibility and concern for 
the welfare of American citizens who are overseas or involved in 
transnational problems.
    There is no greater responsibility than the welfare of our 
children. The protection of Americans abroad, including those children 
victimized by international parental child abduction, is of the highest 
priority to the Department of State. Matters involving the welfare and 
custody of children are some of the most difficult and emotional cases 
with which we must deal. When a parent abducts, or wrongfully retains, 
a child from his or her home, and prevents the child from having a 
relationship with the other parent, the trauma to the child is 
immediate and compounded each day the child is not returned home.
    As a corollary to our concern for the welfare of Americans in 
foreign or transnational situations, the Department of State is also 
responsible for leading and coordinating United States participation in 
relevant international organizations, such as the Hague Conference on 
Private International Law. This is the organization that developed the 
1980 Hague Convention on the Civil Aspects of International Child 
Abduction, to which the U.S. became party in 1988. The Convention 
provides a civil ``legal mechanism in the country where the child is 
located for parents to seek the return of, and access to, their child. 
It applies only to cases where children resident in a Hague Convention 
country have been abducted to, or wrongfully retained in, another 
country party to the Convention.
    To implement this Convention, and to focus on other relevant 
efforts of the Department of State on behalf of children, the Bureau of 
Consular Affairs created an Office of Children's Issues in 1994. This 
Office not only acts as the Central Authority for the Convention in the 
United States, but also tries to assist left behind parents of children 
abducted to other countries, that do not belong to the Hague 
Convention. This Office would also be the Central Authority for the 
Hague Convention on Protection of Children and Cooperation In Respect 
of Intercountry Adoption, if the Senate gives its advice and consent to 
ratification.
    The responsibilities of the Department of State that are relevant 
to international child abduction also include those involving passports 
and travel from the United States. Parents may ask that they be 
notified if the other parent applies for a United States passport for 
their child, or, if they have a supporting court order, th6y may 
prevent issuance of a passport to a child without their consent.
    Finally, the Department of State also plays a role with respect to 
the criminal aspects of international child abduction by virtue of its 
role with respect to international extradition matters. In this area, 
we coordinate very closely with the Department of Justice, of course, 
since the Department of Justice has the lead role in most operational 
respects.
               overview of international child abduction
    The problem of international child abduction can be both tragic and 
complex. Even within the United States, custody battles over children 
can be devastating for all concerned. Translated to the international 
plane, every problem can multiply, and the parent victim can be faced 
with significant additional complication, difficulty, and expense.
    The best means of protecting children from the harmful effects of 
international parental child abduction is prevention: through the 
deterrent effect of legal mechanisms, and through education and 
understanding of the steps that can be taken to make abduction more 
difficult in the first instance, so that fewer successful abductions 
occur. Second, we must give attention to any efforts that can be made 
to prevent abductors from actually leaving the United States.
    International child abductions are often complicated by the fact 
that many abducted children are from multi-cultural relationships. They 
are often citizens of both the United States and the country to which 
they were abducted. Ultimately the fate of these children is decided by 
the courts of the countries to which they have been abducted or in 
which they have been wrongfully retained. Often custody orders entered 
into by U.S. State courts are not enforceable outside our country. Even 
when everyone involved is a U.S. citizen, these cases are often 
difficult to resolve once the child has been removed from the United 
States.
    Thus, once the abductor and child are outside the United States, 
the only avenue for return of a child, apart from a voluntary 
resolution, is likely to be legal proceedings under the Hague 
Convention. If the abductor is in a non-Hague Convention country, there 
may be only limited legal recourse, if any.
    A Hague Convention proceeding does not decide custody; instead, it 
decides in which country custody determination should be made. 
Basically, the Convention is aimed at using abduction as a means of 
forum-shopping, by providing that the courts in the country to which 
the child is abducted should, with very few and limited exceptions, 
return the child to the country of habitual residence without 
considering the merits of the custody dispute.
    Overall, the Convention is a success story. In the first ten years 
that the United States has been party to the Convention, proceedings 
have resulted in the return of over 2,000 children to the United 
States. Further, we believe the existence of the treaty's return 
mechanism has deterred an untold number of abductions. Approximately 60 
percent of the cases in which we provide assistance are now covered by 
the Convention. When the U.S. joined the Convention in 1988, only nine 
other countries were party. Today the Convention is in effect between 
the U.S. and 53 other countries. We have an active program to encourage 
countries to join the Convention as the best possible means of 
protecting children from the harmful effects of abduction. For example, 
in an August trip to Japan, which is not currently party to the 
Convention, Mary Ryan, the Assistant Secretary for the Bureau of 
Consular Affairs, discussed with a Justice Ministry official the 
benefits of the Convention for both our countries. As we look to 
improve the Convention's effectiveness, we must remember the many 
parents who wish that they had even this less than ideal mechanism to 
seek return of their children.
    While the Hague Convention has facilitated the return of many 
children to the United States, and while it is a vast improvement over 
the lack of any international mechanism whatsoever, it is not a perfect 
remedy. There are some bona fide grounds for non-return under the 
Convention, and in some cases parents or courts have created loopholes 
even where there should be a return. The world has changed since the 
Convention was conceived 19 years ago when the majority of taking 
parents were fathers. Now, 70 percent of taking parents are mothers, 
and courts in some countries are reluctant to compel children's return 
to the United States when the mothers face significant obstacles to 
return, including possible criminal sanctions. There may also be 
particular problems associated with ``wrongful retention'' of a child, 
when there is no actual physical abduction, particularly in certain 
joint custody situations.
    We have identified a number of the biggest obstacles to the 
effective implementation of the Hague Convention. These include:

  <bullet> Locating children: Many countries, including Mexico and 
        other Latin American countries, Sweden, Norway and Denmark, 
        have difficulties locating children believed to have been taken 
        to their country. The problem in Mexico appears to be primarily 
        a lack of resources and infrastructure, while the problem in 
        the Scandinavian countries may be more of a lack of interagency 
        cooperation and coordination within the country. Often social 
        welfare agencies do not share information with the Hague 
        Central Authority. Other countries have laws that prohibit 
        information sharing among government agencies.
  <bullet> Duration of cases: Although Article 11 of the Hague 
        Convention calls for expeditious processing of return cases, 
        and specifies that courts may be asked the reason for delay if 
        they have not decided a Hague case within six weeks, the courts 
        in some countries do not proceed in a timely fashion.
  <bullet> Non-enforcement of orders: Many civil law countries do not 
        have effective mechanisms for enforcement of their own civil 
        orders for the return of abducted children. The country may not 
        have any penalty for noncompliance with a court order, may levy 
        only a small fine, or have no authority responsible for 
        enforcing a civil order. In some instances, a left-behind 
        parent may have to hire a designated authority (such as a 
        bailiff) to enforce a civil order.
  <bullet> Consent of the child: The Convention allows judges to refuse 
        to order the return of a child if the child objects to being 
        returned ``* * * and has attained an age and degree of maturity 
        at which it is appropriate to take account of its views.'' 
        While in the United States we would expect that judges would 
        consider a child of perhaps ten or twelve years old to be 
        mature enough to think independently of the taking parent's 
        influence, we have seen the views of significantly younger 
        children taken into account in some countries. In Germany, for 
        instance, we have seen judges take into consideration the 
        wishes of children as young as five.
  <bullet> Undertakings: The courts in a number of Commonwealth 
        countries, including the United Kingdom and Australia, often 
        require the left-behind parent to agree to extensive 
        ``undertakings'' (conditions for return) before an order for 
        the return of an abducted child will be issued. These 
        undertakings expand rather than limit the exceptions for return 
        of abducted children under the Convention. Examples have 
        included requiring the left-behind parent to pay the abducting 
        parent's transportation costs back to the United States, 
        providing housing costs once the taking parent returns to the 
        U.S., and/or furnishing the abductor with an automobile for the 
        duration of custody hearings. In at least one instance, the 
        left-behind parent was required to demonstrate that he had pre-
        paid a substantial sum to the taking parent's attorney. These 
        undertakings are not provided for in the Convention, have the 
        effect of rewarding abduction and impose additional hardships 
        on the left-behind parent.

    Nevertheless, overall the Hague Convention is a significant 
improvement. Before we became party to the Convention, return to the 
U.S. of abducted children was approximately 20 percent. Under the 
Convention about 72 percent of cases result in return or access. The 
rate of returns from the U.S. to other countries is even higher, 
approximately 90 percent, including voluntary returns.
    This reality offers little comfort to the left-behind parents who 
have suffered the frustration and anguish of losing contact with a 
beloved child. Nor does it comfort the traumatized child who has been 
abruptly wrenched from the arms of one parent and asked in effect to 
choose sides. That is why we continue to work to improve the 
functioning of the Convention.
    u.s. federal response to international parental child abduction
    Since the U.S. became party to the Hague Convention in 1988, the 
Department of State has worked to improve its implementation. The first 
year we created a new child custody division to coordinate our work in 
this area. In 1994, we formed the Office of Children's Issues, 
redoubling our efforts on this important subject and increasing the 
level of attention it received in the State Department. The benefits of 
this new office were quickly realized. In 1994, the Office was 
recognized by the Administration when it won a Vice Presidential 
``Hammer Award'' for reinventing government due to its work to return 
children home. Our efforts have increased steadily since that time.
    The new Office of Children's Issues saw the need for a 
comprehensive interagency coordinated response to address the scourge 
of international parental child abduction--from prevention, to 
recovery, to reunification. In 1994, it co-hosted, with the American 
Bar Association, the North American Symposium on International Child 
Abduction, funded by the Department of Justice, and aimed at improving 
the operation of the Hague Abduction Convention.
    In an effort to coordinate assistance to abducted children and 
their families, the Office of Children's Issues entered into a 
cooperative agreement with the Department of Justice and the National 
Center for Missing and Exploited Children on September 1, 1995, to work 
together on these cases. While the National Center had always helped us 
locate missing children, the agreement formalized this arrangement and 
expanded the National Center's work to include Hague cases in which 
children were abducted to, or retained in, the United States.
    There were other issues needing attention. One was the matter of 
legal costs. Although the Hague Convention provides that countries will 
pay the legal fees of parents in Hague return cases, the Convention 
allows party countries to take a reservation in this regard and the 
U.S. took that reservation. As a result, some Americans pursuing return 
of their children under the Convention were receiving free or reduced 
fee legal assistance in other countries, while foreign parents pursuing 
return of their children abducted to, or wrongfully retained in, the 
U.S. did not receive equal benefits.
    At the 1994 intergovernmental meeting of Convention Central 
Authorities, the U.S. was roundly criticized by other party countries 
because the high cost of U.S. litigation was effectively denying 
parents from pursuing Hague remedies in the U.S. As a result of that 
criticism, the Department of Justice, in coordination with the Office 
of Children's Issues, agreed in 1995 to fund the American Bar 
Association's creation of the International Child Abduction Attorney 
Network (ICAAN) to expand the pool of attorneys who provide pro bono or 
reduced fee legal assistance in Hague cases involving children in the 
United States.
    In 1998, the Office of Children's Issues received another award 
from the Administration as a member of the team, which included the 
Department of Justice and the National Center for Missing and Exploited 
Children, that created the family reunification program to help needy 
parents pay for the costs of returning their children home. We have a 
robust interagency cooperative effort and are dedicated to using every 
tool at our disposal.
    Despite all the efforts of the Departments of State and Justice to 
coordinate and cooperate, both the agencies involved and, more 
importantly, the left-behind parents believed that the U.S. federal 
response to their cases was not sufficient and that more needed to be 
done. There were failures in coordination on cases, in part because of 
the inherent tension between the civil aspects of a case in which the 
goal is to effect the abducted child's return and the criminal efforts 
to prosecute abducting parents.
    The Senate Foreign Relations Committee invited the Attorney General 
to testify on international parental child abduction in October 1998. 
Prior to her testimony, the Attorney General spoke with the Secretary 
of State and together they committed their two agencies to taking a 
hard look at how the federal response to international parental child 
abduction could improve.
    The Attorney General and the Secretary of State subsequently formed 
a Senior Interagency Policy Group to undertake a comprehensive review 
of the federal government response to international parental child 
abduction. The Policy Group in turn created a working group. Since they 
were created, the Policy Group and its Working Group have met at least 
once a month. The Policy Group, with the input of the Missing and 
Exploited Children Task Force's Subcommittee on International Parental 
Child Abduction, prepared ``A Report to the Attorney General on 
International Parental Kidnapping'' which the Attorney General 
submitted to Congress in June. The report outlined the gaps in the 
federal response and recommendations to improve the situation. The 
Policy Group developed an action plan to implement the report's 
recommendations, wherever possible, and to the extent resources 
permitted.
    The action plan addresses:

  <bullet> The creation of a comprehensive tracking system for 
        international parental child abduction cases;
  <bullet> An enhanced role for the National Center for Missing and 
        Exploited Children;
  <bullet> The strengthening of inter-agency coordination;
  <bullet> Enhanced diplomatic initiatives;
  <bullet> Increased education and training;
  <bullet> Strengthened mechanisms to prevent departure of abducted 
        children and abducting parents;
  <bullet> Expansion of services for parents and children;
  <bullet> Coordinated budget and resource estimates.

    Implementing the international parental child abduction 
recommendations will be expensive, having a price tag in the millions, 
and taking several years. As a core function of the Department of 
State, the Office of Children's Issues should be funded with 
appropriated resources. We are concerned about inadequate overall 
funding for the Department, which may negatively affect our ability to 
implement the recommendations. * * * Additionally, we are pleased that 
the Senate receded on an earlier effort to zero out funding for the 
Hague Conference, and want to emphasize the important work that it does 
and the great amount of value we obtain in fully funding this important 
organization.
    The Bureau of Consular Affairs is on its way to completing the 
requirement study for the interagency case tracking system. The 
contractor has had over a dozen meetings with Children's Issues staff 
and the interagency community that will be using this system. With 
needed funding, implementation of the first phase of this system is 
scheduled for this spring. The Bureau has increased the staff of the 
Office of Children's Issues so that country officers have fewer cases. 
They will soon be advertising for a management analyst to oversee 
further development of the comprehensive tracking system, to create 
accurate statistics on all abduction cases, both to and from the U.S.
    The Bureau of Consular Affairs has also expanded the cooperative 
agreement with the National Center for Missing and Exploited Children 
to include additional assistance for parents and children in all 
international child abduction cases. The Bureau recently established a 
National Center coordinator position within the Office of Children's 
Issues. The passport custody lookout function currently in Passport 
Services will be transferred to the Office of Children's Issues in 
early 2000.
    As we seek to improve services to parents, we recognize the need 
for continuing feedback from our customers. Recently, Children's Issues 
has had a number of meetings with left-behind parents to receive their 
input on how we might do things better. One of the new positions in 
Children's Issues will be specifically devoted to enhancing our service 
to American citizen customers. We have also established Children's 
Issues coordinators at our embassies and consulates around the world.
    Recently, we have seen an example of how our increased interagency 
communication has aided the return process. Five children abducted from 
the U.S. to Syria were returned home following extensive interagency 
cooperation involving the FBI, Department of Justice, local law 
enforcement and the National Center for Missing and Exploited Children, 
efforts coordinated by Children's Issues. Children's Issues initiated 
numerous conference calls among the relevant organizations, ensuring 
that the return of these children remained the focus of all U.S. 
Government efforts. Following excellent work by our Embassy in 
Damascus, one of the abducting parents was arrested in Syria and all 
five children were returned using Justice Department ``family 
reunification funds'' and State Department repatriation loans.
    In closing, Mr. Chairman, in considering the complexity of both 
Hague and non-Hague abductions, we must remember that these cases are 
all centered on children and their need to feel secure in their homes 
and not live in fear of abduction. Thank you, Mr. Chairman, for the 
opportunity to address the Subcommittee on this important topic for our 
children and their parents.

    Senator Thurmond. We will now go to questions. Mr. 
Robinson, international parental child abduction is a growing 
problem. There have been very few prosecutions under IPKA since 
Congress passed the statute in 1993. The recent task force 
report to the Attorney General that was released earlier this 
year did not even mention enforcement of the statute as a gap 
in current efforts to address international parental kidnaping. 
Do you think the Department should make better enforcement of 
IPKA a priority?
    Mr. Robinson. Let me say, preliminarily, that I would ask 
Mr. Rossman, who was involved in that project directly and 
reporting to me, that obviously it needs to be a continuous 
improvement priority. We need to get the word out. It is still 
a relatively new statute, but I think that within the 
constraints outlined in the statement that I indicated, we need 
to make sure that the investigators and prosecutors are trained 
and understand this and we have the network of information out 
there so people know of the availability of this resource.
    But perhaps Mr. Rossman can comment directly on the 
question with regard to the statement in the report. Rich.
    Mr. Rossman. If I may, Mr. Chairman, I think the first 
thing to keep in mind is that each one of our 50 States and the 
District of Columbia have passed parental kidnaping statutes. 
The States, the local governments, are really the primary force 
in this area. The Federal statute was never meant to supplant 
State governments in this regard, but only to supplement it and 
to be available in those situations. For instance, if you have 
a case where there is a question about the custody situation at 
the time of the abduction, the Federal statute can be more 
helpful than some of the State statutes, which would not create 
a crime in those circumstances. So I think that is the first 
thing to keep in mind, is that the Federal statute is not the 
primary force in this area but really is supplemental to the 
ongoing efforts of each of our 50 States.
    Second, I think it is worth noticing that the numbers have 
increased over the period of time and the involvement of the 
FBI, but the numbers are still low. There is no question about 
that. As Mr. Robinson said, we are reaching out, and I think in 
this regard, the policy group that I was involved in and the 
report that Senator DeWine mentioned does specifically 
reference the idea of reaching out to training our prosecutors, 
our State prosecutors, our Federal prosecutors, and our agents, 
and that training process is ongoing. OJJDP at the Justice 
Department is very involved in that process.
    Just next week, down in South Carolina at the center that 
the Department of Justice uses for training, we are having all 
of our international reps from each of our U.S. attorney 
offices come in and there is going to be a segment on 
international parental kidnaping at that program to try to 
further educate our U.S. attorney offices around the country on 
the importance and the priority with which we face the statute.
    Senator Thurmond. Ms. Borek, the Department of Justice 
generally asks for a prosecution to be undertaken pursuant to 
UFAP rather than IPKA. Given that IPKA itself is a direct 
Federal offense, are there times when proceeding under the IPKA 
warrant rather than a UFAP warrant could be more persuasive 
with another country in encouraging them to extradite the 
abductors to the United States?
    Ms. Borek. Mr. Chairman, I am not aware of any 
circumstances in which we would think that a Federal charge was 
more important than a State charge in the eyes of a foreign 
government official. I think the problem here is, as has been 
mentioned by the Department of Justice that, and as you also 
noted in your speech, that this can really impede the return of 
the child in some cases.
    When the return of the child and the enjoinment of some 
form of joint rights, whether it is joint custody or it is 
visitation, depends on both parents agreeing to share the time 
of the child and one parent is prosecuted, this can obviously 
cause problems with the ability of the parents to reach 
agreement on things. Unless the child is actually returned, 
which the extradition does not result in the return of the 
child, it can actually make a situation worse in some cases 
rather than better.
    So I think the view of the foreign government is fairly 
straightforward as far as the Federal versus State angle. But 
the other considerations in a particular case may be 
complicated.
    Senator Thurmond. Mr. Robinson, I appreciate that the best 
way to try to get a child returned is to use the Hague 
Convention. However, some signatory countries consistently fail 
to comply with their obligations under the Hague. For these 
countries, do you think the Justice Department today may be too 
reluctant to initiate criminal proceedings quickly?
    Mr. Robinson. I do not think that is the case, Senator. 
Obviously, it is a consideration and ought to be a 
consideration in making a charging decision in a situation in 
which the alternatives for--the first choice, obviously, is to 
return the child, and I think that is--and to the extent that 
that is not a possibility, the notion of bringing the criminal 
charges and getting the deterrent effect for future cases is an 
appropriate consideration.
    Mr. Rossman. If I could just add, for instance, in the case 
that Senator DeWine is so familiar with, the Sylvester case, 
even though Mrs. Sylvester is in Austria, which does not 
extradite its nationals, and there are other problems in trying 
to use the criminal process in Austria, nevertheless, there is 
an outstanding criminal warrant out of the Eastern District of 
Michigan, and if Mrs. Sylvester steps into any other 
jurisdiction that would extradite her, then she would be 
subject to the criminal process and we have not hesitated to 
use the criminal process in that regard, although, 
unfortunately, it has not resulted in the return of either Mrs. 
Sylvester or the children.
    Senator Thurmond. Mr. Robinson, I understand that the 
primary purpose of IPKA is to punish the abductor. However, it 
appears to me that enforcing the law sometimes may pressure the 
abductor into returning the child. Also, a judge may condition 
the abductor's release on the return of the child. Do you agree 
that criminal prosecution under the IPKA sometimes may result 
in helping get the child back?
    Mr. Robinson. I think it could under certain circumstances, 
but as I indicated in my opening statement, there are times in 
which it has not made any difference at all and has complicated 
the situation. So I think what needs to be done is a careful 
judgment on a case-by-case basis, evaluating the impact of the 
criminal prosecution only after, of course, in the first 
instance, the prosecution decision has to be made on the merits 
of the facts, and only after that determination has been made 
under the principles of Federal prosecution, then I think this 
needs to be taken into consideration and evaluated in the 
context of where the parent is and what the circumstances are.
    But I think that there are certainly circumstances in which 
this is an appropriate consideration, so I would agree and it 
would depend on the particular circumstances of the case, 
Senator.
    Senator Thurmond. Mr. Robinson, I understand that sometimes 
local authorities do not seek a UFAP warrant because they 
cannot afford to pay the extradition costs associated with 
enforcing the warrant. However, for an IPKA warrant, the 
Federal Government pays the extradition costs. Do you agree 
that the Federal authorities should consider IPKA warrants when 
local authorities cannot afford the costs associated with UFAP 
warrants?
    Mr. Robinson. I think it ought to be a consideration. I 
note that there was a provision that would have provided--in 
the provision of last year's crime bill, would have been 
helpful in allowing the Department on a case-by-case basis to 
assist States and localities in defraying some of the 
extraordinary expenses that may arise in pursuing international 
extraditions. These can be quite expensive and time consuming, 
and perhaps at an appropriate time, there could be some 
consideration for that.
    Senator Thurmond. Mr. Robinson, one way to locate and 
detain abductors is to revoke their passports. I understand 
that the State Department denies all revoked passports when the 
abductor is the subject of a Federal warrant. It appears to me 
that the possibility of revoking the abductor's passport is a 
good reason to invoke the criminal process in many cases. Do 
you agree?
    Mr. Robinson. I think it can, in appropriate cases. Perhaps 
Ms. Borek could add to that in terms of the available options 
from the State Department's point of view.
    Ms. Borek. Thank you. One difficulty here is that, very 
often, the abducting parent is a foreign national and, 
therefore, is traveling on a foreign passport. We do have a 
system for trying to control the issuance of a U.S. passport to 
children who might be abducted and we are trying to strengthen 
that. But the child often is a dual national, also, and so the 
passport revocation is perhaps less effective for the parent, 
more effective for the child, not necessarily always effective 
for the child. But certainly there would be some cases where 
this would be useful, where it is an American citizen abductor.
    Mr. Robinson. It is my understanding, also, Senator, that 
the passport revocation is possible under either an unlawful 
flight or an IPKA charge.
    Senator Thurmond. Ms. Borek, the task force's report to the 
Attorney General recommended that revoking a child's passport 
is one way to help stop an abduction in process. What specific 
efforts is the State Department undertaking to make it easier 
to revoke abducted children's passports?
    Ms. Borek. We do have a system now where, at the request of 
the parent or an attorney or an appropriate court, we will put 
the child's name in a passport name check system so that when 
an application is received, the parent will be notified. It 
will also be denied based on an appropriate court order. We 
have amended the regulations to provide for denial based on 
joint as well as sole custody.
    We recognized in looking at the efforts under the senior 
policy group review that we could do more to improve revocation 
on an internal basis through, I believe, regulatory change, and 
this was approved as part of the policy review and is being 
implemented.
    Senator Thurmond. Ms. Borek, I understand that some 
obstacle to efforts to extradite an abduction is that the 
country may not recognize parental kidnaping as an extraditable 
offense. What specific diplomatic efforts are being taken by 
the State Department to encourage countries that are parties 
with us to list extradition treaties to interpret them to 
include parental kidnaping as an extraditable offense?
    Ms. Borek. We have gone out to all of the countries that 
have this treaty to suggest to them and encourage them to agree 
with us to this interpretation. We have found a number of 
countries do not make this a crime under their national law, 
and one of the concerns that was raised in Congress, and we 
shared it, was that there be reciprocity, that we not be 
extraditing Americans to foreign countries for parental 
kidnaping when they would not be in a similar position to 
extradite people back to us.
    We have not made specific efforts to get people to change 
their laws in these areas. I think we need to know more about 
why they have not changed them. There are some trends, 
especially in Europe, I think, away from the views that were 
reflected in the 1980 Hague Convention. Therefore, the 
situation is not necessarily one that is improving in all 
respects.
    What we have been focusing on first of all, I think, in the 
civil area is the question of enforcing the court orders, which 
we have not gotten into, but this is something which has caused 
serious problems in a lot of cases, where people have even 
gotten orders in their favor for custody or visitation and they 
have not been enforced. So in terms of diplomatic efforts, I 
would say at this point that is a priority, and also 
encouraging people to agree with us on the interpretation of 
the treaty. But we have not been trying to get people to change 
their criminal law as of yet.
    Senator Thurmond. Ms. Borek, the General Accounting Office 
recently noted that the Office of Children's Issues and the FBI 
sometimes make duplicate inquiries on the same case. Do you 
expect a new case tracking system to allow State and Justice 
agencies to know what each other is doing regarding ongoing 
cases?
    Ms. Borek. We certainly hope so, Mr. Chairman, at least at 
the basic level of knowing there is a case and certain 
information should be available to all to avoid making 
duplicative inquiries. I think we have determined that very 
detailed information about criminal process, for example, or 
all of the contacts to the particular parent might not be 
entered in this for a number of reasons. But certainly, the 
kinds of basic inquiries and information that would lead one 
agency to talk to each other should be in there.
    Senator Thurmond. Senator DeWine.
    Senator DeWine. Thank you, Mr. Chairman.
    I think what this hearing is about today, quite candidly, 
is priorities and discretion and judgment, and I am going to 
make a statement at the beginning and then I am going to ask 
some questions about it. The panelists may consider this a very 
harsh and maybe unfair statement.
    I do not think parents taking children illegally out of 
this country and keeping these children out of the country, 
away from another parent, is a high enough priority with the 
State Department, nor do I think it is a high enough priority 
with the Justice Department. Mr. Robinson, you spent almost 
your entire testimony, quite candidly, and you and I have 
discussed this before, you spent almost your entire testimony 
telling us why you cannot do things and all the problems that 
are there. I am a former prosecutor and I think I appreciate 
what you had to say. I am not sure I disagreed with what you 
had to say, but it troubles me about the emphasis, I guess.
    We know there is nothing perfect in the world. We know that 
if a child is taken by one parent out of a State, we know there 
are problems with that. We know filing charges does not 
necessarily solve the problem, but we still file them. You 
still file charges when someone commits murder or someone 
commits rape or someone commits some other Federal offense that 
the Federal prosecutor decides to prosecute under, even though 
this person may have fled, so I am not sure that is an answer.
    Let me, if I could, just talk a little bit and ask some 
questions about these priorities. You state, Mr. Robinson, that 
since the passage of the parental kidnaping law, through the 
middle of this year, U.S. attorneys have opened 229 files on 
international parental kidnaping, that 62 defendants have been 
indicted and 13 convicted. Now, one of the intentions of 
Congress in passing this statute is set forth in the House 
committee report, ``to deter at least some abductions by 
ensuring that the kidnaping offender will be pursued by the 
U.S. Government. At present, most abducting parents have little 
to fear with regard to effective pursuit.''
    I just want to ask you whether you think 62 indictments 
over 5 years has been given abducting parents anything to fear 
as far as effective pursuit by the U.S. Government. Sixty-two--
I mean, you talk about it being a new statute and we have got 
to get the word out to U.S. attorneys and assistant U.S. 
attorneys, but 5 years is a long time.
    Mr. Robinson. I think we indicated that we expect there 
will be more prosecutions, and I think that as the testimony 
indicates, I think your emphasis is the correct one. I think 
the priority issue is an important one. I think there needs to 
be additional work, and the issue of working with the States on 
their prosecutions and utilizing the resources of the Federal 
Government and the State Department on extraditions to bring 
people back to face State kidnaping charges in this area.
    I am not going to disagree with you at all on the notion 
that there needs to be an additional effort, and I think that 
what we have been trying to do with the senior policy group is 
to try to get our arms around the scope of these issues and 
continue to press on them. But I am not going to suggest to you 
that more cannot be done or should not be done. I think we all 
agree that it should and we ought to do more.
    Senator DeWine. I appreciate that, and we understand that 
the Justice Department, U.S. attorneys, and assistant U.S. 
attorneys have to make judgment calls. You cannot prosecute 
every case. You cannot deal with every case. But we set our 
priorities. Any administration sets its priorities, or any 
prosecutor sets his or her priorities, by what cases you put 
emphasis on. County prosecutors put special emphasis and set up 
teams on rape cases or on drug cases or welfare fraud cases.
    It just seems to me that this government needs to say this 
is important and there is a reason that we have this law, and 
yes, it does supplement State laws, but there are some 
advantages, and we do not have time today to go into all the 
advantages, but I think there are very distinct advantages to 
file under a Federal law as opposed to filing under a State 
law, which brings me to Ms. Borek's question.
    Let me just make sure I understand your testimony. Your 
testimony was that you did not think it made any difference 
from a diplomatic point of view whether or not our ambassador 
had or could reference a State of Alabama or a State of Ohio 
charge or a U.S. Government charge. Now, is that my 
understanding of your testimony?
    Ms. Borek. Senator DeWine, when we make an extradition 
request, it is always a U.S. Government request.
    Senator DeWine. No, I understand that.
    Ms. Borek. So I think what I was saying is that in either 
case, we are presenting the foreign government with a U.S. 
Government request and we expect them all to be honored. I have 
not seen any indication that a foreign country said, oh, well, 
that is just a State of Alabama request. We will pay less 
attention to it. I think we expect them all to be honored and 
on an equal basis.
    Senator DeWine. The report that we have been referencing 
here, the internal working report, stated that one of the 
practical problems that was identified in this report in the 
diplomatic initiative section is that, ``left-behind parents 
expect the U.S. Government to intercede directly with foreign 
governments on their behalf to recover their children. When 
diplomatic action is not taken, some may feel the government 
has let them down. Federal law and policy must be articulated 
and explained to parents.''
    Can you explain what Federal law and policy there is that 
prevents the U.S. Government from interceding directly with 
foreign governments? I again must say, I find that statement to 
be a horribly condescending statement. I know you did not write 
it, but it is just horribly condescending. We have to explain 
to these poor parents why the U.S. Government cannot do 
anything.
    Senator Thurmond. Senator, could I have the floor for just 
a minute before you make your statement?
    Senator DeWine. Sure.
    Senator Thurmond. I wish to note that I am pleased to have 
Lady Catherine Meyer as a witness on the second panel. She is 
an expert in the area of parental kidnaping. I plan to return 
later and ask questions to the second panel, but right now, I 
have another engagement I have to go to.
    Senator DeWine. Thank you, Mr. Chairman.
    Senator Thurmond. I ask if you will take over here.
    Senator DeWine. Thank you.
    Ms. Borek. I think that----
    Senator DeWine [presiding]. Does that statement bother you 
at all?
    Ms. Borek. Yes. I think it is not a very clearly written 
statement. It is not meant to say that the government cannot do 
anything at all. I think what it is intended to say is that we 
do not press directly for return. In the Hague case, there are 
some reasons under the convention why a court might decide not 
to return a child, and we do not say, well, this parent is 
clearly right and this parent is clearly wrong as a matter of 
course. We press the foreign government and we do intervene and 
press to comply absolutely with the spirit and the letter of 
the convention as we see it.
    I do not think that is a very well-written statement 
because it does suggest that we do not do that. All it means 
really is we do not sort of walk in there and say, you must 
give us the child now. Really, that is what the parents want, 
and very often, very rightly. But this is not a mechanism, 
unfortunately, that is quite that automatic. There are some 
factual disputes, and these are kinds of cases where there can 
be some really ugly factual disputes that ultimately do have to 
be resolved by the courts. A lot of the problems we have been 
having--not all of them, by any means, but a lot of them--are 
actually problems with courts and not with the governments of 
the countries in question.
    Senator DeWine.  Let me follow up with that. Also in the 
report to the Attorney General, there is a section, the same 
section on diplomatic initiatives, that sets forth the direct 
actions the State Department might take in an international 
parental kidnaping case. These include having the U.S. 
ambassador meet with the leader of another country, formal 
communications such as diplomatic notes, and less formal 
communication such as an exchange of letters.
    Let me ask you, are these direct actions taken only to 
promote and improve implementation of the Hague Convention in 
general, or are they taken in a specific case concerning a 
child in that country? Second, if taken in individual cases, 
how many times has an ambassador, to your knowledge, met with 
the leader of another country on an individual case of 
international parental kidnaping?
    Ms. Borek. In answer to the first question, we certainly do 
it in the context of individual cases and for individual cases. 
There have been, in addition, some efforts aimed purely at the 
systemic level, but those are less likely to involve the 
ambassador.
    I cannot tell you how many times exactly the ambassador has 
met. Of course, this is the question in cases that seem to have 
problems, where this seems to be a useful thing to do. 
Obviously, there are a lot of cases that go smoothly and there 
is no reason for the ambassador to talk to anyone. I could try 
to get you more information about----
    Senator DeWine. I would appreciate that. Again, it goes 
back to priorities and it goes back to what we emphasize and 
what we spend time on. All of us in government every day make 
choices, priority choices. How do we spend our day? How do we 
spend our time? It is finite. Time is finite. I guess I just 
would like some assurance from you or from the Department that 
this is, in fact, important.
    I mean, your point is well taken that these are messy cases 
sometimes, that sometimes the facts are in dispute. A lot of 
times, the facts are not in dispute, frankly. A lot of times, 
someone just takes off and they are just gone, because they are 
going back to their home country and they want their baby and 
they are gone and that is it. It does not take a rocket 
scientist to figure that one out. But some, yes, there are some 
factual disputes.
    It seems to me the question is, how involved is the State 
Department in trying to resolve these and to use the diplomatic 
skills that our diplomats are trained in and to resolve these 
particular cases, whether or not there is a formal charge filed 
or not, whether or not we are interested in actually bringing 
the person back, or can we just get this thing worked out. I am 
not suggesting that our ambassadors become domestic relations 
experts here, but these things are important and these are 
important when these children are taken. If it does not reach 
the ambassador's level or if the ambassador in a given embassy 
does not think it is important, then obviously the foreign 
government will not think it is important.
    Ms. Borek. I agree with you, Senator DeWine. I need to add, 
I think, in addition to the question of priority, which we 
decided we did need to make more systematic efforts to make 
sure we were doing everything possible in this area, I need to 
add two things. One is the Office of Children's Issues has no 
higher priority in the world, and I think the Bureau of 
Consular Affairs, than to be concerned about these children 
and, of course, Americans generally, but within the category of 
Americans, children call for a particularly high concern.
    Second, I have to say, in addition to priority, there is 
also the side of it that is resources. The whole State 
Department has a lot of priorities, most of which are extremely 
important, and we will not say which are and which are not, and 
is operating under a situation of continuing very limited 
resources. I read in the paper the other day that the real 
value of the foreign affairs budget is like 50 percent of what 
it was some administrations ago. This is the factor in the 
overall picture. It is not to negate your point. I think your 
point is a very correct one. It is just that I think that also 
has to be said.
    Senator DeWine. Mr. Robinson, in your testimony, you stated 
that a large but undetermined number of international parental 
kidnaping cases are charged under State and local law, and I 
think Mr. Rossman has made that point very well, too, and I 
certainly agree with that. You have also stated that warrants 
for unlawful flight can be obtained where the abducting parent 
crosses State or international borders. You acknowledge these 
UFAP warrants do not provide an independent basis for 
extradition, but they may assist in obtaining Federal resources 
to locate the abducting parent.
    Is it not true that a lot of State, though, and local 
prosecutors do not follow through with State charges because of 
the prohibitive costs of extradition? I just anecdotally will 
tell you that when I was a county prosecutor, we convicted 
someone of murder. Unfortunately, he decided to leave the 
jurisdiction and ended up in a foreign country. I cannot tell 
you how much it cost Greene County, OH, to bring this murderer 
back. It would cost a fortune for our moderate-sized county. So 
it is something that, as Ms. Borek talks about resources, 
clearly, a local prosecutor is going to think long and hard 
about that. If that is true, is that not one reason for 
charging the crime at the Federal level?
    Mr. Robinson. It is, I think, a consideration, but the 
resources issue is there, too. In the extradition area, as I am 
sure the Senator knows, because of the high visibility of some 
of these major cases, the Einhorn case in France, the 
Scheinbein case in Israel, in the Criminal Division of the 
Office of International Affairs, as we allocate resources and 
determine where we are going to go after and deploy resources, 
obviously, when you start with murderers and other major 
individuals, these need to be taken into consideration.
    But I think the resources question is a real one and I 
think that was the reason why the notion in last year's crime 
bill of providing some additional resources to allow on a case-
by-case basis the ability to assist the States, because as the 
Senator knows, the county prosecutors throughout this country 
are close to their constituents. That is where people go 
initially. There are 5,000 assistant U.S. attorneys throughout 
the country worrying about organized crime, public corruption, 
narcotics trafficking, lots of other things, and we need to 
have a cooperative relationship of constructive federalism with 
our partners.
    I think, working with State prosecutors and trying to come 
up with ways we can work together to deal with this very 
important problem and, I think, some resources to assist, 
because it is difficult to deal--and it is very, very 
difficult, and my hearts go out to the parents who have to deal 
on an international basis with the equivalent of a custody 
dispute. It is hard enough to deal with that right in your own 
backyard, but to have to deal with it with another country with 
different laws is a staggering problem.
    So I think that it would be wise for the policy makers in 
the Congress and the executive branch to address some of these 
resources questions that might provide some assistance to State 
and local prosecutors, as well as Federal prosecutors as we try 
to deal with all the various extradition requests we have.
    One of the things that I have certainly seen since 
returning to the Justice Department, there has been a sea 
change here from when I was U.S. attorney 20 years ago on the 
globalization of crime. More than half the work of the Criminal 
Division deals with international criminal activities. This 
whole issue of globalization is going to find its way, as it 
does already, into this problem, as well, and we need to use 
all of our best resources and thinking to try to address these 
kinds of problems, and the resources would help the States and 
it would help, I think, the Justice Department and the State 
Department in dealing with these issues, as well.
    Senator DeWine. I thank you for that answer.
    Let me just read from the House report in regard to the 
International Parental Kidnaping Crime Act of 1993. Again, I 
have read parts of it, but let me read one additional part. It 
sets forth many reasons for creating the offense, and this is 
sort of legislative history. But one is that the offense will 
provide the basis for Federal warrants which will, in turn, 
enhance the force of U.S. diplomatic representatives seeking 
the assistance of foreign governments in returning abducted 
children. Apparently, the House and Congress thought this was 
one more tool that we would give the State Department, and in 
some cases, it would work. Obviously, in some cases, it might 
not work.
    But I think we should not forget that that is a legitimate 
tool. It is a tool that Congress intended by the filing of 
charges to give for you, the Justice Department, to be giving 
to the State Department. I just would point that out, again 
with the understanding that in any given case, it may work or 
it may not work. That is the way the world is. But it certainly 
was intended as a tool, and I think in some cases it can be a 
tool.
    Mr. Robinson, let me ask you another question. Is not 
another way the criminal charges could help bring about the 
return of a child would be through imposing sentencing 
conditions? These were used in the Amir case, which required 
the father to return to the United States.
    Now, in the report to the Attorney General, it points out 
that, ``the imposition of such conditions have proven 
ineffective to date. Therefore, the imposition of such 
conditions must be considered on a case-by-case basis.'' I do 
not disagree with that. But while sentencing conditions did not 
work in this particular case, is it not really too soon to 
totally discard this as a tactic?
    Mr. Robinson. I think it is, yes. I think that needs to be 
taken into consideration, and I would expect that in the event 
the child is still abroad and we have the parent here 
convicted, I would anticipate that that should be sought as an 
appropriate condition. Unfortunately, as that particular case 
indicated, it does not always work, but that does not mean we 
should not stop trying or that we have enough data to conclude 
that we should not do it. I think it is an appropriate 
consideration that can make a difference. It does in other 
areas. Conditions often can make a difference.
    Senator DeWine. Mr. Robinson, Senator Thurmond had one 
additional question which I would like to ask on his behalf. 
American judges generally have little experience with 
international abduction law. Some are getting more experience 
than they want. But it appears to me that one way the Justice 
Department can help educate judges, local judges, is to file 
amicus briefs in potentially precedent-setting cases of 
international child abduction. Does the Department monitor 
litigation of this type to consider filing amicus briefs?
    Mr. Robinson. Are you talking about State litigation? I am 
not aware offhand----
    Senator DeWine. Obviously, you could expand that question 
to State and the appropriate Federal, as well.
    Mr. Robinson. I am confident that if we were aware of such 
a situation and could weigh in, that it is the kind of thing we 
ought to give serious consideration to do, because anything we 
can do to get the word out that this is a serious matter, that 
any parent that is even thinking about this ought to recognize 
there are not only State sanctions, Federal criminal sanctions, 
and that we have the resources and intend, although we have the 
obstacles, but I did not mean by stressing the obstacles to 
suggest we ought to throw in the towel. The obstacles are 
there, but we need to get the word out, because deterrence is a 
major consideration.
    I know the Senator has that in mind and I think you are 
right in that regard. There ought to be a cost associated with 
doing this. There ought to be more than nothing to fear, as you 
suggest, and that can make a major difference.
    Senator DeWine. Mr. Robinson, on that, I think we will 
conclude the panel. That was a good summation. I appreciate the 
three of you being here very much. We look forward to working 
with you in the future. This is an important area and I am sure 
we will be all discussing it again. Thank you very much.
    Mr. Robinson. That is right. Thank you, Senator.
    Senator DeWine. I would like to invite our second panel to 
now start coming up. I will be introducing you as you come up.
    Our first witness on the panel is Lady Catherine Meyer, 
wife of the British ambassador to the United States. Lady Meyer 
holds a bachelor's degree from the London School of Slavonic 
and East European Studies and has been a successful commodities 
broker. She is well known for her efforts to raise awareness of 
parental kidnaping, which is based on her own experience 
regarding the abduction of her two sons by their father. She is 
Co-Chair of the International Centre for Missing and Exploited 
Children, which she helped establish earlier this year.
    Our second witness is Laura Kingsley Hong, a partner in the 
law firm of Squire, Sanders and Dempsey. Ms. Hong has worked 
tirelessly for 3 years regarding her personal story of 
international parental kidnaping.
    Our third witness is John Lebeau, Jr., who is a businessman 
in West Palm Beach, FL. His twin children were taken from their 
home by their mother in June 1996 and he eventually succeeded 
in getting them returned to the United States in December 1998.
    Our fourth witness is Craig Stein, a graduate of Swarthmore 
College and Emory University School of Law. Through his work in 
private practice, he has considerable experience in 
international child abduction and holds the National Center for 
Missing and Exploited Children's Award of Merit.
    Our final witness is Ernie Allen, President and Chief 
Executive Officer of the National Center for Missing and 
Exploited Children, which has helped recover over 48,000 
children. The nonprofit center is taking an increasingly 
important role with the Federal Government in international 
parental abductions. Mr. Allen, a member of the Kentucky bar, 
served as Director of Public Health and Safety for the City of 
Louisville and director of the Louisville-Jefferson County 
Crime Commission before co-founding the National Center.
    I would ask that the witnesses limit your opening 
statements to no more than 5 minutes. All of your written 
testimony will be placed in the record, certainly, without 
objection. We will start with Lady Meyer and we will just go 
right down the line.

PANEL CONSISTING OF CATHERINE I. MEYER, CO-CHAIR, INTERNATIONAL 
  CENTRE FOR MISSING AND EXPLOITED CHILDREN, WASHINGTON, DC; 
  LAURA KINGSLEY HONG, SQUIRE, SANDERS AND DEMPSEY, CLEVELAND 
HEIGHTS, OH; JOHN J. LEBEAU, JR., PALM BEACH GARDENS, FL; CRAIG 
 E. STEIN, ATTORNEY AT LAW, MIAMI BEACH, FL; AND ERNIE ALLEN, 
  PRESIDENT AND CHIEF EXECUTIVE OFFICER, NATIONAL CENTER FOR 
         MISSING AND EXPLOITED CHILDREN, ALEXANDRIA, VA

                STATEMENT OF CATHERINE I. MEYER

    Lady Meyer. Thank you very much for having this hearing and 
thank you very much for inviting us. I spent, as you all know, 
5\1/2\ years trying to secure the return of my abducted 
children and then simply to obtain what is the most elementary 
human right, that of seeing my children. I have been lobbying 
in France, in England, now in the States, to no avail.
    As I stand today, I have no access whatsoever, and in 5\1/
2\ years, I have only managed to see my sons for a few hours--
not weeks, not days, just a few hours. In 5\1/2\ years, I have 
never been able to see them as a normal parent. I have never 
woken up with my children and I have never put them to bed. I 
have never received letters from them, and I have received in 
5\1/2\ years one school report.
    Has anybody proved that I am a bad mother? No. Has any 
proved that I do not love my children? No. But I am still 
denied the rights that even women in prison are allowed. My 
parents, too, have been denied this right. My father is 87 and 
he may never live to see Alexander and Constantine again.
    But the point is that who are the ultimate victims? It is 
my children. They will be scarred for life. They have become 
confused and angry with me because they have been told from the 
beginning that I have abandoned them. On two occasions, in 1994 
and in 1998, when I saw my sons and I told them how happy I was 
to see them, Alexander replied, ``You lied. Daddy told us you 
could come and see us whenever you wanted, but you never did.''
    My children were abducted in 1994. There was an order by 
the British courts to send them back. The initial court in 
Germany was also reinstating the first court order for the 
immediate return of the children, but it was never enforced. In 
Germany, court orders, like in Austria, are not enforceable. So 
my ex-husband asked for half-an-hour to bring the children to 
the court, and taking advantage of this, he vanished and he 
managed to lodge an ex parte appeal in the higher court. The 
higher court, article 13b, was used not to return the children 
to the U.K. The children objected to the return, apparently. At 
that time, they were 7 and 9. I had not seen them for 4 months. 
The children apparently felt they were living in a foreign 
environment, because in England, one does not speak German.
    The problem is that once the children have not been 
returned, all the further decisions were in the German courts, 
and the result of that is that custody was transferred to my 
ex-husband and that I have not been able to obtain access 
rights. The fear of re-abduction was used, and then the fact 
that the children no longer want to see me. So you find 
yourself in a catch-22 situation. The few orders that I have 
got from the courts, that usually lasted for 3 hours a month, 
were not enforced when my ex-husband did not bring the children 
to the meeting place.
    But I want to also talk about not my case, about all the 
other cases, because since I have been lobbying, I have been 
approached by hundreds of parents in the U.K., in England, and 
now in the United States. Obviously, I have been approached by 
many parents who have problems with Germany. The result of what 
I have found is that three--I explain it much more in my 
written statement, but there are really three main problems 
that article 13b has been used all the time as a reason not to 
return abducted children, and some children were three and five 
and apparently they objected to a return.
    The second problem that you find in some countries, and 
particularly in Germany, is the slowness of the proceedings. As 
I always say, in children's issues, 99 percent of the law is 
possession. The longer the proceeding takes, the more 
indoctrinated the child will be for the purposes of article 13.
    The third problem is that in some countries, notably in 
Germany and in Austria, court orders are not enforceable.
    I have only managed to come up with 34 cases. Thirty-four 
cases still involves 46 American children who are now held in 
Germany. They all have been abducted or illegally retained, and 
those 46 children have no contact to the American parent.
    One of the parents is here today, and I would like to 
introduce him. He is on the top of my list of the parents that 
I have supplied. His name is Joseph Cooke. He served as a U.S. 
Army officer in Germany. He met a German woman. They returned 
to the States. They married. They had two children. When the 
children were three and five, his German wife went to Germany 
and then phoned him saying, ``I am not coming back and you will 
never see the children again.'' The wife then fell ill and the 
children were given away to the social services. The father was 
never informed. The father tried to seek the help of the FBI 
and everybody in America. The social services then poured the 
children to a foster family. The father was still not informed. 
This was 4 years ago. The father has no access to his children.
    I have other cases, and they are all rather similar. My 
point is that I was very shocked today to receive a copy of the 
letter that the German Ministry of Justice has sent to your 
ambassador in Berlin, Ambassador Kornblum, and the letter says 
that Germany, the Ministry of Justice, is not aware of any 
problems between America and Germany and they are not aware 
that any children have no access with American parents. So I 
would like to point that out, because I have here some cases, 
and I believe there are many, many other cases because I have 
to point that most parents are very scared to come forward and 
talk.
    Senator DeWine. We will make that part of the record, if 
you wish to submit the letter.
    Lady Meyer. Yes.
    Senator DeWine. That will be made part of the record.
    [The letter from the German Ministry of Justice follows:]

                                German Ministry of Justice,
                                Berlin, Germany, September 9, 1999.
S.E.
Dem Botschafter der Vereinigten Staaten von Amerika,
Herrn John C. Kornblum,
Neustadtische Kirchstrasse 4-5,
10117 Berlin.
    Dear Ambassador: First I would like to thank you for your letter 
regarding the situation of Lady Catherine Meyer and the general 
situation of children living in Germany and their contact with foreign 
parents.
    I very much regret the fact, that for some time now the legal 
settlement for visits between Lady Meyer and her children has not been 
realized. As we all know problems in the constant contacts between 
parents and children will have a strong negative impact in any normal 
family life and this will cause emotional imbalances. This is true for 
bi-national as well as mono-national families. One of the goals that 
the children's law dd. 07/01/98 intended to achieve, was to approve the 
legal basis for children to remain in contact with both parents after a 
separation or a divorce. To achieve this it is not only aimed that both 
parents are responsible for the education and upbringing, but also to 
define the right to regular visits as a right and a duty as well as to 
implement legal structures to guarantee the settlements actually will 
be realized.
    In both Germany and the United States regulations concerning 
visiting-schedules are supervised by independent specialized courts. In 
the case of Lady Meyer the ``Amtsgericht'' Verden refused to grant an 
urgent appeal of coercive fine against the father in order to force him 
to agree to the visiting times. The children themselves refused 
stubbornly to see their mother without any hint of coercion by their 
father. Lady Meyer therefore withdrew all her applications saying she 
no longer trusted the court system. I do not have any authority to 
comment on the decision of the ``Amtsgericht'' Verden either favorably 
or unfavorably.
    Other German-American cases or problems with familial alienation 
due to conflict over visiting schedule are unknown to me. Although it 
is said by the German Central Authority that law cases in connection 
with the Den Haag convention of children-abduction in German-American 
relationships are fairly high, the actual trials have resolved disputes 
successfully. We believe this is partly the case because of the good 
cooperation between German and American authorities, which is 
symbolized in this year's March-meeting. I would be happy to personally 
discuss the matter with you to provide further clarification. I would 
however appreciate if you could supply more detailed information about 
the relevant cases you would like to discuss about.
    I would personally like to add another issue to our conversation, 
as how we both could help in avoiding and reducing the spread of right-
wing extremist/fascist material via post and or email/internet coming 
from the United States of America.
    I assume that this circumstance worries you as much as me, State 
Secretary Reno received various letters and proposals concerning this 
matter. It would be helpful and necessary especially with the 
Bundestags--questions on the record to move on on that issue.
            Kind regards,
                       Prof. Dr. Herta Daubler-Gmelin, MdB,
                                       Bundesministerin Der Justiz.

    Lady Meyer. Can I talk one more minute?
    Senator DeWine. Absolutely.
    Lady Meyer. I am just saying that, first of all, there were 
a lot of U.S. Army people in Germany and that there are many, 
many other cases, I know, around. But the problem is, the 
parents do not come out and they do not come out because while 
judicial proceedings are ongoing in Germany, they are afraid 
because they know that that is going to play a bad part legally 
against them and that is what was with my case. As soon as I 
spoke to the press, as soon as I started making noises in 
France and in England, the German courts used it against me and 
they used it as a reason for me not to see my children, saying 
I am a bad mother.
    But the problem, the issue is not really our ex-spouses, 
though I think the ex-spouses are still a very interesting 
phenomenon. A man who really loves his children, like my ex-
husband, would not deny the children the love of their mother, 
and I think a lot of parents--I mean, we have seen in the 
press, also, how some--I do not know the case, so I do not 
comment on it, but recently, somebody murdered his children 
rather than allow the ex-wife to see them. It was around here.
    But the point is that the problem is really not our ex-
spouses, it is more the courts. The fact that in some 
countries, the courts make orders that are not enforceable and 
we find ourselves outside of Germany not being able to do 
anything about it, which comes back to the Hague Convention.
    I think the Hague Convention is an international convention 
that was signed and countries should abide by it 
internationally. They should not hide behind their judicial 
independence, because in my case, as in all the other cases, 
for the moment, the German authorities have consistently 
answered that the German courts are independent and the German 
judicial system cannot intervene in their courts. So we are in 
a catch-22 situation.
    I think this is the main point that I want to make, is that 
there is a problem of some countries not abiding by the 
international convention, some countries giving reasonings 
which I think are absolutely not acceptable, and that this 
basically is an issue which is a human rights issue, that a 
parent like Joe Cooke, like myself, and like the 34 other 
parents, have no access, no information, nothing on our 
children. This is a human rights issue and I would like some 
way for it to become a human rights issue officially.
    Senator DeWine. Thank you very much.
    [The prepared statement of Lady Meyer follows:]

                Prepared Statement of Catherine I. Meyer

 The 1980 Hague Convention on the Civil Aspects of International Child 
                               Abduction

                 i. the purpose of the hague convention
    The 1980 Hague Convention on the Civil Aspects of International 
Child Abduction (the Hague Convention) is a world-wide convention 
designed to secure the prompt return of abducted children who have been 
removed from, or retained outside, their country of habitual residence, 
so that any subsequent welfare issues relating to the children can be 
decided in the home jurisdiction.
    The Hague Convention is designed to discourage child abduction and 
to ensure ``the protection of children against the harmful effects of 
their wrongful removal or retention.'' It is not intended to pass moral 
judgement. Most importantly it is not concerned with the merits of a 
custody case. Criticisms or complaints about the custodial parent or 
the terms of a custody award, are matters to be dealt with by the 
jurisdiction of the child's habitual residence. The paramount objective 
of the Hague Convention is to return the child 11promptly'' and to 
confirm the jurisdiction of the country of origin in custody matters.
    Save in exceptional circumstances (see Article 13b), the Convention 
is based on the assumption that it is in the child's best interest to 
be returned quickly to its country of habitual residence. This ensures 
that the courts of that country--which are better placed to do so--can 
determine the issues relating to the child's future. The abducting 
parent cannot then profit from the abduction by choosing one 
jurisdiction over another in the hope of reversing previous custody 
decisions.
              ii. the problem: inconsistent application\1\
---------------------------------------------------------------------------
    \1\ My personal experience and that of the cases I am presenting 
today are with Germany. This explains the focus of this paper. But of 
course the problem is not confined to Germany.
---------------------------------------------------------------------------
    For the Hague Convention to work effectively in its dual purpose of 
discouraging abductions and returning abducted children promptly to 
their country of habitual residence, it must be consistently 
interpreted and enforced.
    But, in the past few years there has been growing concern that the 
effectiveness of the Convention is being undermined by the failure of 
some signatory states to fulfill their obligations.
    One of the reasons is that judicial systems lie at the heart of 
national sovereignty. This often inhibits cross-border co-operation, 
which requires the competence of national courts to be limited by 
international obligations. The issue of child abduction is a prime 
example of the limitations of international co-operation in the 
judicial area.
    The Forum on International Child Abduction held in Washington on 
15th and 16th September 1998, under the auspices of the National Center 
for Missing & Exploited Children (NCMEC) and opened by Chairman Ben 
Gilman identified the major weaknesses in the Hague Convention; 
weaknesses, which some signatories exploit to avoid returning abducted 
children to their country of habitual residence. The NCMEC's report on 
the Conference pointed in particular to three problems: the systematic 
use of the exception in Article 13b (``the loophole clause''), the 
slowness of proceedings and the non enforcement of court orders by some 
countries.
1. Article 13b defence--the loophole clause
    The exception to the requirement for the immediate return of the 
child to the country of habitual residence is to be found in Article 13 
of the Convention.

``The judicial or administrative authority of the requested State is 
not bound to order the return of the child if''

Article 13a: * * *.

Article 13b: ``there is a grave risk that the childs return would 
expose him/her to physical or psychological harm or otherwise place the 
child in an intolerable situation.''

Alinea 2: ``The judicial or administrative authority may also refuse to 
order the return of the child if it finds that the child objects to 
being returned and has obtained an age and degree of maturity at which 
it is appropriate to take account of its views''.

          Grave risk: The Hague Convention provides limited defences 
        based on welfare considerations--a court has the discretion not 
        to return an abducted child if returning it would place the 
        child at ``grave risk of psychological or physical harm'' or 
        put it in an ``intolerable situation''. These are strong terms 
        and they are meant to apply in extreme circumstances only. The 
        precedent case of Friedrich v. Friedrich (U.S. Appeal's Court--
        6th District, 1996) established that ``grave risk of 
        psychological or physical harm'' could only apply to a 
        situation where a child would be returned to a zone of famine 
        or war or to a situation of serious abuse or neglect.
          Childs objection: The Hague Convention also provides a 
        limited opportunity for the child to be heard provided it has 
        obtained an ``age and degree of maturity'' at which it is 
        appropriate to take its views into account. But a main 
        intention of this article was to draw a clear distinction 
        between a child's objections, as defined in the article, and a 
        child's wishes as commonly expressed in a custody case. This is 
        logical, given that the Convention is not intended as an 
        instrument to resolve custody disputes per se. It follows, 
        therefore, that the notion of ``objections'' under Article 13b 
        is far stronger and more restrictive than that of ``wishes'' in 
        a custody case.

    In the United States a restrictive judicial definition to Article 
13b has been given in the Friedrich v. Friedrich precedent case. In 
England, the Consultation paper on Child Abduction published in the 
February 1997 issue of the British Family Law Journal reported that the 
High Court has taken a policy decision to approach Article 13b with 
great caution (in particular against the risk of indoctrination by the 
abducting parent) and, even if a child were found to object to a 
return, to refuse a return only in an exceptional case. (See also the 
precedent Court of Appeal case C (a Minor) 23 April 1999 FAFMF 1999/
0306/2).
    But whereas the intent of the Convention is not to allow this 
objection except in the most narrowly defined circumstances, in some 
countries--notably in Germany--it has become virtually the rule. The 
Lowe Report of 1996 found that every time the child's ``objections'' 
was raised as a defence, a return order was refused by the German 
courts (even when children as young as 3 and 5 apparently stated an 
``objection'' to their return).
    In 1996, the Lord Chancellor's Department (English Central 
Authority) issued a report naming Germany as the worst offender with 
regard to the Hague Convention. The report said that in the previous 
year, 17 cases (from the jurisdiction of England & Wales only) led to 
formal requests to Germany, yet none resulted in a judicial return. The 
Lord Chancellor's Department accused the German courts of hiding behind 
legal technicalities to override their obligation to repatriate 
abducted children.
    In France, where the problem is substantially larger than in 
England (France and Germany, having a common border), President Chirac 
has on several occasions raised his concern over Germany's failure to 
return children abducted from France. In December 1998, the President 
talked about ``the law of the jungle'' following the violent abduction 
of two children from French territory by men hired by a German father. 
(There could be no more compelling example of the dangerous 
consequences of allowing possession to become 9/10th of the law in 
cases of international child abduction). The French Minister of 
Justice, Madame Elisabeth Guigou, declared in March 1999 that there 
were ``cultural problems'' with Germany that needed to be overcome.
    Similarly, in the 34 cases of American parents (involving 42 
children) that I am presenting today, the notions of ``psychological 
harm and/or the child's objection'' have been consistently used to stop 
the return of abducted children and then to deny access to them. In all 
our cases there is a striking uniformity in the arguments used by 
German courts and authorities. For example:

  <bullet> The child is better off with the German parent (by 
        implication, the better parent) and the victim parent is in no 
        position to take care of the child. Therefore returning the 
        child to the U.S. would cause it ``psychological harm''.
  <bullet> The child does not want to leave Germany and it ``objects'' 
        to returning to the USA (in the cases of Joseph Cooke, Jeffrey 
        Cook, Joseph Howard and Edwin Troxel, the children were less 
        than six years old).

    It is interesting to note that the arguments used by German courts 
to justify not returning a child are often contradictory: for example 
``the mother works and can therefore support the child'' when a German 
mother is the abductor (case of James Rinaman) but ``the mother works 
and therefore has no time for the child'' when the mother is the 
foreign victim parent requesting a return (cases of Ildiko Gerbhash and 
Catherine Meyer). Similarly, when a German mother is the abductor the 
German courts argue that it would cause the child ``severe 
psychological damage'' to be separated from its mother, but when the 
mother is the foreign victim parent this argument no longer applies. 
Instead, it is argued that it would cause the child ``severe 
psychological damage'' to be separated from its new environment.\2\
---------------------------------------------------------------------------
    \2\ It should be noted that the precedent setting case, Friedrich 
v. Friedrich, Federal Dist. of Ohio (Remand Division), 1994 ruled that 
this objection could not apply since the mother could return with her 
child to its country of habitual residence and thus settle the problem 
of separation from her child.
---------------------------------------------------------------------------
    Used in this manner, Article 13b delivers children into precisely 
the danger from which the Hague Convention is supposed to protect them.
    Indeed, a common thread in all too many cases is the sustained, 
vengeful effort of the abductor to deprive the other parent of contact 
with the child to the maximum degree possible. The aim in fleeing one 
judicial system to another is to reverse permanently previous custody 
decisions and destroy the other parent's relationship with the child.
    When parents abduct children, they are obviously not going to speak 
well of the other parent, saying that he/she still loves them and wants 
to see them. On the contrary, as in my case, the children are told that 
their other parent is a bad mother or father, who has abandoned them 
and could see them at any time if only he or she wanted to.
    Children who are abducted will often have already suffered from 
their parents' separation. But in addition they will experience the 
trauma of being suddenly snatched from the security of a familiar 
environment, friends, school, grand parents--usually at an age when the 
breakdown of a family relationship is hard to understand. They do not 
know what is happening or why. Situations are worse if the abducting 
parent is hiding from the police or taking precautions against re-
abduction--when the child realises there is a state of war between its 
parents. The child becomes confused and angry. It is traumatised by the 
loss of one parent. Its greatest fear becomes not to lose the remaining 
parent.
    This is similar to the ``Stockholm Syndrome'' when hostages 
identify with their captors. But in child abduction cases, the syndrome 
is even more severe because of the age of the child-hostage, its 
relationship with the captor, and the latter's ruthless psychological 
exploitation of the relationship.
    Many studies have been done in the USA about what is known as 
``Parental Alienation Syndrome''--when one parent systematically 
denigrates the other--and its devastating effect on children. The child 
soon replaces the positive memories of the absent parent with hurt and 
anger at what it sees, and is encouraged to see, as abandonment and 
betrayal. In its craving to keep the love of the only remaining parent, 
the child ends up asserting vehemently that it does not want contact 
with the victim parent.
    This is not just psychologists' theorising. It is my actual 
experience and that of the many parents who have contacted me.
    What greater psychological harm, what more intolerable situation 
could there be for a child, than to be exposed to systematic 
indoctrination by one parent against the other; and, worse, to carry 
the main burden of responsibility in adult court proceedings for 
deciding between mother and father?
    Apart from perverting the original intent of the Hague Convention, 
asking a child in effect to choose between parents is a form of child 
abuse.
    In addition, the systematic use of Article 13b to legitimise 
abductions and refuse a return further extends the meaning of the Hague 
Convention to encompass in practice an unwarranted jurisdiction in 
custody matters--exactly the opposite of the Convention's aim. Certain 
consequences flow from this, all of them prejudicial to the victim 
parent.
    When a child is not returned, the abducting parent has the 
additional advantage of having subsequent proceedings dealt with in the 
country of retention rather than the country of the child's habitual 
residence. Case studies show that such court decisions, dealing with 
custody and access rights, can favour the abducting parent. This, 
combined with the fact that in some countries (for example Austria and 
Germany) judges are reluctant to enforce access orders, results in a 
situation where a parent is often deprived of all contact with the 
child. On this interpretation of Article 13, the Hague Convention 
becomes in effect the instrument of alienation between child and 
victim-parent--the very opposite of what was intended.
    Professor Elisa Perez-Vera provided the primary source of 
interpretation of the Convention in her Report of 1980: ``The 
Convention as a whole rests upon the unanimous rejection of the 
phenomenon of illegal child removals and upon the conviction that the 
best way to combat them at an international level is to refuse to grant 
them legal recognition * * * the systematic invocation of the said 
exceptions, substituting the forum chosen by the abductor for that of 
the child's residence, would lead to a collapse of the whole structure 
of the Convention by depriving it of the spirit of mutual confidence 
which is its inspiration''.
2. The delay factor--possession is 9/10th of the law
    The merit of the Convention is supposed to lie in the speed of its 
proceedings. The unusually rigorous limits on defences cannot otherwise 
be justified as being in the best interest of the abducted child. 
Lengthy proceedings would also give abductors a further advantage by 
allowing them to indoctrinate the child against the left-behind parent 
(for the purpose of Article 13b) and by generating a new argument, 
namely that the child is now settled in its new environment and should 
not be moved again.
    Since Article 13b is an exception to the requirement for the 
``immediate return'' of the child, it stands to reason that an abductor 
will usually use it as a defence.
    The abducting parent will usually try to slow down the process, and 
introduce issues and evidence which would expand and lengthen what 
should be summary proceedings. It is quite contrary to the purpose of 
the Hague Convention for states to permit such an expansion to impede 
the speedy resolution of the request for return. (See Article 11: ``The 
judicial or administrative authorities Of Contracting States shall act 
expeditiously in proceedings for the return of children''. It 
stipulates that if an application is not determined within 6 weeks, an 
explanation may be required of the court of the requesting state).
    But, some countries are markedly slower in dealing with Hague 
applications than others. For example, judicial returns take on average 
5\1/2\ weeks in England versus 26 weeks in Germany, while judicial 
refusals take 11 weeks versus 36 weeks (during which contact with the 
children is difficult, if not impossible).\3\
---------------------------------------------------------------------------
    \3\ The Lowe Report, 1996.
---------------------------------------------------------------------------
    The length of proceedings is clearly a major problem, where 
complaints are commonly made about Germany. There seem to be two basic 
reasons for the delay: the first is that Hague applications are not 
accorded top priority and the second is that Hague Convention hearings 
are heard by inexperienced judges and start at the Amtsgericht (lower 
court) level.
    In countries where Convention cases are heard centrally--at the 
high court level, as in England & Wales--by a small number of 
specialist judges, the system works well. Cases are dealt with 
expeditiously, based on paper evidence and without the child's view 
being usually heard (i.e. approaching article 13b--``the child's 
objections''--with great caution). Judges usually make a decision to 
return the child, relying on the court of habitual residence to make a 
fair decision at any subsequent custody hearing.\4\
---------------------------------------------------------------------------
    \4\ In England and Wales, Convention cases are exclusively heard 
centrally by a small number of specialist judges--17 at present. 
Conversely and until very recently, all lower courts (over 800 of them) 
had jurisdiction to hear Convention cases in Germany. Cases were 
therefore heard in the locality chosen by the abductors (usually their 
hometown).
---------------------------------------------------------------------------
    In countries were Convention cases are first heard at tile lower 
level, they tend to be slow and dealt by judges who are inexperienced 
and/or unwilling to uphold the difference between proceedings under the 
Hague Convention and normal custody cases. As a result, children are 
usually not returned.
    Since an abducting parent will usually, within the framework of 
Article 13b, level allegations against the other parent and request 
that oral evidence be heard, it is important that courts do not treat 
these Article 13b objections as ``a merit of custody'' argument. Such 
considerations are meant to be reserved to the court of the child's 
habitual residence. But in Germany, courts have shown themselves 
ignorant or careless of their obligations under the Convention. 
Underlying this is a distrust of foreign courts.
    Amtsgericht (lower court) decisions can then be appealed in the 
Oberlandesgericht (high regional court) which causes further delay in 
the proceedings. Appeals can take several months to decide and judges 
are usually not more experienced. Hague applications are again treated 
no differently to normal custody proceedings. But even an appeal ruling 
that the child should be returned does not end the proceedings, as the 
appellate courts have no power of enforcement.
    Under German Family law, children's views are required to be taken 
into account and it is normal for children, even quite young, to appear 
in court. The child's attendance at the court lies at the judge's 
discretion but it is not unknown for children as young as 3 years old 
to participate in court proceedings. Court procedures nearly always 
involve the Jugendamt Youth Authority) who are asked to interview the 
children and report to the court. This causes further delay in the 
proceedings and gives an additional advantage to the abductor, by 
providing him with a new argument, namely that the child has ``adjusted 
to its new environment'' and that it would be ``unsettling'' to return 
it to its country of habitual residence. In the case of Joseph Cooke, 
these arguments have been taken to such extremes that a German court 
has committed his two children (who were 3 and 5 at the time) to the 
care of German foster parents rather than return them to their natural 
father in the USA.
    In most cases, the Jugendamt does not make inquiries pertaining to 
the child's habitual residence and it is the abductor, not the victim 
parent, who is interviewed. But, more importantly, the involvement of 
the Jugendamt fundamentally violates the spirit of the Hague 
Convention. The Convention is clear: ``In considering the circumstances 
referred to in article 13b, the judicial and administrative authorities 
shall take into account the information relating to the background of 
the child provided by the Central Authority or other competent 
authority of the child's habitual residence''--not as is the practice 
in Germany, of the child's country of retention.
    Although listening to children is by no means the same as 
considering their objection under Article 13b of the Convention, the 
child's presence is likely not only to lengthen the proceedings, allow 
judges to treat the objection under Article 13b as a ``merit of 
custody'' but also put the child at risk of being indoctrinated by the 
abducting parent.
    Indeed, when children are interviewed, it becomes of paramount 
importance to abductor-parents that their children say ``the right 
thing'' to the judges and the Youth Authority. This puts an even higher 
premium on placing psychological pressure on abducted children.\5\ But, 
the German courts refuse to take into account the abductor's 
opportunity to programme the children's emotions and are unwilling to 
admit independent expert opinion to examine children and the degree to 
which they have been indoctrinated (Parental Alienation Syndrome).
---------------------------------------------------------------------------
    \5\ Stanley Clawar, PhD., C.C.S. and Brynne Rivlin, M.S.S. book 
``Children held Hostage: Dealing with Programmed and Brainwashed 
Children'' Published by the American Bar Association is probably the 
best research made to date on how easy it is to programme children.
---------------------------------------------------------------------------
3. Non-enforcement
    Without effective enforcement, the object of the Hague Convention 
cannot be realised. The most critical aspect of enforcement is that 
when the summary process has taken place and a return has been ordered, 
the power exists to carry out and enforce that order.
    In Germany (and I believe in Austria) Under S. 33 of the German law 
of Non-Contentious Matters enforcement powers are vested exclusively in 
the court of first instance. This means that the high court decision to 
return the child can only be enforced by the Amtsgericht judge who 
originally heard the case. This enforcement process can take several 
months and does not always end in a return being made. There have been 
several notable examples when an Oberlandesgericht ordered a return and 
the lower court in effect refused to enforce it.\6\
---------------------------------------------------------------------------
    \6\ The Famous Nusair cast (with England) and Tom Silvester's case 
(with the USA).
---------------------------------------------------------------------------
    But even at the lower level, the system does not work well as it is 
customary for judges to make decisions without ensuring that their 
orders are actually enforced. This in turn allows the abductor to 
abscond with the child (e.g. cases of Sanjas Das, Catherine Meyer, 
James Rinnaman, Kenneth Roche where the Amtsgericht return orders were 
never enforced).
    The next problem is that in several Convention countries, abduction 
is not considered a criminal act--again in Austria and Germany.
    In England there is a criminal statute which covers child 
abduction. It is the Child Abduction Act of 1984. The penalty on 
conviction can be a substantial term of imprisonment. The act probably 
has a deterrent effect in itself but it also allows the full resources 
of the police to be employed to look for a missing child and the 
abducting parent. The police do not need to wait for court orders and 
can seek the help of Interpol. It also allows the UK to seek 
extradition of abductors where there is an appropriate extradition 
treaty. When abductors flee to a weak Hague country, with slow or 
irresolute courts and a poor enforcement system, it is often speedier 
and more effective for a UK citizen to use the criminal offence and 
seek an extradition warrant for the parent to be arrested and then 
lawfully to recover the child.
    In England, there is almost always a desire at every level to 
search with utter and unrelenting vigour for a missing child, but there 
can be a reluctance to prosecute a parent for abducting, once the child 
has been recovered. The reason is that the imprisonment of the parent 
is probably a further punishment of the innocent abducted child, who 
probably loves both parents. That is why prosecutions need special 
authority, and are comparatively rare. The real use of the criminal 
statute is that it allows the full range of powers for the pursuit of a 
wanted criminal to be used to find the abductor, and more importantly, 
the child. Once that has been achieved, and once the family court has 
decided what should happen in the child's best interest, it may be 
unnecessary or inappropriate to prosecute.
    The Lord Chancellor (as the Central Authority) tends to delegate in 
individual abduction cases to the lawyers appointed by him. They will 
certainly seek to liaise with police.
    Specialist police groups, such as those concerned with extradition 
have highly developed expertise, which can be quickly employed. Special 
Branch in particular can track the international movement of abductors, 
and monitor and control movements at UK airports, with a high degree of 
effectiveness.
    Finally, the Tipstaff, the enforcement arm of the High Court, will 
routinely act through the police, over which it has authority, and when 
an order is made by a High Court judge to search for a missing child (a 
`SEEK AND LOCATE' order), that order can instantly be faxed to every 
police station in the country.
    But this system does not apply in Germany since first of all it has 
no extradition treaties and secondly, abduction is not a criminal act--
unless a child is taken out of Germany.
4. Additional problems with the Germany legal system
    The German authorities tend to be inefficient in locating abducted 
children. As a result, some victim parents cannot initiate Hague 
proceedings (cases of John Dukesherer, Joseph Howard). Furthermore, 
under German law it is possible to change a child's surname without the 
approval of the father or for a child to be adopted without the consent 
of both parents.
    Many victim parents complain that the Berlin Central Authority 
offer them little, or no help. Victim parents are also required to pay 
DM 2,000 by the Berlin Central Authority to allow them to initiate 
court proceedings. Some parents cannot afford this to begin with 
(Robert James, Taylor Tali). German courts also tend to charge for the 
hearings themselves. This, combined with the costs of lawyers, the 
translating and travel expenses, makes it impossible for most parents 
to continue with lengthy proceedings which may last years.
    Under German law it is possible to make ``ex-parte'' emergency 
custody orders, that is to say, without the knowledge or presence of 
the opposing party (cases of Rebecca Collins, Joseph Cook, James 
Filmer, Joseph Howard, George Uhl, Donald Youmans).
    The notion of German domicile can also be established in matter of 
months (cases of Mark Wayson, George Uhl). As a result, German courts 
are able to claim jurisdiction over that of the country of habitual 
residence and some Hague 7 applications have been rejected (case of 
Joseph Howard).\7\
---------------------------------------------------------------------------
    \7\ It should be noted that the precedent setting case of 
Friederich v. Friederich established that habitual residence is not the 
same as legal residence; that is to say the court must examine past 
experience and not future expectation.
---------------------------------------------------------------------------
    Since German courts consider a child German if one of its parents 
is German, decisions tend to favour the German nationality over others. 
Germany still operates the ``blood law'', based on the 1913 Imperial 
Naturalisation Act which grants citizenship from parent to child on the 
basis of bloodline rather than birthplace or residence. This also 
allows German authorities to argue that the Vienna Convention governing 
consular access to U.S. citizens does not apply.
    Access is made as difficult as possible and often denied 
altogether, drawing on arguments based either on the ``fear of re-
abduction'' or/and ``the child's will''. Victim parents are then told 
that it would be ``emotionally unbearable'' and ``against the child's 
interest'' to have contact with them. In my own case, the German court 
has refused to implement access agreements made in the court itself 
which my ex-husband has with impunity refused to honour. Similarly, 
grandparents are denied all access. My 87-year-old father may never 
live to see Alexander and Constantin again.
    The main complaints however remain, that, under German law, access 
rights are not enforceable; and the custodial parent has all the 
rights--the other parent has none.
        v. international child abduction--what needs to be done:
    In an ideal world, a consistent, uniform and rigorous approach to 
enforcing the Hague Convention would solve the problem of international 
child abduction. But we have to be realistic. That will not happen any 
time soon. So, we need another remedy in the meantime.
    It is not for me as a non-American to say what should be done in 
this country. But from my experience of the last five and a half years, 
I am clear that certain things are necessary if these terrible 
miscarriages of justice are to be rectified.
    It has to be understood by the authorities of the country of the 
victim parent that child abduction is not a private legal matter in 
which they have no role to play. To deny a parent access to his/her 
children is to deny a human right. To refuse to return a child promptly 
to its place of habitual residence is in the overwhelming number of 
cases to violate the Hague Convention. To steal a child across 
frontiers must be seen as a felony.
    All this gives ample grounds for the government of the victim-
parent to intervene forcefully with the government of the abductor, 
where the courts in that country are unwilling or unable to deliver 
justice.
    As Senator DeWine said in an interview with Reader's Digest in 
September 1999: ``We go after countries that steal our products or 
violate patent and copyright laws, but not when they are supporting the 
theft of American children.'' And as Hillary Rodham Clinton said at the 
launch of ICMEC in April 1999: ``Ultimately these matters are not just 
about individual children and the pain of victim parents, but they 
really are a question of human rights.''
    In today's world it is no longer acceptable for a Government to 
hide behind the independence of courts when human rights abuses or 
gross miscarriages of justices.
    What should we be saying to governments, such as the German?
    First, that the miscarriages of justice the past must be reviewed 
and set right. In almost all cases that means, at the very least, 
enforceable rights of access in conditions which are not dictated by 
the abducting parent.
    Second, that procedures and mechanisms are put in place that ensure 
these miscarriages of justice do not recur.
    We have to remember that in virtually all these cases the problem 
is not so much the behaviour of ex-spouses and ex-partners, but the 
failure of the courts to deliver justice. The courts are the problem. 
It is they who are responsible for the miscarriages of justice. 
Governments can no longer wash their hands over them.
    In the cases I am presenting today, German courts and authorities 
have consistently shown themselves heavily biased towards the German 
parent; either ignorant or careless of their obligations under the 
Hague Convention; repeatedly reliant on arguments based on ``fear of 
re-abduction'' or the ``children's will'' severely to constrain access 
to children; slow to call hearings and to give judgements; ready to 
make ``ex-parte'' decisions, without informing, or hearing the 
witnesses from, the non-German side; unwilling to admit independent 
expert opinion to examine children and the degree to which they have 
been indoctrinated (Parental Alienation Syndrome); and unwilling to 
enforce access agreements made in court.
    As a result, Rebecca Collins has not seen her children since 1994; 
Glen Gebhard since 1994; Joe Howard since 1994; James Rinaman since 
1996; Kenneth Roche since 1991; Edwin Troxel since 1997; Mark Wayson 
since 1998; Anne Winslow since 1996; Donald Youmans since 1994; Joseph 
Cooke's two children have been placed in foster care and he has not 
seen them since 1994 and John Dukheshere and George Uhl do not even 
know the whereabouts of their children * * * to name but a few. None of 
us have received any information on our childrens welfare. And to top 
it all, the German courts often demand child maintenance payments from 
the victim parents!
                              vi. my case
    In 1984, I married a German medical doctor, Hans-Peter Volkmann, in 
London and our first son, Alexander, was born a year later. We then 
moved to Germany for the sake of my then-husband's career and I gave up 
my own in the City of London. Our second son, Constantin, was born in 
1987. Our marriage subsequently broke up and in 1992 we agreed to a 
legal separation. I was awarded custody of the children (who were to 
live with me in London) and Volkmann was granted generous access 
rights.
    At first, all worked well. The children continued their schooling 
at the French Lycee in London (Constantin coming first in his class) 
and they spent vacations with their father in Germany. I rebuilt my 
career in the City of London so that I could support my children. By 
1994 I had managed to obtain a senior position in a bank and to buy a 
comfortable apartment for the three of us.
    In July 1994, the children left as usual for their summer vacations 
with their father in Germany. Without warning, four days before they 
were due to return to London, their father informed me that he was not 
sending them back. He then disappeared with the boys. For the next four 
weeks, I had no idea of their whereabouts, despite police searches.
    In August 1994, the High Court of England & Wales ordered the 
children's ``immediate return'' to Britain under the terms of the Hague 
Convention. The children were made ``Wards of Court''. In September 
1994 the appellate court of Verden (Lower Saxony) upheld the English 
decision and also ordered the ``immediate return'' of the children. But 
in defiance of the court order, Volkmann bundled the boys into a car 
and vanished. The local police and the Court bailiffs were unwilling to 
help.
    The following day, Volkmann lodged an appeal in the higher court of 
Celle, a nearby town. To my dismay and astonishment the judges made a 
provisional ruling that the children should remain in Germany until the 
appeal was heard because ``otherwise the mother could hide them in, 
England''. Still worse, the ruling was made ``ex-parte''; that is, 
without informing me or my lawyers so that I was left unrepresented at 
the hearing.
    In October 1994, the Celle court reversed the earlier English and 
German decisions on the grounds that it was the ``children's wishes'' 
to remain in Germany, so exploiting the so-called loophole clause of 
the Hague Convention (Article 13b). The judges expressed the view that 
the children were German and that they had been suffering in a 
``foreign environment * * * especially since German is not spoken at 
home or at school; that they were taunted as Nazis.'' The judges also 
ruled that the children had attained an age at which it was appropriate 
to take their views into account ``since a 7 year old child faced with 
the decision to play judo or football, generally knows which decision 
to make''.
    The Jugendamt (Youth Authority) testified at both hearings that a 
return to the UK would cause the children ``severe psychological 
harm'', again taking advantage of the Convention loophole clause. The 
children had, they said, adapted to their new environment, Alexander 
felt himself German and the mother had no time for them because she 
worked. The Jugendamt took evidence only from the German side. Neither 
I nor anyone from the children's habitual environment in London was 
interviewed.
    At the time of the hearing, I had not seen or spoken to my children 
in over four months, during which they had been under the sole 
influence and control of their father and his family.
    The Celle court decision meant that in German law all further legal 
proceedings on custody and access had to take place on the abductor's 
home territory. The consequence of this has been that since 1994, I 
have never been able to gain normal access to my children.
    Between November and mid-December 1994, five applications to see my 
children were rejected on the grounds that I could ``re-abduct'' the 
boys and that in any case they no longer ``wished'' to see me. This 
went as far as to deny me access to the boys over the Christmas 
holidays. In January 1995, following my desperate attempt to see my 
boys in Verden, my ex-husband asked the court to transfer their place 
of residence to Germany on the false allegation that I had sought to 
re-abduct them. Despite a police report confirming that this was 
untrue, in my absence and without allowing me to file my defence, the 
court accepted my ex-husband's request. This was followed in March 1995 
by a decision of the Verden court, giving temporary custody of the 
children to my ex-husband, despite their being ``Wards of Court'' in 
England. The decision gave me only three hours access to my children, 
once a month, to be followed after 6 months by one day a month. The 
access visits had to take place either in my ex-husbands house or in 
the office of the Jugendamt.
    My ex-husband reneged on even these highly limited access 
arrangements. The court, far from enforcing them, cut back my 
visitation hours in yet another ``ex-parte'' decision in October 1995. 
Thus, a pattern was set which exists to this day: of the Court 
promulgating access arrangements, my ex-husband refusing to abide by 
them, and the Court refusing to enforce them.
    Despite every guarantee on my part, including the support of the 
British Consul General in Hamburg, the fear of abduction was 
consistently used, over the next few years, to deny me and my parents 
normal access rights. Between the summer of 1994 and December 1998 I 
managed to see my sons for only 12 hours under the most harrowing 
conditions: either, locked in my ex-husband's secluded house, under the 
supervision of a third party; or in the offices of the Jugendamt. All 
visits were broken off after less than two hours.
    In September 1997, Volkmann divorced me. My German lawyer strongly 
advised me not to fight for custody, saying that to facilitate access, 
it was in my best interest to move quickly to grant Volkmann a divorce 
and acquiesce in his getting custody. So, in exchange for giving him 
custody, it was agreed in court that I should have access to my 
children on ``neutral territory'', that is in Hamburg.
    But when, six long months later, the moment finally came for me to 
see my sons, Volkmann backed out at the last moment, stating that it 
was the ``wishes'' of the children not to see me and that they feared I 
would ``abduct'' them. The Verden judge refused to enforce the access 
agreement. It was only then that I discovered that while the custody 
arrangement was legally enforceable, the access agreement was not. It 
is extraordinary that a court can rule on divorce and custody while 
neglecting to protect a parents rights of access to his/her children.
    Further applications for access were rejected and the Verden judge 
ruled that she would not decide on future access rights without first 
holding yet another hearing. This would entail, she said, her seeing 
the children and once more requesting a report from the Jugendamt.
    The Jugendamt took two months to file the report. I was not 
interviewed. Their recommendation was that I should see my children 
once every two months for five hours in a priest's house in Bremen. 
This was as inhumane as it was impractical, since by now I was living 
in the USA. By strange coincidence the recommendation was almost 
identical to a proposal Volkmann had made me the previous year.
    It took until December 1998 to secure the promised hearing; i.e. 15 
months after the divorce hearing which should have given me enforceable 
access rights. The Verden court ruled that the children should get 
accustomed to me ``little by little'' and that it would be too 
``stressful'' for them to see their mother who after a four year 
separation was practically a stranger to them. The judge once again 
rejected my argument that the children had been deliberately programmed 
against me and that for us to re-establish a relationship, what was 
needed from the start was continuous contact over several days.
    The judge established a programme of visits, each of which would be 
longer than the last and winch would culminate in the children visiting 
me in Washington in August of this year. My husband and I, travelling 
from the U.S., saw the boys in December (3 hours), January (one day) 
and February (2 days). Each visit was marked by increased tension on 
the part of the boys. My husband, Christopher, who had never before met 
his step-sons, was shocked to see how in only two months they changed 
from being children increasingly excited to see their mother to 
becoming sullen zombies monotonously repeating the same ``talking 
points'' against me.
    Predictably, a week before the April visit (the first which would 
involve the children being in continuous contact with me, including 
overnight), Volkmann sent a fax to say that he would not bring 
Alexander and Constantin to Hamburg because this was against the boys' 
``wishes'' and that it could not be in their ``best interest'' to be 
forced.
    The judge, once again, refused to enforce her decision, stating 
that a new hearing would have to be held. And before then, she needed 
to see the children and get another report from the Jugendamt!
    We were then informed that the judge had left on indefinite 
maternity leave and that months would pass before a new judge would be 
competent to hear my case. Meanwhile, a temporary judge rejected a 
further application requesting the enforcement of the May and 
subsequent visits. He claimed to be satisfied that Volkmann was acting 
in good faith.
    As of today, I have no access rights whatsoever since the schedule 
of visits established in the December 1998 decision is at an end. The 
German Minister of Justice recently wrote to our Ambassador in Bonn 
saying that the courts were independent and that she could not 
intervene. Since it is the courts, not my ex-husband, which are the 
final arbiter over whether I can see my children, I find myself in an 
impossible catch-22 situation.
    The German courts and the German authorities have rejected all my 
requests to have my children examined by an independent psychologist 
specialising in Parental Alienation. In, five years, I have received 
one letter and one school report. I have no information on my 
children's life, well being, schooling, or any other aspects of their 
existence. Under German law, I have no rights as a non custodial parent 
so confirming a letter I received from the Bundeskanzerlei's office 
(German Chancellor's office) in 1995 stating that: ``Under German law, 
it is impossible to go against the wish of the parent who has 
custody''. I have no rights as a mother. In 5\1/2\ years I have seen my 
sons 24 hours.
    So the months pass, the years pass, and my children are growing up 
without a mother. Before my ex-husband abducted our children, they were 
allowed to see and love both their parents. Now, they are not.
    Has anyone proved that I am an unfit mother? No. Has anyone proved 
that I do not love my children? No. But, I am nonetheless denied the 
rights that even women in prison are allowed. My parents have been 
denied all access as well. My 87-year old father may never live to see 
to see Alexander and Constantin again.
    My children will be scarred for life and they may never recover 
from this experience. They have become confused and angry with me, 
because they have been told from the start that I have abandoned them. 
On two occasions, in 1994 and 1998, when I saw my sons and told them 
how happy I was to see them, Alexander replied: ``you lie. Daddy told 
us that you could come and see us whenever you wanted--but you never 
did''.
                                 ______
                                 

             Attachments to Statement of Catherine I. Meyer

                    cooke joseph--new york/stuttgart
Number of Children: 2 children
Age(s) at Abduction: 1 and 2\1/2\
Current Age(s): 8 and 9\1/2\
Hague Convention case: Yes
History
    Parties married in the USA in 1989. Father was stationed in 
Stuttgart (from 1985 to 1989) while serving in the U.S. Army. In July 
1992 mother took the two children to Germany to visit her family. 
Informed father that she was not coming back and that he would never 
see his children again. Father tried in vain to find the whereabouts of 
his children.
    Two months after her arrival in Germany mother was admitted to a 
clinic and asked the Jugendamt (Youth Authority) to place the two 
children in foster care. Neither the mother, nor the Jugendamt informed 
the children's father. In January 1993 mother returned to the U.S. 
leaving the children behind. Father was told different stories 
(including that the children were with the mother in California) and 
only found out in September 1993 that his children had been given by 
the Jugendamt to a foster family (who have other children in care and 
receive money from the state). Father immediately notified the foster 
parents that he wanted to take his children back to the USA. Foster 
parents obtained an ``ex-parte'' order prohibiting him to do so. Father 
had no alternative but to go to court.
    Divorce pronounced by the Supreme Court of Queens County, New York 
in January 1994. Father awarded full custody (with mother's consent). 
In April 1994, Supreme Court of the State of New York ordered immediate 
return of the children to the U.S., under the terms of the Hague 
Convention. Return denied in March 1995 (a year later!) by the lower 
court of Singen. Judge ruled that it would cause the children ``severe 
psychological damage'' to be separated from the foster parents and be 
returned to the U.S. Court also told father that he first needed to get 
reacquainted with his children. The father stayed in Germany but only 
able to visit his children at the foster parents' house who obstructed 
the visits.
    Appeal rejected in June 1995 by the county court of Konstanz. (The 
mother had now also requested that the children be returned to their 
father in the U.S.). Court ruled ``ex-parte'' that the children 
``objected to a return'' (they were 4 and 5 at the time) and that it 
would cause them ``severe psychological damage to be returned to the 
U.S.''. Children were deemed to be adapted to their new environment and 
``to subject the children to a language shock'' (since they don't speak 
English anymore) * * * ``contradicts the children's welfare most 
strikingly''. No specific access rights given to father.
    Appeal rejected by the Karlsruhe Court (last appeal possible) in 
October 1995. Judges ruled that the foster parents have equal rights to 
the natural father and that it would cause ``severe psychological 
harm'' for the children to be separated from them, especially ``since 
they have now been in their care for the last two and half years''.
    Father fought further through the German courts but to no avail.
Current status
    Father has not seen his children since 1994.
                                 ______
                                 
           gebhard glenn--california/hoechst (near frankfurt)
Number of Children: 2 children
Age(s) at Abduction: 2 years old (twins)
Current Age(s): 7 years old
Hague Convention case: No
History
    Father is American and the mother is a Mexican national. Parties 
married in the U.S. in 1992. The children were born in Germany, moved 
to the U.S., and then back to Germany. In 1994 parties separated. 
Divorce pronounced in Germany in July 1995. The German court took 
jurisdiction over the case, and then gave custody to the mother. Access 
rights were granted to the father. The father was never able to 
exercise his access rights because the mother refused to present the 
children. Amtsgericht (local court) Hoechst refused to enforce access 
rights of father.
    In view of his ex-wife's continual refusal to allow him court 
ordered visitations, and the court's unwillingness to enforce their own 
visitation orders, Gebhard decided to lodge an appeal at the 
Oberlandesgericht (High court) Frankfurt seeking a custody transfer in 
June 1997. His demand was rejected in September 1998 (over a year 
later). The judge's opinion was that father's presence would upset the 
children, and that he should regain contact with them ``little by 
little'' not ``overwhelm them''.
Current status
    The father has not seen his children since August 1994 and has 
completely lost contact with them. He has travelled to Germany over 20 
times in the hope of seeing his twins but to no avail. Father has 
applied for and received a Fulbright Senior Scholarship to teach at a 
university in the Berlin area during the 1999-2000 academic year (he is 
an Assistant Professor in Loyola Marymount University in Los Angeles, 
California) in order to be closer to his children. He refuses to give 
up hope.
                                 ______
                                 
            gerbatch ildiko--california/oyten, lower saxony
Number of Children: 2 children
Age(s) at Abduction: 10 and 7
Current Age(s): 12 and 9
Hague Convention case: Yes
History
    Parties married in the USA, then moved to Germany. Husband had an 
affair and told wife to leave. She returned to the U.S. with the 
children. Divorce hearing in the USA in June 1994 (father present). 
Mother obtained custody; father granted access rights (7 weeks per 
annum). In the summer of 1997 children went to Germany to visit their 
father. Father illegally retained them. August 1997, the Superior Court 
of Vista, San Diego issued a warrant and ordered ``immediate return'' 
of the children under the terms of the Hague Convention.
    Return denied by Amtsgericht (lower court) Achim on basis of 
Article 13b in September 1997. Court ruled that the children 
``objected'' to their return to the USA; that Naomi (10) was old enough 
to decide; and that younger sister should not be separated from her.
    Jugendamt (Youth Authority) Verden stated that the children 
``objected'' to a return to the U.S. (mother not interviewed); that 
they felt more free in Germany; that the mother had no time for them 
since she worked and that the children had adapted to their new 
environment (after 7 weeks holiday and notwithstanding that they had 
lived 3 years in USA).
    Appeal rejected by Oberlandesgericht Celle on the basis of Article 
13b in December 1997. The judges considered that the children were old 
enough to decide because, ``after all a 7 year old can already decide 
whether it wants to spend its holiday at the sea-side or the country 
side''. Jugendamt Verden reported the same and that it would cause them 
``severe psychological harm'' to be returned to their mother in the 
USA.
    Mother granted some visitation rights but managed to see her 
children only 8 hours in 1997 and 7 days in 1998. Following an access 
visit in Germany in August 1998, mother returned to the USA with the 
younger daughter.
Current status
    Eldest daughter still in Germany. Father applied for sole custody 
in German courts (awaiting decision) and made an application under the 
Hague Convention for the return of Isabella. Hague application has just 
been rejected by the U.S. courts (on the basis that father illegally 
retained both children initially). Mother has not seen Naomi since 
August 1998.
                                 ______
                                 
              howard joseph--arizona/worms (near koblenz)
Number of Children: 1 child
Ages(s) at Abduction: 5 years old
Current Age(s): 10 years old
Hague Convention case: NO--Hague Convention application not possible 
because whereabouts of child was unknown.
History
    Parties married in Germany in 1989 and moved to the USA a year 
later. On March 5, 1994 wife absconded from the family home with the 
child and all the furniture while father at work. Police, FBI and 
Missing Person's Bureau informed. Whereabouts of mother and child could 
not be traced.
    Mother applied for custody as soon as she reached Germany. April 
1994, Amtsgericht (lower court) Worms made an emergency order 
transferring temporary custody to the mother on an `ex-parte' basis 
``in the interest of the child''. The court ruled that ``in order to 
avoid the father's bringing the child to the USA and creating a fait 
accompli situation before legal proceedings had come to end, it is 
essential to legalise the stay of the child through the transfer of 
Parental Custody to the mother''. Father only advised of this decision 
one month later. Jugendamt (Youth Authority) wrote to father refusing 
to disclose the whereabouts of his child.
    November 1994 Amtsgericht Worms confirmed temporary custody to 
mother on an `ex-parte' basis ``because the father is so far away, his 
presence must be omitted for this hearing''. ``This decision is in the 
best interest of the child. The father lives in the USA and is 
therefore no longer in a position to exercise his custody rights''. No 
access provisions made but a demand for child maintenance served on 
father a month later.
    Jugendamt (Youth Authority) reported that the child ``objected'' (5 
year old) to a return to the USA and that it would cause it ``severe 
psychological harm'' to be returned. (Father not interviewed).
    December 1994 divorce pronounced in the USA on an ``ex-parte'' 
basis. Custody given to father and access rights granted to mother 
(every two week-ends and holidays).
    Amtsgericht Worms recognised U.S. divorce but ruled that it must 
decide on the final custody provisions: ``Since the marriage has been 
dissolved in the U.S., no decision regarding custody was passed''. July 
1997 Amtsgericht Worms ruled that ``in the childs best interest'' sole 
custody should be given to the mother ``since it is feared that the 
Plaintiff will take the child against its will to the USA''. No access 
rights granted to father but a demand for child maintenance was served 
on him a month later.
    5 Appeal rejected in December 1997 by Oberlandesgericht (High 
Court) Koblenz. Full and final custody confirmed to mother while access 
rights were to be discussed at a further hearing!
    April 1998 father finally granted access rights--but only in Worms, 
at the office of the Jugendamt, if he surrenders his passport 
``otherwise the father could take the child back to the U.S.''.
Current status
    Father has not seen his child since 5 March 1994. Father does not 
know the whereabouts of his child in Germany.
             meyer catherine--england/verden, lower saxony
Number of Children: 2 children
Age(s) at Abduction: 7 and 9
Current Age(s): 12 and 14
Hague Convention case: Yes
History
    Parties married in England in 1984 and moved to Germany a year and 
a half later. Parties separated in 1992. Mother obtained custody father 
granted access rights (minimum 8 weeks per annum). July 1994, children 
went to Germany to visit their father. Father illegally retained them. 
August 1994 the High Court of England & Wales ordered the ``immediate 
return'' of the children under the terms of the Hague Convention and 
made the children ``Wards of Court''.
    Amtsgericht (lower court) Verden ordered ``immediate return of the 
children'' in September 1994. But in defiance of the court order, 
father absconded with the children. No help from local police. Bailiffs 
unreachable. The following day, father lodged an ``ex-parte'' appeal at 
the High Court of Celle. Return order stayed (i.e. children ordered to 
remain in Germany) until the appeal is heard ``otherwise the mother 
could hide the children in England''.
    Return order reversed by the Oberlandesgericht (High Court) Celle 
on the basis of Article 13b in October 1994. Court ruled that the 
children ``objected'' to their return; the children were old enough 
because, ``after all a 7 year old can already decide whether it wants 
to play judo or football'', Alexander was suffering in England 
``because German was not spoken at home or at school'' and his younger 
brother should not be separated from him.
    Jugendamt Verden stated (for both hearings) that a return to the UK 
would cause ``severe psychological harm'' (mother not interviewed). 
Alexander felt German; the mother had no time for them since she worked 
and the children had adapted to their new environment (after 7 weeks 
holiday and notwithstanding that they had lived 2 years in the UK).
    Five demands for access rejected by Amtsgericht Verden because 
``the children objected'' and the ``mother could use the opportunity of 
a visit to re-abduct the children''. January 1995 `ex-parte' decision 
changed the children's residence to Germany. March 1995 temporary 
custody transferred to father although the children were still ``Wards 
of the English court''. Minimal access granted to mother (3 hours per 
month under supervision in father's house). Because of the children's 
long separation from their mother, it would be too ``overwhelming'' for 
them to see her for ``too lengthy a period or in surroundings to which 
they are not accustomed''. Visits blocked by father.
    Appeal (Hague proceedings) rejected by the Karlsruhe Constitutional 
Court (last appeal possible) in April 1995.
    September 1997 final sole custody given to father, minimal access 
rights granted to mother. Access blocked by father. Judge refused to 
enforce access rights and called for a new hearing. December 1998 court 
grants mother minimal access rights starting ``little by little'' not 
to ``overwhelm the childen''. Father reneged on the third visit (the 
very first which would have included an overnight contact). Again, 
court refused to enforce access, stating that a new hearing should be 
held. In May 1999 judge left on indefinite maternity leave.
Current status
    Mother only managed to see her children 11 hours between 1994 and 
1998 (under supervision) and twice in 1999. Currently, mother has no 
access rights whatsoever. The German Minister of Justice said that she 
cannot help because local courts are independent. There is thus no 
remedy left within the German system.
                                 ______
                                 
                rinaman james--washington dc/duesseldorf
Number of Children: 1 child
Ages(s) at Abduction: 15 months old
Current Age(s): 4 years old
Hague Convention case: Yes
History
    Parties married in Germany in September 1993 and moved to the USA 
in August 1995. (father was an officer in the U.S. army until 1996. He 
is now an attorney-at-law based in Florida). In June 1996 mother took 
the baby to Germany to visit her family for two weeks. To the father's 
total surprise mother informed him (by fax) that she was not coming 
back to the USA and that she wanted a divorce. Father applied for the 
``immediate return'' of the child under the terms of The Hague 
Convention.
    Amtsgericht (lower court) Duesseldorf-ordered the ``immediate 
return of the child'' in August 1996. Mother and child were not present 
at the hearing and the court decision was not enforced. Mother 
immediately lodged an ``ex-parte'' appeal at the Oberlandesgericht 
(High Court). Return order stayed (i.e. the children ordered to remain 
in Germany until appeal is heard).
    Return order reversed by the Oberlandesgericht (High Court) 
Duesseldorf in October 1996. An isolated statement (based on hearsay) 
was used to block the return of the child to the USA. The abductor's 
mother claimed that she had overheard a conversation between her 
daughter and her son-in-law in which he had supposedly agreed that the 
child could remain in Germany. (In Germany, it is possible to present 
new evidence on appeal). Ignoring the mother's original fax of intent 
(see first paragraph), the judges ruled that the child was not taken to 
Germany illegally after all.
    Jugendamt (Youth Authority) Duesseldorf recommended that sole 
custody be given to the mother, adding that ``the mother works and can 
therefore support the child'' and that ``the child is adapted to its 
new environment and is learning German''. Limited or no access rights 
should be granted to the father ``because it would be against the 
child's interest to spend time with him''. Indeed, it would be 
``emotionally unbearable'' in view of the child's ``age, the long 
distances and because its father is now a stranger to her due to their 
long separation.''
    October 1997, Amstgericht Duesseldorf granted father limited access 
rights and only if he surrendered his passport to the Jugendamt. Mother 
did not comply and appealed against the decision. In the meantime, 
court did not enforce access order.
    August 1998, the Oberlandesgericht Duesseldorf affirmed the 
Amstegricht's order of limited access to the father. Again, the mother 
did not comply. She then switched to another jurisdiction and the 
father was told that he needed to start new proceedings in Bonn to 
secure his access rights. In January 1999 he filed a new application at 
the Amstgericht Bonn. As of July 1999, father had not received a reply.
Current status
    Father has not seen his daughter since 1996. As in other cases, the 
German courts and the German authorities have repeatedly refused to 
allow an independent health and welfare check on the child. The first 
request was made by the U.S. State Department in June 1996. Instead, 
father was asked to pay child maintenance.
                                 ______
                                 
                    troxel edwin--arkansas/mannheim
Number of Children: 2 children
Age(s) at Abduction: 4 and 2 years old
Current Age(s): 6 and 4 years old
Hague Convention case: Yes
History
    Parties married in Germany in 1991 and moved to USA a year later. 
They separated in 1994. Divorced pronounced in the USA in November 
1995. Mother obtained custody and father was granted generous access 
rights. At first father able to exercise his access rights. On 6 March 
1997, father went to pick up his children for his regular access visit 
but found that everything had been removed from the house and that the 
mother had absconded with the children. Father informed the police and 
filed a petition in the Chancery Court of Benton County, Arkansas for 
Contempt of Court which is still pending. Whereabouts of the mother and 
the children could not be traced for one month.
    August 1997, the court of Benton County transferred primary legal 
and physical custody to the father and ordered the ``immediate return'' 
to the children to the USA.
    Return denied on the basis of article 13b by Amtsgericht (Lower 
Court) Mannheim in October 1997. Court ruled that the children 
``objected'' to their return to the USA (they were 3 and 6) and that a 
return would cause them ``severe psychological harm'' and bring them 
simultaneously into an uncertain condition. ``The father works and 
therefore has no time for them; the mother does not wish to return to 
the USA; the children should not be separated from their mother; torn 
from their environment, and be transferred to persons who are strangers 
to them * * * The personal situation of the children is favourable in 
Germany and they have adapted to their new environment * * * The 
illegally produced situation must therefore be accepted''.
    The Jugendamt stated that the conditions were better in Germany: 
the mother has found her own apartment and a work permit; the children 
have been placed in a German school; they are adjusted to their ``new 
environment''; it would cause them severe psychological harm to be 
returned to the USA. (Father not interviewed).
    Appeal rejected by the Oberlandesgericht Karlsruhe on the basis of 
article 13b in May 1999. Judges considered that a return would cause 
``severe psychological harm''. The children should not be separated 
from mother. The mother did not wish to return to America. The father 
had not seen the children for a long time. He worked and therefore 
could not take care of the children. The children had adapted to their 
new environment.
Current status
    The father has not seen his children since March 1997. The last 
time he was able to speak to them on the telephone was in August 1997.
                                 ______
                                 
            wayson, mark--alaska/rio de janeiro/gummersbach
Number of Children: 1 child
Age(s) at Abduction: 2 years old
Current Age(s): 4 years old
Hague Convention case: No--Brazil/Germany
History
    Parties were never married but a child was born from the union in 
Brazil (child is U.S., Brazilian and German citizen). Father is a U.S. 
citizen (formerly a policeman) who was living in Brazil at the time, 
mother a German citizen. In December 1996, the parties separated and in 
April 1997, the Brazil court granted the parents joint custody. Care 
and control given to mother and extensive visitation rights granted to 
father. But mother repeatedly blocked access and in December 1997 she 
absconded with the child.
    Father contacted the German Consulate in Rio who advised him 
against filing a Hague petition. Father now suspects that the Consulate 
``interfered'' to help the mother. He later tried to complain but was 
told that only a German citizen can lodge a complaint against a German 
official.
    February 1998, mother contacted the father and between March 1998 
and August 1998 they sought mediation. During that period, the father 
saw his daughter regularly and paid an allowance to his ex-partner.
    Beginning August 1998 mother blocked access. The father flew to 
Germany 6 times to try and see his child but to no avail.
    October 1998 court of Rio de Janiero confirmed its jurisdiction on 
the matter of access. ``The fact that the mother moved to Germany after 
the court decision does not withdraw the jurisdiction of the Brazilian 
court''. Brazilian court reconfirmed father's access rights.
    February 1999 the father filed an application to enforce the 
Brazilian access order. Amtsgericht (lower court) Gummersbach rejected 
the father's demand and refused to establish new access rights. Father 
then lodged an appeal in the Oberlandesgericht Koeln (Cologne) in April 
1999.
    Appeal rejected July 13, 1999 on the grounds ``that although the 
Brazilian court had jurisdiction at the time of the separation, the 
fact that the mother and the child are now domiciled in Germany, gives 
the court of Gummersbach international jurisdiction''.
Current status
    Father has not seen his child since August 13, 1998.
                                 ______
                                 
                             dudakian john
Number of Children: 1 child
Age(s) at Abduction: 2 years old
Current Age(s): 3 years old
Hague Convention: Yes--new case
History
    In 1998, the mother absconded with the child to Germany. The father 
had custody at the time. The U.S. court ordered the ``immediate 
return'' of the child to the USA.
    Return denied by the German court on the basis of article 13b. The 
court ruled that a return to the USA would cause ``severe psychological 
harm'' for the child to be separated from its mother. Father was not 
informed of the hearing.
Current status
    Father re-abducted the child back to the USA. Mother has now 
applied for the return of the child to Germany under The Hague 
Convention.
                                 ______
                                 
                   carlsen kenneth--florida/barmberg
Number of Children: 1 child
Age(s) at Abduction: 8 years old
Current Age(s): 15 years old
Hague Convention case: Yes
History
    Parties married in Barmberg, Germany then returned to the USA where 
their child was born. The parties separated. Custody awarded to father 
visitation rights granted to mother. On September 10, 1993 the mother 
and her boy-friend picked up the child at her Florida school and 
absconded to Germany.
    In December 1993 the Florida court ordered the ``immediate return'' 
of the child to the USA. Father was asked by the Berlin Central 
Authorities to pay DM 2,000 to initiate court proceedings in Germany. 
But it took fourteen months before the case was finally heard.
    Return denied by Amtsgericht (lower court) Barmberg on the basis of 
article 13b. The court ruled that the child ``objected'' to a return to 
the USA and that she was old enough to decide.
    The Jugendamt testified that the child was settled in its new 
environment and that she objected to a return to the USA. Father was 
not interviewed.
Current status
    Since 1993 the father was only able to see his daughter twice at 
the Jugendamt offices and under their supervision. However, recently 
his daughter, who is now fifteen, has started communicating with her 
father through the internet.
                  carr jon--colorado/where in germany
Number of Children: 1 child
Age(s) at Abduction: 2 years old
Current Age(s): 13 years old
Hague Convention case: NO. Convention not signed between U.S. and 
Germany at the time.
History
    In 1988, mother abducted child from the United States to Germany 
the day before custody hearings were to take place in Colorado.
    Father received little help from agencies and police.
Current status
    NCMEC is attempting to get into contact with the father for an 
update on the matter. However, the father's former attorney believes 
that Jon has had no contact with his child since the time, of 
abduction.
                                 ______
                                 
          collins rebecca--north carolina/claw (near krisruhe)
Number of Children: 1 child
Age(s) at Abduction: 7 months old
Current Age(s): 8 years old
Hague Convention case: Yes
History
    Parties married in the USA in October 1989. Mother awarded 
temporary custody until the final divorce decree was decided. In July 
1991 the father absconded with the child to Germany during a scheduled 
visitation. Police filed charges.
    In August 1991 the White Country Court awarded mother custody and 
ordered ``the immediate return'' of the child to the USA.
    As soon as father reached Germany, he filed for custody. 
Amtsgericht (lower court) Claw transferred temporary custody to the 
father despite the U.S. previous decision. Mother obtained access 
rights but father refused to abide by them. Amtsgericht Claw did not 
enforce her access rights.
    Hague application filed too late (mother unaware of Convention) and 
the German court rejected her application stating that a year had gone 
by.
    Mother was enable to pursue litigation in Germany as she was no 
longer entitled to legal aid.
Current status
    The mother has not seen her son since 1991. Last time she was able 
to speak to him on the telephone was in 1997. Child was led to believe 
that the father's new partner is his natural mother.
                                 ______
                                 
                         cook jeffrey--florida
Number of Children: 1 child
Age(s) at Abduction: 4 years old
Current Age(s): 6 years old
Hague Convention case: Yes
History
    In April 1997, mother abducted child to Germany in the middle of 
U.S. custody proceedings. Father was granted custody after the 
abduction and the U.S. court ordered the ``immediate return'' of the 
child to the USA.
    Return denied on the basis of article 13b by the Amtsgericht (lower 
court). Court ruled that the child ``objected'' to a return and that it 
would cause ``severe psychological harm'' for her to be separated from 
her half-brother and half-sister
Currenty status
    NCMEC is attempting to get into contact with the father for an 
update on the matter.
                                 ______
                                 
                      cox fred--oklahoma/pobledorf
Number of Children: 1 child
Age(s) at Abduction: 11 months old
Current Age(s): 8 years old
Hague Convention: No
History
    In October 1993, mother was served with divorce papers and 
immediately abducted the child to Germany. Father was granted custody 
after the abduction.
    Father attempted to apply under the Hague Convention, but he 
withdrew his application citing that it was too stressful a process.
Current status
    NCMEC spoke with Fred Cox who informed them that while he has 
spoken to his son, he is still being denied access. No papers were ever 
filed in the German courts, as all the lawyers who were referred to the 
father in Germany informed him that nothing could be done.
                                 ______
                                 
                       das sanjay--florida/munich
Number of Children: 1 child
Age(s) at Abduction: 1 year old
Current Age(s): 3 years old
Hague Convention case: Yes
History
    In 1997, the mother absconded with the child to Germany. Father 
applied for the ``immediate return'' of the child under the terms of 
the Hague Convention.
    Return ordered by the Amstgericht (lower court) but it was not 
enforced. Mother immediately appealed at the Oberlandesgericht (high 
court). Returned order overturned on the basis of article 13b of the 
Hague Convention.
Current status
    NCMEC is attempting to contact the left-behind father for an 
update.
                                 ______
                                 
      dukesherer john--hawaii/schwaebisch gmuend (near stuttgart)
Number of Children: 1 child
Age(s) at Abduction: 2 years old
Current Age(s): 3\1/2\ years old
Hague Convention case: Yes--new case
History
    Parties never married but a child was born from their union. 
Custody order made in the USA in March 1997. Custody given to father 
and access rights granted to mother ``so long as she continued in 
therapy'' Mother not allowed to take child out of the country without 
prior approval of the Court, or notification of no less than 48 hours 
to the opposing party. August 1998, mother picked up the child for her 
regular visit and absconded to Germany. Arrest Warrant issued. 
Whereabouts of mother and child not traced.
    July 1999 U.S. court confirmed sole legal and physical custody of 
father and ordered for the ``immediate return'' of the child to the 
USA.
Current status
    Hague Convention hearing has not yet taken place in Germany as 
mother and child have not been located.
    Father has not seen his child since August 1993 and he does not 
know its whereabouts.
                                 ______
                                 
                    filmer james--california/tostedt
Number of Children: 1 child
Age(s) at Abduction: 9 months old
Current Age(s): 1 year old
Hague Convention case: Yes--new case
History
    Parties married in the USA. Parties separated and mother obtained 
temporary custody and father was awarded visitation rights. In October 
1998, mother absconded to Germany with the baby whilst the divorce 
proceedings were ongoing.
    U.S. court granted father custody and ordered the ``immediate 
return'' of the child. Return denied by the Amtsgericht (lower court) 
Tostedt on the grounds that the U.S. temporary custody order was 
unclear and the mother rightfully believed that she was allowed to 
leave the U.S. with the child.
Current status
    Father has had no contact with the baby since the abduction.
                                 ______
                                 
                       fleaschmann bertha--texas
Number of Children: 1 child
Age(s) at Abduction: 6 years old
Current Age(s): 7 years old
Hague Convention: Yes--new case
History
    In January 1999, father abducted child from school and took him to 
his parents in Germany. The father then returned to work in Texas, 
leaving the child behind with his relatives.
    A warrant for the father has been issued in Texas for sexual 
battery again the mother, but the father has since returned to Germany. 
Mother has applied under the Hague Convention for the return of the 
child.
Current status
    NCMEC is attempting to get into contact with the mother for an 
update on the matter.
                                 ______
                                 
                             gerlitz sidney
Number of Children: 1 child
Age(s) at Abduction: 5 years old
Current Age(s): 8 years old
Hague Convention: Yes
History
    In 1996 mother absconded with the child to Germany. U.S. court 
ordered the ``immediate return of the child'', but the Berlin Central 
Authorities rejected the Hague application on the basis that the father 
was not able to get an Article 15 declaration; i.e. a document proving 
that he had custody before the time of the abduction.
Current status
    NCMEC is attempting to get into contact with the father for an 
update on the matter.
                                 ______
                                 
                          outgoing german case
Left Behind Parent: Mark Gilgen
Children: Angela Gilgen, DOB 01/14/1990
Age(s) at Abduction: 5 years old
Current Age(s): 9 years old
History
    On August 1, 1995, Claudia Bettina Svetlana White (a German 
citizen) abducted her child from Minnesota to Georgia. While in 
Georgia, the mother applied for divorce claiming she did not know where 
the father was living. Georgia court gave her custody, the father was 
informed, and he appealed the matter in the Georgia courts.
    Before the appeal came to trial, the mother re-married a U.S. Army 
employee and moved to Germany. The father re-established jurisdiction 
in Minnesota and was granted sole custody from Minnesota courts.
    Father applied under the Hague convention and was told by the 
German Central Authority that there was no hope for return because 
Angela was a German citizen and needed to be with her mother. The 
Central Authority did help arrange stringent, brief supervised access 
in 1999.
Current status
    Father has telephone access at the mother's will, but is not 
allowed to visit the child in Germany without supervision, despite the 
Minnesota court order being the only order in existence.
                                 ______
                                 
                       hill astrid--texas/bremen
Number of Children: 1 child
Age(s) at Abduction: 3 years old
Current Age(s): 5 years old
Hague Convention case: No--access/visitation
History
    Astrid Hill is the maternal grandmother. She has contacted me 
several months ago to report: Parties married in the USA (Mother German 
citizen, father British citizen). Their child was born in the USA in 
1994. Parties divorced a year later. The U.S. court awarded custody to 
the mother and granted the father generous access rights (three months 
per annum). But he was unable to exercise his right and in 1997 the 
mother absconded with the child and her new husband to Germany without 
informing the child's father or her own mother.
    No Hague Convention applications were made as the U.S. decision 
allowed the mother to go to Germany. Father was unable to obtain any 
access rights.
Current status
    Neither the father nor the grandmother has seen the child since 
1997. The grandmother (who is a German citizen) has never heard from 
her daughter since. She is very eloquent about the failure of the 
German system to protect children and enforce foreign court decisions. 
She feels that she has let her grandchild down.
                                 ______
                                 
                         james robert--maryland
Number of Children: 2 children
Age(s) at Abduction: 10 months old and 2\1/2\ years old
Current Age(s): 6 and 8 years old
Hague Convention case: Yes
History
    In April 1994, while the father was at work, the mother absconded 
with the two children to Germany.
    U.S. court granted father sole custody and ordered the ``immediate 
return'' of the children.
    Father was asked to pay DM 2,000 by the Berlin Central Authorities 
to initiate proceedings in Germany. Father was unable to come up with 
the money, so the case was closed.
    Mother obtained a divorce in Germany. She was awarded sole custody 
on an ``ex-parte'' basis and no access rights were granted to the 
father. The father was never served notice of the hearing but found out 
several months later when he was ordered by the German courts to pay 
child support.
Current status
    Father has only seen his children once when the mother allowed him 
a brief supervised visit several years ago because one of the children 
was seriously ill.
                                 ______
                                 
     marquette n. robert--texas/schaebisch gmuend (near stuttgardt)
Number of Children: 2 children
Age(s) at Abduction: 4 and 13 years old
Current Age(s): 6 and 15 years old
Hague Convention: Yes
History
    Parties married in Dallas, Texas in 1998 and separated in 1993. 
Parents were awarded temporary custody. The children had primary 
residency with the mother and the father was granted generous access 
rights. In 1995, father filed for divorce. Mother applied to reduce 
father's access rights on the grounds that the eldest child 
``objected'' to seeing him. She also threatened to leave the country. A 
further decision ordered for the mother ``not to change the domicile of 
the children from Dallas County, Texas'' without prior approval of the 
court. U.S. court appointed psychologist testified in court to the 
presence of Parental Alienation Syndrome. Divorce proceedings lasted 
over two years but in June 1997 mother absconded to Germany with the 
children before the final decree.
    In July 1997 Dallas County Court transferred custody to the father, 
giving restricted access rights to the mother and ordered the 
``immediate return of the children''.
    Return denied by Amtsgericht (lower court) Schaebisch Gmuend on the 
basis of article 13b in March 1998. The court ruled that the eldest 
child ``objected'' to its return and that it would cause the second 
child ``severe psychological harm'' to be separated from its elder 
brother.
    Father's appeal rejected by the Oberlandesgericht (high court) 
Stuttgardt on the basis of article 13b in May 1998.
    Father immediately retained an attorney in Germany (who was 
appointed to him by the German Central Authority) to file an appeal 
with the Constitutional Court. But the attorney failed to file the 
appeal within the prescribed one year time limit.
Current status
    Father has not seen or been able to speak to his children since 
1997. He presumes that the German courts transferred custody to the 
mother, but he was never notified of any hearings.
                                 ______
                                 
                   maskalick linda--michigan/langgons
Number of Children: 1 child
Age(s) at Abduction: 2 years old
Current Age(s): 7 years old
Hague Convention: Yes
History
    On July 19, 1993, the grandmother who had been granted custody of 
the child in September 1992, was having major surgery when the natural 
mother abducted the child to Germany.
    Police filed charges and grandmother, with help from the natural 
father, filed under the Hague Convention. However, the child was not 
returned to the United States.
Current status
    NCMEC is attempting to get into contact with the grandmother for an 
update on the matter.
                                 ______
                                 
                   pendarvis, larry--florida/dortmund
Number of Children: 1 child
Age(s) at Abduction: 4 months
Current Age(s): 11 years old
Hague Convention case: No--before Germany signed the Convention in 1990
History
    Parties married in Tampa, Florida in August 1986. While still 
married, mother absconds with the baby in August 1988 to Dortmund, 
Germany.
    On 2 February 1989, father awarded sole custody of the child by the 
U.S. courts.
    He assumes the mother has obtained a custody order in Germany. He 
has not been granted any visitation rights in Germany as far as he is 
aware. He has never received any correspondence from the German courts, 
although he wrote to them on several occasions.
Current status
    Father has not seen or received any communication from his child 
since 1988.
                                 ______
                                 
                peterson james--tennessee/bad kreuznach
Number of Chi1dren: 1 child
Age(s) at Abduction: 6 years old
Current Age(s): 6 years old
Hague Convention case: Not yet filed (new case)
History
    Parties divorced in the USA in 1996. Primary custody granted to 
mother with extensive access rights to father. But mother continuously 
obstructed access. In 1999, custody reversed to father. Decision based 
on the mother's refusal to allow him to exercise his visitation rights 
and on other welfare issues. The decision, however, allowed the mother 
to keep the child in her care until the end of the school year. In May 
1999, mother absconded to Germany with the child. Father did not know 
its whereabouts.
    In July 1999, father received a copy of a custody transfer petition 
which the mother filed as soon as she returned to Germany. The wording 
of the petition includes statements such as ``the child speaks German 
fluently'' whereas the child has been living in Germany for only two 
months and spoke no German beforehand; that ``the child has already 
settled in her environment'', ``made friends'' and ``is enrolled in a 
German school''.
    These are all very familiar arguments preparing for an Article 13b 
defence.
    Father has not been able to file a Hague petition as until last 
month as he did not know where his daughter has been abducted to until 
he received the custody transfer petition.
Current status
    Father has not seen his child since May 1999. Father also feels 
very depressed and is hesitant about filing a Hague Convention 
application because of the bad performance of Germany in returning 
children. He is not a wealthy man.
                 roche kenneth--massachusetts/darmstadt
Number of Children: 1 child
Age(s) at Abduction: 4 years old
Current Age(s): 10 years old
Hague Convention case: Yes
History
    Parties married in Denmark in 1986 and moved to the USA. Parties 
separated in 1990. Divorce pronounced in the USA in July 1991 granting 
both parties joint legal custody. Physical custody given to mother and 
generous access rights granted to father. In addition, a specific 
clause stated that the removal of the child from Massachusetts was not 
authorised unless both parties agreed or a court order was obtained. In 
1992 mother remarried in the USA. During that time, father regularly 
saw his child. Mother divorced second husband and in March 1993, she 
absconded with the child to Germany. Arrest Warrant issued.
    April 1993 U.S. court transferred temporary custody to the father 
and ordered the ``immediate return'' of the child.
    Amtsgericht (lower court) Darmstadt ordered the ``immediate 
return'' of the child to the USA but mother absconded with the child 
and immediately lodged an appeal at the Oberlandesgericht (high court) 
Frankfurt.
    Oberlandesgericht Frankfurt confirmed the return order but it was 
not enforced. Police did not help. Father never managed to locate his 
child. FBI got involved in 1994 and issued a second Warrant. But, in 
April 1994 the Central authorities in Berlin confirmed that the 
investigation had been without any positive results. No further efforts 
were made to find mother and child.
Current status
    Child living with mother in Germany. No further action has been 
taken by the German courts against the mother. Father has not seen his 
child since 1991 and does not know his whereabouts.
                                 ______
                                 
                     tali taylor--california/berlin
Number of Children: 1 child
Age(s) at Abduction: 2 years old
Current Age(s): 3 years old
Hague Convention case: Yes--new case
History
    In September 1998, mother absconded with the child while divorce 
proceedings were pending in the California court.
    U.S. court granted father temporary sole custody and ordered for 
the child's ``immediate return''. Father was asked to pay DM 2,000 by 
the Berlin Central Authorities to initiate proceedings in Germany.
Current status
    Father is currently in Germany for the court hearings. Until then 
he has had no contact with his child since the abduction. NCMEC will 
find out upon his return if he was able to see his child and secure his 
return to the USA.
                                 ______
                                 
                      uhl george--maryland/munich
Number of Children: 1 child
Age(s) at Abduction: 1 year old
Current Age(s): 2\1/2\ years old
Hague Convention case: Yes
History
    Parties married in the USA. Divorced pronounced in the USA in July 
1997. Baltimore County Court, Maryland awarded both parties joint 
custody: the child would reside 60 percent of the time with the mother 
and 40 percent of the time with the father. In April 1998, the mother 
went with the child to Germany but she never returned to Baltimore for 
the father's scheduled visit in June 1998.
    In June 1998, the Baltimore County Circuit Court transferred sole 
custody to the father and ordered the child's ``immediate return'' to 
USA. (Final sole custody given to father in March 1999).
    Return denied by the Amtsgericht (lower court) Munich in October 
1998. The court ruled that the custody arrangements made in the USA had 
allowed the mother to go back to Germany with the child and that she 
therefore had the right to change jurisdiction. The court further ruled 
that the child's habitual residence had now been established in Germany 
since the mother lived there and did not intend not to return to the 
U.S.
    The father lodged an appeal at the Oberlandesgericht (higher court) 
Munich. Appeal denied (without a hearing) and the Amtsgericbt's 
decision was upheld. No access rights were granted to the father.
Current status
    The father has not seen his child since April 1998. The father has 
no contact with his child and does not know its whereabouts. The father 
believes that the German courts have transferred custody to the mother, 
but he was never informed.
                                 ______
                                 
                       urban kurt--texas/butzpat
Number of Children: 1 child
Age(s) at Abduction: 6 years old
Current Age(s): 12 years old
Hague Convention case: No
History
    In April 1993, the mother (a U.S. citizen) absconded with the child 
to Germany. The parties were never married, but the father had been 
awarded custody of the child.
    Father was told that since they were not married, he could not file 
under the Hague Convention for a return. Police attempted to locate the 
child without success.
Current status
    Father has had no contact with the child since 1993.
                                 ______
                                 
             winslow anne--maryland/firth (near nuerenburg)
Number of Children: 4 children (Mary Elizabeth, Angelina, Charles, 
Sarah)
Age(s) at Abduction: 4, 9, 11, 12 years old
Current Age(s): 7, 12, 14, 15 years old
Hague Convention case: Hague application rejected under the terms of 
Article 15
History
    Parties married in the U.S. On June 19, 1996 the father (an 
American citizen) abducted the four children to Germany. A divorce was 
pending so no custody determination had been made and the children were 
temporarily living with their father at the time.
    In March 1997, the court of Maryland awarded temporary sole custody 
to the mother.
    Mother was then told that under Article 15 of the Hague Convention, 
the U.S. Department of State needed a decision or other determination 
that the removal was wrongful within the meaning of Article 3 (i.e. a 
proof that the removal was in breach of her custody rights). The 
Maryland court refused to grant her this order on the basis that there 
had been no custody agreement prior to the abduction. (N.B. it seems 
that the mother must have been badly represented or advised of the 
terms of the Convention since the abduction was in breach of custodial 
rights--custody is shared when the parties are married).
    The Hague application was withdrawn. The police dropped charges 
against the father as well, claiming that extradition costs would be 
too high.
Current status
    Mother has not seen her children at all since 1996. In November 
1998, father called mother to reiterate his intention of keeping the 
children in Germany. Mother does not know their whereabouts.
                                 ______
                                 
                              welch sasha
    February 11, 1998, NCMEC intaked case via the hotline. Mother 
apparently took child to Germany around January 15, 1999. Father was 
working with the DOS on a Hague Application for return of the child.
    August 15, 1998, according to NCMEC report, father received notice 
by DOS 7 days after German Hague hearing occurred. Father's appointed 
German attorney attended, but had never spoken with the applicant 
father. Second hearing occurred August 4, 1998, father lost the case 
partially because psychiatrist stated child would suffer harm if 
separated from the mother and mother does not wish to return to 
Germany.
    November 5, 1998, received fax from Bill Fleming at DOS. Contained 
the application from German mother because child was taken from Germany 
to U.S. on October 29, 1998. Bill informed NCMEC that this was a 
reabduction and that the father had lost a Hague application made to 
Germany during the summer. Meredith Morrison, case manager at NCMEC, 
was informed that the child was back with the father in Colorado. The 
Hague application that NCMEC received included a ruling from Germany 
stating that the removal from Germany was wrongful. They provided no 
details or documents regarding the father's Hague petition.
    December 4, 1998, I requested a copy of the original German Hague 
decision from DOS, which was faxed to NCMEC. This fax contained a Hague 
decision from a German court dated August 7, 1998 denying the applicant 
father's petition for return. Abducting mother apparently had temporary 
custody of the child in Colorado, but was not allowed to leave the 
United States until the custody hearings were completed. Mother left 
with the child. Subsequently, father was given custody by the Colorado 
court. Germany Court seems to have denied the father's application 
based on the fact that the mother had temporary custody at the time of 
the abduction and was allowed to live in Germany.

    Senator DeWine. Ms. Hong.

                STATEMENT OF LAURA KINGSLEY HONG

    Ms. Hong. Thank you, Senator DeWine. Mei Mei will be 6 
years old on November 4. There will be no gifts. There will be 
no cake. She will mark the occasion in Guangzhou, China, with 
her abductor, a woman whose mental illness will likely preclude 
her from even being aware of the child's birthday.
    Mei Mei was born in Cleveland in 1993 and is an American 
citizen of Chinese descent. Mei Mei was abducted by her birth 
mother, Sue Chen, a convicted felon and chronic unmedicated 
schizophrenic. My rights to custody of Mei Mei have continued 
uninterrupted from long before the abduction to the present 
day. Initially, I was Mei Mei's foster parent. Now, I am her 
legal guardian and her legal custodian. The Ohio Eighth 
District Court of Appeals and the Ohio Supreme Court has upheld 
my custodial status and the termination of Chen's parental 
right.
    Despite repeated requests from not only me but from you and 
your colleagues, the Cleveland U.S. attorney has refused to 
indict Mei Mei's abductor, who, unlike many parental abductors, 
is in the eyes of the law a stranger to the child. There is no 
acceptable explanation for the lack of indictment in Mei Mei's 
case.
    The refusal of the Justice Department to enforce the Act is 
by now well documented. We just heard it today. In response to 
concerns raised in this regard, we also heard that the Justice 
Department claims to need resources, training, social workers, 
support groups, computer programs, et cetera, et cetera. None 
of that is required. What is required is enforcement of the 
International Parental Kidnaping Act as enacted by Congress, 
and that requires not money, but simple resolve on the part of 
the Justice Department to uphold the law.
    Since the abduction, we have been caught in a vicious 
bureaucratic cycle in trying to bring Mei Mei home. The 
President will not help us and little Mei Mei because the 
National Security Council will not help us. The National 
Security Council will not help us because the State Department 
will not help us. The State Department will not help us because 
the Justice Department will not help us. And the Justice 
Department will not help us because the Cleveland U.S. 
attorney's office has declined to prosecute, and so it goes.
    The conventional wisdom as conveyed to us by, among others, 
the State Department was that a Federal indictment is necessary 
to secure Mei Mei's return, and so immediately upon Mei Mei's 
abduction, we inquired of the local U.S. attorney's office. In 
response to our repeated inquiries as to when an indictment 
would be issued, we were told that the case was being carefully 
considered and they would let us know. We waited and waited.
    In the interim, Congresswoman Mink received a telegram from 
the U.S. embassy in Beijing advising her that, on October 24, 
1996, just days after Mei Mei's abduction, the Cleveland U.S. 
attorney had told the embassy not to pursue the case because it 
was not going to prosecute Chen. The embassy told Congresswoman 
Mink that without the requisite request from Cleveland to work 
on the case, the U.S. Government has no authority to pursue Mei 
Mei's case in China.
    The Cleveland U.S. attorney finally responded to our 
inquiries on October 23, 1997, more than 1 year after Mei Mei's 
abduction. In a lengthy letter, she told us that she was 
declining to prosecute Chen because her office, ``was not 
satisfied that an unbiased trier of fact will find Sue Chen 
guilty.'' She did not explain the basis for this assertion, nor 
did she explain why she employed a ``will find the defendant 
guilty'' standard when, pursuant to the U.S. Attorneys' Manual, 
the appropriate standard is one of probable cause.
    What she did say, though, in so many words, was that she 
was not about to enforce a law that she did not personally buy 
into. In particular, she stated that an indictment of Chen for 
the purpose of aiding in Mei Mei's return would be an abuse of 
the Federal grand jury process, and that there is no reason to 
believe that an indictment of Chen would affect either her 
return or the return of the child.
    In short, the U.S. attorney declined to indict under the 
Act because she personally did not credit the Congressional 
assumptions underlying its enactment, i.e., the indictments 
would enhance the force of U.S. diplomatic representation 
seeking the assistance of foreign governments in returning 
abducted children. Apparently, a law is a law only to the 
extent the local U.S. attorney wishes it to be.
    In closing, we ask you and the subcommittee to do what it 
can to bring home Mei Mei and others similarly situated by 
demanding enforcement of the Act. As things now stand, the 
existence of the Act, coupled with the Justice Department's 
habitual refusal to enforce it, is having the precise opposite 
effect to what Congress intended by the enactment. This is so 
because the State Department uses the lack of an indictment 
under the Act as a free pass to refuse to lend assistance to 
international abduction cases, and quite logically, foreign 
governments and courts view suspiciously a private citizen's 
request for assistance in an abduction case when the private 
citizen's own government has not efficiently deemed the 
abductor's conduct criminal. We beg you to do what you can to 
break this vicious cycle. Thank you.
    Senator DeWine. Thank you very much.
    [The prepared statement of Ms. Hong follows:]

               Prepared Statement of Laura Kingsley Hong

    Mr. Chairman, Members of the Committee: My name is Laura Hong. I am 
a partner at the law firm of Squire, Sanders & Dempsey, resident in 
Cleveland, Ohio, and am the legal guardian and legal custodian of 
Rhonda ``Mei Mei'' Lan Zhang (``Mei Mei'').
    At the invitation of Senator Thurmond, I provide this statement 
because Mei Mei was abducted by her non-custodial birth mother, Sue 
Ping Chen, on October 15, 1996, and taken to the People's Republic of 
China. And yet, despite the clear terms of the International Parental 
Kidnaping Act, the Department of Justice refused and continues to 
refuse to issue an indictment.
    First, on behalf of myself, Tom Kovach and five year old Mei Mei, 
we thank you for giving us this opportunity to submit this statement on 
a matter of grave import. We also express our gratitude to Subcommittee 
Members DeWine, Ashcroft, Abraham, Sessions, Torricelli and Leahy who, 
along with twenty-eight other Senators and six Representatives, have 
made requests to President Clinton, The National Security Council, the 
Departments of State and Justice, and the Chinese government to 
facilitate Mei Mei's return home.
    As the Subcommittee is aware, in 1993, President Clinton signed 
into law the International Parental Kidnaping Act, 18 USC Sec. 1204 
(``IPKA''). The statute makes it a crime for a non-custodial parent to 
remove a child from the United States with the intent to obstruct the 
lawful exercise of parental rights. The statute defines parental rights 
as the ``right to physical custody of the child.''
    Mei Mei was born in Cleveland, Ohio on November 4, 1993. As a 
result of Ms. Chen's repeated neglect of Mei Mei, by court order dated 
March 8, 1995, more than a year and a half before Mei Mei's abduction, 
I was granted physical custody of Mei Mei. That right has continued 
uninterrupted through the date of the abduction and to the present day. 
In addition to the court order granting me physical custody of Mei Mei, 
after Mei Mei's abduction on October 15, 1996, the Juvenile Court for 
Cuyahoga County issued several orders commanding the return of Mei Mei, 
terminated Ms. Chen's parental rights and awarded me legal custody. 
Initially, I was Mei Mei's foster parent; I am now Mei Mei's legal 
guardian and custodian.\1\ Since Mei Mei's abduction, the Ohio Eighth 
District Court of Appeals has upheld my custodial status and the 
termination of Ms. Chen's parental rights and issued a writ of habeas 
corpus commanding Ms. Chen to bring Mei Mei before it. The Ohio Supreme 
Court upheld the issuance of the writ and the order granting me legal 
custody of Mei Mei.
---------------------------------------------------------------------------
    \1\ The Congress, in enacting the Hague Convention (which the IPKA 
is intended, in part, to supplement), explicitly stated that the return 
of abducted children to their home state is of paramount importance, 
and that ``Persons should not be permitted to obtain custody of 
children by virtue of their wrongful removal or retention.'' 42 U.S.C 
Sec. 1161. The rights protected by the Hague Convention include the 
situation when a child is in the care of foster parents. ``If custody 
rights exercised by the foster parents are breached, for instance, by 
abduction of the child by its biological parent, the foster parents 
could invoke the Convention to secure the child's return.'' (51 Fed. 
Reg. No. 58, p. 1505.)
---------------------------------------------------------------------------
    Yet despite these court orders, and overwhelming congressional and 
citizen support, the Department of Justice refuses to issue an 
indictment under the IPKA; and the State Department, citing the 
inaction of the Department of Justice, similarly refuses to help.
    The Act clearly applies here by its terms, and the fact that the 
Cleveland U.S. Attorney has not enforced it sends a message that a law 
is a law only to the extent the local U.S. attorney wishes it to be.
    A few days ago, on October 14, 1999, Jess T. Ford, Associate 
Director, International Relations and Trade Issues, National Security 
and International Affairs Division, United States General Accounting 
Office, testified concerning the Division's preliminary observations on 
the federal government's response to international child abduction. 
Director Ford reported that the State Department estimates that every 
year 1,000 children are abducted by their parents. Yet, since the 
enactment of the IPKA, the Justice Department has issued only 62 
indictments under the IPKA.
    In November 1998, the Attorney General created The Policy Group on 
International Parental Kidnaping which produced an April 1999 
publication entitled A Report to the Attorney General on International 
Parental Kidnaping. In reference to that report, Director Ford 
highlighted four key problems cited by the State and Justice 
Departments relating to the federal government's response to 
international child abduction. Not surprisingly, one of the problems 
cited is the Justice Department's limited use of the IPKA.
    In response to problems relating to international child abductions, 
the Departments of Justice and State repeatedly appear before 
Congressional committees requesting funding for social workers, support 
groups, computer programs for case tracking, study groups, and policy 
groups designed to ``deal with'' international parental kidnaping. All 
of this smacks of being a smokescreen. It is our opinion--based on 
firsthand experience--that the paramount issue in dealing with 
international parental kidnaping is enforcement of the law as it is 
written and as it was intended to be enforced by Congress.
    The official responses to our efforts to bring Mei Mei home 
underscore this. The State Department consistently called this a 
``private custody dispute,'' as there were no criminal charges against 
the abductor. But there is no ``dispute'' here; under Ohio law, Mei 
Mei's abductor has and had no rights whatsoever with respect to Mei 
Mei. Moreover, this case is susceptible to being called a ``private 
custody dispute'' only because the Cleveland U.S. Attorney declined to 
indict under the IPKA. If an indictment issued, then, afortiori, this 
would be a federal criminal matter, and not a ``private custody 
dispute.''
    It is all part of a vicious circle. We are told the President has 
looked into the matter, but will not help little Mei Mei and us because 
the National Security Council will not help us. The National Security 
Council is ``unable'' to help us because the Department of State will 
not help us. The Department of State will not help us because the 
Department of Justice will not help us. The Department of Justice will 
not help us because the Cleveland U.S. Attorneys' Office has declined 
to prosecute. The Cleveland U.S. Attorneys' Office will not issue an 
indictment (purportedly) because the Department of State will not 
guarantee that an indictment will lead to the conviction of the 
abductor.\2\
---------------------------------------------------------------------------
    \2\ Cuyahoga County Prosecutor's Office will not issue an 
indictment. The head of the Cuyahoga County Prosecutor's Office's 
Criminal Division will not issue an indictment because, in his words, 
Mei Mei ``looks Chinese'' and ``belongs in China.''
---------------------------------------------------------------------------
    Though our efforts to seek enforcement of the laws of this country, 
and in particular the IPKA, are detailed more fully in the attachments 
which I submit with my written statement into the record, I summarize 
for the Subcommittee our protracted and thus far unsuccessful efforts 
directed to the Cleveland U.S. Attorney's Office and the Department of 
Justice to obtain an indictment under the IPKA.
    The day after Mei Mei's abduction, on October 16, 1996, I provided 
a statement to Cleveland FBI agents. On that same day, Cleveland Police 
confirmed that Ms. Chen and Mei Mei had flown from Cleveland to 
Chicago, Chicago to San Francisco, and San Francisco to Hong Kong. Ms. 
Chen was travelling on her Chinese passport, and Mei Mei was traveling 
on her U.S. Passport. With the assistance of the Department of 
Commerce, we immediately electronically transmitted photographs of Mei 
Mei and Ms. Chen to Hong Kong FBI agent James Wong. Unfortunately, we 
were too late. Ms. Chen and Mei Mei had already entered the People's 
Republic of China.
    We were immediately advised that the Chinese authorities would 
assist in Mei Mei's return if we obtained a federal indictment. We were 
also advised that a federal indictment would facilitate an Interpol 
warrant, and that that, too, would facilitate Mei Mei's return. Having 
been so advised, we began a process that resulted in hundreds, if not 
thousands, of requests for an indictment.
    On October 21, 1996, six days after Mei Mei's abduction, Tom 
Kovach, also an attorney at Squire, Sanders & Dempsey, and the only 
father Mei Mei has ever known, met with Cleveland First Assistant U.S. 
Attorney, Gary D. Arbeznik. Mr. Arbeznik requested that we prepare a 
memorandum of law and analysis of the IPKA in response to Mr. 
Arbeznik's erroneous statement to me over the telephone that the IPKA 
requires an underlying state indictment. Despite the incredible 
pressure and strain under which we were functioning, and despite the 
fact that we are civil, and not criminal, litigators, we provided Mr. 
Arbeznik with the memorandum; we did not, at the time, question why it 
was our obligation to explain the law to an Assistant U.S. Attorney. 
Nor did we question why First Assistant Arbeznik had personally taken 
the case when Cleveland Assistant U.S. Attorney Krista Bruntz 
previously had handled and issued an indictment on an international 
parental kidnaping case pursuant to the IKPA for that office.
    During the next few days, we received incredible support and 
assistance from other law enforcement, particularly Hong Kong FBI, the 
U.S. Embassy in Beijing and the Consulate office in Guangzhou, where we 
had located Ms. Chen and Mei Mei. Unfortunately, with lightning speed--
just nine days after Mei Mei's abduction--Mr. Arbeznik, on October 24, 
1996, without any discussions with me, notified the U.S. Embassy in 
Beijing that the Cleveland U.S. Attorney's office had declined to 
prosecute the case.
    Though I continually called Mr. Arbeznik for a status, this 
information did not become known to us until more than one month later 
when Congresswoman Patsy Mink forwarded to me a Department of State 
telegram from the U.S. Embassy in Beijing advising her of Mr. 
Arbeznik's October 24, 1996 notification and also advising that 
``without the requisite request from FBI Cleveland to work the case, 
the U.S. Government has no legal authority to pursue [Mei Mei's] case 
in China.'' We contacted Agent John Jacobs of Cleveland FBI, who 
advised us that, because Mr. Arbeznik had affirmatively stated that he 
was not going to prosecute, Cleveland FBI could do nothing further.
    Thereafter, over the next fifteen months, we were left highly 
insulting messages by a now-former Department of Justice Attorney 
allegedly responsible for ``children's affairs.'' We were threatened 
with local indictments for posting a website about Mei Mei's situation, 
and were flatly ignored by Cleveland U.S. Attorney Emily Sweeney, with 
whom we left unreturned messages on at least a weekly basis.
    In early 1997, in response to the hundreds of letters from us, 
citizens, members of the Congress, the immediate past presidents of the 
American Bar Association, Federal Bar Association and the National 
Asian Pacific Legal Consortium, we received our first response from the 
Department of Justice. That response was a form letter that did nothing 
but offer ``assurances'' that the Cleveland U.S. Attorney's Office 
(``USAO'') was ``thoroughly looking into the matter.'' Of course, this 
was false, because on October 24, 1996, First Assistant U.S. Attorney 
Gary Arbeznik had closed the matter.
    The Cleveland U.S. Attorney herself did not respond to any 
inquiries until October 23, 1997, more than one year after Mei Mei's 
abduction, when she wrote me a lengthy letter advising me that the 
Cleveland USAO was declining to prosecute Ms. Chen. A copy of that 
letter is appended to my written statement. I bring to the attention of 
the Subcommittee, however, some highlights of the letter in which, for 
the first time, the USAO purported to articulate for us the basis for 
her refusal to pursue an indictment of Sue Ping Chen for the kidnaping 
of Mei Mei.
    Though it would appear on its face that the letter was intended to 
explain her decision, we were amazed to see that, in all its 4-page 
length, there was not one mention of the IPKA, 18 U.S.C. Sec. 1204 (the 
``IPKA''), or any other criminal statute. She stated that her ``office 
[was] not satisfied that an unbiased trier of fact will find Sue Ping 
Chen guilty,'' but her statement was made in a vacuum, with no 
reference to the particular criminal statute against which the 
Cleveland USAO claimed to have assessed the probability of Chen being 
found guilty. This was quite telling.
    Moreover, the Cleveland U.S. Attorney did not provide any legal 
authority for employing the standard she claimed to have employed--
i.e., the standard that an ``unbiased trier of fact will find the 
accused guilty.'' At the same time, though, she cited Section 9-27.220 
of the U.S. Attorney's Manual, which indicates that the ``threshold 
determination'' should be whether probable cause exists to believe that 
a federal offense has been committed, and ``that admissible evidence 
probably will be sufficient to obtain and sustain a conviction.'' 
Apparently, the Cleveland U.S. Attorney chose to apply a more exacting 
standard than that set forth in the ``Manual'' when it came to 
enforcing Mei Mei's rights.
    Crimes, as we all know, have elements, and the decision as to 
whether to prosecute for the commission of a particular crime ought to 
hinge on whether the elements of that crime are met. Each element of 
the IPKA is clearly met in Mei Mei's case, and none of the affirmative 
defenses set forth in that statute are available--even arguably--to Ms. 
Chen. Yet, while the Cleveland U.S. Attorney spent three pages 
discussing collateral issues of little relevance to the issue of 
whether Chen violated the IPKA, she offered not one shred of 
information as to why she was not ``satisfied that an unbiased trier of 
fact will find Sue Ping Chen guilty.'' In particular, she did not share 
with us which elements of the crime she found lacking. Her 
unwillingness to discuss the critical issue--i.e., why the Office felt 
Chen would not be found guilty under the IPKA for kidnaping Mei Mei--
spoke volumes.
    The Cleveland U.S. Attorney went on to state that the ``seeking 
[of] an indictment against an individual in order to facilitate 
enforcement of a civil court order is not a proper use of the grand 
jury,'' that ``an indictment of Sue Ping Chen for [the] purpose [of 
aiding in Mei Mei's return] would be an abuse of the Federal Grand Jury 
process,'' and that ``[t]here is no reason to believe that an 
indictment of Sue Ping Chen would effect either her return or the 
return of the child.'' All of these bases, of course, put the U.S. 
Attorney squarely in opposition to Congress on the issue of the 
international abduction of American children. As the Congress made 
clear in passing the IPKA, one of the express purposes of the Act was 
``to provide the basis for Federal warrants, which will in turn enhance 
the force of U.S. diplomatic representations seeking the assistance of 
foreign governments in returning abducted children.'' H.R. No. 103-390, 
Cong. Rec. P. 2421 (emphasis added). Thus, Congress believed it 
eminently appropriate and advisable to use an indictment under the IPKA 
for the purpose of facilitating the return home of internationally 
abducted American children, and legislated accordingly. It was always 
our understanding that the American people elect the Congress to make 
such legislative determinations, and that U.S. Attorneys are appointed 
merely to enforce them. The Cleveland U.S. Attorney, however, clearly 
believes--with the apparent acquiescence of the Justice Department--
that it is her prerogative to override the Congress.
    The Cleveland U.S. Attorney then went on to note that ``the state 
[of Ohio] has plainly indicated that it will not enforce'' the order 
terminating Chen's parental rights and granting permanent custody of 
Mei Mei to me, Laura Hong, and that this, in turn, ``raises a serious 
question regarding federal enforcement.'' But it was unclear which 
``state'' she was referencing. Apparently, it was the position of the 
Cleveland USAO that the Cuyahoga County Court of Common Pleas, which 
terminated Chen's parental rights and awarded custody to me, is not 
``the state''; nor is the Ohio State Legislature, which enacted the 
laws by which Chen's parental rights were terminated and legal custody 
of Mei Mei was awarded to me; nor is the Ohio Court of Appeals, which 
upheld the order of the trial court and also issued a writ of habeas 
corpus directing Chen to bring Mei Mei home; nor is the Supreme Court 
of Ohio, which declined to vacate the writ of habeas corpus directing 
Chen to bring Mei Mei home; nor is the Cuyahoga County Board of 
Commissioners, the government entity charged with oversight of Children 
Services, which has publicly expressed support for the efforts to bring 
Mei Mei home; nor are Senator DeWine and then-Senator Glenn, who, along 
with more than one-third of the U.S. Senate, have, in a number of ways, 
manifested their support for bringing Mei Mei home.
    Instead, ``the state,'' as far as the Cleveland USAO appears to be 
concerned, consists of one misguided individual in the Cuyahoga County 
Prosecutor's Office who the Cleveland Plain Dealer labeled a ``Chen 
proponent,'' and who publicly stated that he would not enforce Ohio's 
laws in this case, publicly condoned the abduction of children from the 
child welfare system, and caused the quashing of a City of Cleveland 
felony kidnaping warrant for Chen's arrest that had been issued upon a 
showing of probable cause by the Cleveland Police Department. It is 
troubling that, notwithstanding all of the ``state'' entities that 
spoke out in favor of bringing Mei Mei home in accordance with the laws 
of the ``state,'' the Cleveland U.S. Attorney took its cue from the one 
public official who had, in this matter, consistently maintained a 
position contrary to law. It is even more troubling when one considers 
that another motivating factor in enacting the IPKA was to save parents 
of abducted children from having to rely on state law enforcement 
authorities who, for budgetary reasons, had traditionally been 
disinclined to prosecute an offender who would have to be extradited at 
considerable cost to the local authorities.
    The remainder of the U.S. Attorney's letter was clearly geared 
towards convincing someone other than us--perhaps her Justice 
Department superiors--that the equities in this case supported her 
decision not to prosecute.\3\ In the interests of fairness, though, the 
U.S. Attorney could also have shared with her extended audience the 
fact that the ``evidence'' she recited in her letter--i.e., a staged 
welfare visit conducted by the Guangzhou Consulate, and the 
representations of Chen's father as reported to to her by Children 
Services as to his purported willingness and ability to care for the 
child--was heard by Judge Patrick F. Corrigan of the Cuyahoga County 
Court of Common Pleas, and rejected outright. In the interests of 
fairness, the Cleveland USAO could have cited the evidence--which was, 
in the Judge's words, ``clear and convincing''--that led the Judge to 
find that Mei Mei is not in a suitable environment, that Chen is 
incapable of parenting, and that neither Chen nor Chen's father (who 
kicked Chen and Mei Mei out of his apartment in Guangzhou on two 
occasions, documented in the court files, because he ``could not 
handle'' Chen's psychotic behavior) is capable of providing a suitable, 
stable home for Mei Mei.
---------------------------------------------------------------------------
    \3\ We note that the Cleveland USAO has ignored Section 9-27.230 of 
the ``United States Attorney's Manual,'' which instructs the office to 
consider as a matter of primary importance the actual or potential 
impact of the offense on Mei Mei and me.
---------------------------------------------------------------------------
    In that letter, the Cleveland U.S. Attorney also stated that 
Children Services had the ``parental rights'' to Mei Mei at the time of 
the abduction, apparently to suggest that Children Services, and 
Children Services alone, had the right to prosecute on Mei Mei's 
behalf. The IPKA, however, focuses by its terms on ``physical custody'' 
of the child, and Mei Mei was, by order of the juvenile court, 
physically placed in my home at that time. Incredibly, the Cleveland 
U.S. Attorney adopted the very same position regarding Mei Mei's 
physical custody that was taken by Ms. Chen in our writ of habeas 
action--a position the Ohio Eighth District Court of Appeals flatly 
rejected. As I mentioned, the Ohio Court of Appeals found in the habeas 
action that physical custody of Mei Mei was vested in me, and that, 
under Ohio law, I was an appropriate entity to seek her return. The 
Ohio Supreme Court refused to vacate the Court of Appeals' decision to 
that effect. In any event, the IPKA makes it a crime to ``remov[e] a 
child'' and to ``retain[] a child'' outside the U.S. See 18 U.S.C. 
Sec. 1204(a). Assuming arguendo that I was not wronged by the removal 
of Mei Mei by Chen, I clearly was wronged under the Act, and continue 
to be wronged, by Ms. Chen's continued unlawful retention of Mei Mei. 
As stated by the Court of Appeals for the Eighth District, the experts 
agreed that Mei Mei ``was primarily bonded to [me], and the longer she 
remained captive in China, the more likely it would be that the child 
would suffer emotional harm from the separation.''
    Finally, the Cleveland USAO ignored the fact that Mei Mei, too, is 
a victim here, with her own right to have the laws enforced on her 
behalf, and that I, as legal custodian of Mei Mei, have the legal right 
to seek enforcement of the laws on Mei Mei's behalf. As the Eighth 
District Court of Appeals stated, ``The best that can be said in this 
case is that the child welfare system failed miserably to protect the 
best interests of the child. [Laura Hong's] understandable bond with 
the child placed her in the position of being an advocate for the child 
when those who had the responsibility failed to execute that 
responsibility.''
    Along these same lines, the Cleveland USAO made repeated references 
in the letter to Mei Mei as Chen's ``own child'' and ``her child'' that 
are deeply disturbing. Under Ohio law--and the Cleveland USAO 
acknowledges that ``[m]atters of family law are historically the 
province of state and local governments''--Chen has (and at the time of 
the abduction had) no parental rights whatsoever to Mei Mei, and Mei 
Mei is not ``her child.'' Under Ohio law, the accident of birth should 
no more subject Mei Mei to abduction by a birth parent than it would 
any of the tens of thousands of adopted children in Ohio. The Cleveland 
USAO's refusal to accept this was, in essence, a refusal to recognize 
the authority of Ohio's legislature to legislate, and its courts to 
adjudicate, that those who repeatedly manifest a lack of fitness to 
parent will forfeit their parental rights.
    Finally, contrary to the Cleveland U.S. Attorney's suggestion, Mei 
Mei is not a ``dual citizen of the PRC and the United States.'' Under 
Chinese law, because Mei Mei was born in the U.S. to a U.S. Permanent 
Resident, Mei Mei, notwithstanding Chen's Chinese nationality, is 
barred from obtaining Chinese citizenship.
    The Cleveland U.S. Attorney was correct, though, in one respect. 
There are no guarantees that an indictment of Chen under the IPKA will 
bring Mei Mei home. But Congress made a determination--with which 
President Clinton agreed \4\--that an indictment under the IPKA is an 
appropriate and useful tool in the efforts to bring internationally 
abducted American children home. And while the Cleveland USAO played 
word games with what the State Department told her office, she did not 
deny in her letter that she was informed of the State Department's 
opinion that an indictment of Chen would be helpful in the effort to 
bring Mei Mei home.
---------------------------------------------------------------------------
    \4\ In his December 2, 1993 Statement upon signing the IPKA, 
President Clinton made clear that, while the civil remedies of the 
Hague Convention should be utilized where available, where they are not 
available (as here), a criminal indictment under the IPKA is 
appropriate.
---------------------------------------------------------------------------
    Whether the Cleveland U.S. Attorney and the Department of Justice 
acknowledge it or not, they knowingly erected a barrier to the return 
home of Mei Mei, a young American citizen, by their refusal to enforce 
the laws of Ohio and the United States on Mei Mei's behalf, and 
therefore inflicted on Mei Mei a grave injustice that continues to this 
day. As stated by the Eighth District Court of Appeals, ``With that 
thought, the court could reasonably look to [Laura Hong] as the only 
remaining defender of the child's bests interests.''
    We ask the Subcommittee to do what it can to help Mei Mei, to 
champion her interests as well, and to ensure that no other children 
suffer Mei Mei's fate because of a U.S. Attorney's unwillingness to 
enforce the laws as written.
[GRAPHIC] [TIFF OMITTED] T0986.001

[GRAPHIC] [TIFF OMITTED] T0986.002

[GRAPHIC] [TIFF OMITTED] T0986.003

[GRAPHIC] [TIFF OMITTED] T0986.004

[GRAPHIC] [TIFF OMITTED] T0986.005

[GRAPHIC] [TIFF OMITTED] T0986.006

[GRAPHIC] [TIFF OMITTED] T0986.007

[GRAPHIC] [TIFF OMITTED] T0986.008

[GRAPHIC] [TIFF OMITTED] T0986.009

[GRAPHIC] [TIFF OMITTED] T0986.010

[GRAPHIC] [TIFF OMITTED] T0986.011

[GRAPHIC] [TIFF OMITTED] T0986.012

[GRAPHIC] [TIFF OMITTED] T0986.013

[GRAPHIC] [TIFF OMITTED] T0986.014

[GRAPHIC] [TIFF OMITTED] T0986.015

[GRAPHIC] [TIFF OMITTED] T0986.016

[GRAPHIC] [TIFF OMITTED] T0986.017

[GRAPHIC] [TIFF OMITTED] T0986.018

[GRAPHIC] [TIFF OMITTED] T0986.019

[GRAPHIC] [TIFF OMITTED] T0986.020

[GRAPHIC] [TIFF OMITTED] T0986.021

[GRAPHIC] [TIFF OMITTED] T0986.022

[GRAPHIC] [TIFF OMITTED] T0986.023

[GRAPHIC] [TIFF OMITTED] T0986.024

[GRAPHIC] [TIFF OMITTED] T0986.025

[GRAPHIC] [TIFF OMITTED] T0986.026

[GRAPHIC] [TIFF OMITTED] T0986.027

[GRAPHIC] [TIFF OMITTED] T0986.028

[GRAPHIC] [TIFF OMITTED] T0986.029

[GRAPHIC] [TIFF OMITTED] T0986.030

[GRAPHIC] [TIFF OMITTED] T0986.031

[GRAPHIC] [TIFF OMITTED] T0986.032

[GRAPHIC] [TIFF OMITTED] T0986.033

[GRAPHIC] [TIFF OMITTED] T0986.034

[GRAPHIC] [TIFF OMITTED] T0986.035

[GRAPHIC] [TIFF OMITTED] T0986.036

[GRAPHIC] [TIFF OMITTED] T0986.037

[GRAPHIC] [TIFF OMITTED] T0986.038

[GRAPHIC] [TIFF OMITTED] T0986.039

[GRAPHIC] [TIFF OMITTED] T0986.040

    Senator DeWine. Mr. Lebeau.

                STATEMENT OF JOHN J. LEBEAU, JR.

    Mr. Lebeau. I would like to thank Senator Thurmond and 
Senator DeWine and distinguished members of the committee for 
allowing me to testify here today. I commend your commitment to 
exploring the devastating problems we are here to address, and 
I humbly request that you not let go of that commitment until 
we all achieve not just the necessary level of activity, but 
more importantly, fully acceptable level of accomplishment. So 
far, we have a long way to go.
    Forgive me, gentlemen, if my testimony sounds somewhat 
emotional. However, I am sure you agree this is a very 
emotional issue for thousands of American families.
    The record of the Justice Department's response to 
international parental kidnaping speaks for itself. Estimates 
show there were 10,000 cases of international parental child 
abduction at the time the International Parental Kidnaping 
Crime Act was passed on December 2, 1993. The record shows 
arrest warrants have been issued in less than 1 percent of 
those cases and all cases since then.
    According to the National Center for Missing and Exploited 
Children, my case is perhaps the only one with both an arrest 
and U.S. extradition upheld. To achieve this virtually unheard 
of outcome, Senator, it took my own Herculean efforts, the 
noble and unceasing fight of a sympathetic Congressional aide, 
a miraculous stroke of luck or two, lots of prayers, and lots 
of family support, every dollar I had and could borrow, and the 
threat of legal action against the U.S. Government. This 
testimony is about why more than 9,999 other left-behind 
parents have not been able to do the same. It is on their 
behalf that I appear before you today.
    Mr. Chairman and members of the committee, I worked 
obsessively for 2\1/2\ years, traveled 5,000 miles to Northern 
Europe 6 times, and spent over $160,000 in order to protect the 
endangered well-being of my very young children. I entered for 
2\1/2\ years a virtual netherworld of multinational foreign 
bureaucracies where the law changes at every border and often 
years of legal proceedings produce nothing but frustration.
    However, in all that experience, never did I encounter more 
hostility, ignorance, incompetence, deceit, and blatant 
unwillingness to protect our youngest American citizens as I 
did with my experience with the Department of Justice. 
Characteristic of their unwillingness to respond to the crime 
of international parental kidnaping at the demand of the U.S. 
Attorney's Office, I placed false trust in a foreign civil 
process called the Hague Convention on the civil aspects of 
international child abduction that by design alone does not and 
will not work efficiently to protect American citizens. Though 
they demanded I follow it, never was I informed by the U.S. 
Attorney's Office that this foreign civil process since its 
creation had been successful in returning less than 30 percent 
of internationally abducted children. Even to this day, DOJ has 
failed to reveal the facts, as evidenced by the blue ribbon 
April 1999 report to the Attorney General. With typical 
bureaucratic flair and wasted resources, this report is a pre-
package with no real substance, and that is to the direct 
detriment of countless lost American children.
    For me, the convention-mandated 6-week Hague process took 
14 grueling months, precious time that could have been more 
productively spent by pursuing additional remedies for the 
return of my children. After 14 months, not only were my 
children not returned, worse yet, I lost all traces of them 
completely due to the unenforceability, thus worthlessness, of 
a Danish high court order of return. Following that order, it 
took the U.S. Attorney's Office 6 months to take action, and 
then only as a result of my threats of legal action against 
them for blatant violations of the National Child Search 
Assistance Act of 1990.
    The U.S. Attorney's Office's demand that I initially pursue 
only civil remedies was not only very poor advice, but more 
importantly, it directly endangered the well-being of my 
children. The U.S. Attorney's Office's reason for not taking my 
case subsequent to my award of custody was based on the false 
statement, ``By law, we are not able to pursue criminal 
remedies against your wife until you have completely exhausted 
your civil remedies, both in the United States and abroad.'' 
What they were undoubtedly referring to, I would later learn, 
is the sense of Congress resolution included in the President's 
signed statement of the International Parental Kidnaping Crime 
Act, and in no way can this resolution be considered law.
    Even overlooking their inability to give----
    Senator DeWine. So they were incorrect?
    Mr. Lebeau. I am sorry, sir.
    Senator DeWine. They were incorrect?
    Mr. Lebeau. Yes, sir. Even overlooking their inability to 
give proper advice in this critical situation, I find it 
absolutely inexcusable that in doing so, the U.S. Attorney's 
Office conveniently designed their own law to accommodate their 
disinterest. To me, that comment above and the theory behind it 
is akin to advising someone not to walk and chew gum at the 
same time. Certainly, it might be nice to sit down and chew, 
but not while you are waiting years for your children to come 
home.
    Now, in the interest of time, ladies and gentlemen, I not 
only invite you but I beseech you to read this testimony that I 
have prepared. As I do, may I leave you with this. Even apart 
from my own horrific experience, the facts speak miserably for 
themselves and the harsh reality is that the U.S. Government is 
successful in securing the return of less than 30 percent of 
internationally kidnaped children. It is only on that basis 
alone that I need make my appeal.
    We must, for the sake of our most precious resource, take 
the sheer facts and statistics as a clear signal that we, as 
Americans, are not doing enough to protect our youngest 
citizens. Clearly, we must become more proactive.
    Personally, though, it has taken me many years to learn so 
well a very important lesson. There is a big difference between 
activity and accomplishment. So, yes, this is a call for 
action, but more importantly, there is a call for results. 
Thank you, Senator DeWine, for allowing me to appear before the 
subcommittee.
    Senator DeWine. Thank you very much.
    [The prepared statement of Mr. Lebeau follows:]
    [GRAPHIC] [TIFF OMITTED] T0986.041
    
    [GRAPHIC] [TIFF OMITTED] T0986.042
    
    [GRAPHIC] [TIFF OMITTED] T0986.043
    
    [GRAPHIC] [TIFF OMITTED] T0986.044
    
    [GRAPHIC] [TIFF OMITTED] T0986.045
    
    [GRAPHIC] [TIFF OMITTED] T0986.046
    
    [GRAPHIC] [TIFF OMITTED] T0986.047
    
    [GRAPHIC] [TIFF OMITTED] T0986.048
    
    [GRAPHIC] [TIFF OMITTED] T0986.049
    
    [GRAPHIC] [TIFF OMITTED] T0986.050
    
    [GRAPHIC] [TIFF OMITTED] T0986.051
    
    [GRAPHIC] [TIFF OMITTED] T0986.052
    
    [GRAPHIC] [TIFF OMITTED] T0986.053
    
    [GRAPHIC] [TIFF OMITTED] T0986.054
    
    [GRAPHIC] [TIFF OMITTED] T0986.055
    
    [GRAPHIC] [TIFF OMITTED] T0986.056
    
    [GRAPHIC] [TIFF OMITTED] T0986.057
    
    [GRAPHIC] [TIFF OMITTED] T0986.058
    
    [GRAPHIC] [TIFF OMITTED] T0986.059
    
    [GRAPHIC] [TIFF OMITTED] T0986.060
    
    [GRAPHIC] [TIFF OMITTED] T0986.061
    
    [GRAPHIC] [TIFF OMITTED] T0986.062
    
    [GRAPHIC] [TIFF OMITTED] T0986.063
    
    [GRAPHIC] [TIFF OMITTED] T0986.064
    
    [GRAPHIC] [TIFF OMITTED] T0986.065
    
    [GRAPHIC] [TIFF OMITTED] T0986.066
    
    [GRAPHIC] [TIFF OMITTED] T0986.067
    
    [GRAPHIC] [TIFF OMITTED] T0986.068
    
    [GRAPHIC] [TIFF OMITTED] T0986.069
    
    [GRAPHIC] [TIFF OMITTED] T0986.070
    
    [GRAPHIC] [TIFF OMITTED] T0986.071
    
    [GRAPHIC] [TIFF OMITTED] T0986.072
    
    [GRAPHIC] [TIFF OMITTED] T0986.073
    
    [GRAPHIC] [TIFF OMITTED] T0986.074
    
    [GRAPHIC] [TIFF OMITTED] T0986.075
    
    [GRAPHIC] [TIFF OMITTED] T0986.076
    
    [GRAPHIC] [TIFF OMITTED] T0986.077
    
    [GRAPHIC] [TIFF OMITTED] T0986.078
    
    [GRAPHIC] [TIFF OMITTED] T0986.079
    
    [GRAPHIC] [TIFF OMITTED] T0986.080
    
    [GRAPHIC] [TIFF OMITTED] T0986.081
    
    [GRAPHIC] [TIFF OMITTED] T0986.082
    
    [GRAPHIC] [TIFF OMITTED] T0986.083
    
    [GRAPHIC] [TIFF OMITTED] T0986.084
    
    [GRAPHIC] [TIFF OMITTED] T0986.085
    
    [GRAPHIC] [TIFF OMITTED] T0986.086
    
    [GRAPHIC] [TIFF OMITTED] T0986.087
    
    [GRAPHIC] [TIFF OMITTED] T0986.088
    
    [GRAPHIC] [TIFF OMITTED] T0986.089
    
    [GRAPHIC] [TIFF OMITTED] T0986.090
    
    [GRAPHIC] [TIFF OMITTED] T0986.091
    
    [GRAPHIC] [TIFF OMITTED] T0986.092
    
    [GRAPHIC] [TIFF OMITTED] T0986.093
    
    [GRAPHIC] [TIFF OMITTED] T0986.094
    
    [GRAPHIC] [TIFF OMITTED] T0986.095
    
    [GRAPHIC] [TIFF OMITTED] T0986.096
    
    [GRAPHIC] [TIFF OMITTED] T0986.097
    
    [GRAPHIC] [TIFF OMITTED] T0986.098
    
    [GRAPHIC] [TIFF OMITTED] T0986.099
    
    [GRAPHIC] [TIFF OMITTED] T0986.100
    
    [GRAPHIC] [TIFF OMITTED] T0986.101
    
    [GRAPHIC] [TIFF OMITTED] T0986.102
    
    [GRAPHIC] [TIFF OMITTED] T0986.103
    
    [GRAPHIC] [TIFF OMITTED] T0986.104
    
    [GRAPHIC] [TIFF OMITTED] T0986.105
    
    [GRAPHIC] [TIFF OMITTED] T0986.106
    
    [GRAPHIC] [TIFF OMITTED] T0986.107
    
    [GRAPHIC] [TIFF OMITTED] T0986.108
    
    [GRAPHIC] [TIFF OMITTED] T0986.109
    
    [GRAPHIC] [TIFF OMITTED] T0986.110
    
    [GRAPHIC] [TIFF OMITTED] T0986.111
    
    [GRAPHIC] [TIFF OMITTED] T0986.112
    
    [GRAPHIC] [TIFF OMITTED] T0986.113
    
    [GRAPHIC] [TIFF OMITTED] T0986.114
    
    [GRAPHIC] [TIFF OMITTED] T0986.115
    
    [GRAPHIC] [TIFF OMITTED] T0986.116
    
    [GRAPHIC] [TIFF OMITTED] T0986.117
    
    [GRAPHIC] [TIFF OMITTED] T0986.118
    
    [GRAPHIC] [TIFF OMITTED] T0986.119
    
    [GRAPHIC] [TIFF OMITTED] T0986.120
    
    [GRAPHIC] [TIFF OMITTED] T0986.121
    
    [GRAPHIC] [TIFF OMITTED] T0986.122
    
    [GRAPHIC] [TIFF OMITTED] T0986.123
    
    [GRAPHIC] [TIFF OMITTED] T0986.124
    
    [GRAPHIC] [TIFF OMITTED] T0986.125
    
    [GRAPHIC] [TIFF OMITTED] T0986.126
    
    [GRAPHIC] [TIFF OMITTED] T0986.127
    
    [GRAPHIC] [TIFF OMITTED] T0986.128
    
    [GRAPHIC] [TIFF OMITTED] T0986.129
    
    [GRAPHIC] [TIFF OMITTED] T0986.130
    
    [GRAPHIC] [TIFF OMITTED] T0986.131
    
    [GRAPHIC] [TIFF OMITTED] T0986.132
    
    [GRAPHIC] [TIFF OMITTED] T0986.133
    
    [GRAPHIC] [TIFF OMITTED] T0986.134
    
    [GRAPHIC] [TIFF OMITTED] T0986.135
    
    [GRAPHIC] [TIFF OMITTED] T0986.136
    
    [GRAPHIC] [TIFF OMITTED] T0986.137
    
    [GRAPHIC] [TIFF OMITTED] T0986.138
    
    [GRAPHIC] [TIFF OMITTED] T0986.139
    
    [GRAPHIC] [TIFF OMITTED] T0986.140
    
    [GRAPHIC] [TIFF OMITTED] T0986.141
    
    [GRAPHIC] [TIFF OMITTED] T0986.142
    
    [GRAPHIC] [TIFF OMITTED] T0986.143
    
    [GRAPHIC] [TIFF OMITTED] T0986.144
    
    [GRAPHIC] [TIFF OMITTED] T0986.145
    
    [GRAPHIC] [TIFF OMITTED] T0986.146
    
    [GRAPHIC] [TIFF OMITTED] T0986.147
    
    [GRAPHIC] [TIFF OMITTED] T0986.148
    
    [GRAPHIC] [TIFF OMITTED] T0986.149
    
    [GRAPHIC] [TIFF OMITTED] T0986.150
    
    [GRAPHIC] [TIFF OMITTED] T0986.151
    
    [GRAPHIC] [TIFF OMITTED] T0986.152
    
    [GRAPHIC] [TIFF OMITTED] T0986.153
    
    [GRAPHIC] [TIFF OMITTED] T0986.154
    
    [GRAPHIC] [TIFF OMITTED] T0986.155
    
    [GRAPHIC] [TIFF OMITTED] T0986.156
    
    [GRAPHIC] [TIFF OMITTED] T0986.157
    
    [GRAPHIC] [TIFF OMITTED] T0986.158
    
    [GRAPHIC] [TIFF OMITTED] T0986.159
    
    [GRAPHIC] [TIFF OMITTED] T0986.160
    
    [GRAPHIC] [TIFF OMITTED] T0986.161
    
    [GRAPHIC] [TIFF OMITTED] T0986.162
    
    [GRAPHIC] [TIFF OMITTED] T0986.163
    
    [GRAPHIC] [TIFF OMITTED] T0986.164
    
    [GRAPHIC] [TIFF OMITTED] T0986.165
    
    [GRAPHIC] [TIFF OMITTED] T0986.166
    
    [GRAPHIC] [TIFF OMITTED] T0986.167
    
    [GRAPHIC] [TIFF OMITTED] T0986.168
    
    [GRAPHIC] [TIFF OMITTED] T0986.169
    
    [GRAPHIC] [TIFF OMITTED] T0986.170
    
    [GRAPHIC] [TIFF OMITTED] T0986.171
    
    [GRAPHIC] [TIFF OMITTED] T0986.172
    
    [GRAPHIC] [TIFF OMITTED] T0986.173
    
    Senator DeWine. Mr. Stein.

                  STATEMENT OF CRAIG E. STEIN

    Mr. Stein. Thank you, Senator DeWine. It is a privilege and 
an honor to be asked to speak to you and your committee today 
concerning some of my experiences with the implementation of 
the Hague Convention on international child abductions. I 
understand that your committee is especially interested in the 
interface between the Justice Department and the individuals 
most affected by these unfortunate cases, the left-behind 
parent. I believe this is a very important matter that needs 
immediate attention and I am pleased that the Oversight 
Subcommittee is reviewing this issue.
    So that you will understand my perspective, unlike Mr. 
Lebeau and Ms. Hong and Lady Meyer, I have my children at home. 
Of course, Mr. Lebeau has his back now, too, but I am an 
attorney in private practice. I have a background in 
international law and have taken on a number of these child 
abduction cases, both incoming and outgoing, usually on a pro 
bono basis, over the past few years. No two cases are alike. 
The main difference is depending largely upon the country to 
which the child has abducted from or to and the attitude of the 
absconding parent.
    Although the laws implementing this aspect of the Hague 
Convention have now been on the books for several years, you 
should understand that this treaty is still a work in progress, 
on the civil side, at least. Judges in the United States and 
the private bar are continually getting experience with this 
treaty. However, its acceptance as a tool to affect the speedy 
return of a kidnaped child can no longer be denied. It may be 
imperfect, but it is helping.
    Nevertheless, those of us who take on these cases can state 
with certainty that while the civil aspects of this law are 
being refined and utilized on an increasing basis, the criminal 
side of the enabling legislation has not been used to its 
fullest potential. Indeed, I can state with absolute certainty 
that it is the feeling among attorneys familiar with these 
cases that it is not even worth the effort to bring these cases 
to the attention of the Federal law enforcement agencies as no 
useful action will be undertaken. I am sorry to see that the 
first panel has already left the hearing room. Obviously, the 
testimony preceding me in this sort of contradicts some of the 
perceptions, or the gap in perceptions that we have here in 
dealing with these issues.
    Frankly, this is unfortunate. As you have heard through Mr. 
Lebeau's testimony, one of the most helpful tools he had in his 
effort--or in his written statement--to have his children 
returned was the pending indictment he successfully obtained 
against the absconding mother, but not without great 
difficulty. Indeed, from my experience, it is my opinion that 
having an indictment pending in the United States tends at a 
minimum to catch the attention of those authorities overseas 
who are charged with enforcing the Hague Convention in their 
respective countries.
    I do not want to belabor problems individuals have faced in 
getting the appropriate Federal authorities to institute 
criminal proceedings in these matters. Rather, I would like to 
spend the few minutes I have in a constructive manner. In 
short, here are what I perceive to be the problems.
    Number one, there does not seem to be a designated person, 
either in Washington or in those U.S. attorneys' offices which 
appear to experience a greater proportion of these cases, who 
is specifically charged with enforcing IPKA and other Hague 
Convention issues. If there is a person in charge, those of us 
who need to know who that person is are in the dark.
    Senator DeWine. You have not found him yet, then, or her?
    Mr. Stein. We are still looking.
    Senator DeWine. You are still looking?
    Mr. Stein. We are still looking, Senator. I am glad to hear 
the Justice Department is beginning some training programs. As 
far as we know, there has been little or no training either 
within Justice or the respective U.S. attorneys' offices about 
the procedures that should be implemented in these matters.
    Three, as far as we can ascertain, or my colleagues can 
ascertain, we are unaware of any written guidelines in the 
Justice Department or various U.S. attorneys' offices to handle 
these types of matters.
    Number four, the review and handling of these cases appears 
to be accomplished on an ad hoc manner. I think Ms. Hong's 
testimony really points that out. There is no discernable 
procedure or philosophy in carrying out the relevant statutes.
    Now, why do these problems persist? In my opinion, there 
are a variety of factors that come into play, Senator. First, 
there is a natural reluctance of a prosecutor to take cases 
from the public rather than a law enforcement agency. Unlike 
other crimes, however, the most valuable resource in parental 
kidnaping cases is the victim, the left-behind parent. 
Therefore, this natural hesitancy must be addressed and 
overcome.
    Second, because there is no one individual either at 
Justice or at specific U.S. attorneys' offices responsible for 
these matters, or accountable, for that matter, there is no 
coordinating effort, no one person to look for for assistance, 
and no centralized training program.
    Third, and I think this is underscored by the testimony 
this morning in panel number one and on page 35 of the report 
that has been referred to quite often today, there is a 
perception that the criminal enforcement mechanisms do not 
assist in bringing back children. However, there is really no 
empirical evidence to substantiate this theory because, thus 
far, the criminal laws have just not been enforced.
    I would argue that indictments should be brought in most 
instances. It should be the rule, not the exception, and here I 
agree with you, Senator DeWine. Bring the indictments and let 
us see what happens. Depending on the circumstances, after the 
indictment is brought, then we will see how we will handle the 
criminal charges.
    Finally, what should be done to address these problems? I 
believe the answers are quite simple. First, the Department of 
Justice should designate an individual to oversee these cases 
and name that individual. Because the number of cases is on the 
rise, I believe it should be a full-time position.
    Second, persons should establish a training program for 
assistant U.S. attorneys in those districts that are 
experiencing more than a random case of international parental 
kidnaping.
    Third, in each such district, U.S. attorneys should be 
required to designate on AUSA in his or her office to handle 
these applications. It should be clearly understood, however, 
and I must emphasize, that the policy of the Justice Department 
should be that the efficacy of bringing criminal proceedings in 
these matters is not a matter for debate that would sideline 
these cases. Rather, we should explore the efficacy issue after 
several years of experience that we gain in bringing these 
indictments.
    Thank you for your time and attention, Senator. I would 
welcome any questions you might have concerning these matters.
    Senator DeWine. Thank you very much.
    [The prepared statement of Mr. Stein follows:]

                   Prepared Statement of Craig Stein

    Mr. Chairman, it is a privilege and an honor to be asked to speak 
to you and your committee today concerning some of my experiences with 
the implementation of the Hague Convention on International Child 
Abductions. I understand that your Committee is especially interested 
in the interface between the Justice Department and the individuals 
most effected by these unfortunate cases, the left behind parent. I 
believe this is a very important matter that needs immediate attention 
and I am pleased that your Oversight Committee is reviewing this issue.
    So that you will understand my perspective on these matters, I am 
an attorney in private practice. I have a background in international 
law and have taken on a number of these child abduction cases, both 
incoming and outgoing, usually on a pro bono basis, over the past few 
years. No two cases are alike. The main differences depend largely upon 
the country to which the child has been abducted from or to, and the 
attitude of the absconding parent. Although the laws implementing this 
aspect of the Hague Convention have now been on the books for several 
years, you should understand that this Treaty is still a work in 
progress. Judges in the United States and the private bar are 
continually gaining experience with this Treaty. However, its 
acceptance, as a tool to effect a speedy return of a kidnaped child can 
no longer be denied.
    Nevertheless, those of us who take on these cases can state with 
certainty that while the civil aspects of this law are being refined 
and utilized on an increasing basis, the criminal side of the enabling 
legislation has not been used to its fullest potential. Indeed, I can 
state with certainty that it is the feeling among attorneys familiar 
with these cases that it is not worth the effort to even bring these 
cases to the attention of the federal law enforcement agencies as no 
useful action will be undertaken.
    Frankly, this is unfortunate. As you have heard through Mr. 
LeBeau's testimony, one of the most helpful tools he had in his effort 
to have his children returned was the pending indictment against the 
absconding mother. Indeed, from my experience, it is my opinion that 
having an indictment pending in the United States tends, at a minimum, 
to catch the attention of those authorities overseas who are charged 
with enforcing the Hague Convention in their respective countries.
    I do not want to belabor the problems individuals have faced in 
getting the appropriate federal authorities to institute criminal 
proceedings in these matters. Rather, I would like to spend the few 
minutes I have in a constructive manner. In short, here are what I 
perceive to be the problems. (1) There is no one designated either in 
Washington or in those U.S. Attorney's offices which appear to 
experience a greater proportion of these cases who is specifically 
charged with enforcing Hague Child Abduction proceedings. If there is a 
person in charge, those of us who need to know who that person might be 
are in the dark. (2) There has been little or no training within 
Justice or the respective U.S. Attorneys' offices about the procedures 
that should be implemented in these matters. (3) There are no written 
guidelines in the Justice Department or the various U.S. Attorney's 
offices to handle these matters. (4) The review and handling of these 
cases appears to be accomplished in an ad hoc manner. There is no 
discernable procedure or philosophy in carrying out the relevant 
statue.
    Why do these problems persist? In my opinion, there are a variety 
of factors that come into play. First, there is a natural reluctance of 
a prosecutor to take cases from ``the public'' rather than a law 
enforcement agency. Unlike other crimes, however, the most valuable 
resource in parental kidnaping cases is the left behind parent. 
Therefore, this hesitancy must be addressed and overcome. Second, 
because no one individual at Justice is responsible for these matters 
(or accountable for that matter) there is no coordinating effort, no 
one person to look to for assistance and no centralized training 
program. Third, there is a perception that the criminal enforcement 
mechanisms do not assist in bringing back children. However, there is 
no empirical evidence to substantiate this theory because, thus far, 
the criminal laws have not been enforced. I would argue that 
indictments should be brought in most instances. Then, depending on the 
circumstances, how that indictment is eventually handled or resolved 
will depend upon the cooperation of the absconding parent in returning 
and the sanctuary country in cooperating with our efforts to have 
children returned.
    Finally, what should be done to address these problems? I believe 
the answers are quite simple. Indeed, I came here today not to 
criticize any individual or agency, but rather to help fix what can be 
an important tool in the efforts to return missing children. First, The 
Department of Justice should designate an individual to oversee these 
cases. Because the number of cases is on the rise, I believe this 
should be a full time position. Second, this person should also 
establish a training program for Assistant United States Attorneys in 
those Districts that are experiencing more than a random case of 
international parental kidnaping. Third, in each such District, the 
United States Attorney should be required to designate an AUSA in his 
or her office to handle these applications. It should clearly be 
understood, however, and therefore the policy of the Justice Department 
that the efficacy of bringing criminal proceedings in these matters is 
not a matter for debate that would sideline these cases. Rather, we 
should explore the efficacy issue after a year or two of experience is 
gained in bringing indictments and prosecutions.
    I have not even addressed the follow-through, or lack thereof, in 
prosecuting these matters. Perhaps that is a subject for another day. 
For now, it is enough if, through your committee and these hearings, we 
can work together with the Department of Justice to insure that the 
criminal aspects of the law implementing the Hague Convention on 
International Child Abduction are vigorously enforced.
    Thank you for your time and attention. I would welcome any 
questions you might have concerning these matters.

    Senator DeWine. Mr. Allen.

                    STATEMENT OF ERNIE ALLEN

    Mr. Allen. Thank you, Senator. I remember vividly almost a 
decade ago having the opportunity to testify before the 
counterpart committee in the House in support of your efforts 
to make international parental kidnaping a crime. In fact, I 
stood with you at a press conference shortly thereafter in 
which you advocated that that step be taken. I think it was the 
right step then and I think it is the right law now. Yet many 
of the same obstacles that we talked about a decade ago are 
still with us today.
    Perhaps first and foremost, we still face the attitude 
among policy makers and many others that this is a private 
legal matter. This belittles the fact that it is a crime in 
every State, as well as a Federal crime. We believe that 
central to this problem is the convergence of civil and 
criminal law, and it is our view that we should use all 
existing legal remedies in the most creative and effective way 
possible to serve that dual purpose.
    Warrants should be issued when the facts support issuance. 
Then every effort should be made to use those warrants in 
conjunction with other efforts--diplomatic, family 
negotiations, and the use of intermediaries. We think it is 
appropriate to issue far more Federal warrants in these cases. 
A Federal warrant speaks for the Nation in a way that a State 
warrant never can, and it says that the country cares that this 
law has been broken and that we want to exercise our lawful 
right to protect child victims.
    In addition, we believe that it strengthens the hand of 
diplomatic personnel when negotiating for the return of these 
children. We now have Federal prosecution for flight to avoid 
payment of child support, an implicit recognition of the 
Federal Government's appropriate role in issues of child 
protection.
    At that hearing 9 years ago, the Justice Department 
testified that without meaningful prosecutive activity, the 
deterrent value of such legislation would be minimal. We agree. 
And while we applaud the intensified attention to this problem 
among the key Federal agencies and we work with the State 
Department and the Justice Department in partnership on this 
effort, in our judgment, we have not yet reached the point of 
meaningful prosecutive activity. Thirteen convictions in 5 
years is not meaningful prosecutive activity.
    We believe that the International Parental Kidnaping Crime 
Act is a necessary tool, and we believe that we cannot rely 
solely on UFAP warrants for three basic reasons.
    First of all, as has been noted earlier, some States simply 
do not issue warrants because they cannot afford extradition.
    Second, the International Parental Kidnaping Crime Act is 
written far more expansively than many State statutes, allowing 
many more cases to fall within its framework.
    And third, it provides a strong statement from the U.S. 
Government that can be used as a negotiating tool.
    In my written testimony, I have cited a number of cases. I 
would just like to briefly mention two that I think illustrate 
the fact that the threat of criminal sanctions and criminal 
warrants work in these cases, if utilized.
    Just Monday of this week, a 6-year-old child was recovered 
from the Philippines. Abducted by a court order, she had 
traveled to the Philippines for visitation with her father, who 
decided then to resist, that he would not honor the court order 
and refused to return the little girl and her 12-year-old 
brother. About a month ago, the FBI obtained a felony warrant 
for the father. We at the center worked with the FBI and the 
State Department, which resulted in the return of the child to 
the United States, the arrest of the father, and criminal 
actions against him are still being pursued.
    In addition, another case involving Taiwan, a non-custodial 
father who had abducted his 1-year-old daughter after an 
altercation with the mother. The father took the child first to 
another State and eventually left the country and took the 
child to Taiwan. The father was named in a Federal warrant. His 
passport was revoked. He was arrested by Taiwanese law 
enforcement and returned to the United States by the U.S. 
Marshal. The use of law enforcement resources and criminal 
sanctions in these cases works, but it has to be used.
    Let me say just a word about the civil side. Lady Meyer and 
others have talked about the Hague Convention. Let me say that 
we support the Hague Convention as an effort to create a more 
uniform, consistent international process. In 1995, the State 
Department and the Justice Department asked the center to take 
a lead role in handling incoming cases, children abducted to 
the United States under the Hague. That was done because of the 
concern of foreign governments that we do more in ensuring 
comity and cooperation.
    We are pleased that since 1995, our resolution rate in 
incoming cases has now climbed to 89 percent, and as a result 
of the report that has been mentioned, we have been asked to 
expand our role on outgoing cases.
    However, there are some troubling problems with the Hague. 
It is slow. It is cumbersome. In many cases, it is hindered by 
parochial application and national prejudices. There is a lack 
of uniformity from country to country. There are too many 
courts hearing cases, too few judges that really understand the 
Hague. And Lady Meyer mentioned the exceptions under article 
13. The reality is, in some countries, the exceptions have 
become the rule. Access for left-behind parents has become a 
nightmare for enforcement.
    It is expensive. If you do not have the ability to generate 
the kinds of resources that John Lebeau talked about, the 
reality is you are probably not going to see your child again. 
There is inadequate research and limited involvement of 
international law enforcement.
    We believe it is imperative that we work to create greater 
consistency in the application of the Hague and that, not just 
for Hague countries but particularly for those many countries 
that are not signatories to the Hague, that we use the law 
enforcement resources and the ability to use the International 
Parental Kidnaping Crime Act as leverage and as a tool to bring 
children home. There needs to be a strong policy statement by 
all affected agencies and departments that this is a priority, 
that we are going to use the resources available to help these 
searching families. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Allen follows:]

                   Prepared Statement of Ernie Allen

    Mr. Chairman and Members of the Committee, as President of the 
National Center for Missing and Exploited Children, I appreciate the 
opportunity to appear before you today on an issue of great importance 
to children and parents across the nation. Nearly a decade ago I had 
the pleasure to testify before the Subcommittee on Criminal Justice of 
the House Judiciary Committee in support of making international child 
abduction a federal crime. I still remember vividly standing with then-
Congressman Mike DeWine at a press conference shortly thereafter in 
support of that step.
    That bill, the International Parental Kidnapping Crime Act became 
law and has produced positive change. Yet, there is much more to do. 
And, unfortunately, many of the obstacles to the return of 
internationally abducted children identified at that hearing a decade 
ago are still with us today.
    By way of background, I would like to explain the role of the 
National Center for Missing and Exploited Children (NCMEC) in this 
issue. As you know, NCMEC is a private, non-profit organization, 
working in partnership with the U.S. Department of Justice to find and 
recover missing children and prevent child victimization. NCMEC is a 
public-private partnership, receiving half of its operating budget from 
Congress and half from the private sector. We are granted access to 
unique tools and resources, including online access to the FBI's 
National Crime Information Center (NCIC) and the National Law 
Enforcement Telecommunications System (NLETS). Our public funding 
through the Office of Juvenile Justice and Delinquency Prevention 
supports the operation of a national toll-free hotline and our core 
functions and services as the national resource center and 
clearinghouse on missing and exploited children.
    Since we opened our doors in 1984, NCMEC has worked cases of 
international child abduction. Nothing in our Congressional mandate 
said that we were to cease efforts to locate missing U.S. children when 
they crossed a national border. Thus, while lacking the kind of direct 
mandate and support we have had on domestic cases, we have tried 
nonetheless to assist searching U.S. parents wherever their child might 
have been taken.
    In 1995 that role expanded. At the request of the State Department 
and the Justice Department, we entered into a formal partnership to 
handle cases under the Hague Convention on the Civil Aspects of 
International Child Abduction (Hague Convention) when children are 
abducted into the United States, The underlying premise for that 
request was that in order to ensure full comity and cooperation from 
foreign governments in our search for U.S. children, we needed to do 
more to locate and return their children brought to the United States.
    We were willing to undertake this new task, and are proud to report 
that since 1995 our resolution rate in those cases has climbed to 89 
percent. NCMEC has received thanks and commendations from governments 
around the world. Nonetheless, this unique role of acting as the agent 
of the State Department on ``incoming'' Hague cases has presented a 
challenge and dilemma for NCMEC. While the underlying premise was to 
build stronger international cooperation on all missing child cases, it 
could appear that, acting on behalf of the U.S. government, NCMEC is 
doing more for foreign families than for U.S. families.
    Thus, recently, as a result of the Attorney General's Task Force on 
this issue, NCMEC, as part of its current agreement with the State 
Department, has been asked to expand its role in ``outgoing'' cases as 
well. Specifically, the expanded role we have been asked to play 
centers around support services to both parents and the State 
Department. NCMEC will continue to provide technical assistance and 
support from our individual case managers, but have also hired a 
clinical social worker to identify existing counseling resources in the 
field and help develop protocols for providing assistance to parents. 
In addition to emotional support, NCMEC has agreed to assist in 
identifying legal resources for U.S. parents faced with fighting legal 
battles both here and abroad. We will also assist parents to collect 
the information and prepare the paperwork necessary to submit their 
Hague applications to the State Department.
    Thus, NCMEC is doing more and there is greater attention on this 
problem than ever before. However, a primary challenge in responding 
effectively is the focus by so many policy makers and officials on the 
civil element of the problem, frequently characterizing international 
child abduction as a ``private legal matter.'' This perception 
belittles the fact that international family abduction is a crime in 
every state as well as a federal crime.
    It also fails to fully acknowledge the harmful effects of abduction 
on children. Family abductions are a result of high-conflict 
situations. A look at the newspaper in any major city reveals cases 
that have resulted in suicide and/or homicide. Even at its most benign, 
Professor Geoff Grief's research has shown that ``some children who 
were recovered were described by the recovering parents as having been 
physically abused (23 percent), sexually abused (7 percent), and both 
physically and sexually abused (5 percent) * * * Overall functioning 
was believed to have declined in more than half of the children between 
the time they were taken and the time they were returned to the 
searching parent * * * With time, a majority (approximately 66 percent) 
of the children had been seen for psychological counseling'' (Grief, 
Impact on Children of International Abduction, p. 3-4).
    Assisting with abductions into and out of the U.S. has put NCMEC in 
a unique and often frustrating position of seeing firsthand how useful 
U.S. laws and procedures have been to foreign nationals while being 
frustrated in our attempts to help U.S. parents in their struggle to 
find resources to return their children from abroad.
    At the time of the 1989 hearing, I expressed NCMEC's support for 
the creation of a new tool to resolve cases of international child 
abduction, the International Parental Kidnapping Crime Act. Today, I am 
here to express not only NCMEC's continued support of that tool, but to 
urge that existing federal laws and resources be utilized to the 
greatest extent possible to bring more abducted children home.
    NCMEC is currently working on 697 active cases of children abducted 
internationally. Yet, recent testimony before the House Committee of 
Foreign Relations from the General Accounting Office indicated that 
just 13 persons have been convicted of international parental kidnaping 
since 1993. From this, it is clear that we are utilizing the force and 
sanctions of the International Parental Kidnapping Crime Act on only a 
small percentage of the total number of international abduction cases.
    Many changes that have occurred since the 1989 hearing and the 1993 
enactment of the International Parental Kidnapping Crime act reinforce 
this necessity. The first, and perhaps most important change is the 
increase in the number of cases. NCMEC began keeping track of 
international abductions separate from domestic abductions in 1995. The 
number of international cases worked by NCMEC since 1996 (the first 
year for which we have complete data) has increased 120 percent. We 
have more complete data on family abduction generally. Indeed, the 
number of family abductions reported to NCMEC has increased each year 
since 1994 and show a 30.4 percent increase over an eight-year period 
from 1990-1998. Given that, according to a study of family abduction 
cases by Grief and Hegar, as many as one-fifth of family abduction 
cases go international, these caseloads increase in tandem.
    With increases in the number of international marriages, divorces, 
we have every reason to believe that these cases will continue to 
increase. Better research is needed, not only to quantify the problem, 
but to determine the practical outcomes of cases. Law enforcement and 
the public need better guidance on the best ways to solve these cases. 
NCMEC is currently undertaking, with the assistance of the State 
Department, a study of the outcomes of abduction cases to select Hague 
Convention countries. Our goal is to look not only at the court 
decisions in these Hague hearings, but also to identify the practical 
outcomes of these cases--was the child ever returned?, does the left-
behind parent currently have any visitation with the child? Similar 
information needs to be collected and analyzed for all cases--including 
those with a primarily criminal focus.
    When the State Department requested that NCMEC process cases in 
which children are abducted into the United States under the Hague 
Convention, the theory was that if the United States improved its track 
record of returning children under the Convention, other countries 
would follow suit and return children abducted from the U.S., Indeed, 
the transcript of the 1989 House hearing is filled with references to 
the success of the Hague Convention, then in its infancy. In the years 
since, we have realized that the Hague Convention has not turned out to 
be the panacea we all hoped. Interestingly, the House hearing was held 
prior to the ratification of the Convention by Germany and Mexico--two 
countries regarding which there has been most concern about inadequate 
implementation of the treaty.
    We support the purpose and intent of the Hague Convention, and it 
is a positive, compelling resource in theory. Yet, there are troubling 
problems in practice:

  <bullet> While speed is essential in these cases, in most countries, 
        the processes are slow, cumbersome, complex, and bureaucratic.
  <bullet> In many cases successful implementation is hindered by 
        parochial applications of the treaty and national prejudices.
  <bullet> There is significant lack of uniformity from country to 
        country.
  <bullet> There are too many courts hearing cases, and in most 
        instances, few cases per court. Thus, many judges lack 
        knowledge and experience on Hague cases.
  <bullet> There is a lack of adequate training for judges.
  <bullet> Key exceptions provided with the Hague Convention have 
        become the rule, and are frequently used as justifications for 
        the non-return of the child. Perhaps the best example is 
        Article 13, ``Risk of harm to the Child'' and the ability of 
        judges to take into account the wished of very young children.
  <bullet> It is virtually impossible to enforce access rights for 
        parents under Article 21 of the Convention.
  <bullet> Parents need significant personal financial resources in 
        order to obtain legal representation and proceed under the 
        Convention. Yet, there is little help for parents who lack 
        financial resources.
  <bullet> There is limited involvement of international law 
        enforcement due to the civil nature of the process.
  <bullet> There is inadequate research on the psychological impacts of 
        international child abduction on children, and inadequate data 
        on the Hague process.

    When the treaty is not working, and certainly in the many cases 
involving children abducted to non-Hague signatory countries, IPKCA 
must fill in the blanks by providing law enforcement involvement and 
international warrants to recover children through the criminal 
process. Our support of the federal recognition of child abduction as a 
criminal offense comes out of our 15 years of experience working on 
domestic family abduction cases.
    In this country's own history of family abduction, the trend has 
been toward the recognition of parental kidnaping as a crime. Every 
state in the U.S. considers family abduction a crime. We continue to 
encourage individual states to amend their laws to ensure that pre-
decree abductions fall within their statutes as well as interference 
with visitation. The Missing Children Act of 1982 required, for the 
first time, that law enforcement enter missing children into the 
National Crime Information Center (NCIC) even if the abductor has not 
been charged with a crime--recognizing law enforcement's obligation to 
assist in the location of a missing child prior to the issuance of 
warrants. Best practices indicate that criminal warrants should be 
used--criminal warrants are extremely useful and may be necessary when 
there is a need to locate the abductor and, therefore, the child.
    NCMEC administers a grant from the Office of Victims of Crime that 
provides financial assistance to reunite internationally-abducted 
children with their searching parent. In many of these cases, the 
successful resolution has depended upon a Federal warrant and the 
active intervention of Federal law enforcement.
    The following cases are examples of the positive effects of 
criminal warrants:

  <bullet> Phillipines: A six-year-old child, `Jennifer' was recovered 
        this Monday (10/25/99) from the Philippines and returned to her 
        custodial mother in the United States. In this case `Jennifer' 
        and her twelve-year-old brother, `Michael' were allowed per 
        court order to travel to the Philippines for visitation with 
        their father. The court ordered that `Jennifer' be returned to 
        her mother in July, whereas `Michael' was to remain with his 
        father until mid-August. As the time for `Jennifer's' return 
        approached, the father decided he would not honor the court 
        order. `Jennifer' was reported missing and entered into NCIC. 
        No warrants were issued at the time because the various law 
        enforcement agencies believed the father would return her along 
        with her brother in August. When `Michael' was told he would 
        not be, allowed to return to the U.S., he objected. His 
        defiance ultimately lead to his voluntary return to the U.S. in 
        mid-August. One month later, in mid-September, the FBI obtained 
        a felony warrant for the father. NCMEC coordinated with the FBI 
        and the State Department to pick up the child at the same time 
        as the planned arrest of the abducting father on federal 
        charges. The child was picked up from school and returned to 
        the United States. Criminal action against the abducting father 
        is still being pursued.
  <bullet> Lebanon: `Joseph' was abducted by his non-custodial father 
        on November 13, 1992 from Massachusetts at the age of six. The 
        child was later located in Lebanon. In 1993, the abducting 
        father returned to the United States without the child. The 
        father was named in a felony warrant and ordered by the probate 
        court of Massachusetts to return the child to the United 
        States. After refusing, the father was held in contempt and 
        incarcerated. In May of 1997, the father and his family agreed 
        to return the child to the mother on the condition of the 
        father's release. The child was reunited with the mother in 
        February 1998. The father was released from jail and deported 
        to Lebanon.
  <bullet> Scotland: The father was awarded full custody of the child 
        by the State of Pennsylvania. The mother abducted the children 
        taking them to Scotland. She was named in a State Parental 
        Kidnapping and UFAP warrant. Upon being located, the mother was 
        apprehended and transported to London for criminal proceedings 
        and to await extradition. The father was reunited with the 
        children on September 3, 1998.
  <bullet> Taiwan: The non-custodial father abducted one-year-old 
        `Nina' after a physical altercation with the mother. Due to the 
        husband's abusive and intimidating behavior the mother was 
        unable to stop the father from taking the child first to 
        another state in the U.S. and eventually Taiwan. The father was 
        named in a federal Warrant. The father's passport was revoked 
        and he was arrested by Taiwanese Law Enforcement and turned 
        over to U.S. Marshals who proceeded to extradite him to the 
        United States. He is currently awaiting trial on both federal 
        and state charges.

    We are unable to provide a fuller picture of the uses of IPKCA 
because of the small number of indictments. Indeed, it is hard to draw 
conclusions from the two prosecutions under the law--one did not result 
in the return of the children, but has provided excellent case law for 
future prosecutions and the second is still on-going. We believe that 
IPKCA is a necessary tool--we cannot rely solely on Federal involvement 
through an Unlawful Flight to Avoid Prosecution warrant or UFAP for 
three reasons:

          (1) Some states do not issue warrants because they cannot 
        afford extradition.
          (2) IPKCA is written more expansively than many state 
        statutes--allowing more cases to fall within its framework.
          (3) It provides a strong statement from the U.S. government 
        that can be used as a negotiating tool.

    It is abundantly clear that these cases involve a convergence of 
civil and criminal law We should use our existing legal remedies in the 
most creative and effective way possible to serve that dual purpose. 
Warrants should be issued when the facts support issuance. Then every 
effort should be made to use these warrants in conjunction with other 
efforts--diplomatic efforts, family negotiations, and the use of 
intermediaries are among some of the most useful. A federal warrant 
speaks for the nation in a way that a state warrant never can. It says 
the U.S. cares that this law has been broken and we want to exercise 
our lawful right to protect the child victim.
    While much has changed in the past 10 years, one fact, 
unfortunately, has not--international parental abductions remain among 
the most difficult, frustrating, and damaging cases and deserve the 
full attention of this committee and others who have taken up this 
issue over the past several months. The issue before us is ensuring 
that we are using all of the resources of this great nation to protect 
our children against the wrongdoing of adults--including their parents.
    At the time of IPKCA's enactment, the concern existed that other 
countries discounted the U.S. government's commitment to this issue 
when we did not consider it serious enough to warrant inclusion in our 
Federal Code. I believe that this perception validly remains if we do 
not aggressively pursue these warrants as contemplated by Congress, and 
strengthen the hand of our diplomatic personnel when negotiating the 
return of these children. We now have federal prosecution for flight to 
avoid payment of child support--implicit recognition of the federal 
government's appropriate role in issues of child protection.
    At the hearing nine years ago, the Justice Department testified 
that without meaningful prosecutive activity, the deterrent value of 
such legislation would be minimal. We agree. While I applaud the 
intensified attention to this problem among key federal agencies, in 
our judgment we have not reached the point of ``meaningful prosecutive 
activity.'' I wholeheartedly encourage the committee to help make our 
existing statute as strong as it can be.
    In conclusion, I submit the following recommendations to the 
Committee for your consideration:

          (1) That research be undertaken on the methods used in 
        successful resolution of international abduction cases.
          (2) That there be a strong policy statement to all affected 
        agencies and departments that the U.S. government should 
        utilize all available remedies, civil and criminal, to resolve 
        cases of international child abduction.
          (3) That the Justice Department encourage the expeditious 
        issuance of IPKCA warrants and extradition requests.
          (4) That the State Department encourage prompt and active 
        diplomatic efforts on individual cases, in addition to 
        addressing broad policy issues.
          (5) That reports be prepared on the legal systems of other 
        countries including a realistic, practical assessment of how 
        they have responded to Hague applications and criminal warrants 
        seeking the return of U.S. children.
          (6) That we pursue greater uniformity in our state child 
        abduction statutes to ensure that legal recourse is available 
        before a custody decree has been issued and when visitation 
        rights are violated.
          (7) That we increase efforts to develop a model for federal 
        reaction in International Child Abduction cases. The Uniform 
        Law Commissioners have developed a model (UCCJEA) for civil/
        criminal interaction in domestic family abduction cases. The 
        same needs to be done for international cases.

    We are making progress as a nation on this complex, difficult 
problem. However, much more needs to be done. A key step is to make 
sure that we are making full use of the tools presently available.

    Senator DeWine. Let me thank all the panel members very 
much. I think you have brought a human face to the tragedy that 
we have heard about, and I think you have had some very good 
specific suggestions and comments.
    Let me maybe start with Mr. Lebeau. What suggestions would 
you make for parents who find themselves in the position you 
found yourself?
    Mr. Lebeau. An excellent question, Senator. I thank you for 
asking it, and I do have some explicit suggestions in my 
written testimony. To answer your question here today, the 
number one thing that absolutely helped me more than any other 
was networking with other left-behind parents. Unfortunately, 
that is very hard to do because you do not know who they are. 
If we had some formal system of putting left-behind parents in 
touch with each other so that they may share their ongoing 
experiences, I think that would be invaluable. That would save 
a lot of time that these parents waste and, consequently, a lot 
of money, in helping return their children.
    Second, I think, as Mr. Stein, my attorney who was 
instrumental in the return of my children from England 
approximately a year ago today, I think that there is an 
absolute desperate need to have at least one individual, if not 
a team of individuals, within Justice that is specifically 
trained and on a daily basis works to actively reduce the 
numbers of children that are being not only abducted by 
illegally retained.
    I think, almost above all of those, is the need for 
education among U.S. attorneys and Justice Department officials 
on all levels. I was absolutely astonished to find that in 
handling my case, red notices were not applied for when they 
should have been. Requests for provisional arrest applications 
were not made in a timely manner, if at all. I do not feel that 
this was any one person's animosity against me or even lack of 
interest in the issue itself, I just think that due to the 
sheer fact that they are not educated and aware of the absolute 
atrocities and the level that this problem has risen to.
    So I think those three things, as an outset, would be an 
excellent start, and where we go from there, hopefully, would 
be somewhere quite far away from where we are today, Senator.
    Senator DeWine. Your testimony and the testimony of several 
of the other witnesses I think clearly points out that the use 
of criminal sanctions can be an effective tool. It is absurd, I 
think, and again, I share your comments, Mr. Stein, I wish the 
Justice Department officials were still here, but I just find 
it absolutely absurd, the thought that this really does not 
help. They did not say it in so many words, but the attitude 
was we are really not sure how effective it is, and I guess we 
are not going to know for sure until we start doing it. If you 
do it at such a low rate that we are doing it today, you 
certainly cannot tell whether it is going to have any effect at 
all.
    Mr. Lebeau, how did you find Mr. Stein?
    Mr. Lebeau. That is an excellent question.
    Senator DeWine. That is a serious question. One of the 
problems is, how do you know where to go to for help?
    Mr. Lebeau. I spent 2\1/2\ years searching for the right 
attorney, and after that 2\1/2\ years----
    Senator DeWine. I guess you found him.
    Mr. Lebeau. Well, I absolutely had the wrong attorney 
before I found Mr. Stein. In my desperate attempt to find the 
right person, I was in London at the time, last October, 
appearing before the Royal High Court of Justice and I realized 
that I needed an attorney that could help me far beyond what I 
was already receiving from my local attorney in Florida, a 
general practice attorney with absolutely no experience in 
these types of cases.
    Mr. Stein, thank God, was referred to me by the National 
Center for Missing and Exploited Children as being the best and 
the absolutely most experienced attorney that they knew 
handling these issues, and coincidentally, he was in Florida, 
as well, so it has been a boon for me. It has been very, very 
helpful.
    May I add also, Senator, that we do in this courtroom today 
have proof that the prosection, or at least the threat of 
prosecution of the International Parental Kidnaping Act does 
work, and they are sitting there with my father and his wife 
and their names are Ruth and Luke Lebeau.
    Senator DeWine. Ms. Hong, in your testimony, you state that 
you were advised that the Chinese authorities would assist in 
Mei Mei's return if you obtained a Federal indictment. Were you 
ever told that by the State Department?
    Ms. Hong. We were told by the U.S. embassy in Beijing--oh, 
sorry, in Guangzhou--that the Chinese authorities would assist, 
and we were also told that from several other sources, as well.
    Senator DeWine. What assistance has the State Department 
provided you as you seek the return of Mei Mei?
    Ms. Hong. Absolutely none. The State Department has 
consistently maintained that this is a private custody dispute. 
I have seen that language in other statements by other 
individuals. What I did not understand earlier today, Senator, 
was if--obviously, it is a private custody dispute because 
there is no criminal indictment. If there was a Federal 
criminal indictment, then it would be a public dispute, if you 
will.
    And yet the woman from the State Department did not seem to 
have the opinion that a Federal indictment would work. So, 
therefore, she was really washing her hands from my perspective 
by saying we do not need a Federal indictment. Therefore, it 
will not be a State Department problem. It will be a private 
custody matter. So, therefore, I do not have to go to work.
    Senator DeWine. And in your case, as well, the issue has 
been litigated even on the civil side, though. I mean, this is 
not a pending matter. You have testified that you today 
technically have, or you do have by the courts in Ohio, custody 
of this little girl, right?
    Ms. Hong. Absolutely, Senator. That has gone through the 
trial court, through the court of appeals, and the Supreme 
Court, as well, both on a habeas corpus action and on a regular 
custody action.
    Senator DeWine. Mr. Stein, I think your suggestion that 
there has to be someone in the Justice Department who is 
focused on this, I think is absolutely correct. You have to 
have someone who wakes up every day and says, this is what I 
do. You have to have someone in every U.S. attorney's office--
it may not be something that comes in every day, but you have 
to have someone who is designated as the person who is going to 
deal with that, just as U.S. attorneys do it for other areas, 
as well. It makes the whole area of training, it seems to me, a 
lot simpler. You have one person for every U.S. attorney's 
office. They get the training. We do not have to have everybody 
understand it, but somebody has to understand it. So these are 
things, it seems to me--I mean, if I look at your written 
testimony, these are very practical things that could be done 
and it would not be done with very great expense.
    Mr. Stein. Senator DeWine, like you said, it does not take 
a rocket scientist. I do not even think that the legal issues 
under the Hague, as we have been working them in the United 
States, or the criminal issues, are that complex. It is pretty 
straightforward stuff. I mean, they took the kid or they did 
not take the kid. Did they do it illegally? Getting an 
indictment is not that difficult to do in those situations. You 
have the facts in front of you and what prosecutorial 
discretion is being weighed. We need the tool. Go get the 
indictment, and as we proceed forward with this case, if we 
determine it is going to be a detriment, the indictment, we 
will deal with that. We can do that. That happened in the 
Lebeau case.
    Senator DeWine. We run into cultural problems in law 
enforcement, and I saw it when I was a prosecutor, and we 
change over the years. There are certain cases that, 
culturally, we think, well, gee, it is a technical violation, 
but is that really----
    Mr. Stein. Like DUI and a child----
    Senator DeWine. Absolutely. We went through a whole change 
in DUI in my career. I am old enough to have seen a huge change 
in the DUI culture in the law enforcement community. It seems 
to me that it is a cultural problem that we have or an 
attitudinal problem. And just as we changed our attitude about 
DUI, just as we changed our attitude about domestic abuse, 
domestic crimes, that police 30 years ago when I first started, 
or 20 years ago, they just really did not want to deal with 
them. Someone could be beaten up. Someone could be in clear 
violation, a clear assault. Well, if it occurred within the 
home, we do not know if we want to get involved. This is a 
cultural problem.
    What we need to be saying is, U.S. attorneys, Justice 
Department, from the top down, this is important. These are 
kids. These are kids who are yanked out illegally from their 
parent and taken away and some never to be seen again. I think 
we have to talk about it. One of the reasons I wanted to have 
this hearing is because I want to try to keep hammering away at 
this.
    Quite frankly, I am going to bring the Justice Department 
in here every 6 months, every 12 months, and they are going to 
have to tell me what their statistics are and they are going to 
have to explain to me why in the world they are not doing more 
in this area.
    Mr. Stein. I think your comment about the cultural issue 
may be very true, and I am glad to hear that you are going to 
be staying on top of this because that is exactly what we need. 
Each of us can do a little bit here, and hopefully, Congress 
will continue to oversee this and encourage the Justice 
Department to make this a priority.
    Senator DeWine. I do have some questions that Senator 
Thurmond would like to have asked, and I will go through these. 
Mr. Stein, do you believe that many cases of international 
parental kidnaping are never reported to the Federal 
authorities, and if so, why?
    Mr. Stein. Absolutely. Why? Because either attorneys who do 
not know the procedures do not understand that they can bring 
criminal actions or initiate the proceedings to start criminal 
actions, and those of us who do are reluctant to do it because 
we do not think we are going to get the cooperation in any 
event.
    Senator DeWine. It is circular, then.
    Mr. Stein. Yes. It is a non-starter.
    Senator DeWine. Mr. Allen, as you know, a task force report 
to the Attorney General on international parental kidnaping was 
issued in April. Do you have any concerns about whether the 
report is sufficiently detailed and specific in its 
recommendations on exactly how the government can better 
address this problem?
    Mr. Allen. I think, in all candor, Senator, we would have 
liked to have seen greater detail. I do think it is an 
important first step. It represents a convergence of a lot of 
agencies and a lot of interest. As a result of that, there is 
going to be some action taken. As I mentioned, we at the center 
have been asked to play a more substantial role in outgoing 
cases.
    I think it was Mr. Lebeau who said it best. I think the 
test of the task force is going to be the action that flows 
from the report. I would hope that this committee would call us 
back and say, what have you done as a result of those actions, 
and we are certainly willing to be evaluated on that basis.
    Senator DeWine. This is back to my questions now. Mr. 
Lebeau, just let me conclude, you and Mr. Stein. What finally 
broke this through? How were you finally able to get the return 
of your children?
    Mr. Lebeau. Through the threat of prosecution of the Act, 
Senator. It was as simple as that. In fact, up until the time 
the U.S. attorney's office asserted to the British Royal High 
Court of Justice in London that they would, in fact, seek 
extradition if the problem was not resolved civilly or through 
the voluntary return of the children, it was up until that 
moment that I did not know whether I was going to even lose 
them for a third time.
    Senator DeWine. I want to thank all of you very much. You 
have been patient and I appreciate your testimony very much 
today. It has been very helpful. This is something that we are 
going to continue, the subcommittee, this committee is going to 
continue to look at, we are going to continue to examine. It is 
a problem that, frankly, is only going to grow in this country 
as we have more international marriages, as we live in a more 
open world and people traveling more. This problem is not going 
to go away. These are horrible, horrible human tragedies and I 
think that we have to say as a government, this is a priority. 
Yes, there are a lot of things that are important, but this is 
important and we need to be focused more on it.
    The record will be kept open for 1 week for any questions 
members may wish to submit for the record.
    Again, you have shed a lot of light on this. I appreciate 
it and look forward to working with all of you in the future. 
Thank you very much.
    Lady Meyer. Thank you.
    Ms. Hong. Thank you.
    Mr. Lebeau. Thank you, Senator.
    Mr. Stein. Thank you.
    Mr. Allen. Thank you.
    Senator DeWine. The subcommittee is adjourned. [Whereupon, 
at 3:40 p.m., the subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


                         Questions and Answers

                              ----------                              


   Responses of James K. Robinson to Questions From Senator Thurmond

    Question 1. The Federal Agency Task Force on Missing and Exploited 
Children's April 1999 Report to the Attorney General on International 
Parental Kidnaping (``Task Force Report'') does not recognize the use 
of the criminal process, such as the International Parental Kidnaping 
Crime Act (``IPKCA''), as a gap in how the government currently 
addresses this issue. Why was the IPKCA's lack of enforcement not cited 
as such a gap?
    Answer. United States policy, as expressed in the IPKCA, is that 
where the procedures of the Hague Convention are available, they should 
be the option of first choice for a parent who seeks the return of a 
child removed from that parent. The Task Force Report focused first on 
the return of the child, then the use of the criminal process, such as 
the IPKCA, in an international parental kidnaping was examined. Because 
the IPKCA was a relatively new statute at the time the report was 
drafted, and state and local criminal proceedings were used in many of 
these cases when applicable, the consensus was that use of the criminal 
process was not a gap. Rather, it was determined that these situations 
needed to be handled on a case-by-case basis consistent with the facts 
of the matter. When a state or local authority has issued its own 
warrant, there may be no need to overtake a valid state warrant with 
federal charges. Unlawful Flight to Avoid Prosecution (UFAP) procedures 
bring the FBI into state and local cases to assist in the apprehension 
of fugitives overseas. Successful cases intercepting abductions in 
progress, based upon a joint state and federal law enforcement 
partnership, speak to the efficacy of such an arrangement.

    Question 2. The Justice Department has traditionally been reluctant 
to use the criminal process to prosecute parental kidnaping, and it has 
been especially reluctant to prosecute abductors under IPKCA. How will 
we know that the criminal process, especially IPKCA prosecutions, will 
not help deter future international child abductions as well as 
facilitate the return of abducted children unless we adopt a policy of 
aggressive enforcement?
    Answer. The Department of Justice looks at each case individually 
in determining whether to prosecute in accordance with the guidelines 
set forth in the Principles of Federal Prosecution. Deterrence is but 
one consideration. Other considerations include whether the state has 
filed charges, whether the country is a Hague signatory, or whether 
filing a UFAP would produce the desired results.
    Filing charges routinely may not deter abducting parents, but may 
defeat any possibility of return of the child. By looking at each 
abduction on a case-by-case basis, the determination can be made how 
best to proceed to get the child back. Ultimately, it may be decided 
that filing Federal criminal charges may be appropriate.

    Question 3. How does the Department's Office of International 
Affairs (``OIA'') currently provide information to Federal prosecutors? 
If such information is transmitted over the phone, couldn't OIA more 
efficiently communicate it by maintaining a secure Internet web site?
    Answer. The Office of International Affairs is able to communicate 
with the United States Attorney Offices (USAO) in a variety of ways. 
Via e-mail they can send messages through the Justice communications 
system. They may use telephone and facsimile. In addition, a National/
International Security coordinator has been designated in each USAO 
with whom OIA regularly communicates on extradition, mutual legal 
assistance treaty and other international issues.

    Question 4. You stress in your testimony that one obstacle in using 
criminal charges is the difficulty of obtaining extradition. Even if 
extradition is not available, issuing criminal warrants will mean that 
any attempt by the abductor parent to return to the United States will 
result in his or her arrest. Doesn't this restriction on re-entry into 
the United States constitute a punishment of sorts, and do you agree 
that vigorous prosecution of IPKCA will deter future violations?
    Answer. The United States makes extradition requests based on both 
state and federal criminal charges. Thus, while the federal parental 
kidnaping statute may be the basis for a request, state charges are no 
less effective for that purpose. Although procedures associated with 
extradition are complex and the issues that arise in parental kidnaping 
cases are particularly troublesome, extradition remains a viable 
alternative in appropriate cases where the prosecutor, whether state or 
federal, makes a decision to make such a request.
    The passage of federal legislation to interpret older list treaties 
so as to include parental abductions within the definition of the 
extraditable offense of ``kidnaping'' has helped to alleviate one of 
the obstacles to extradition. The State Department is making every 
effort to obtain the agreement of treaty partners to afford the same 
recognition of parental kidnaping in their interpretations of the 
treaties.
    An outstanding arrest warrant, when coupled with an Interpol Red 
Notice, is likely to inhibit travel to any country where that notice 
might trigger an arrest. Prosecution under IPKCA may have some 
deterrent effect. However, many of the abductors do not intend to 
return to the United States, may not be extraditable, and therefore are 
unlikely to ever be prosecuted.

    Question 5. How is the Department encouraging States to allow 
victims of parental kidnaping--both left-behind parents and children--
access to crime victim assistance funds?
    Answer. The Vanished Children's Alliance (VCA) in San Jose, 
California received VOCA victim assistance grant funds from 1993-1998 
to provide counseling to families whose children have been abducted, as 
well as counseling to abducted children once found. In addition, they 
assist families with filing for victim compensation, and information 
and referral regarding local resources. VCA has shared information with 
other agencies on use of OVC funds to recover and assist kidnaped 
children.
    Other nonprofit organizations, such as the National Center for 
Missing and Exploited Children, also assist families in providing 
information and referral services.

    Question 6. The Task Force Report noted that there are some cases 
where abducted children are entered into the National Crime Information 
Center (``NCIC'') database and then promptly removed the moment they 
are located, even though they have not yet been returned to the place 
from which they were abducted. This can cause law enforcement 
authorities to lose track of future movements of children who have been 
technically located but, in reality, still remain abducted. How are you 
addressing this problem?
    Answer. The issue will be discussed by the NCIC Working Group that 
meets in March, 2000. It will then be on the agenda for the Advisory 
Policy Board (APB) subcommittee meeting in May. The recommendations 
from the subcommittee will then be put on the agenda for the APB to 
change the process so that the child is not removed until there is a 
resolution of the matter. Final action is anticipated at the summer 
2000 meeting of the APB.
    INTERPOL has frequent contact with state and local police regarding 
U.S. missing/abducted children. It encourages those agencies to leave 
the NCIC entry in the system until the custody issues is settled.

    Question 7. I understand that U.S. Attorneys generally will not 
indict a parent until civil remedies are exhausted under the Hague 
Convention. However, there appears to be a need to determine a 
realistic point of exhaustion in practice. For example, if, as 
routinely happens, Hague proceedings last many months (far in excess of 
the six-week time frame explicitly stated in the treaty itself) before 
they are technically exhausted, abducting parents are then effectively 
able to argue that the child has become settled in the new environment 
and that returning the child will be harmful. In view of this reality, 
how long should the Hague process be allowed to drag on before the 
criminal process is invoked? And in cases of countries that routinely 
fail to comply with our treaty or whose legal systems have no 
mechanisms for enforcing civil court orders or any kind of visitation 
rights, why should invocation of criminal proceedings depend on the 
Hague process at all?
    Answer. We cannot set an arbitrary time frame in Hague cases when 
criminal proceedings should begin. As previously stated, these matters 
need to be considered on a case-by-case basis based on the particular 
facts of the case. Setting a time limit will not necessarily achieve 
the desired result.

    Question 8. The NCIC system is an important tool in finding 
abducted children. As the system is being upgraded pursuant to the NCIC 
2000 program, some have argued that the abductor parents as well as 
abducted children should be designated in the system as missing, even 
if an arrest warrant is not outstanding, because such action would help 
authorities locate the abductor if he or she attempts to reenter the 
United States. Do you believe we should consider entering abductors 
into the NCIC system?
    Answer. Currently, no category exists to permit the entry of adults 
as missing unless there is reason to believe that they are in danger. 
In most of these cases, the whereabouts of the abductor is quickly 
identified so they are technically not ``missing.'' The name of the 
abductor should be included in the text information of the child's NCIC 
entry. As to whether the abductor should be entered into the NCIC even 
when there is no warrant, the subject needs to be explored further. Any 
proposed change would be subject to the review process of the NCIC 
Advisory Board as discussed in the response to Question 6.

    Question 9. During an October 1, 1998, hearing on United States 
Responses to International Parental Abduction before the Senate Foreign 
Relations Committee, Attorney General Reno testified that ``United 
States law enforcement officials located overseas, particularly our FBI 
legal attaches, can help to emphasize to their foreign colleagues the 
seriousness with which the United States takes these cases and the need 
for effective responses to locating the children and the abducting 
parents.'' How is this suggestion being implemented?
    Answer. United States law enforcement resident in foreign countries 
do not directly exercise law enforcement powers abroad. The influence 
of these law enforcement personnel, however, can be great. They may be 
able to assist Department of State personnel in inquiries regarding the 
welfare and whereabouts of the abducted child, through their 
relationship. with law enforcement contacts in the host country. In 
several countries, the FBI legal attaches have provided substantial 
assistance in these cases. The FBI Legal Attaches met in Washington in 
June, 1999. International parental kidnaping was one of the topics on 
the agenda at that training meeting. We hope this topic will continue 
to be discussed at future meetings.

    Question 10. As you know, some foreign states provide unlimited 
payment of legal fees for their nationals who have abducted American 
children, thus enabling them to pursue appeals to the highest courts of 
their country and of the United States. How are the Crime Victims 
Assistance Fund or other Federal victim assistance resources being used 
to pay for costs associated with returning stolen children?
    Answer. As you are aware, Crime Victims Assistance and other victim 
assistance resources are not used to pay legal fees in any kind of 
case. Title 18, United States Code, Section 10602(b)(1) specifies 
expenses to be covered, including medical expenses, mental health 
counseling, loss wages, and funeral expenses. Most of the victim 
assistance funds are passed on to the states in grants. Currently, no 
state programs cover legal fees. However, the Office of Victims of 
Crime has designated a fund to assist parents cover the costs of travel 
to return children to the United States. The selection of families that 
may qualify for this assistance is made through consultation between 
the National Center for Missing and Exploited Children and the Office 
of Children's Issues. Since the program began in 1996 through fiscal 
year 2000, OVC has provided $225,000 to the National Center for Missing 
and Exploited Children to fund travel requests.

    Question 11. What specific efforts is the Department making to 
educate and train Federal prosecutors regarding international parental 
kidnaping?
    Answer. Information on the topic was included in the last revision 
of the United States Attorney's Manual (USAM) which is available in 
every United States Attorney's Office. The topic was included the 
National/International Security Coordinators conference held at the 
National Advocacy Center in December, 1999. It is anticipated that a 
presentation on the topic is to be included in the joint Office of 
Legal Education (OLE) training with National District Attorneys 
Association (NDAA) on international issues scheduled for April 18-20, 
2000, at the National Advocacy Center. The Child Exploitation and 
Obscenity Section (CEOS) includes the topic in training it provides on 
the issues under the supervision of the Section, and provides 
assistance to prosecutors who call the Section regarding international 
parental kidnaping cases. Additionally, material on the topic of 
parental kidnaping will be included in the forthcoming manual for 
federal prosecutors on child support enforcement matters. And finally, 
the topic is regularly included in training for the FBI Crimes Against 
Children coordinators.

    Question 12. In United States v. Amer, 110 F.3d 873 (2d Cir.), cert 
denied 522 U.S. 904 (1997), the Court of Appeals upheld the trial 
court's imposition of a special condition of supervised release as part 
of its sentencing the defendant to two years imprisonment and one year 
of supervised release for violating the IPKCA. The special condition 
was that ``[t]he defendant [must] effect the return of the children to 
the United States to Mona Amer [the left-behind, victim parent].'' Id. 
at 882. As the court explained, ``The `return' condition is obviously 
closely related to `the nature and circumstances of the offense' of 
child abduction and `the history and characteristics' of [defendant 
Amer]. Indeed, it is difficult to imagine a condition more closely 
tailored to the crime and the criminal in question than this one. 
Moreover, the requirement that [Amer] return the children serves the 
goal of general deterrence. * * * The condition also serves the 
function of specific deterrence. It deters [Amer] both from committing 
the offense of the unlawful retention of the children in Egypt after 
his release from prison, and from attempting to kidnap his children 
again after they have been returned to the United States.'' Id. at 883. 
Although Amer ended up violating the special condition of his 
supervised release, which was promptly revoked after a hearing, see 
United States v. Amer, No. 97-1442, 1998 WL 639262 (2d Cir. Mar. 26, 
1998) (unpublished disposition), do you agree that the technique of 
imposing such a condition as part of a pattern of aggressive 
enforcement of the IPKCA would have a deterrent effect and prove 
helpful in effecting the actual return of abducted children in at least 
some cases?
    Answer. Using special conditions, such as those used in the Amer 
case, probably have little deterrent effect. However, such conditions 
might be helpful in effecting return in at least some cases.
    For example, in a case currently pending in the Eastern District of 
Washington, the magistrate judge set return of the children from 
Germany as a condition of bond. Unfortunately, the district court judge 
reversed this special condition and permitted the abductor's release on 
bond. The abductor, however, remains incarcerated because the state 
court judge subsequent to the bond hearing found the father in contempt 
for refusing to return the children in violation of the parenting plan 
(custody order).

    Question 13. What is the status of the Office of Juvenile Justice 
and Delinquency Prevention's grant to the American Bar Association's 
Center on Children and the Law for the preparation of a report, now if 
a draft form entitled ``Issues in Resolving Cases of International 
Child Abduction?''
    Answer. As a standard practice prior to releasing any report or 
publication, the Office of Juvenile Justice and Delinquency Prevention 
(OJJDP) conducted a product review by experts in the field of the 
report Issues in Resolving Cases of International Child Abduction, 
which was prepared by the American Bar Association's Center on Children 
and the Law. Revisions were made to the text based upon this peer 
review process, the document was approved for publication, and the 
final copy is now being prepared for publication and distribution.
                                 ______
                                 

    Responses of James K. Robinson to Questions From Senator DeWine

    Question 1. What is the reason for not filing International 
Parental Kidnapping Act charges routinely in an abduction to a non-
Hague country?
    Answer. Decisions to file federal charges in international parental 
kidnaping matters must be made on a case-by-case basis in accordance 
with guidelines set forth in the Principles of Federal Prosecution. The 
facts of each case differ and must be considered before charging. 
Additionally, when a state or local authority has issued its own 
warrant, there may be no need to overtake a valid state warrant with 
federal charges. The Federal government can support state and local 
governments by charging the abductor with Unlawful Flight to Avoid 
Prosecution (UFAP) to bring in the FBI to assist in the apprehension of 
fugitives overseas. Successful cases intercepting abductions in 
progress, based upon a joint state and federal law enforcement 
partnership, speak to the efficacy of such an arrangement. Further, 
depending on the facts of the case, a state statute may be more 
suitable or offer more rigorous penalties.
    There may be an insufficient factual basis to merit the issuance of 
a criminal warrant at either the state or Federal level. For example, 
there may have been a finding under state law that the left-behind 
parent lacked ``custody rights.'' Because the Federal law rests upon 
this determination under state law, there may be no basis to file 
charges.
    A prosecutor may also have a well founded basis to believe that the 
prosecution is sought merely to achieve a civil result, that is, the 
return of the child. Automatically filing criminal charges may 
compromise any efforts to secure the return of the child. If the 
ultimate goal is the return of the child, measures other than 
prosecution may be more effective.

    Question 2. It's my understanding that in the case of Mexico, a 
country that has been identified by the State Department as not in 
compliance with its obligations under the Hague Convention, that law 
enforcement has been able to obtain the return of children, while 
parents have been largely unsuccessful in obtaining return of their 
children under the Hague Convention. In cases where the Hague signatory 
country is found to be routinely noncompliant with its obligations 
under the convention, does it make sense to wait for resolution under 
the Hague Convention before pursuing criminal charges? Should that be a 
consideration for parents and prosecutors, or do you think that the 
Sense of Congress that Hague procedures should be followed in every 
case, including where the State Department has found the country to be 
noncompliant?
    Answer. Since this obligation to report noncompliance under the 
Hague Convention on the Civil Aspects of International Child Abduction 
first began in fiscal year 1999, only one report has been filed. 
Prosecutors are urged to work together with the Office of Children's 
Issues (OCI) on international parental kidnaping cases, which can keep 
the prosecutor informed about OCI's experience with a particular 
country. Again, the decision process must be made on a case-by-case 
basis consistent with the individual facts of the case.

    Question 3. In many Hague countries, the Ministry of Justice is the 
central authority for the Hague Convention on the Civil Aspects of 
International Child Abduction. Should the full responsibilities of the 
U.S. Central Authority be transferred to the Department of Justice?
    Answer. No. The responsibilities of the Central Authority can be 
overwhelming. Rather than looking at alternatives to the current 
Central Authority, an examination of the resources allocated to the 
Office of Children's Issues (OCI) should be made to determine if they 
are adequate to carry out the duties of the office. OCI is in the 
process of expanding its staff to handle these cases more effectively. 
Further, State Department is already charged with handling issues 
concerning the welfare of American citizens overseas and thus have a 
network available through the embassies and consulates worldwide to 
work on international parental kidnaping cases.
    The Department of Justice stands ready to assist the Department of 
State in whatever way it can to carry out its duties as Central 
Authority. For example, an agreement between the Office of Juvenile 
Justice and Delinquency Prevention (OJJDP) and OCI was extended last 
year to have the National Center for Missing and Exploited Children 
(NCMEC), an OJJDP grantee, handle incoming Hague petitions on behalf of 
OCI and to expand identifying services available for left behind 
families in the United States.
                               __________

     Responses of Jamison Borek to Questions From Senator Thurmond

    Question 1. Does the United States keep records on (a) how many 
formal extradition requests are made to foreign states pursuant to the 
International Parental Kidnapping Crime Act (``IPKCA!'') and (b) how 
many extradition requests are received by the United States pursuant to 
foreign criminal laws prohibiting international child abduction? If so, 
will you provide this information to the Subcommittee?
    Answer. State Department records reflect that the United States has 
made twelve formal international extradition requests since the 
beginning of 1998 citing violations of the International Parental 
Kidnapping Crime Act (18 U.S.C. Sec. 1204), and many more such 
international extradition requests citing violations of state and local 
criminal law on parental kidnaping. In the same two-year time period, 
our records reflect that the United States has received eleven 
international extradition requests for parental kidnaping from other 
countries.

    Question 2. The Federal Agency Task Force on Missing and Exploited 
Children's April 1999 Report to the Attorney General on International 
Parental Kidnapping (``Task Force Report'') states that the United 
States should expand and intensify diplomatic efforts to better resolve 
parental kidnaping. What specific diplomatic actions has the State 
Department taken since the Report was issued regarding countries that 
do not comply with their obligations under the Hague Convention?
    Answer. The Office of Children's Issues, as the United States 
Central Authority for the Hague Convention on the Civil Aspects of 
International Child Abduction (the Convention), has called in Embassy 
officials from each of the five countries that we found non-compliant 
(Sweden, Austria, Mexico, Honduras and Mauritius). We provided each 
country with copies of the report and discussed in detail the reasons 
for finding them non-compliant.
    The Director of the United States Central Authority, Mary Marshall, 
and a representative of the Department's Office of the Legal Adviser 
traveled in March 1999 to meet with their counterparts in the Swedish, 
German, Swiss, and Austrian Central Authorities. They discussed the 
need for fuller compliance with the Convention and improving 
implementation of the treaty. They also met with a representative of 
the Permanent Bureau of the Hague Conference an Private International 
Law in The Hague to discuss enhancing treaty implementation for all 
party countries.
    Assistant Secretary for Consular Affairs Mary Ryan raised child 
abduction in discussions at the June 1999 Mexican Binational Commission 
Meeting, citing six specific cases as examples in which significant 
delays had occurred. She raised the issue and the six cases again at 
the September 1999 follow-up meetings to the Binational Commission. 
State Department officials have also met with the Director of the 
Mexican Central Authority and supervisors of that office twice since 
July 1999. Officials from the Mexican and U.S. Central Authorities have 
given joint presentations at conferences in California and Texas to 
U.S. and Mexican judicial and governmental authorities involved in 
child abduction issues.
    Our Ambassador in Stockholm, Lyndon Olson, met with Swedish 
Prosecutor General Klas Bergenstrand regarding two child abduction 
cases on June 18, 1999. (Prosecutor General is just under ``Cabinet-
level'' rank). In October 1999, Ambassador Olson was interviewed on the 
Swedish TV program ``Efterlyst'', the equivalent of ``America's Most 
Wanted.'' The interview dealt mainly with the abduction to Sweden of 
Gabriel Marinkovich, which was also one of the featured cases.

    Question 3. The Task Force Report (page 14) states: ``Preventing 
the issuance of a passport to a child may deter some abductions. A 
parent with a valid custody order may put a hold on the issuance of a 
passport to his or her child(ren) by contacting the Department of 
State.'' I have been informed that in certain cases, the State 
Department refused to put such a hold on the issuance of an abducted 
child's passport in the absence of a court order requiring it to do so. 
How in fact does the State Department handle requests by parents to put 
a hold on the issuance of passports to their child(ren), and if the 
abduction has already taken place before such action can be taken, will 
the Department, at the left-behind parent's request, revoke the child's 
passport? Which official would make such a decision?
    Answer. The Department has an effective program to provide 
requesting parents with information about their children's United 
States passports and to deny issuance in appropriate situations. At the 
request of a parent, an attorney or an appropriate court, the 
Department will place a child's name in the passport name check system 
so that when an application is received, the parent will be notified 
before approval of the application. Moreover, the passport will be 
denied based on an appropriate court order. The governing regulation 
was amended in 1996 to provide for denial based on joint as well as 
sole custody and to permit worldwide action based an orders of 
competent courts of any nation.
    At this time, there is no provision in our regulations for revoking 
a child's passport once an abduction occurs. However, we plan to pursue 
regulatory changes in the near future to allow passport revocation for 
minors who are the subject of a parental abduction where this would 
assist in the return of the child.

    Question 4. The Task Force Report (page 14) states: ``At present 
there is no requirement for the Passport Office to notify a foreign 
government when it denies a passport for a dual national child. Nor is 
there a formal mechanism to inform foreign governments about lookouts 
placed in the system for passport applications for these children.'' 
Will the State Department impose such a requirement and create such a 
formal mechanism?
    Answer. The Department plans to institute procedures whereby a 
foreign government's embassy will be notified when the Department 
enters a child's name into the passport lookout system based on a 
request by the custodial parent. We will notify the foreign 
government's embassy only with permission of the custodial parent.

    Question 5. Many observers, including the General Accounting 
Office, have recognized that the State Department needs a 
comprehensive, computerized database and case-tracking system that can 
accurately list the number of abduction cases and how the Government 
responds to each one. What is the status of developing such a system, 
and is it a top priority?
    Answer. The case management tracking system was designated top 
priority by the Bureau of Consular Affairs.
    The Bureau of Consular Affairs is working with a contractor on the 
development of a computerized case management tracking system that will 
collect data more accurately and provide improved case management 
capabilities. We have seen an initial prototype of the system and will 
begin testing a pilot version in May-June. We expect the system to be 
ready for operations in July-August. The system will also include a 
Web-interface that will allow interagency data sharing; this component 
will follow the final installation of the internal Department of State 
system by several months.

    Question 6. I understand that the State Department opposes a 
provision in the Senate-passed fiscal year 2000 State Department 
Authorization Bill (S. 886, Sec. 203) urging that each signatory's 
record of compliance with the Hague Convention be included in the State 
Department's annual country reports on human rights. Why does the State 
Department oppose bringing attention to a country's record of 
compliance with the Hague Convention as a human rights issue?
    Answer:
  <bullet> The State Department shares Congressional concern about the 
        treatment of children who are removed from the U.S. by a 
        parent. We will work with Congress to help victimized parents 
        and children.
  <bullet> The Department of State does not oppose bringing attention 
        to a country's record of compliance with the Hague Convention. 
        In fact, the Office of Children's Issues in the Bureau of 
        Consular Affairs already provides, Congress with reports on 
        Hague Convention compliance. The Hague Convention is not, 
        however, a human rights treaty.
  <bullet> The Country Reports is a snapshot in time of human rights 
        conditions in all countries around the globe. It is not a 
        report on treaty compliance. It is not in the best interest of 
        the United States Government's human rights mission to shift 
        the focus of the report from truth telling on human rights 
        country conditions to treaty compliance. This new potential 
        mandate for reporting on treaty compliance would create new 
        complications for the Bureau of Democracy, Human Rights and 
        Labor (DRL) and the human rights report. An example of the type 
        of complications that would result is the fact that since many 
        countries are not party to the Hague Convention, for the first 
        time DRL would be reporting on some countries but not others. 
        The countries reported on might well be relatively ``good'' 
        countries with regard to international child abduction and 
        respect for the rights of children, in relation to those 
        countries that are not parties to the Convention. DRL has 
        always maintained the same standards for all countries, and has 
        parallel coverage for all countries. Further, we believe that 
        this new mandate could deflect attention from objective 
        reporting on country conditions and lead to arguments over 
        technical compliance with the treaty. Deflecting attention from 
        a country's poor human rights record would not be helpful to 
        our democratization and human rights mission.
  <bullet> In sum, we fear that the annual Country Reports would badly 
        suffer from this mandate. Reporting on an area for which DRL 
        has no expertise will have serious repercussions not only for 
        the quality of the report, but also for DRL and the larger 
        human rights mission. For clarity's sake, and to best address 
        the needs of abducted children while raising the visibility of 
        the issue, we strongly recommend that this issue be handled 
        through reporting procedures already established by Congress, 
        and by the report that is submitted by the Bureau of Consular 
        Affairs on behalf of the Department.

    Question 7. In deciding whether to negotiate child support 
arrangements with a country, does the State Department consider that 
country's record of compliance with the Hague Convention, particularly 
those cases in which the government of the country to which the 
American children have been abducted or in which they have been 
wrongfully retained demands child support from the left-behind parent?
    Answer. Reciprocal child support arrangements are being negotiated 
under the authority of 42 U.S.C. Sec. 659a. That section authorizes the 
Secretary of State, with the concurrence of the Secretary of Health and 
Human Services, to declare any foreign country to be a foreign 
reciprocating country (in the enforcement of child support orders or 
obligations) if that country meets certain specified standards for 
foreign support enforcement procedures. These reciprocal arrangements 
do not impose any obligation on courts or authorities in the United 
States to enforce support orders or obligations where a child was 
abducted to or is being wrongfully retained in a foreign country in 
violation of custody decrees issued by a U.S. court.
    A variety of factors are considered in determining whether 
reciprocal arrangements should be sought with a particular country 
under 42 U.S.C. Sec. 659a. These factors include whether there have 
been issues regarding child support enforcement in connection with 
child abduction cases.

    Question 8. You noted in your testimony that some countries may be 
more reluctant to return a child to the United States if our government 
seeks extradition of the parent on criminal parental abduction charges. 
However, a draft report by the American Bar Association's Center on 
Children and the Law entitled ``Issues in Resolving Cases of 
International Child Abduction'' listed only four countries that are 
less likely to cooperate in returning abducted children when criminal 
charges against the abductor are pending. The draft report also stated 
that one-third of countries responding to its survey slated that 
criminal charges are sometimes helpful in effecting a favorable 
resolution of Hague Convention proceedings. Do you disagree with these 
findings Please explain.
    Answer. As you mention, this report is a draft that has never been 
finalized or published. Therefore, we prefer to hold comment on any of 
this draft report's findings until the report is finalized. However, a 
number of Hague party countries have indicated that in certain 
circumstances criminal charges against an abducting parent may provide 
an obstacle to return of the child. Courts in Australia, Germany, 
Mexico, the United Kingdom, Israel and the United States have indicated 
that criminal proceedings against the abductor would complicate a 
child's return pursuant to the Hague Convention. Our primary concern is 
for the welfare and return of the abducted child. We also note that the 
International Parental Kidnapping Crime Act of 1993 (18 U.S.C. 
Sec. 1204) includes the sense of the Congress that the Hague Convention 
should be the option of first choice for a parent who seeks return of a 
child who has been removed from, or retained outside of, the United 
States.

    Question 9. I understand that one obstacle to efforts to extradite 
an abductor is that some countries to which abductors flee do not 
recognize parental kidnaping as an extraditable offense. What specific 
diplomatic efforts is the State Department taking to encourage 
countries that are parties with the United States to list-type 
extradition treaties to interpret such agreements as including parental 
kidnaping as an extraditable offense?
    Answer. Following the enactment of the Extradition Treaties 
Interpretation Act of 1998 (Title II of Public Law 105-323), the United 
states approached the approximately 70 countries with which we have 
extradition list treaties that include the word ``kidnaping'' to inform 
those countries of the U.S. Government's updated interpretation of the 
word ``kidnaping'' and to ask if they shared our interpretation. We 
have posed the question twice through our Embassies abroad, once to all 
concerned countries in January 1999, and then again in January 2000 to 
those countries that not yet responded.
    As of February 25, 2000, the United States has received positive 
replies, from twenty of these countries indicating that they shared the 
U.S. Government's interpretation. (A few of these were still confirming 
the interpretation with others within their governments.) Some of the 
countries we consulted replied that they have not criminalized parental 
child abduction and do not share our interpretation. Some countries 
have indicated that they are still studying the issue and have not yet 
provided a substantive reply.

    Question 10. The General Accounting Office recently noted that the 
Office of Children's Issues and the FBI sometimes make unnecessarily 
duplicative inquiries on the same case. Do you anticipate that the new 
case-tracking system will allow the State and Justice Departments to 
know about each other's parallel efforts regarding ongoing child 
abduction case?
    Answer. The new interagency database for international parental 
abduction cases being developed by the Office of Children's Issues in 
the Bureau of Consular Affairs at the Department of State will greatly 
increase coordination among the various agencies, including the Justice 
Department, involved in these cases. This increased coordination will 
not only reduce duplication of effort and improve our efficiency on 
individual cases, it will also provide us with the comprehensive 
statistical reporting necessary to target specific problems with 
implementation of the Hague Abduction Convention.

    Question 11. The Department of Justice generally appears to prefer 
that prosecutions be undertaken pursuant to an Unlawful Flight to Avoid 
Prosecution (``UFAP'') Warrant, pursuant to the Fugitive Felon Act (18 
U.S.C. Sec. 1073), rather than the IPKCA. However, I understand that 
many foreign states do not recognize mere flight to avoid prosecution 
by a State of the United States for a State crime to be extraditable 
offense. Are there countries that find U.S. Federal crimes more 
persuasive regarding extradition than State crimes?
    Answer. We have consulted with the Department of Justice regarding 
this question. The Justice Department disagrees with an assertion that 
it ``prefers'' Unlawful Flight to Avoid Prosecution charges to IPKCA 
charges in child abduction cases. It notes that if the United States or 
a state or local jurisdiction intends to try a fugitive located abroad 
on parental kidnaping charges, the United States will seek extradition 
for such charges. Absent the consent of the country that has extradited 
the fugitive, we will not try the fugitive on other charges such as 
unlawful flight to avoid prosecution, in light of the rule of specialty 
obligations in our extradition treaties.
    In this connection, the Federal Bureau of Investigation often 
encourages the filing of the federal charge of Unlawful Flight to Avoid 
Prosecution (UFAP) in order to assist in the investigation of charges 
under state and local laws. It is our experience that a person 
extradited to the United States on either state or federal parental 
kidnaping charges would be unlikely to be prosecuted on UFAP charges. 
With regard to the final issue raised in the question, it has not been 
the Executive Branch's experience that countries find U.S. federal 
crimes more persuasive regarding extradition than state crimes.

    Question 12. Some have raised concerns that the State Department 
withholds too much information from American parents relating to what 
their government is doing or failing to do to gain the return of their 
abducted children. Are you fully cooperative with parents in this 
regard?
    Answer. The Department is fully cooperative with parents who seek 
information relating to our efforts to gain return of or access to 
their abducted children. That said, as a federal agency, we must ensure 
that our efforts to inform are consistent with the requirements of the 
Privacy Act when the information concerned relates to an individual 
other than the requesting parent. Additionally, in order to ensure that 
a country with whom we have exchanged diplomatic correspondence 
regarding an abduction case will be free with information and 
assistance in the future (both with regard to that case and any other), 
the Department will obtain that country's concurrence before releasing 
diplomatic correspondence generated by that country.

    Question 3. What is the official policy of the United States 
Government regarding whether to extradite a left-behind American parent 
who rescues his or her child from a country that (a) will not return 
the child under the Hague Convention; (b) otherwise refuses to 
extradite or prosecute the abductor; or (c) will not or cannot 
guarantee enforceable visitation rights in the U.S. or anywhere else?
    Answer: The State and Justice Departments consult on the facts and 
circumstances surrounding each extradition request. We regret we are 
not in a position to speculate on the outcome of hypothetical 
extradition requests.

    Question 14. What is the official policy of the United States 
Government regarding whether to enter into new law enforcement treaties 
with countries that are already violating their treaty obligations to 
the U.S. under the Hague Convention and that directly or indirectly 
facilitate or support criminal conduct against American children and 
their left-behind parents, in some cases through their police or 
prosecutors?
    Answer. As a preliminary matter, we note that the Hague Convention 
creates a mechanism for the return of children and has resulted in the 
return of thousands of children to their parents--many more are 
returned each year than before the Convention entered into force. In 
some cases, children are not returned because the Central Authority or 
the courts of the country where the child is located determine that the 
Convention does not govern the situation or one of the Convention's 
exceptions apply (such as a grave risk of harm to the child). In this 
connection, the fact that a Hague Convention party denies a return 
application does riot necessarily mean that the requested country has 
violated the Hague Convention.
    More generally, however, we would assess the benefits of law 
enforcement treaties on the merits on a case-by-case basis, in order to 
determine what is in the best interests of the United States. Treaty 
compliance in one area is not necessarily a predictor of compliance in 
other areas, and bilateral law enforcement treaties frequently are of 
greater benefit to the United States than to the other country. The 
allegations of ``direct or indirect facilitation or support of criminal 
conduct'' must also be carefully considered. Some of the allegations 
that have been made in that regard are extremely tenuous and do not 
concern intentional conduct such as would entail any culpability on the 
part of the foreign government.

    Question 15. I understand that the German Minister of Justice 
recently wrote to the U.S. Ambassador to Germany, John C. Kornblum, 
that ``German-American cases [other than Lady Catherine Meyer's case] 
or problems with familial alienation due to conflict over visiting 
schedule [sic] are unknown to me.'' I also understand that the State 
Department has in its possession details of 34 U.S.-German cases of 
child abduction or illegal retention, some of which involve unresolved 
Hague Convention proceedings and others of which involve German courts 
that sought to resolve the cases under the Hague Convention by not 
returning the children and denying victim parents normal access rights 
to them. Are you concerned about the sufficiency of the German 
Minister's answer?
    Answer. In July 1999, the U.S. Ambassador to Germany wrote to the 
German Minister of Justice about problems that have arisen with regard 
to German implementation of the Hague Convention on the Civil Aspects 
of International Child Abduction, specifically referring to the case of 
Lady Catherine Meyer. In her response, the German Minister noted that 
the decisions in Lady Meyer's case were made by independent courts. The 
Minister added that she was unaware of German-American cases under the 
Hague Convention on access rights. The Department of State has 
summaries of 33 U.S.-German cases, both Hague and non-Hague, that were 
submitted by Lady Meyer at the time of her testimony before the Senate 
Judiciary Subcommittee on Criminal Justice and Oversight on October 27, 
1999.
    The Department of State believes that the response of the Minister 
of Justice is insufficient because it reflects an incomplete 
understanding of the dimensions of the problems regarding access that 
arise in cases of international parental child abduction. In a number 
of cases there have been difficulties in enforcement of German court 
orders of access in Germany. The Department will continue to raise 
Hague Convention implementation in general, and with respect to access 
in particular, with German officials in hopes of finding practical 
solutions.
                                 ______
                                 

      Responses of Jamison Borek to Questions From Senator DeWine

    Question 1. The report to the Attorney General suggests that 
denying visas to parents who keep a child outside the U.S. in violation 
of a U.S. custody order may be another way to encourage the return of 
children. How often has the U.S. made use of visa denials under these 
circumstances?
    Answer. Figures for the last two fiscal years show that there were 
thirteen refusals in 1999 (of non-immigrant visas), and a total of 
seven refusals in 1998 (two of immigrant visas and five of non-
immigrant visas) pursuant to section 212(a)(10)(c) INA.

    Question 2. At the hearing on October 27, 1999, I asked you how 
many times has an Ambassador met with the leader of another country on 
individual cases of international parental kidnaping. Could you tell me 
how many times that has happened in the past year?
    Answer. International parental child abduction is an issue of very 
great concern to the Department of State, and staff at our Embassies 
and Consulates raise this issue often with their host country 
counterparts in general and in specific cases as most appropriate. We 
have included a number of examples of our efforts over the past year. 
While this is not a comprehensive list, we hope that it demonstrates 
the seriousness with which we take this issue.

  <bullet> Our Ambassador in Stockholm met with the Swedish Prosecutor 
        regarding two cases of international parental child abduction 
        on June 18, 1999. (Prosecutor General is just under ``Cabinet'' 
        level rank.)
  <bullet> Our Ambassador in Tokyo is personally engaged in the issue 
        of international parental child abduction. Within the past few 
        months, he has met with the Minister of Justice and the Vice 
        Foreign Minister to urge that Japan accede to the Hague 
        Abduction Convention.
  <bullet> In San Jose, Costa Rica, our Deputy Chief of Mission called 
        on the Foreign Minister the week of February 14, 2000, to 
        discuss a case of international parental child abduction and 
        the effect its handling will have on whether or not the United 
        States might accept Costa Rica as a Hague Convention partner. 
        Furthermore, on February 17, 2000, the Ambassador discussed the 
        same case with the Costa Rican Minister of Justice.
  <bullet> In Switzerland our Chief of Mission spoke with the Direktor 
        des Bundesamtes fur Justiz in October 1999 concerning 
        international parental child abduction cases between our two 
        countries. The Direktor's rank is equivalent to an American 
        undersecretary, and he is a senior career official in the 
        cabinet department for justice and police matters.
  <bullet> Our Ambassador to the Bahamas has met with the Foreign 
        Minister and former the Attorney General on the Hague Abduction 
        Convention.
  <bullet> Our Ambassador to Mauritius has met with their Minister of 
        Justice on two cases where the courts in Mauritius have 
        incorrectly refused to apply the Hague Convention.
  <bullet> Most recently our Ambassador to Madrid met on February 18 
        with a senior official in the Ministry of the Interior to urge 
        continued efforts to locate and return an abducted child.
                               __________

       Responses of Lady Meyer to Questions From Senator Thurmond

    Question 1. Based on your experience, do you believe that the 
international community is increasingly seeing parental abduction as an 
illegal act and a human rights violation rather than as merely a 
private family matter? Please explain.
    Answer. I believe that until very recently, most people were 
totally unaware of international parental child abduction and that as a 
result, no one had focused on the issue or any of its consequences. 
Betty Mahmoudy's case (U.S./Iran) was probably the first time that the 
problems associated with international marriages came to public notice. 
But Betty Mahmoudy's case was not, in itself, parental child abduction. 
It also concerned a country where laws and customs are very different 
from ours. The publication of her book ``Not Without My Daughter'' 
brought other stories to the fore. But, again they concerned Muslim 
countries. It was not until a few years ago that people began to be 
aware that child abduction within western society was becoming an 
increasingly common problem.
    Because international child abduction cases are complex and 
difficult to resolve, the typical reaction of many governments has been 
to absolve themselves of the responsibility for intervening. They have 
done this either by deeming these cases a private legal matter (``tug 
of love'') or by claiming that they cannot interfere with the 
independence of the courts. But it is becoming increasingly difficult 
for governments to assert that they have no role to play. This is the 
result of recent publicity given to the most egregious cases and the 
realisation that several signatory countries--where the rule of law is 
supposed to prevail--are in breach of their Hague Convention 
obligations. This has led in turn to the notion that the illegal 
removal or retention of minors abroad is not only a criminal act but 
also a human rights violation.
    At the launch of ICMEC at the British Embassy in Washington on 
April 1999 Hillary Rodham Clinton clearly reinforced this view when she 
said: ``These matters are not just about individual children and the 
pain of victim parents, but they are really a question of human 
rights''. A landmark in this regard was the precedent set by the very 
recent European Court of Human Rights' decision of January 25, 2000 
(see attached press release). The ECHR ruled that a state's failure to 
enforce a court order to return a child to its country of origin under 
the Hague Convention is a violation of the ECHR. ``Specifically, the 
Court found that respect for family life guaranteed by Article 8 of the 
ECHR includes a right for parents to have effective measures taken to 
return children to the country from which they have been abducted.''
    Many governments are now more sensitive to the issue of 
international child abduction--for example, the British Foreign Office 
has just created an international child abduction desk. But they have 
yet to acknowledge formally that basic human rights are at stake. This 
is why we need your help. Things will not change until the human rights 
dimension is recognised at the political level, so taking control of 
the issue out of the hands of bureaucracies guided by ultra cautious 
legal advice. This recognition is also indispensable to the correction 
of miscarriages of justice that take shelter behind the argument that 
there can be no interference with the independence of local courts. 
This for example is the routine reaction of the German authorities to 
complaints about the bias and incompetence of their decentralised 
judicial system.

    Question 2. As you know, many Hague Convention signatories have 
designated their justice ministries as the Central Authority, while the 
United States' Central Authority is the State Department. What, in your 
opinion, are the relative advantages of placing responsibility for this 
treaty's compliance in a government department that handles legal and 
justice issues as opposed to a department that handles foreign policy 
issues?
    Answer. In reality it should not matter. What is more important is 
that the Central Authority is efficient, speedy, resolute and dedicated 
to the Hague process. One must also remember that victim parents can be 
extremely emotional, in need of special help and support--which 
government institutions are not equipped to provide. Most of the 
American victim parents I have dealt with feel that the NCMEC is in 
fact the best-equipped organisation to take over abduction cases. They 
are specialists in children's issues and have the necessary support 
network for left-behind parents.
    If I were to examine the pros and cons of each Ministry, I would 
come to some obvious conclusions. A justice department should have a 
close relationship with domestic courts; it should be familiar with 
litigation and geared up to the prosecution of criminal offences. 
Therefore it ought to act faster and more efficiently. Unfortunately, 
most European Central Authorities which are based in the justice 
Ministries are legalistic and bureaucratic. They are often inflexible 
and impenetrable in their dealings with other Central Authorities. My 
personal experience, and that of most victim parents I have had 
dealings with in Europe, is that justice Ministries are unsympathetic 
and difficult to deal with. These problems are compounded when parents 
in one state have to deal with the Central Authority of another.
    Foreign Ministries are usually more receptive and accessible to 
victim parents. They are also better geared up to speedy international 
communication, including with left behind parents and other Central 
Authorities. They are better able to make the right approaches to 
resolve problems on immigration, passports, international travel and 
other matters that may need urgent attention. They have ready-made 
links with diplomatic and consular services abroad--but they are far 
less equipped and knowledgeable in matters of litigation than a Justice 
Department. I should also add that, according to Henry Setright (one of 
England's most prominent specialist in Hague Convention cases) English 
lawyers have had fewer problems with the U.S. Central Authority than 
with most.
    In principle, it should not matter where the central authority is 
located so long as these two Ministries work closely together. My 
experience is that victim parents need the expertise of both 
departments. My strong recommendation is that in every Hague Convention 
signatory state, there should be a joint unit or bureau staffed by 
officials from both the justice and Foreign Ministries. Their role 
among other things should be to work closely with the relevant NGO's.

    Question 3. In your experience with analyzing international child 
abduction cases under the Hague Convention, to what extent do you 
believe the criminal justice system should intervene to prosecute the 
abductor? Could such timely intervention sometimes help expedite the 
return of the abducted child?
    Answer. Unless child abduction is considered a criminal act and 
unless the criminal justice system intervenes to prosecute the 
abductor, more and more people will be willing to take the law into 
their own hands. There is no doubt that there can be no better 
deterrent to child abduction than a criminal statute. But the real 
advantage of the criminal statute is that it allows the full range of 
powers to be employed to locate the abductor and more importantly the 
missing child through the mobilisation of the police and the assistance 
of INTERPOL. It also allows the extradition of abductors.
    If the use of the criminal statute is a useful deterrent and 
extremely helpful in bringing the child back, the question then arises 
that if this leads to the successful prosecution of the abductor, how 
severe should the penalty be? If one has the childs best interest to 
the fore there is a strong prima facie argument against a custodial 
sentence which will only add to the trauma of the situation. Indeed, 
the imprisonment of the parent is probably a further punishment for the 
innocent abducted child, who needs both its parents and probably feels 
guilty at what has happened (as children always do in cases of 
conflict). So, judges will have to decide case by case on what is 
appropriate: prison, a fine, community service etc * * * This is a 
further argument for ensuring that these cases are tried by specialist 
judges.
    But, there is one serious drawback to the criminalisation of 
international child abduction. This arises when the country to which 
the child is taken, or in which it is retained, does not consider child 
abduction a criminal act and/or has no extradition treaty with the 
country of origin. For example Germany has no extradition treaty with 
France or the UK. There have been cases where the German courts have 
refused a return on the grounds that the abducting parent, who is not 
regarded by them as a criminal, could be imprisoned when accompanying 
the child back to its country of habitual residence, or visiting it 
there.
    Hopefully the recent decision by the ECHR might encourage ``all'' 
signatory countries to put in place effective measures to return the 
child. But, again we need your help to ensure that some countries' 
practice of retaining abducted children and refusing to grant 
enforceable access rights is rightfully challenged.
                                 ______
                                 

  News Release The Aire Centre--Advice on Individual Rights in Europe

                           [January 25, 2000]

European Court of Human Rights Strengthens Enforcement of International 
                         Child Abduction Treaty

STRASBOURG, 25 JANUARY 2000--Today, for the first time, the European 
Court of Human Rights ruled that a state's failure to enforce a court 
order under the Hague Convention on the Civil Aspect of International 
Child Abduction is a violation of the European Convention on Human 
Rights.
    In the United Kingdom, it is estimated that an average of four 
children a week are wrongfully taken or kept in other Hague Convention 
countries, In the last three years alone, the UK has seen a 58 percent 
increase in the number of international child abductions.
    The Hague Convention was created in 1980. It is a multilateral 
treaty which seeks to protect children from the harmful effects of 
abduction across international boundaries by providing a uniform 
procedure to bring about a prompt return of these children to their 
country of origin but not necessarily to the left behind parent. 
Custody of the child is for the courts to decide. Fifty-seven nations 
are now signatories to the Hague Convention. But the responses to these 
abduction cases have been uneven.
    The European Court ruled today in Ignaccolo-Zenide v. Romania that 
a state's failure to enforce a court order to return a child to its 
country of origin under the Hague Convention is a violation of the 
European Convention of Human Rights. Specifically, the Court found that 
respect for family life guaranteed by Article 8 of the European 
Convention includes a right for parents to have effective measures 
taken to return children to the country from which they have been 
abducted. Since children can easily form new attachments, the Court 
emphasized the necessity for states to act quickly so that the 
abducting parent cannot claim that returning the child would be 
harmful.
    This decision has significant global implications as from now on, 
European states will be responsible ordering the return of children to 
the country from which they have been abducted and enforcing those 
judgments.
          judgment in the case of ignaccolo-xenide v. romania
    In a judgment delivered at Strasbourg on 25 January 2000 in the 
case of Ignaccolo-Zenide v. Romania, the European Court of Human Rights 
held by six votes to one that there had been a violation of Article 8 
(right to respect for family life) of the European Convention on Human 
Rights. Under Article 41 (just satisfaction) of the Convention, the 
Court awarded the applicant 186,000 French francs (FRF) for non-
pecuniary damage and for legal costs and expenses.

                           1. Principal facts

    The applicant, Rita Ignaccolo-Zenide, a French national, was born 
in 1953 and lives at Metz (France).
    Following her divorce a French court ruled, in a judgment that had 
become final, that the two children of the marriage were to live with 
her. In 1990, during the summer holidays, the children went to stay 
with her former husband; he held dual French and Romanian nationality 
and lived in the United States. However, at the end of the holidays, he 
refused to return them to the applicant. After changing addresses 
several times in order to elude the American authorities, to whom the 
case had been referred under the Hague Convention of 25 October 1980 on 
International Child Abduction, he managed to flee to Romania in March 
1994, where he has lived ever since. On 14 December 1994 the Bucharest 
Court of First Instance issued an injunction requiring the children to 
be returned to the applicant. However, her efforts to have the 
injunction enforced proved unsuccessful. Since 1990 the applicant has 
seen her children only once, at a meeting organised by the Romanian 
authorities on 29 January 1997.

               2. Procedure and composition of the Court

    The application was lodged with the European Commission of Human 
Rights on 22 January 1996. Having declared the application admissible, 
the Commission adopted a report on 9 September 1998 in which it 
expressed the unanimous opinion that there had been a violation of 
Article 8 of the Convention. The case was brought before the Court by 
the Romanian Government on 27 January 1999.
    In accordance with the transitional provisions of Protocol No. 11 
to the Convention, a panel of the Grand Chamber of the Court decided on 
31 March 1999 that the case should be examined by a Chamber constituted 
within the first Section of the Court. On 14 September 1999 the Chamber 
held a hearing in public.
    Judgment was given by that Chamber, composed as follows:

        Elisabeth Palm (Swedish), President, Gaukur Jorundsson 
        (Icelandic), Riza Turmen (Turkish), Josep Casadevall 
        (Andorran), Wilhelmina Thomassen (Dutch), Rait Maruste 
        (Estonian), Judges, Ana Diculescu-{time} ova, ad hoc Judge, and 
        also Michael O'Boyle, Section Registrar.

                     3. Summary of the judgment\1\
---------------------------------------------------------------------------

    \1\This summary the registry does not bind the Court.
---------------------------------------------------------------------------
Complaint
    The applicant complained that the failure of the Romanian 
authorities to enforce the injunction issued by the Bucharest Court of 
First Instance on 14 December 1994 constituted a breach of her right to 
respect for her family life, as guaranteed under Article 8 of the 
Convention.
Decision of the Court
Article 8 of the Convention
    The Court reiterated that although the essential object of Article 
8 was to protect the individual against arbitrary action by the public 
authorities, it also imposed positive obligations inherent in an 
effective ``respect'' for family life. Article 8 included a right for 
parents to have measures taken with a view to their being reunited with 
their children and an obligation for the national authorities to take 
such measures. That obligation was not absolute, since some preparation 
might be needed prior to the reunion of a parent with a child who has 
been living for any length of time with the other parent. The nature 
and extent of the preparation depended on the circumstances of each 
case and any obligation the authorities had to apply coercion in this 
area was limited, since the interests and rights and freedoms of all 
concerned, and in particular the paramount interests of the child and 
his rights under Article 8 of the Convention, had to be taken into 
account. Where contact with the parent might threaten those interests 
or interfere with those rights, it was for the national authorities to 
strike a fair balance between them.
    The Court considered that the positive obligations which Article 8 
of the Convention imposed on the Contracting States to help reunite 
parents with their children had to be construed in the light of the 
Hague Convention of 25 October 1980 on the Civil Aspects of 
International Child Abduction. That approach was particularly relevant 
to the case before the Court, since the respondent State was a party to 
that instrument.
    The decisive factor for the Court was therefore to determine 
whether the national authorities had taken all reasonable steps to 
facilitate the enforcement of the order of 14 December 1994.
    Although first attempts at enforcement of the injunction were made 
promptly, in December 1994, the Court noted that as from January 1995 
the bailiffs made only two further attempts: in May and December 1995. 
It noted, too, that the authorities took no action between December 
1995 and January 1997 and that no satisfactory explanation for that 
inactivity had been forthcoming from the Government.
    Moreover, the authorities had not done the groundwork necessary for 
the enforcement of the order, as they had failed to take coercive 
measures against D.Z. or to prepare for the children's return by, for 
example, arranging meetings of child psychiatrists and psychologists. 
No social workers or psychologists took part in the preparation of the 
meeting on 29 January 1997. The Court noted, lastly, that the 
authorities had not implemented the measures set out in Article 7 of 
the Hague Convention to secure the children's return to the applicant.
    The Court found that the Romanian authorities had failed to take 
adequate and sufficient steps to comply with the applicant's right to 
the return of her children and had thus infringed her right to respect 
for her family life, as guaranteed by Article 8. The Court therefore 
concluded that there had been a violation of Article 8.
Article 41 of the Convention
    The Court held that the applicant must have sustained non-pecuniary 
damage as she alleged. Ruling on an equitable basis, it awarded her FRF 
100,000 under that head.
    It awarded the applicant FRF 86,000 for costs and expenses.
    Judges Maruste and Diculescu-{time} ova. expressed dissenting 
opinions and these are annexed to the judgment.
    The Court's judgments are accessible on its Internet site http://
www.echr.coe.int).
    The European Court of Human Rights was set up in Strasbourg in 1959 
to deal with alleged violations of the 1950 European Convention on 
Human Rights. On 1 November 1998 a full-time Court was established, 
replacing the original two-tier system of a part-time Commission and 
Court.
                                 ______
                                 

        Responses of Lady Meyer to Questions From Senator DeWine

    Question 1. In your written testimony, you discussed the British 
criminal statute, the Child Abduction Act of 1984. You stated that 
where abductors flee to a weak Hague country that it is often speedier 
and more effective for a UK citizen to use the criminal offence than 
follow the Hague process. Is there a reluctance on the part of the 
British law enforcement to go forward under the criminal statute when 
the child has been abducted to a Hague country?
    Answer. In England there is a reluctance to resort to criminal 
prosecution.
    The Child Abduction Act of 1984 criminalises child abduction, 
including some classes of parental child abduction. Cases can be tried 
summarily before magistrates or on indictment before a jury, depending 
on their seriousness. But because of the sensitivity of cases of this 
kind, a high level of authority has to be given for any prosecution, 
and prosecutions are relatively rare.
    The Crown Prosecution Service (Director of Public Prosecutions) 
scrutinise prosecution's under the 1984 Act with great care before 
action is authorised, and the fact that there is prima facie evidence 
that an offence has been committed is not the only factor they consider 
when deciding whether or not to pursue a charge of parental child 
abduction.
    The three main factors for this reluctance are:

          (a) There is a culture among lawyers--criminal and civil--
        that to introduce criminal proceedings into a family (and 
        especially a child-related) situation is counter-productive, 
        except where a very serious crime (murder, serious physical or 
        sexual abuse) has been committed. Imprisoning a parent 
        (especially if that parent is a primary carer) is not usually 
        seen to be in the child's best interest. As a result, English 
        lawyers will usually advise left-behind parents that the 
        bringing of criminal proceedings, especially where there is an 
        effective Hague remedy, is likely to be counter-productive. 
        (Protection, for example by civil injunctions, is another 
        matter entirely and is often applied).
          (b) This culture reflects the approach of most ordinary 
        people. Most left-behind parents are far more interested in the 
        return of the child than in the punishment of the abducting 
        parent. In turn, they usually follow the advice of their 
        lawyers.
          (c) English judges hate returning children abducted by 
        primary carers, if they think that there is a risk of criminal 
        prosecution (and possible imprisonment) which may deprive the 
        child of that parent as a potential carer.

    Therefore, because starting the criminal process requires a 
vertical referral to the Crown Prosecution Service, and because there 
is consultation with the left-behind parent, who almost certainly has a 
lawyer acting for him or her, there has been a consensus in most Hague 
cases that a prosecution is best avoided. This, you will appreciate, is 
anecdotal. What is not is that prosecutions so far have been rare--
though this may be changing.
    However, from the inquiries I have made, I do not think there has 
been any case where the CPS has refused to prosecute where a left-
behind parent has a good case in law, and is anxious to prosecute.

    Question 2. In your written testimony you also stated that the 
``real use of the criminal statute is that it allows the full range of 
powers for the pursuit of a wanted criminal to be used to find the 
abductor, and more importantly, the child''. Are you familiar with the 
case with which criminal proceedings are instituted in the UK and if 
there are delays in proceeding with the criminal cases? Do you know how 
many children have been returned as a result of the enforcement of the 
Child Abduction Act?
    Answer. Criminal proceedings are relatively easy to institute in 
the UK and the process should be a speedy one. But it is not always the 
case. Furthermore, the police are not always properly trained in these 
matters and are often reluctant to get involved.
    To start a criminal prosecution, the left-behind parent must first 
convince the police that an offence has been committed. Then following 
whatever police investigation is appropriate, the matter goes to the 
Crown Prosecution Service (Director of Public Prosecutions) for a 
decision as to whether to prosecute or not. The question of the 
viability of extradition will be a further consideration. The decision 
is taken (criminal child abduction being one of a particular class of 
offences where this is required) at a high level. In some cases, the 
decision can take a very long time, but most decisions are taken with 
appropriate speed to allow the criminal process to be of real use 
(assistance by the UK police, special branch, INTERPOL etc) in locating 
a missing child.
    For the left-behind parent, the process is not particularly 
complicated because it does not require much action by him or her once 
the original complaint has been lodged.
    In the past few years, the Home Office has worked to provide 
assistance to the police at various levels. It has provided information 
on both the problem of international child abduction and which tools 
are available to them to deal with it. Special police groups, such as 
those concerned with extradition, and Special Branch, have specialist 
and highly developed expertise, which can be quickly employed. Special 
Branch in particular can track the international movement of abductors 
and monitor and control movements at UK airports with a high degree of 
effectiveness. But, bear in mind that the UK, like most EU states, has 
dismantled exit controls and passport checks for ordinary travellers.
    Unfortunately, I do not think that there are any reliable 
statistics on the number of children who have been returned as a result 
of prosecutions being instituted under the 1984 Act.

    Question 3. What is the role of the International Centre for 
Missing and Exploited Children in international child abduction cases?
    Answer. The National Center for Missing and Exploited Children, as 
the first organisation of its kind, has increasingly been called upon 
to assist other countries struggling with issues of child abduction and 
dislocation. It is clear that national boundaries are no barrier to the 
transportation and victimisation of children. The International Centre 
for Missing and Exploited Children (ICMEC) addresses the need for a 
more comprehensive, international approach to issues of child abduction 
and exploitation and provides a model that other countries can adapt to 
their own needs.
    ICMEC is initially focusing on three primary areas:

          1. Expanding our existing international website project to 
        all countries of the world. This project enables appropriate 
        entities in other countries to share images of missing children 
        with the public for the purpose of generating leads and in 
        order to recover missing children;
          2. Implementing our agenda to improve outcomes for families 
        whose cases are brought under the Hague Convention on the Civil 
        Aspects of International Child Abduction. ICMEC has created an 
        international steering committee to implement an eight-point 
        action agenda designed to increase knowledge and uniformity in 
        the implementation of the treaty. Our strategy includes working 
        with government entities and the Hague Permanent Bureau to help 
        reach our objectives;
          3. Providing training to law enforcement, the judiciary, 
        lawyers, prosecutors and others involved with issues of child 
        abduction. A key area of training is the promotion of best 
        practices for cases arising under the Hague Convention. ICMEC 
        also anticipates offering training on responding to cases of 
        missing children, the use of international treaties and laws to 
        promote the return of children, as well as training in the 
        evolving area of exploitation of children through the Internet.
                               __________

      Responses of Ernie Allen to Questions From Senator Thurmond

    Question 1. The Federal Agency Task Force on Missing and Exploited 
Children's April 1999 Report to the Attorney General on International 
Parental Kidnapping (``Task Force Report'') does not recognize the use 
of the criminal process, such as the International Parental Kidnaping 
Crime Act (``IEPKCA''), as a gap in how the government currently 
addresses this issue. Do you think the Justice Department should make a 
greater effort to use the criminal process, such as more aggressive 
enforcement of the IPKCA, as a tool to help address international 
parental kidnaping?
    Answer. Yes. In both domestic abduction cases and international 
abductions, criminal charges can be of great assistance in locating the 
child. In addition, these charges are often used successfully as a 
bargaining chip in negotiations for return of the child. We have seen 
cases in which the threat of charges convinced an abductor to return to 
the United States with the child. The reality is that these cases are 
not just ``private legal matters.'' Research suggests that in as many 
as 80 percent of these cases, the motive for taking the child is not 
love, it is anger or revenge. These children are at risk, and suffer 
harm in many ways. We believe that the criminal process is a vital and 
important tool that should be used far more extensively.

    Question 2. You note in your testimony that the Amer case in the 
Second Circuit provided excellent case law for future prosecutions. Do 
you think that conditioning an abductor's release on return of the 
child could help solve some cases?
    Answer. Yes. The Amer case is a good example of the recognition of 
the dual civil and criminal aspects of international parental kidnaping 
and willingness to fully utilize the legal tools available. Although 
the children were not successfully returned in Amer, conditioning 
release on the return of the child may be effective in another case.

    Question 3. The Department of Justice generally appears to prefer 
that prosecutions be undertaken pursuant to an Unlawful Flight to Avoid 
Prosecution (``UFAP'') Warrant, pursuant to the Fugitive Felon Act (18 
U.S.C. 1073), rather than the IPKCA. However, the Subcommittee has 
found that many foreign states do not recognize mere flight to avoid 
prosecution by a State of the United States to be an extraditable 
offense. Also, many States decline to pursue UFAP's because they cannot 
afford the costs of extradition. Do you agree that proceeding under an 
IPKCA warrant would be more effective in persuading foreign states to 
extradite parental abductors to the United States because such a 
warrant reflects how seriously the United States, as a nation, views 
this conduct?
    Answer. While some countries may extradite based on a federal IPKCA 
warrant or a state warrant attached to a federal UFAP, the free-
standing federal IPKCA charge sends a message from the Federal 
government in a way a UFAP does not. The primary purpose of an IPKCA 
warrant is to arrest, extradite and prosecute the abductor. Congress 
understood when passing IPKCA that the domestic laws of other countries 
and the limitations of extradition treaties may be obstacles to 
extradition. As the legislative history of IPKCA shows, however, 
Congress felt an important purpose of an IPKCA warrant was to send a 
message to the governments of other countries that addressing 
international child abduction is a priority of the U.S. government. 
Congress fully intended these warrants, carrying the full weight and 
authority of U.S. federal law, to be used by U.S. Ambassadors and 
diplomatic personnel in negotiating the return of individual children.

    Question 4. Do you think that aggressive enforcement of the 
criminal process, including more charges under the IPKCA, could deter 
some international child abductors?
    Answer. Yes. For a criminal law to act as a deterrent, it must be 
used. Without aggressive pursuit and prosecution, the act loses its 
deterrent effect.

    Question 5. What has been the rate of increase in international 
parental abductions in recent years, and do you expect this trend to 
continue in the foreseeable future?
    Answer. NCMEC's family abduction caseload (both domestic and 
international) has increased over the past several years. We believe 
that the increase in the number of cases reported to NCMEC reflects an 
increase in cases nationwide. The actual number of international family 
abductions occurring in the U.S. has not been studied, therefore the 
rate of increase cannot be stated with accuracy. There is no indication 
that family abductions are leveling off--the divorce rate remains 
approximately 50 percent. International family abduction, as a subset 
of family abduction will certainly follow suit especially with our 
increasingly mobile and multicultural society.

    Question 6. Deputy Legal Advisor Borek testified that the return 
rate to the United States is approximately 60 percent under the Hague 
Convention. Do you think the actual return rate may be lower than this 
figure? Does the inconsistency regarding estimates of the true return 
rate illustrate the need for a comprehensive case-tracking system?
    Answer. There has been some disagreement regarding return rates and 
the appropriate way to define and measure success in Hague Convention 
cases. A comprehensive case tracking system will certainly help keep 
track of the number of children affected by international abduction. To 
better measure the problem, however, we must carefully define what the 
United States considers a successful resolution of a case and make sure 
we are tracking success, not just numbers. For example, we have seen 
cases in which a foreign court orders the child's return, but somehow 
the child never gets returned. If the court order is the measure of 
compliance, it obviously falls well short of what the intended purpose 
is. To address this gap, the National Center for Missing and Exploited 
Children is undertaking a study of the outcomes of cases between the 
United States and several key Hague signatory countries. This study is 
the first of its kind and will tell us how cases are actually resolved 
and whether the treaty is applied in a reciprocal fashion.
                                 ______
                                 

       Responses of Ernie Allen to Questions From Senator DeWine

    Question 1. Assistant Attorney General James Robinson, in his 
written testimony, stated that efforts are underway to develop an 
enhanced role for the National Center for Missing and Exploited 
Children in international parental kidnaping cases. As part of this 
enhanced role, do you think it would be helpful for the National Center 
for Missing and Exploited Children to be officially sanctioned by the 
Federal government to contact foreign entities.''
    Answer. NCMEC is not legally restricted from contacting foreign 
entities, the greater the official sanction held by NCMEC, the greater 
our ability would be to reach the right people, advocate effectively on 
behalf of searching U.S. parents, and return children. Our current 
contacts are not made with an ``official sanction'' by the U.S. 
government. We work to establish relationships with foreign entities 
and organizations when it may help foster cooperation on cases of 
international child abduction. We probe. We seek allies and resources 
to aid or assist a searching U.S. parent. We seek to be a credible, 
aggressive but responsible advocate, and to utilize every possible 
resource to bring a child home.
    NCMEC has also launched an International Centre for Missing and 
Exploited Children to address the issues NCMEC addresses on a world-
wide scale. It is our view that in many ways, the world faces the same 
sort of global challenge regarding the problem of child abduction that 
we faced in this country two decades ago. We believe there is a 
significant need to building networks, sharing information, utilizing 
every resource to build a comprehensive, coordinated, meaningful 
response to this serious problem.
    We welcome U.S. government collaboration on these efforts, and seek 
to work in tandem with all appropriate agencies.

    Question 2. At this time, what services does the National Center 
for Missing and Exploited Children provide for left-behind parents and 
what services would you like to be able to provide?
    NCMEC's basic services are not limited by national boundaries. Our 
mandate from Congress is to assist in the search for U.S. missing 
children, and we do that whether a child is taken across town or around 
the world. Our case managers work with law enforcement and searching 
families to attempt to locate missing children. Our photo distribution 
network includes worldwide distribution of posters, and our hotline 
receives leads and sightings on children globally. We are building a 
global network via the worldwide web, so that missing children's images 
can be searched and seen in many countries. Today, NCMEC's website 
receives 3 million ``hits'' per day, and we have built companion sites 
in Canada, the United Kingdom, Belgium, the Netherlands, Italy, 
Argentina, Brazil and Chile, with many other countries preparing to 
join the network.
    We provide technical assistance to parents, their attorneys and law 
enforcement personnel working the case. We also provide referral 
services to identify counseling and legal advice for parents and 
referrals to parent-mentors who have cases in the same country. We also 
network with law enforcement officers who are inexperienced working 
cases of international abduction together with law enforcement who have 
handled cases in a particular country. We publicize cases in 
partnership with Voice of America and through international poster 
distribution. In addition, we administer the Victim Reunification 
Travel Program, funded through the DoJ's Office of Victims of Crime and 
pay the travel costs for U.S. children returning after being abducted 
overseas. The program funds also enable U.S. parents to travel abroad 
to attend custody-related court proceedings or proceedings under the 
Hague Convention.
    We need and want to do more. NCMEC seeks to continue and enhance 
existing services and to expand direct services to parents in the areas 
of legal assistance both in the U.S. and abroad and counseling services 
in order to help families defray the costs associated with 
international family abduction.
    In 1995 we were asked by the State and Justice Departments to 
assume a lead role on the cases of foreign children abducted to the 
United States under the Hague Convention. While we had some trepidation 
about appearing to do more for foreign parents than U.S. parents, we 
agreed to take on the challenge based on the concept of comity. Other 
governments were suggesting that if U.S. agencies and officials didn't 
do more to locate and return children abducted to the United States, 
foreign governments would be far less willing to assist in cases of 
U.S. children abducted to their countries.
    We undertook the task because we thought it was the right thing to 
do, and because we felt it was essential if we were to ensure that 
every possible resource would be used to help U.S. families. We are 
pleased with the progress, but are committed to working with the State 
and Justice Departments to continually enhance NCMEC's role on behalf 
of left-behind U.S. parents. It is not our aim to either duplicate or 
supplant the important services delivered by government agencies, but 
it is our commitment to continually seek ways to provide better, more 
timely and effective assistance to every searching U.S. parent.
    We appreciate your interest in this issue and stand ready to assist 
the federal government and others to improve the outcomes for U.S. 
families facing international abduction.

                 Additional Submissions for the Record

                              ----------                              


          Prepared Statement of Thomas A. Johnson, Parent of 
                       Wrongfully Retained Child

    Thank you for giving me the opportunity to submit this written 
statement as the parent of an American child wrongfully retained in 
Sweden. I understand that it will be published in the record of the 
Subcommittee's hearing of October 27, 1999 concerning international 
parental kidnaping. Although I am an attorney with the Department of 
State, this statement is submitted solely in my personal capacity as an 
American citizen and as the father of Amanda Kristina Johnson, an 
American child literally held hostage in Sweden for nearly five years.
    I greatly appreciate the hard work of your staff on this subject 
and your willingness to schedule a hearing to learn how and why the 
Executive Branch has failed so many abducted American children and 
their left-behind parents. Specific Congressional actions of the kind 
suggested below are the only hope for these American citizens because 
the Justice and State Departments are determined to maintain the status 
quo to keep foreign governments happy, and have consequently opposed, 
obstructed, or ignored all Congressional initiatives to date, including 
the International Parental Kidnaping Crime Act of 1993 (IPKCA), 18 USC 
1204. Unsuccessful with their disinformation campaign that these are 
``private custody disputes,'' the latest party line from Justice and 
State is that a lack of resources is the problem. Nothing could be 
further from the truth. The problem at both Justice and State is a lack 
of interest in assisting and protecting American citizens, even our 
youngest ones,
    As indicated by the attached example, of my correspondence with the 
U.S. Attorney's Office for the Eastern District of Virginia in 
Alexandria. Virginia (I never received a written response to my various 
written communications) and by the discussion of the IPKCA below, the 
Justice Department showed extraordinary creativity in its excuses for 
refusing to enforce the Act. Not impressed either by evidence of direct 
foreign government support for the commission of Federal felonies 
against American citizens or by the attempts of foreign governments to 
use the mere existence of the IPKCA against American citizens in 
litigation (adding insult to injury in view of the Justice Department's 
refusal to enforce the Act in most cases), the Justice Department 
intentionally misinterprets the Act, as noted below, and refuses to 
expend the minimal resources required to secure an indictment and make 
provisional arrest and extradition requests. (See Pages 10-11)
    Thanks to the refusal of the Justice and State Departments to take 
meaningful (and generally cost-free) preventive and remedial actions, 
the norm for American parents in the vast majority of these cases is no 
return of the child under the Hague Convention on the Civil Aspects of 
International Child Abduction or otherwise, no possibility of gaining 
extradition and prosecution of the abductor because the Executive 
Branch has negotiated one-way extradition treaties and the Justice 
Department ignores the will of Congress by failing to enforce the 
IPKCA, no possibility of enforceable access to or visitation with the 
child because most foreign legal systems have nothing comparable to 
contempt of court, and no effective assistance from the U.S. 
Government, which in fact stands ready to assist the abductor and his/
her supporting government through enforcement of foreign child support 
orders and extradition of American parents who rescue their children.
    A summary of my daughter's individual case and far more extensive 
remarks on this subject are contained in my testimony and written 
statement (71 pages including attachments) submitted to the House 
International Relations Committee and published in the record of its 
hearing on October 14, 1999. This statement concentrates on systemic 
problems and remedial actions concerning all Americans, although 
attachments address my negative experience with the Justice Department 
and some details of Amanda's case. Nevertheless, it is important at the 
outset to note the human impact of these cases and the truly barbaric 
conduct of governments such as Austria, Germany, and Sweden that 
facilitate, directly support, and ensure the success of their citizens 
who abduct and wrongfully retain American children with impunity. 
Amanda has not seen her American family, friends, school, church, and 
home environment for more than five years. She has several grandparents 
here, but none in Sweden. She has two baby sisters here whom she has 
never met, with another due next month, but no brothers or sisters in 
Sweden. Amanda's abductor could not have succeeded without the Swedish 
Government's comprehensive financial support and other forms of 
assistance. And governments such as Sweden that virtually encourage 
child abduction and retention by their citizens could not succeed 
without Justice and State Department dereliction of duty, refusal to 
make them pay any price for their treaty violations and human rights 
abuses, and failure to protect American citizens.
    This Subcommittee and Congress as a whole can do a great service to 
American citizens by directing the Justice Department to transform its 
contract with the National Center for Missing and Exploited Children 
(NCMEC) so that it concerns only assistance to American citizens in 
``outgoing'' cases and mandating that NCMEC shift from helping foreign 
parents in ``incoming'' cases to helping Americans in ``outgoing'' 
cases (as NCMEC prefers), hold the case files instead of the Department 
of State, and play an assertive advocacy role on behalf of American 
children and their parents. Today, left-behind American parents must 
deal with hostile bureaucrats at Justice and State while foreign 
parents benefit from NCMEC's superb capabilities at U.S. taxpayer 
expense.
    This Subcommittee can also do much to reject the ``private custody 
dispute'' disinformation campaign, eliminate the two-front war 
presented to left-behind American parents by the Executive Branch (the 
threats of extradition and child support enforcement), and halt the 
effective abandonment or ``writing off'' of American children through 
State Department closure of their cases. In addition, the Subcommittee 
can insist on Executive Branch preparation of items such as the 
attached Summary of the Swedish Government System of Abduction and 
Wrongful Retention of Children (as an example of what the U.S. 
Government should be drafting and disseminating to all U.S. courts, law 
enforcement authorities, family law specialists, and the public on each 
Hague and non-Hague country that facilitates or supports international 
child abduction and wrongful retention).
    The past year has been a very good one for the abductors of 
American children. With all too few exceptions, they have enjoyed great 
success, thanks to the foreign governments that support them in a 
variety of ways and the U.S. Government that fails to provide effective 
assistance to its citizens who are the victims of these crimes and 
human rights abuses. At the same time, the U.S. Government and courts 
keep foreign governments happy by generally returning children to 
foreign parents, thus helping to maintain the status quo. Abductors of 
American children will continue to succeed, unless Congress takes 
specific actions detailed later in this statement to:

  <bullet> establish accountability (e.g., annual abduction and human 
        rights reporting to Congress as proposed in the State 
        Department Authorization Bill)
  <bullet> require effective preventive measures (e.g., dissemination 
        of reports and advisories on foreign legal systems via the 
        Internet and all other possible means to U.S. courts, family 
        law specialists, law enforcement authorities, and the public)
  <bullet> promote full compliance by foreign governments with the 
        Hague Convention and other relevant international instruments, 
        and
  <bullet> ensure remedial measures in response to treaty violations.

    Today, there is no accountability within the Executive Branch, few 
preventive measures to educate American courts and law enforcement 
authorities (let alone the public), no strategy to achieve full 
compliance with the Hague Convention and other applicable treaties, and 
no political will in the Executive Branch to take effective remedial 
measures. The reality is that foreign governments provide far more 
financial, law enforcement, and other assistance to their citizens and 
others who abduct or retain American children abroad than does the U.S. 
Government to the left-behind American parents. Worse still, the U.S. 
Government provides far more assistance to foreign citizens whose 
children are in the United States, often with good reason as discussed 
below, than it does to Americans whose children have been abducted or 
wrongfully retained abroad. U.S. tax dollars permit NCMEC to assist 
foreign parents in a variety of ways, while the American parents in 
those cases generally face extreme gender and/or national bias in the 
foreign courts concerned, and will not be able to obtain enforceable 
access or visitation with their children except perhaps in a few common 
law countries. It appears that the Executive Branch cares only about 
U.S. compliance with its treaty obligations and is unwilling to take 
any effective measures to ensure that there are negative consequences 
for foreign governments that consistently fail to comply with their 
treaty obligations to the United States and that support, in a variety 
of ways discussed in this statement, the commission by their citizens 
of Federal and state felonies against American children and their 
parents.
    The situation for foreign left-behind parents is very different. 
According to statistics supplied to the General Accounting Office (GAO) 
by the National Center for Missing and Exploited Children (NCMEC), the 
combined efforts of the State Department, the Justice Department, U.S. 
courts, and U.S. law enforcement have ensured that more than 90 percent 
of children abducted to or retained in the United States in recent 
years have been sent back to foreign countries. In some cases, U.S. law 
enforcement agencies have wrongfully assisted foreign parents and 
simply taken children from American citizens without a hearing or any 
other form of due process of law. Ironically, the U.S. returns 
virtually 100 percent to some of the worst offending. countries, such 
as Sweden and Austria. Moreover, as explained below, many of these 
children were brought to or retained in the United States for valid 
reasons, such as the impossibility of their American parents receiving 
fair treatment or even enforceable visitation of any kind from the 
foreign courts concerned. These children should not be sent away from 
the United States. But they are, because the Executive Branch has 
failed to educate American courts and family law practitioners about 
the grave risks (within the meaning of Article 13b of the Hague 
Convention) of sending them to countries where they will be denied any 
contact with their American parents unless the foreign parent decides 
otherwise.
    As described below, foreign government support for abduction and 
wrongful retention of American and other children continues unabated. 
Because American lawyers and U.S. Government officials continue to have 
great difficulty in comprehending or even believing the point, it 
cannot be repeated too often that parents in our position cannot gain 
legally enforceable access to or visitation with our children in the 
countries where they are held hostage, let alone the United States, 
unless the abductor permits it.
    In other words, the reality that would be helpful for this 
Subcommittee and Congress in general to address is that the problem 
goes well beyond the fact that foreign governments are violating their 
treaty obligations to the United States with impunity, refusing to 
return American children under the Hague Convention, stealing custody 
jurisdiction from American courts, and awarding sole custody to their 
citizens who have committed Federal and state felonies. Even at that 
point, one might reasonably assume, as I did, that the worst case 
scenario is being a noncustodial parent with only 4 to 6 weeks of 
visitation in the United States each year. Regrettably, the fact is 
that most American children are completely and permanently lost to 
their American parents, families, friends, and home environments.
    Accordingly, American parents of abducted children are, in most 
cases, faced with a clear choice: abandon their children or conduct a 
rescue operation. For those who make the latter choice, it is hoped 
that Congress will ensure that they are fully supported by the U.S. 
Government and that the current practice of subjecting them to a two-
front war (e.g., by means of extradition) is, terminated.

                           Immediate Remedies

    This intolerable and indefensible situation would begin to improve 
literally overnight, if the Executive Branch took several actions that 
cost nothing. The first such action is simply to begin publicly telling 
the truth about these cases. If nothing else, however, the conduct of 
the State and Justice Departments during the past year has conclusively 
demonstrated that they will not take such actions voluntarily. Among 
other things, the Hague Convention Compliance Report submitted to 
Congress by the State Department violates both the letter and spirit of 
the statutory reporting requirement in P.L. 105-277, the Task Force 
Report to the Attorney General is an attempted fraud on Congress that 
has nothing to do with reality, all pending legislation (Section 203 of 
H.R. 2415 and Sections 201-203 of S. 886) has been subjected to 
unprincipled opposition without any constructive alternatives 
suggested, NCMEC has been successfully pressured by the State and 
Justice Departments into continuing to assist primarily foreign parents 
at U.S. taxpayer expense with only limited help and information 
provided to American parents, and the senior State Department official 
responsible for this area (Assistant Secretary Mary Ryan) has declared 
in an appalling letter to Insight Magazine that these cases are 
essentially mere private child custody disputes and that we should be 
encouraged by a return rate for American children of well under 50 
percent. In her April 1999 letter, which is an insult to the memory of 
all abducted American children, Ryan claimed that there were returns, 
some form of visitation, or consular access in 52 percent of the cases. 
Since the latter two categories are unenforceable, that means the 
actual return rate is way below 50 percent. More recently, in her 
October 14 testimony to the House International Relations Committee on 
this subject, Ryan suddenly claimed a return rate of 72 percent, which 
is false. The only real hope for American children and their parents is 
that Congress will enact legislative directives that:

  <bullet> require the Justice Department to report every 6 months on 
        its enforcement of the IPKCA (indictments, convictions, 
        extradition requests, countries involved, etc.)
  <bullet> require the State Department to address family rights and 
        parental child abduction in each country report of the annual 
        human rights reports, in accordance with Section 203 of S. 886 
        as supplemented by subjects covered in the original version of 
        Section 203 of H.R. 2415 (e.g., whether a country can and will 
        enforce a child's right to have access to both parents even if 
        they reside in different countries, whether a country provides 
        financial support to its abductors, whether a country 
        recognizes the principle of comity and respects the laws and 
        court orders of other countries on custody and visitation, 
        whether a country has criminal legislation that effectively 
        shields its abductors and targets foreign parents attempting to 
        exercise their custody rights, whether statistics show that a 
        country's legal system demonstrates gender or national bias in 
        child custody cases)
  <bullet> require the State Department to disseminate an 
        interpretation of Article 13b of the Hague Convention to all 
        U.S. courts (with notice to all Hague Convention Parties and 
        announcement at the next Hague Convention Review Conference) 
        that ``grave risk'' to the child as a basis for nor-return 
        includes situations where the child(ren) would be returned to a 
        country with a legal system that has no effective means of 
        enforcing visitation in the United States (or anywhere else) 
        for the American parent or enforcing any other aspect of its 
        civil court orders (i.e. a legal system that has nothing 
        comparable to contempt of court)
  <bullet> require the State Department to conclude bilateral 
        agreements with the worst offending countries concerning access 
        and visitation
  <bullet> prohibit the State and Justice Departments from assisting 
        foreign parents in domestic litigation until they uniformly 
        assist American parents in Federal or state court litigation 
        financed by foreign governments and brought to challenge or 
        subvert U.S. court orders
  <bullet> require the State and Justice Departments to inform all 
        extradition treaty partners that the United States will not 
        extradite its citizens for the offense of parental child 
        abduction to any country that does not extradite or effectively 
        prosecute its nationals for that offense and does not 
        consistently return requested children under the Hague 
        Convention
  <bullet> require the Executive Branch to transform its contract with 
        NCMEC to process ``incoming'' of cases into a contract for 
        NCMEC to assist only with ``outgoing'' cases, to transfer all 
        ``outgoing'' case files from the State Department to NCMEC, and 
        to inform all Hague Parties that NCMEC will no longer assist 
        with ``incoming'' cases
  <bullet> mandate that NCMEC take an assertive advocacy role on behalf 
        of American children and parents with BOTH foreign governments 
        and the U.S. Government
  <bullet> terminate the State Department's authority under P.L. 104-
        193 (Section 459A) to conclude reciprocal child support 
        enforcement agreements and require the State Department to 
        inform the states that foreign child support orders should not 
        be enforced in cases where the American parent has no 
        enforceable visitation in the United States or there has been a 
        violation of U.S. law or court orders, Federal or state 
        felonies, failure to return a child under the Hague Convention, 
        and so on.

  Recent Executive Branch Performance--Report to the Attorney General

          ``We cannot push too hard in the Johnson case because that 
        might jeopardize the return of children in other cases.''
              (Assistant Secretary Mary Ryan)
          ``I don't work for the American people, I work for the 
        Secretary of State.''
              (Assistant Legal Adviser Catherine Brown)
          ``Why are you calling about the Johnson case? That case is 
        closed.''
              (Response to NCMEC by Ellen Conway of the Office of 
        Children's Issues)

    These are actual statements concerning my daughter's case or child 
abduction generally made to me or others by State Department officials 
who are supposed to be responsible for obtaining the return of abducted 
American children. They will give you some idea of what American 
parents experience when they deal with the State Department, and why 
this function needs to be shifted elsewhere, with the Department placed 
in receivership in this area by Congress in the interim. The first 
statement is a classic expression of appeasement. The second may 
confirm many suspicions about the State Department, but was also both 
honest and sincere, which is precisely the problem. And the third 
raises the issue of the State Department writing off American children 
by closing their cases as soon as the foreign government makes a final 
denial of the U.S. request for return. You know about this matter 
because the State Department told you that there were only 56 
``unresolved'' Hague cases in its Hague Convention Compliance Report to 
you last spring. As a Marine who was trained from Day 1 never to leave 
anyone behind and as a citizen who admires and supports the MIA effort, 
I find the bureaucratic closing of our children's cases particularly 
offensive. My understanding is that no one, from the President on down, 
has the authority to write off American citizens, especially our 
youngest ones.
    Rather than alleging dereliction or incompetence at the State and 
Justice Departments, it is really only necessary to look at Executive 
Branch actions and inaction during the past year. particularly with 
regard to three matters: the State Department's Report to Congress on 
Hague Convention Compliance, the so-called Task Force Report to the 
Attorney General, and State Department opposition to proposed 
legislation. All three are addressed in my October 14 testimony to the 
House International Relations Committee. This statement concentrates on 
the Report to the Attorney General because the Justice and State 
Departments are attempting to portray it as something other than just a 
repackaging of the status quo.
    The Attorney General promised this report to the Senate Foreign 
Relations Committee last fall in order to gain the release of 38 law 
enforcement treaties being held up because of the poor performance of 
the Executive Branch in the child abduction area. The Report submitted 
to Congress has virtually nothing to do with the realities facing 
American parents and is a blatant attempt to perpetrate a fraud on 
Congress by giving the impression that the Executive Branch intends to 
do something other than maintain the status quo. The Report is an 
example of the oldest game in Washington: production of a ``blue 
ribbon'' report by bureaucrats under fire to get Congress, the media, 
and the public off their backs WHILE CHANGING NOTHING. This Report is 
noteworthy only for what it omits and conceals. NCMEC recognized this 
early in the drafting process and withdrew from the project in a hard-
hitting written dissent available to the Committee, but the fails to 
make clear that NCMEC is NOT one of the drafters. Any credible GAO 
Report would have to evaluate this Report in detail and should discuss 
the facts that the Report does not explain the discrepancies between 
the Report's rhetoric and actual Executive Branch conduct (opposition 
to legislation, thorough reporting, release of documents to parents) 
and the innumerable gaps, ambiguities, and cover-ups in the Report, 
including:

  <bullet> no game plan for diplomatic and other responses to foreign 
        government Hague violations or other forms of support for 
        abduction/retention of American children
  <bullet> no mention of the central importance of the absence of 
        anything comparable to contempt of court in most Hague 
        countries, thus ensuring total loss of children not returned 
        under the Convention
  <bullet> no indication that anything other than the status quo will 
        be maintained with business as usual even with the worst 
        violators of the Hague Convention and worst non-Hague countries
  <bullet> no revelation of the largely successful effort to freeze 
        NCMEC out of ``outgoing'' cases
  <bullet> no clear recognition that these are not ``private custody 
        disputes''
  <bullet> no disclosure of how bad the numbers are (see NCMEC 
        memorandum to GAO)
  <bullet> no recognition that a ``grave risk'' within the meaning of 
        Article 13 of the Hague Convention exists from countries that 
        cannot effectively enforce access or visitation
  <bullet> no recognition of the consequences of failing to educate 
        U.S. courts about the nature of foreign government support of 
        child abduction and retention
  <bullet> no hint of DOJ refusal to enforce the 1993 International 
        Parental Kidnapping Crime Act
  <bullet> no hint of general DOJ refusal to request extradition
  <bullet> no acknowledgment of the human rights standards that are 
        being violated and the differing approaches of the First Lady 
        (who is legally and morally right) and the State Department
  <bullet> no mention of foreign government threats and demands against 
        American parents concerning reimbursement of child support and 
        legal fees paid to abductors
  <bullet> no mention that the Executive Branch fails to monitor 
        domestic litigation against American parents financed by 
        foreign governments
  <bullet> no strategy for dealing with extortionate demands by even 
        the best Hague countries (e.g., the UK) for costly 
        ``undertakings'' by the American parent, as in the Lebeau case
  <bullet> no acknowledgment that foreign governments claim ``private 
        custody disputes'' while hiding behind their sovereign immunity 
        in hiring and paying American lawyers to represent abductors in 
        abusive litigation in U.S. courts intended to exhaust American 
        parents financially
  <bullet> no hint of State's negotiation of child support enforcement 
        agreements with foreign governments without safeguards or 
        exclusions to protect left-behind American parents
  <bullet> no revelation of State's policy of closing cases and 
        compartmentalizing them at the lowest level to avoid any impact 
        on bilateral relations.

    GAO REPORT: Senator DeWine of this Subcommittee is among those who 
have requested a GAO report on the performance of the Executive Branch 
in this area. As indicated above, a credible GAO report must thoroughly 
evaluate the Task Force to the Attorney General along the lines 
suggested and address those issues wholly apart from the context of the 
Report to the Attorney General. GAO has been supplied with the names 
and addresses of dozens of American parents, attorneys, and others 
familiar with the performance of the Executive Branch concerning 
international child abduction and retention. GAO needs to interview 
these people and form its own conclusions. Among other things, a GAO 
report should include:

  <bullet> Scope of the problem with complete statistics
  <bullet> Adequacy of existing legislation
  <bullet> Adequacy of cooperation with NCMEC and American parents
  <bullet> Refusal of State to include the subject in the Human Rights 
        reports
  <bullet> Adequacy of the Hague Convention Report to Congress
  <bullet> Adequacy of Executive Branch cooperation
  <bullet> Disparity between return rates from the U.S. versus to the 
        U.S.
  <bullet> Review of case files to ascertain adequacy of State services 
        to parents
  <bullet> State's criteria for closing cases
  <bullet> Executive Branch strategy for dealing with violator 
        countries
  <bullet> Treatment of American parents (access to documents, 
        protection from foreign child support demands, frequency of 
        contact)
  <bullet> Cooperation and support from embassies and the State 
        Department overall.

 Foreign Government Support for International Parental Child Abduction 
                   and Wrongful Retention of Children

    The principal purpose of this statement, as indicated above, is not 
only to discuss individual cases or countries, but rather to provide a 
general description of foreign government support for the abduction and 
retention of American children, the response of the United States 
Government, and proposed Congressional actions to assist American 
children and parents affected by the crime of international parental 
child abduction and retention. Accordingly, information on my daughter 
Amanda's case and my experience with the Swedish legal and social 
welfare systems is only provided as an example of what often confronts 
left-behind American parents.
   six pillars of governmental child abduction or wrongful retention
    While the present overall Swedish legal and social welfare system 
may well be one of the worst adversaries that a left-behind American 
parent can face, at least some elements of that system exist in many 
other countries, especially in European civil law countries. The 
Swedish system includes all of what could be called the Six Pillars of 
governmental child abduction and retention:

          (1) undeniable bias against foreign parents by the courts 
        (compared to the very high rate of returns of abducted children 
        from the U.S. ordered and enforced by U.S. courts);
          (2) no enforceable visitation or other parental rights for 
        foreign parents (owing to the absence of anything comparable to 
        our contempt of court mechanism);
          (3) no concept of comity (reciprocal enforcement of foreign 
        court orders, including custody orders agreed to by their 
        nationals);
          (4) payment of unlimited legal fees for their nationals who 
        abduct or retain children in all litigation at home and in the 
        U.S. (in both Hague Convention and regular custody 
        proceedings);
          (5) aggressive action by police and prosecutors against 
        foreign parents in enforcing criminal legislation specifically 
        drafted and intended to protect their child abductors/
        retainers;
          (6) ``address protection'' programs that enable abductors/
        retainers and the children involved to disappear even from U.S. 
        consular officers, with the aid of the police and social 
        welfare agencies.

    In short, these are NOT ``private child custody disputes,'' as 
Germany and Sweden try to claim in these cases, and as Executive Branch 
officials who may wish to write off the children concerned and do 
business as usual with such countries would like to believe. The 
following are not ``private'': treaty violations, Federal and state 
felonies, human rights abuses, government payment of legal fees and 
other financial support, foreign government failure to provide civil or 
criminal remedies to left-behind American parents, foreign government 
refusal to respect U.S. laws and court orders.
    American parents in such cases are often essentially alone against 
the power and wealth of the governments concerned. Of course, 
individual parents capable of internationally abducting or wrongfully 
retaining children are to be found in every country. The question, 
therefore, is whether their governments will control their conduct and 
protect the parental rights of foreign parents, especially in light of 
the international legal obligations of all countries under either (or 
both) the Hague Convention and human rights treaties that guarantee the 
role of both parents and the right of children with parents of 
different nationalities to spend time in both countries.
    Because it has proven nearly impossible for Executive Branch 
officials and other Americans (especially judges and lawyers) to 
believe, it must be repeated that, as a practical matter, the exercise 
of jurisdiction over an abducted or wrongfully retained American child 
in a regular child custody proceeding by a German or Swedish or 
Austrian or Danish court (with the inevitable grant of effective sole 
custody to the non-American abducting parent whether or not it is 
called ``joint'' custody) is equivalent to termination of the parental 
relationship between the child and the American parent. Even if some 
form of access or visitation is awarded on paper, American parents have 
no legally enforceable rights of any kind in such countries.
           international parental kidnaping crime act of 1993
    This Act should either be revised (if that will result in greater 
willingness of U.S. Attorney's offices to utilize it) or be enforced as 
it stands when Hague Convention remedies are exhausted or inapplicable, 
or the left-behind parent so requests. At present, despite the best 
intentions of Congress, the 1993 Act is not only a failure in helping 
Americans (there have been few indictments, and fewer still convictions 
and provisional arrest requests under the Act), but it has become an 
effective tool for foreign child abductors and retainers. Under some 
extradition treaties, it actually creates dual criminality where none 
existed before, so that American parents who rescue their abducted 
children can be extradited to countries that refuse to extradite their 
nationals for parental child abduction or any other offense and also 
refuse to return children consistently (or at all) under the Hague 
Convention.
    Moreover, to add insult to injury for the victims of child 
abduction or wrongful retention who know that the Department of Justice 
will generally not implement the 1993 Act, its mere existence (and the 
purely theoretical possibility of prosecution of foreign abductors or 
retainers) is being used against American parents in Hague Convention 
and regular custody litigation in the U.S. and abroad. Attorneys for 
child abductors/retainers, including those hired and instructed by 
foreign governments that are U.S. treaty ``partners,'' have argued that 
the fear of prosecution under the 1993 Act justifies the denial of 
applications for return of children under the Hague Convention, as well 
as refusal of abductors/retainers to appear in U.S. custody 
proceedings. This latter argument concludes with a demand that U.S. 
courts defer to the jurisdiction of the foreign court.
    That was precisely the argument made in Virginia to the trial court 
and the Court of Appeals in my daughter's case by the attorney hired by 
the Swedish Government. Fortunately, the Virginia judge cut through the 
argument by asking whether the abductor would immediately return to 
Virginia with the child if given immunity from prosecution. This bad 
faith argument fared no better in the Court of Appeals. But the 
argument that the children should not be sent back to the U.S. under 
the Hague Convention if the local parent faces criminal charges will 
almost certainly succeed in many foreign courts.
    With regard to implementation of the 1993 Act, the approach being 
taken by some U.S. Attorney's offices concerning the Act cannot 
possibly be consistent with the intent of Congress. Although the Act 
places both wrongful removal (or abduction) of a child from the United 
States and wrongful retention abroad on the same level, as does the 
Hague Convention, wrongful retention abroad is effectively being read 
out of the Act by some prosecutors as not serious enough to merit 
indictment.
    Moreover, some prosecutors have unilaterally added as an 
affirmative defense that a child abductor or retainer is attempting to 
obtain a local custody order abroad and would already have succeeded so 
but for Hague Convention proceedings freezing the local custody 
process. In like manner, some prosecutors are incorrectly asserting 
that a foreign court order denying return of the child(ren) under the 
Hague Convention constitutes a defense under the Act. Disregarding the 
entire object and purpose of the Hague Convention in Article 1 (respect 
for the custody laws of other Parties to the Convention), such 
prosecutors apparently have no difficulty with individuals who clearly 
violate U.S. court orders and custody rights, as long as they are also 
attempting to persuade a foreign court to ignore the orders and 
unilaterally take jurisdiction over the case. In essence, this approach 
gives immunity from prosecution, so long as abductors are using the 
legal process in their home country, no matter how corrupt, 
incompetent, or biased against foreign parents it may be.
    Even when Hague Convention remedies are inapplicable or have been 
exhausted, and thus utilization of law enforcement mechanisms will not 
jeopardize return of the child(ren), left-behind parents hear a litany 
of excuses for failure to implement the Act or to use it in any way to 
pressure abductors into returning the child(ren). The latter approach 
does not constitute misuse of the criminal process to achieve a civil 
law objective, as some might argue. Rather, it would constitute use of 
a criminal law to bring a halt to criminal conduct, which is presumably 
what Congress intended. At the moment, the point is moot because the 
1993 Act is being used far more by foreign governments against 
Americans than by the U.S. Department of Justice.
    In litigation financed by foreign governments, as noted above, its 
mere existence is cited as a reason not to return children to the 
United States in European courts and as a reason to defer to European 
jurisdiction in U.S. courts. Adding to the irony of the general refusal 
by U.S. law enforcement authorities to implement the 1993 Act is the 
very aggressive enforcement by some European law enforcement 
authorities of laws or policies that protect local child abductors and 
target foreign parents who attempt to exercise their sole or joint 
custody rights. An example of such a criminal law from the Swedish 
penal code is attached to this statement. It has been used as a 
justification for aggressive Swedish police action against several 
American fathers, including me.
    Especially in Scandinavia, mothers also increasingly have the 
option of going ``underground'' or otherwise stalling long enough to 
have the case reopened, with the best interests of the child(ren) then 
being found to require remaining in place because they are fully 
resettled. Of course, in social welfare States where the governments 
continue to pay legal fees, child maintenance, and other allowances to 
child abductors, the authorities can easily find those who go 
``underground'' if they want to.
    While a few countries that provide legal aid to both parties in 
Hague cases without regard to need (e.g., the United Kingdom) may have 
a valid complaint about the failure of the United State's to provide 
legal aid to anyone, the situation is far worse where a government pays 
unlimited legal fees at home and abroad for its child abductors, so 
that left-behind American parents are confronted by the deep pocket of 
a foreign government not only in foreign courts but also in U.S. 
courts. The point is that foreign parents are not in any way up against 
the U.S. Government in abduction cases here.

    United States Government Response (or lack thereof) To Foreign 
   Government Support of International Parental Child Abduction and 
                 Wrongful Retention of Children Abroad

    Today, when an American parent faces the nightmare of international 
child abduction or wrongful retention abroad, he or she does so alone 
in most respects. Legal fees and other expenses can quickly mount to 
tens of thousands of dollars. A decade after U.S. ratification of the 
Hague Convention on the Civil Aspects of International Child Abduction, 
there is still no central repository of reliable information and 
expertise in the Executive Branch that can quickly and effectively 
supply accurate basic data on the legal system, child custody 
institutions, law enforcement system, social welfare system, legal aid 
program, and Hague Convention performance of the abductor's country. 
The left-behind American parent thus has little basis for evaluating 
the options available.
    Some of the information supplied by the Executive Branch last year 
to the Senate Foreign Relations Committee in order to obtain the 
release of 38 law enforcement treaties was inaccurate, incomplete, and 
misleading, particularly the implication that ``everybody does it'' and 
that the United States is no better than most other countries. That 
implication is false, and the Executive Branch knows it. Moreover, the 
frequent claim by the Executive Branch that elementary but essential 
information on a variety of matters concerning foreign legal systems in 
connection with child abduction or child custody is ``not available'' 
to the Executive Branch is untrue. This information is readily 
available and could be obtained without difficulty or expense from 
American embassies, experts in the field, local attorneys, and American 
parents who have learned the hard way. The Executive Branch simply does 
not want Congress to have this information because of the likely 
Congressional reaction.
    Although all concerned would presumably agree that prevention and 
deterrence of child abduction or wrongful retention are the ultimate 
goals, little is being done in this area. Dissemination of information 
on the key institutions, laws, and child custody practices of other 
countries is the key to eliminating much of the secrecy and ignorance 
that leads to successful child abductions and retentions. Countries 
whose legal systems and child custody institutions guarantee frequent 
non-compliance with the Hague Convention or no visitation or other 
rights for American parents need to be publicly identified and analyzed 
in depth.
    There is no monitoring by the Executive Branch of U.S. litigation 
financed by foreign governments against left-behind American parents 
(or responsiveness to reports of such litigation), so that U.S. 
Government statements of interest or amicus curiae briefs can be filed 
in landmark cases. Instead, the Executive Branch participates in Hague 
Convention and perhaps other litigation on behalf of foreign parents 
while failing to help Americans up against the deep pocket of foreign 
governments trying to reverse or undermine U.S. court orders. Assisting 
Americans would not require a significant increase in resources. In two 
recent cases, statements of interest from the U.S. Government of only a 
page or two would have been invaluable. In my own case, I prevailed in 
upholding the U.S. custody order in the highest courts of Virginia, but 
only at a personal cost of more than $20,000 while the Swedish 
Government financed this bad faith litigation to exhaust my financial 
resources while having no intention of respecting any result adverse to 
the Swedish abductor. In the other case, Mark Larson of Utah lost in 
the 10th Circuit for acting precisely in accordance with U.S. 
Government policy and advice in Hague Convention cases. In view of the 
strong dissenting opinion, literally a few sentences in a U.S. 
Government statement of interest might have made a difference.
    In contrast, foreign Central Authorities often work just as hard to 
assist their nationals who abduct or wrongfully retain children as they 
do for their nationals who are victims of these offenses. In the case 
of the Swedish Central Authority, its support of child abduction and 
wrongful retention include such means as coordination of litigation 
strategy in both Sweden and the U.S. against American parents. This has 
included creative attempts to:

          (a) use the Uniform Child Custody Jurisdiction Act in U.S. 
        courts to obtain for Sweden the status of an American state for 
        purposes of jurisdiction and enforcement of Swedish custody 
        orders, and,
          (b) use the mere existence of the 1993 International Parental 
        Kidnapping Crime Act in both Swedish and U.S. courts as a 
        justification for not returning children to the U.S. on the 
        pretext that the Swedish abductor might be prosecuted (which 
        adds insult to injury in view of the fact that the Justice 
        Department will only rarely enforce the Act).

    Other activities of the Swedish Central Authority have included 
automatic distribution of Swedish and U.S. Government documents and 
information to Swedish abductors and their attorneys (while the State 
Department tells Americans to file Freedom of Information Act 
requests), informing the Swedish police and prosecutors that American 
child custody orders have no validity in Sweden in contravention of the 
whole object and purpose of the Hague Convention set out in Article 1, 
translation only of court decisions and other documents favorable to 
the Swedish abductor, and so on. Such conduct by a foreign government, 
especially its Central Authority for an international convention 
against child abduction and wrongful retention, should receive the 
widest possible exposure and censure.
    Litigation in the United States financed by foreign governments 
against Americans who are already the victims of crimes committed by 
nationals of those governments should at least raise some serious 
questions about possible abuse of sovereign immunity. For example, the 
Swedish Government attempts to put a legal gloss on the abductions and 
wrongful retentions committed by its citizens by pursuing frivolous 
appeals of U.S. custody orders all the way to the supreme court of the 
states concerned even when the children have been held hostage in 
Sweden for years. Roughly five years ago, Julia Larson was abducted to 
Sweden from Utah for the third time and my daughter Amanda was 
wrongfully retained in Sweden. Neither child has been in the United 
States nor been allowed normal contact with their American families, 
but the Swedish Government has considered it necessary to try to make 
everything look ``legal'' by attacking the Utah and Virginia custody 
orders in extremely expensive and time-consuming litigation. An effort 
in Virginia to satisfy a money judgment against the abducting mother by 
garnishing the retainer paid to her attorney was blocked by an 
affidavit (attached) declaring that all funds held by the law firm are 
directly from ``the Kingdom of Sweden's legal aid agency.''
    Several additional preventive and remedial actions by Congress are 
needed to ``level the playing field'' for American parents facing off 
against foreign governments. Congress is confronted daily with many 
competing demands that have serious resource implications. This request 
does not. It seeks only the requisite political will to accomplish the 
objectives of better protecting American children from international 
parental kidnaping, especially when such conduct is directly supported 
by foreign governments.

  Proposed Congressional Actions Against International Child Abduction

    In view of the overall poor performance of the State and Justice 
Departments for many years, receivership is necessary. Accordingly, the 
following proposals do not constitute micro-management.
(1) U.S. Central Authority
    PROPOSALS: (A) Amend ICARA if necessary or otherwise direct that 
the U.S. Central Authority for the Hague Convention be shifted 
immediately from the State Department to the Civil Division of the 
Justice Department (with the State Department directed to provide all 
support and assistance requested), taking into account the need to 
improve such areas as:

  <bullet> training and expertise of personnel
  <bullet> continuity and institutional memory of personnel
  <bullet> number of personnel available
  <bullet> caseload of personnel
  <bullet> quality, quantity, and nature of legal support available
  <bullet> the balance between child abduction/retention cases and 
        ``good relations'' in bilateral relations
  <bullet> the role of regional bureaus and American embassies
  <bullet> general openness and a willingness to provide left-behind 
        American parents with all available information and 
        documentation.
    (B) Direct that NCMEC cease handling incoming cases and play the 
same role for ``outgoing'' cases (i.e., abductions from the U.S. and 
retentions of American children abroad) that it has been playing for 
``incoming'' cases, with a mandate for assertive advocacy on behalf of 
American parents on all fronts.
(2) Human Rights and Prevention, Publicity, and Accountability (See 
        also pages 43-53)
    PROPOSALS: (A) Human Rights: In the ``children's rights'' section 
of the annual human rights report on each country, direct that the 
child custody system be summarized, including gender bias or bias 
against foreigners based on statistical evidence, enforceability of 
visitation/access for noncustodial parents (i.e., is there anything 
comparable to contempt of court?), payment of legal fees for host 
country nationals in custody or abduction cases, criminal legislation 
that protects abductors/withholders, compliance (or not) with the 
relevant provisions in the Convention on the Rights of Child on the 
role of both parents, the right of children in international cases to 
spend time in both countries, etc. The U.S. is not a Party but has 
signed and complies with the relevant provisions to a far greater 
extent than most States Parties.

  <bullet> Each year, the annual human rights report is eagerly 
        awaited, widely disseminated, and, unlike most government 
        reports, widely read throughout the world. One important 
        function that the annual human rights reports should perform is 
        prevention, as ``human rights advisories'' comparable to travel 
        advisories; i.e., to alert potential victims of current and/or 
        ongoing, systemic human rights abuses. If just one child from 
        ANY country is saved from being lost because a judge, attorney, 
        parent, or family friend reads or hears about government-
        supported child abduction/retention in a given country, then an 
        accurate and complete report will have accomplished something 
        both worthwhile and right. An accurate and complete report on 
        countries such as Sweden would constitute a great service to 
        American and other parents who might be warned in time to avoid 
        losing their children.
  <bullet> This subject belongs in the Human Rights Reports on its 
        merits based on the numerous provisions in international human 
        rights instruments that are violated by foreign governments in 
        these cases. The First Lady has been right morally and legally 
        in repeatedly declaring that international child abduction and 
        retention are a human rights matter. State Department 
        opposition is ludicrous, especially in view of what IS covered 
        in the reports already and the fact that this is a systematic 
        human rights abuse against Americans, whereas the current 
        reports are devoted almost exclusively to what foreign 
        governments do to their citizens.

    (B) Enact a permanent annual reporting requirement on Hague 
Convention Compliance to cover retention cases and any case where the 
child is not returned to the United States not resolved within 6 
months, and to include lists of countries that do not have anything 
comparable to contempt of court and cannot enforce their own civil 
court orders, that pay the legal fees of their abductors/retainers, 
that have criminal legislation which effectively protects their 
abductors/retainers, etc.
(3) Bilateral Relationships
    PROPOSAL: Review what type of relationship the United States should 
have with governments that engage in the following conduct and attach 
consequences such as no new law enforcement treaties or child support 
enforcement agreements if they:

  <bullet> are directly engaged in facilitating, financing, otherwise 
        supporting, and rewarding criminal conduct against American 
        citizens
  <bullet> have in place any elements of a governmental child abduction 
        system
  <bullet> have refused return of American children abducted/retained 
        in violation of U.S. law or court orders
  <bullet> have unresolved cases of abduction/retention of American 
        children with no meaningful or enforceable access for the 
        American parent
  <bullet> use their law enforcement authorities aggressively against 
        American parents whose children have been abducted/retained and 
        rarely if ever use them to assist American parents
  <bullet> have failed to compensate American parents of abducted/
        retained children for their legal and other expenses
  <bullet> abuse their sovereign immunity by financing litigation in 
        U.S. courts against American parents while claiming that the 
        cases are private custody disputes and refusing to respect/
        enforce results adverse to their citizens.
(4) Extradition
    PROPOSAL: Direct that the United States inform all extradition 
treaty partners that the U.S. will not extradite its nationals for the 
offense of parental child abduction or related offenses to any country 
that will not extradite or effectively prosecute its nationals and will 
not fully comply with its obligations under the Hague Convention.
(5) Mutual Legal Assistance Treaties (MLAT's)
    PROPOSALS: (A) Consider whether the United States should provide 
assistance against a left-behind American parent in any case where 
there has been a child abduction/retention in violation of U.S. law or 
court orders AND whether the United States should provide assistance 
under any foreign law that criminalizes the attempts of custodial 
parents (sole or joint) to exercise their parental rights in response 
to abduction/retention of their child(ren). (e.g., See attached Swedish 
penal law that has been used against several American parents of 
abducted/retained children).
    (B) Refuse to sign or ratify an MLAT with any country that 
consistently supports international child abduction such as Sweden, in 
view of participation by Swedish police and prosecutors in the 
commission of Federal and state felonies against American citizens, 
Sweden's blatant and continuing violations of its obligations under 
related treaties, the unacceptable elements of Sweden's legal and 
social welfare system (summarized above), and the current and past 
cases of criminal conduct and human rights violations against American 
children and their parents directly facilitated, financed, rewarded, 
and supported in every conceivable way by the Government of Sweden.
    (C) Deliver a message comparable to the following one that should 
be delivered to Sweden to any country that engages in similar conduct; 
i.e., that no further consideration will be given to moving forward on 
a mutual legal assistance treaty (MLAT) until the Government of Sweden:

  <bullet> terminates its comprehensive participation in ongoing 
        Federal and state crimes against American citizens, in 
        particular the International Parental Kidnapping Act of 1993 
        (18 USC 1204) and the comparable laws of each state
  <bullet> acknowledges that American children over whom Swedish courts 
        exercise custody jurisdiction are completely lost to their 
        American parents unless the Swedish parent decides otherwise, 
        and takes effective remedial actions
  <bullet> eliminates the Swedish Government Child Abduction System 
        (see above), starting with acknowledgment and elimination of 
        the 5 pillars of the System (no principle of international 
        comity in the Swedish legal system, undeniable bias by Swedish 
        courts against non-Swedish fathers in regular custody 
        proceedings and guaranteed sole custody awards for Swedish 
        child abductors, nothing comparable to contempt of court to 
        enforce access/visitation, unlimited government financing of 
        legal fees and other expenses of Swedish abductors, and 
        aggressive Swedish law enforcement use of a criminal statute 
        that targets non-Swedish fathers)
  <bullet> resolves satisfactorily all pending cases of child 
        abduction/retention by Swedish citizens through return of the 
        children to the United States and putting in place immediately 
        enforceable criminal remedies against the Swedish citizens 
        involved to prevent any recurrences
  <bullet> implements and demonstrates the effectiveness of reforms of 
        its legal and social welfare system to deter or quickly resolve 
        in an acceptable manner all future cases, including in 
        particular unsupervised and immediately enforceable access to 
        the children concerned guaranteed by something comparable to 
        criminal contempt, termination of legal aid for child abductors 
        in civil proceedings, and streamlining its legal system to 
        prevent endless appeals and delays
  <bullet> repeals its criminal law directed against non-Swedish 
        fathers attempting to exercise sole or joint custody rights 
        over children abducted or withheld by Swedish mothers
  <bullet> directs its police and prosecutors to cease harassing and 
        attempting to intimidate American and other parents of 
        abducted/retained children who attempt to exercise their 
        custody rights
  <bullet> compensates American parents of abducted/retained children 
        for all expenses of litigation financed by the Swedish 
        Government in both Sweden and the U.S., as well as all other 
        costs and damages resulting from Sweden's failure to comply 
        with its treaty obligations under the Hague Convention on the 
        Civil Aspects of International Child Abduction and the family/
        parent provisions of the Convention on the Rights of the Child
  <bullet> halts its abuse of sovereign immunity in aggressively 
        litigating against American parents in U.S. courts with no 
        intention of respecting or enforcing results adverse to the 
        Swedish citizen
  <bullet> demonstrates that it will extradite or effectively prosecute 
        Swedish parents who engage in child abduction/retention.
(6) Child Support Enforcement
    PROPOSAL: Terminate the State Department authority in P.L. 104-193 
(Section 459A) or at least amend it to:

          (a) prohibit any child support enforcement arrangement with a 
        country that does not have a legal system providing prompt, 
        adequate and effective enforceable, unsupervised access/
        visitation IN THE UNITED STATES by means of something 
        comparable to contempt of court
          (b) prohibit any child support enforcement arrangement unless 
        it contains ironclad guarantees that no American parent of an 
        abducted/retained child will be affected, harassed, or 
        penalized in any way AND it expressly excludes any case where 
        there is or has been at any time:

  <bullet> a violation of a U.S. custody order or U.S. custody law
  <bullet> a violation of a Federal or state criminal law
  <bullet> a denial of a request for return of the child(ren) under the 
        Hague Convention or a failure of the foreign Central Authority 
        to comply with other Convention obligations
  <bullet> termination or reduction of any support obligation by a U.S. 
        court
  <bullet> an unpaid judgment or fine imposed by a U.S. court on the 
        foreign parent
  <bullet> a failure by the foreign government or its courts to provide 
        rapidly enforceable, unsupervised, and generous visitation in 
        the United States with police assistance and with no legal aid 
        provided to the foreign parent violating a foreign or U.S. 
        custody order
  <bullet> an inability or refusal by the foreign government/courts to 
        control the conduct of the foreign parent through contempt of 
        court or other effective means
  <bullet> an inability or refusal by the foreign government/courts to 
        protect and promote the exercise of parental rights by the 
        American parent
(7) Implementation of the International Parental Kidnaping Act of 1993, 
        18 US 1204
    PROPOSAL: Either mandate Justice Department enforcement of the Act 
or repeal it, in view of the foreign government efforts to use the Act 
against Americans noted above. At present, the law is primarily used 
against Americans and rarely enforced by the Justice Department.

  <bullet> If not repealed, require an annual DOJ report on the number 
        of requests from parents or their counsel for indictments, 
        number of indictments, number of extradition requests, number 
        of actual prosecutions, etc.
(8) Privacy Act
    PROPOSAL: Require that left-behind parents be provided with the 
option (in writing) to waive all Privacy Act rights so that their names 
can be given to parents involved with the same country and to 
organizations (such as NCMEC) that can help.

  <bullet> Prohibit use of the Act to withhold any information or 
        documents from left-behind American parents
  <bullet> Prohibit use of the Act on behalf of abducted American 
        children or abductors (even if U.S. citizens) as a basis for 
        withholding information or documents from left-behind American 
        parents
(9) Freedom of Information Act (FOIA)
    PROPOSAL: Prohibit use of FOIA as a basis for refusing release of 
ANYTHING and EVERYTHING to American parents in child abduction/
retention cases (information, documents, diplomatic and other 
government-to-government correspondence, etc.)

  <bullet> these are not matters of national security; a left-behind 
        American parent has an absolute right to know everything that 
        his government has done or failed to do to obtain the return of 
        the American children concerned
(10) Exception To Foreign Sovereign Immunities Act
    PROPOSAL: Create an exception to the FSIA giving American citizens 
a cause of action in U.S. district courts against foreign governments 
(and all their assets in the United States) that directly engage in, 
facilitate, or otherwise support criminal conduct against them and 
their children.
(11) Bilateral Claims
    PROPOSAL: Consider the use of bilateral U.S. Government claims on 
behalf of American children and their parents against foreign 
governments that have permitted their nationals to abduct/retain 
American children (and perhaps provided assistance and support).
(12) Office of Foreign Missions
    PROPOSAL: Require OFM to: (A) regulate and monitor the hiring and 
payment by foreign governments of American attorneys in cases of 
abduction/retention of American children where U.S. civil/criminal law 
or U.S. court orders have been violated, and (B) monitor and discourage 
any harassment of American citizens by foreign government agencies 
demanding either ``child support'' for abducted/retained American 
children or reimbursement to the foreign government of the legal fees 
it has paid for someone who has abducted or retained American children.
(13) Interpretation of the Hague Convention
    PROPOSAL: Direct that the Executive Branch inform all U.S. courts 
and Hague Convention countries that the term ``grave risk'' in Article 
13 of the Convention (as a grounds for not returning a child) should be 
interpreted to include situations where the country concerned cannot 
provide enforceable access or visitation owing to the absence of 
anything comparable to contempt of court in its legal system.

    ATTACHMENTS: As noted
                                 ______
                                 

                                         Thomas A. Johnson,
                              Alexandria, Virginia, April 25, 1997.
Subject: International Parental Kidnaping of Amanda K. Johnson

Rob Chestnut, Esq.,
Chief, General Crime Section,
Office of the U.S. Attorney,
Eastern District of Virginia.
    Dear Rob: Thanks again for returning my call. Sorry I missed you on 
my way out of town. I will be back in the office on May 12.
    As I indicated in my message on Friday, the intent and language of 
Congress and the President in enacting and signing the International 
Parental Kidnaping Crime Act of 1993 were clear, and the reasons that 
you have given thus far for not proceeding are not consistent with the 
letter and spirit of the Act. Rather than repeating and supplementing 
previous arguments, I would simply ask at this point that you and the 
U.S. Attorney look over the materials I am faxing. Combined with the 
items you already have, the contrast could not be greater between the 
direct support that Swedish nationals who commit felonies against 
American citizens receive from the Swedish government and law 
enforcement authorities on the one hand, with the situation of their 
American victims on the other hand.
    The first item consists of pertinent pages from the appellate brief 
in Virginia financed and supervised by the Swedish government. Last 
August, I informed you that the attorney hired by Sweden, Richard 
Crouch, tried to make an ``inconvenient forum'' argument in the 
Alexandria Court by asserting that the abducting mother would be 
prosecuted under the 1993 Act. When the judge expressed skepticism, 
Crouch tried to gain ground by lying to the Court, claiming that one of 
his clients was ``being prosecuted under the Act.'' You told me that no 
one has been charged or prosecuted in your district under the 1993 Act 
and that you had not heard of any cases nationwide. (There has 
apparently been at least one conviction under the Act since last 
summer.) In any event, you will note from the marked portions of the 
brief that Crouch (and the Swedish government) are adding insult to 
injury by attempting to use the mere existence of the law that your 
Office refuses to enforce in order to consolidate the successful 
commission of a crime covered by the Act. There is something terribly 
wrong if you and the U.S. Attorney do not have a problem with a foreign 
government notorious in the child abduction field making such a mockery 
of U.S. law (and the U.S. law enforcement system generally) in a case 
involving a child from your district who is literally being held 
hostage, as the other items demonstrate.
    The second item (circled portion) is the Swedish penal code 
provision under which I was arrested in September after picking up my 
daughter at her school, going to McDonalds, and returning to our hotel. 
A Swedish prosecutor authorized my arrest, and I was held for 48 hours 
as pure intimidation. Since there was insufficient evidence of any 
crime even under the Swedish system, I was released and returned home. 
But the ``investigation'' was dragged out for two months, during which 
I was not allowed even to speak with Mandy by telephone because she was 
``a potential witness.'' I trust you agree that the ``law'' in question 
would be unconstitutionally vague and against public policy here. Its 
only purpose is to protect Swedish child abductors. Two senior Swedish 
prosecutors have told me that it is intended for use against ``fathers 
from the South'' (Arabs and Africans), but conceded that it is also 
useful against other lesser breeds such as Americans. Suffice it to say 
that Swedish prosecutors take care of their own.
    The third item is a translation of the police orders for the 
supervision of my visitation with Amanda just before Christmas. There 
is no Swedish custody order. The only custody order in the world gives 
me sole and exclusive custody. But the Swedish police were willing to 
devote two officers for guard duty on three different days in 
furtherance of criminal conduct. Your office is apparently unwilling to 
devote relatively minimal time to paperwork in response to criminal 
conduct. In view of the Swedish government's acknowledgment in the 
appellate brief that the mother has violated the 1993 Act, this action 
in December constituted direct participation by the Swedish police in 
an ongoing felony. The fourth item is photographic evidence of that 
criminal conduct.
    The fifth item constitutes mail fraud and attempted extortion, and 
is probably covered by RICO. The Swedes determined the monthly amount 
by taking one provision from the Virginia order that they are otherwise 
completely violating and extrapolating a weekly amount of child support 
that was to be paid only about 55 percent of the time until Mandy's 
18th birthday to cover 100 percent of the time. There has been no 
Swedish custody hearing, but the Swedes are proud to be able to state 
the results in advance and to recognize reality in assuming 100 percent 
of the time with the mother, since there is no enforceable visitation 
under the Swedish ``legal'' system.
    I hope that the sum total of these items will cause you to 
reconsider. Some cases do come down to a clear choice between right and 
wrong. This is one of them.
                                 ______
                                 

Summary of the Swedish Government System of International Abduction and 
                     Wrongful Retention of Children

    In both domestic and international situations, cases of abduction 
and wrongful retention of children by a Swedish parent are not merely 
``private custody disputes,'' in view of the lack of effective remedies 
provided by the Swedish legal and social welfare systems to the left-
behind parent and the extensive Swedish government financial, law 
enforcement, social welfare, and other support supplied to Swedish 
parents who engage in abduction/retention of children.
    In international cases where only one parent is Swedish 
(particularly where the mother is Swedish), children not returned under 
the Hague Convention on the Civil Aspects of International Child 
Abduction are, as a practical matter, completely lost to their non-
Swedish parents unless the Swedish mother decides otherwise. This is 
the result of the Swedish legal system's inability to effectively 
control the conduct of Swedish parents and protect the rights of non-
Swedish parents in the absence of any judicial power comparable to 
contempt of court. In regular child custody proceedings, Swedish courts 
invariably grant sole custody to Swedish mothers and, as noted, have no 
power to enforce visitation for non-custodial parents. Although a new 
Swedish law entered into force on October 1, 1998 permitting Swedish 
judges for the first time to impose joint custody over the objections 
of one parent, this law will not be applied with any practical effect 
when a foreign father is involved. Moreover, the terms of any such 
joint custody order will be just as unenforceable in Sweden as the 
visitation provisions of a sole custody order. Similarly, although 
Swedish legal principles permit sole custody to be shifted from a 
parent who denies access to a child on the grounds that such a parent 
is unfit per se, it is highly unlikely in such a case that custody 
would ever be shifted from a Swedish mother to a non-Swedish father 
when the consequence would be that the child leaves Sweden to reside 
elsewhere.
    Even in cases where a foreign parent has sole or joint custody 
under a non-Swedish custody order and no Swedish custody order exists, 
there is no concept of comity in the Swedish legal system, (despite 
Sweden's obligation under Article 1 of the Hague Convention to ensure 
respect for the rights of custody and access under the law of other 
States Parties). Swedish law enforcement authorities, having been 
informed by the Ministry of Foreign Affairs that foreign custody orders 
``have no validity in Sweden,'' aggressively interfere with any effort 
by a foreign parent to exercise his custody rights in Sweden and may 
arrest and prosecute him under a unique Swedish penal law that 
effectively protects and rewards Swedish child abductors/retainers.
    In both Hague Convention and regular child custody litigation in 
Sweden and abroad (including all possible appeals in Sweden, the other 
country concerned, and the European system), the Swedish social welfare 
system provides unlimited payment of legal fees for Swedish citizens, 
thus significantly reducing the incentive for the Swedish child 
abductor/retainer to compromise or otherwise settle the case. This 
enables the Swedish citizen to pursue appeals to the highest courts of 
Sweden and the other country concerned at no expense, while exhausting 
the financial resources of most non-Swedish parents. In any event, 
Swedish authorities will not enforce or otherwise respect foreign 
appellate judgments against Swedish parents.
    In non-Hague cases, as demonstrated by the now leading decision of 
Sweden's supreme court in the Ascough case during 1997 (children of 
Australian/British father and Swedish mother residing in Singapore), 
the Swedish courts will take jurisdiction and award sole custody to a 
Swedish mother even in cases where the children were born outside of 
Sweden, clearly reside outside Sweden, have never resided in or even 
visited Sweden, and were unquestionably abducted to Sweden.
    In summary, Sweden's overall legal and social welfare system 
concerning child custody and parental child abduction/retention does 
not comply with numerous provisions of human rights treaties to which 
Sweden is a Party, notably the Convention on the Rights of the Child, 
the European Convention on Human Rights, and the International Covenant 
on Civil and Political Rights as a result of six factors:

          (1) the undeniable gender and national bias of Swedish 
        courts, especially in favor of Swedish mothers
          (2) the absence of anything comparable to contempt of court 
        to enforce visitation or other parental rights for fathers 
        (i.e., non-custodial parents)
          (3) the unlimited financial support received in Sweden and 
        abroad by Swedish child abductors
          (4) enforcement by Swedish law enforcement authorities of a 
        criminal law intended to protect and reward Swedish child 
        abductors
          (5) the lack of comity with respect to non-Swedish court 
        orders, and
          (6) the refusal of Sweden to extradite or effectively 
        prosecute Swedish child abductors.

    Most notably, Sweden's legal and social welfare systems are 
inconsistent with both the letter and spirit of Sweden's obligations 
under the Convention on the Rights of the Child to ensure contact with 
both parents and, in international cases, with both countries. Thus, 
Sweden cannot ensure compliance with the provisions of the Convention 
most relevant to child custody and child abduction/retention: Articles 
9, 10, 11, and 18. The United. States has signed but not ratified the 
Convention, but complies with these articles in practice to a far 
greater extent than Sweden.
                             amanda's case
    Voluminous documentation concerning Amanda's wrongful retention in 
Sweden by a Swedish diplomat and the Government of Sweden, as well as 
information on other American children abducted to Sweden, has already 
been supplied to Committee staff. An updated chronology of the case is 
attached to this statement, along with:

  <bullet> the unanimous decision of the Virginia Court of Appeals 
        upholding the Virginia Custody Order
  <bullet> the Virginia Supreme Court Order dismissing further appeals
  <bullet> Swedish Government demands for reimbursement of legal fees 
        and child support paid to the abductor
  <bullet> a Swedish criminal law intended and used to protect Swedish 
        child abductors and punish non-Swedish parents who attempt to 
        exercise their custody rights
  <bullet> photographs showing Swedish police participation in the 
        continuing Federal and state felonies against Amanda and me, 
        and
  <bullet> an outline of the Swedish Government's System of supporting 
        and financing parental child abduction.

    With full support in every conceivable way from the Government of 
Sweden, Amanda has literally been held hostage in Sweden since early 
1995, in violation of:

  <bullet> U.S. civil law and court orders to which the mother agreed 
        in open court
  <bullet> U.S. Federal and state criminal law
  <bullet> Sweden's international legal obligations under several 
        treaties (The Hague Convention on the Civil Aspects of 
        International Child Abduction, the Convention on the Rights of 
        the Child, the European Convention on Human Rights, and other 
        human rights instruments)
  <bullet> Sweden's own civil and criminal laws on joint custody and 
        child abduction (which are never enforced against Swedish 
        mothers), and
  <bullet> the eligibility requirements for payment of all legal fees 
        in Sweden and abroad by the Swedish Government (which are 
        apparently conveniently waived for Swedish abductors).

    The facts of the case are clear. Amanda, a U.S. citizen and 
resident from birth (November 11, 1987), is also a Swedish citizen. She 
was a U.S. Government dependent during her first two years while I was 
posted at the U.S. Mission in Geneva. Mandy then lived with me in 
Virginia roughly fifty percent of the time until age 6, attending three 
years of preschool and kindergarten at Browne Academy in Alexandria, 
Virginia. She spent the rest of her time in New York with her mother, 
Anne Franzen, who was the lawyer at the Swedish Consulate with lead 
responsibility for child abduction and custody matters, and who was 
actually offered the position of Head of the Swedish Central Authority 
for the Hague Convention upon leaving New York. Despite being 
wrongfully withheld outside the U.S. for nearly five years now, Amanda 
has still lived longer in an American diplomatic community or the U.S. 
itself than in Sweden. She should have been living again in the U.S. 
since the spring of 1995 under the agreed terms of a December 1993 
Virginia custody order and subsequent enforcement orders, which make 
clear that Amanda's habitual residence continues to be Virginia, that 
the Virginia courts have continuing exclusive jurisdiction over her 
case, and that the parents are prohibited from seeking custody 
modification in any court anywhere in the world without the consent of 
the Virginia court.
    The case against Anne Franzen (Deputy Assistant Under Secretary for 
Human Rights in the Swedish Foreign Ministry at the time) was so strong 
that four Swedish courts either ordered Amanda's return under the Hague 
Convention or held that Sweden did not have jurisdiction over Amanda 
because she was only in Sweden temporarily in accordance with the 
Virginia Custody Order to which the mother had agreed. After endless 
delays, stays of execution, appeals, and litigation financed for the 
mother by the Swedish Government in 8 separate proceedings in 6 courts 
(a Hague process that lasted 17 months instead of the 6 weeks set forth 
in the Convention), the final court from which there was no appeal (the 
Swedish Supreme Administrative Court or Regeringsratten) reversed all 
the lower court rulings in a May 1996 decision that has been declared 
by the U.S. Government in diplomatic notes to be a violation of the 
Convention and that has been rejected by the highest courts of 
Virginia.
    On August 9, 1996, with the abducting mother represented by counsel 
paid by the Swedish Government, the Virginia Court granted me sole and 
exclusive custody, made contempt findings, and issued several other 
forms of relief. There was never a Swedish custody order of any kind 
concerning Amanda until an interim joint custody order was issued by a 
Swedish court in February 1999. The Virginia Custody Order has 
withstood costly challenges in the highest courts of Virginia financed 
by the Swedish Government, and remains the only final order in the 
world. But Amanda continues to be wrongfully withheld from me, the rest 
of her American family, her home and familiar environment, and her 
country by her mother and by the Government of Sweden through a legal 
and social welfare system that fails to meet even minimal standards of 
due process of law (e.g., no rules of evidence and no prohibitions on 
ex parte communications with judges).
    Between December 1995 and June 1999, Amanda was able to see me on 
only five occasions, for a total of 15 hours. On the second occasion 
(September 16, 1996), after picking Amanda up at her school as a 
custodial parent unwilling to subject the two of us to the continued 
degradation of supervised visitation that had unlawfully been imposed 
for nearly two years at the time, I was wrongfully detained in her 
presence four hours later at our hotel (where I had informed the mother 
we would be) by four Swedish policemen at the abducting mother's 
request. I was held in solitary confinement for nearly 48 hours, 
despite (or actually because of) the fact that I have sole custody 
under the only final Custody Order in the case and have joint custody 
even under Swedish law. Although I was released, never charged with any 
offense, and compensated by the Swedish Government for wrongful 
detention, the incident has done incalculable harm to Amanda and to my 
relationship with her.
    On the third and fourth occasions, in December 1996, I was only 
allowed to see Mandy under police guard at her school, with the police 
challenging the presence of the Vice Consul from the American Embassy 
an one occasion and making a further mockery of my joint custody 
``rights'' in Sweden (see attached photographs of Swedish police car at 
Amanda's school). Amanda and I did not see each other after that 
demeaning experience in December 1996 until February 1999 when the 
abducting mother supervised some brief visitation.
    Every element of joint custody has been violated: no school or 
medical records, no photographs, no information on activities or 
general welfare have been provided to me. There has been no response to 
any of the countless letters and packages sent to Amanda. For the 
summers of 1997 and 1998, creative efforts by my Swedish and American 
attorneys to arrange visitation in the United States with guaranteed 
returns to Sweden (U.S. court orders ARE enforceable) or any type of 
supervised or unsupervised access in Sweden were summarily rejected by 
the mother and her attorney. No assistance was provided by the judge 
now assigned to the case. The judge who previously dismissed the 
mother's petition for sole custody and upheld the Virginia Order has, 
not surprisingly, been removed from the case.
    In February, an interim joint custody order was issued over the 
mother's objection because joint custody is now the norm in Sweden, 
although it has no practical enforceable meaning in Sweden. The terms 
of the order gave the mother de facto sole custody, with only 
supervised visitation in Sweden. Even this meaningless ``joint 
custody'' was reversed by the same judge in June 1999 at the mother's 
request. Several hours per day of supervised visitation took place for 
a few days in June 1999. The good relationship between Amanda and me 
has survived despite all efforts by the abductor and the Swedish 
Government to destroy it, but serious damage has been done to the child 
(a nervous tick in both eyes). Amanda lived alone with me in Virginia 
and attended three years of school roughly half the time for nearly 4 
years, but everything possible has been done to de-Americanize her and 
eliminate her relationship, with me.
    In September 1999, an appeals court reversed part of the June 1999 
interim order, restoring joint custody-and saying that visitation 
(still limited to Sweden) does not need to be supervised. Like 
everything else in the Swedish system, this is not enforceable, and an 
effort for contact between Amanda and me during the October 8-10 
weekend therefore collapsed over the issue of supervision.
                                 ______
                                 
     international child abduction and wrongful retention in sweden
    Name of Child: Amanda Kristina Johnson
    Date and Place of Birth: November 11, 1987, Geneva, Switzerland
    Current Location: Radjursstigen 14, 17072 Solna, Sweden
    Telephone in Sweden: (8) 851436
    ID Number in Sweden: 871111-0547
    Wrongfully Retained in Sweden since January 1995
    Four Swedish courts either ordered Amanda's return under the Hague 
Convention or denied Swedish jurisdiction
    Final denial of return by Supreme Administrative Court 
(Regeringsrattan) in May 1996
    Father: Thomas A. Johnson, 907 Dalebrook Drive, Alexandria, 
Virginia

  <bullet> primary custodian since June 1995
  <bullet> sole and exclusive custody of Amanda since August 1996

    Mother: Anne Franzen or Anne Franzen Johnson (address and telephone 
above)

  <bullet> no custody order but given de facto sole custody rights by 
        Swedish law enforcement and social welfare authorities

    Mother's employer: Swedish Ministry of Foreign Affairs

  <bullet> she is former Deputy Assistant Under Secretary for Human 
        Rights

    Proceedings: 14 separate proceedings in 10 different courts in New 
York, Virginia, and Sweden with the Swedish Government paying the 
mother's legal fees in ALL
    Pillars of the Swedish Government Child Abduction System:

  <bullet> no comity for foreign law or court orders despite Sweden's 
        obligations under Articles 1 and 2 of the Hague Convention
  <bullet> extreme gender bias and nationalistic bias in Swedish courts
  <bullet> payment of all legal fees for Swedish abductors/ retainers 
        in all proceedings in Sweden and abroad by the Swedish 
        Government
  <bullet> nothing comparabLe to contempt of court in the Swedish legal 
        system, so that Swedish courts cannot control the conduct of 
        Swedish parents or protect the parental rights of non-Swedes
  <bullet> criminal law that targets non-Swedish parents with sole or 
        joint custody rights who attempt to exercise those rights.
        [GRAPHIC] [TIFF OMITTED] T0986.174
        
        [GRAPHIC] [TIFF OMITTED] T0986.175
        
        [GRAPHIC] [TIFF OMITTED] T0986.176
        
        [GRAPHIC] [TIFF OMITTED] T0986.177
        
        [GRAPHIC] [TIFF OMITTED] T0986.178
        
        [GRAPHIC] [TIFF OMITTED] T0986.179
        
        [GRAPHIC] [TIFF OMITTED] T0986.180
        
        [GRAPHIC] [TIFF OMITTED] T0986.181
        
        [GRAPHIC] [TIFF OMITTED] T0986.182
        
        [GRAPHIC] [TIFF OMITTED] T0986.183
        
        [GRAPHIC] [TIFF OMITTED] T0986.184
        
        [GRAPHIC] [TIFF OMITTED] T0986.185
        
        [GRAPHIC] [TIFF OMITTED] T0986.186
        
        [GRAPHIC] [TIFF OMITTED] T0986.187
        
        [GRAPHIC] [TIFF OMITTED] T0986.188
        
        [GRAPHIC] [TIFF OMITTED] T0986.189
        
        [GRAPHIC] [TIFF OMITTED] T0986.190
        
           Prepared Statement of Paul Marinkovich, Parent of 
                         Illegally Abducted Son

    Dear Chairman Thurmond: I greatly appreciate your invitation for my 
testimony before the Subcommittee on Criminal Justice Oversight on 
October 27, 1999. Having just returned from my testimony before the 
House Committee on International Relations on October 14, 1999, I 
regret that I can't physically attend. I respectively ask my testimony 
be entered into the record for your hearings as I feel that we have a 
very serious problem with the United States Justice Department and the 
way they have treated America's illegally abducted children.
    To provide you with a brief history, I have been involved in a 
three and a half year battle to try and retrieve my illegally abducted 
son from an act of International Child Abduction that took place on 
August 19, 1996. In that time I have worked with many different 
agencies including; the courts of Sweden and Denmark, the Central 
Authorities of Sweden and Denmark, the local and national police in 
Sweden and Denmark, the Swedish and Danish social systems, the Swedish 
Minister of Justice, the Swedish Tax Authority, the European 
Parliament, the United States Embassies in Sweden and Denmark, the 
courts of California and Texas, police departments in California and 
Texas, the United States State Department, the Federal Bureau of 
Investigation, the United States Attorney's Office and the Office of 
International Affairs.
    In addition, I have testified before the Senate Foreign Relations 
Committee along side of Attorney General Janet Reno and just completed 
testimony before the House Committee on International Relations. I have 
flown to Sweden eight times, to Denmark two times, to Washington four 
times and to Texas twelve times.
    My case has been the subject of a Cbs Special Assignment, I have 
had 18 newspaper articles in the United States (and am in process of 
working on the 19th and 20th), 16 newspaper articles in foreign papers 
(with 4 additional pending articles due out this week), 10 television 
news shows in the United States (with 2 additional shows pending), 8 
television news shows (with the 9th airing at the same time as your 
Committee hearings today), and have been the subject of an ABC internet 
article.
    Over this time, along with John Lebeau from Florida (who is 
testifying today), I have started a non-profit corporation to help in 
the fight for our nations abducted children and have worked at every 
angle, nationally and internationally, to help change the systems of 
government that keep American citizens from their abducted children.
    With all my experience both here and abroad, I have never 
encountered an organization so arrogant, so unwilling to help, so 
untruthful, so unsympathetic, and so unaccountable for their lack of 
effort as the United States Justice Department.
    I testified on October 1, 1998, before the Senate Foreign Relations 
Committee, at the invitation of Senator Jesse Helms. I was awarded sole 
legal custody of my son by a Texas State court on October 21, 1996, but 
my son was abducted by his non-custodial mother to Sweden. An 
indictment was subsequently issued by the Grand Jury for the abductor's 
arrest on May 28, 1997 for violation of Title 18, United States Code, 
Section 1204(a). The case is further identified as criminal no. C-97-
129.
    On October 20, 1998, I had a telephone conference with my legal 
council, Mr. Howard Fox, Assistant United States Attorney from Corpus 
Christi, Texas, Mr. Tim Hammer, Special Agent Abel Pena of the Federal 
Bureau of Investigation in Corpus Christi, Texas, and Ms. Terry 
Schubert of the Office of International Affairs at the Department of 
Justice.
    It was my and my attorney's distinct impression that Mr. Hammer and 
Ms. Schubert were attempting to verbally club me into silence by 
threatening to open false sexual abuse allegations against me. They 
then warned me never to contact Mr. Hammer or Ms. Schubert about my 
son's case. I was then bluntly informed that I have no right to know 
anything about the Red Notice that was already supposed to be in place. 
It was further implied that the Department of Justice would not issue a 
provisional arrest warrant against the abducting parent because of my 
testimony before the Senate Foreign Relations Committee.
    I have been exonerated of the false sexual abuse charges by courts 
in both this country and Sweden, have passed lie detector tests and 
court ordered psychological evaluations, as well as having undergone 
extensive investigation by the Federal Bureau of Investigation, and yet 
Mr. Hammer and Ms. Schubert attempted to use these false allegations as 
leverage to silence me.
    Then, to add insult to injury, Mr. Hammer explicitly informed me 
that he would no longer approve any deal to facilitate the return of my 
son in exchange for the abducting parent being charged with a lesser 
offense. Just two months prior, Mr. Hammer offered to drop all charges 
if the abducting parent would return my son. In essence, Mr. Hammer and 
my Justice Department have informed me that the prosecution of the 
abducting parent takes precedence over the return of my son and the 
assurance of his health, safety and welfare. This decision was made 
after I testified before the Senate Foreign Relations Committee and 
participated in extensive media coverage.
    The message so very clearly conveyed to me is that my punishment 
for being persistent in my exhaustive attempt to protect my son takes 
precedence over my Justice Department insuring the health, safety and 
welfare of nine-year-old American citizen, Gabriel Marinkovich.
    The Justice Department has placed little priority on my case. After 
three years they have no clue where my son is. The abductor is not a 
professional criminal, she is just an American citizen who decided to 
take the law into her own hands. Recently, Mr. Dale Mitchell, the 
supervisor of the Corpus Christi FBI office, decided it was alright to 
completely take my agent off the search for my son for over two months 
without assigning anyone else to handle it in his absence. Agent Pena 
was assigned to Delaware for training and was unreachable by telephone 
or pager. I was never informed of this management decision and I called 
their office in desperation 37 different times before threatening to 
file another complaint with the Inspector General and to fly to Texas 
with a California news crew who was doing a story on my case.
    Prior to this I asked the secretary answering the phone just who 
was in charge. She indicated that no one was in charge and that the 
agents rotated the supervision of the office. On my 38th phone call 
after delivering my ultimatum, I was then transferred to Agent Dale 
Mitchell who was the Supervisor in charge (he too was absent from the 
office for the prior two weeks). Only then was I informed that no agent 
was handling my son's kidnaping case, and only then was I able to 
deliver the valuable and timely leads that I had been trying to deliver 
for two months.
    Even as I write this testimony, I find myself distracted because of 
the five un-returned calls into my FBI agent. I urgently need to give 
him information from the sister program of ``America's Most Wanted'' in 
Sweden called ``Efterlyst'' which aired my case on Thursday of last 
week (5 days ago). It took three hard years to convince the Swedish 
government with demands from our U.S. Ambassador to Sweden and several 
members of Congress to get this show aired. Now there are several good 
time sensitive leads that need to be retrieved from the Swedish Police 
that are being completely ignored by our Justice Department.
    I have been assured by both members of the House of Representatives 
and Senate that my case should be of the highest priority because it 
involves the health, safety, and welfare of a kidnaped American child. 
The Congress and Senate's words have once again been completely 
trampled on, as evidenced by the inherit lack of action exhibited by 
the Corpus Christi FBI. They have been entrusted by the American people 
to put America's laws into action and they are failing miserably at the 
expense of our children.
    I have tried to understand the attitude behind the actions of the 
Justice Department. After the last three and a half years I think I 
have finally understood their misguided attitude towards international 
parental kidnaping. I have been repeatedly told by members of the 
Justice Department ranging from my FBI Agent Able Pena to high level 
Justice Department officials that parental abduction is a private 
matter and that the Justice Department does not want to get involved in 
it.
    Everyone in America is entitled to their opinions, but when these 
opinions are placed into Justice Department policy, we are left with 
the opinions of our highest law enforcement officials being converted 
into actions and lack of results. The problem is that their actions and 
lack of results are in direct conflict with American law. Since the 
International Parental Kidnapping Law of 1993, the Justice Department 
has operated as an anarchy at the expense of the over 10,000 abducted 
American children and their parents.
    Their actions and lack of results directly contradicts laws passed 
by our Congress and instructions within their own training manuals. The 
National Center for Missing and Exploited Children created a federally 
funded publication to educate and advise law enforcement officials in 
their investigation of parental abduction cases called Missing and 
Abducted Children, Law Enforcement Guide to Case Investigation and 
Management. It advises law enforcement officers as follows: ``the 
emotional scarring caused by these events requires that officers 
recognize family abduction not as a harmless offense where two parents 
are arguing over who `loves the child more,' but instead as an 
insidious form of child abuse.'' The money appropriated by Congress for 
this manual and the research put into it might as well been tossed to 
the wind because the Justice Department is unwilling, by their past 
record, to lift a finger to stop this ``abuse'' of American children.
    In 1993, the American people and the United States Congress spoke 
their will and passed into law the International Parental Kidnapping 
Crime Act of 1993. It states, and I quote, ``Whoever removes a child 
from the United States or retains a child outside the United States 
with intent to obstruct the lawful exercise of parental rights shall be 
fined under this title or imprisoned not more than 3 years, or both.''
    According to a August 31, 1998 newspaper article in the Ventura 
County Star about my case, the National Center for Missing and 
Exploited Children quoted the following, ``In 1993, case workers 
estimated about 10,000 children were abducted in the United States and 
taken abroad in parental abductions. While the exact numbers can not be 
determined today, experts acknowledge that it is significantly 
higher.'' Also since 1993, it appears that only 62 arrest warrants have 
been filed for these parents, and less than five have been successfully 
prosecuted.
    I visited Washington D.C. four times, testified before the Senate 
Foreign Relations Committee on October 1, 1998, testified before the 
House Committee on International Relations on October 14, 1999, and 
have intimately engaged in talks with several members of the Senate and 
Congress. I was almost unanimously told that we are a nation of laws 
and that our system of laws were created more as a deterrent to crime 
rather than a punishment for crime. It was also explained to me that 
the stricter a law is enforced, the higher percentage of compliance is 
achieved. So if strict enforcement of laws are a deterrent to crime, 
then what type of message is our Justice Department giving the American 
people by prosecuting only a fraction of one percent of those who 
violate the International Parental Kidnapping Crime Act of 1993? How 
effective of a deterrent to the crime of International Parental 
Kidnapping is the issuance of a warrant for less than one percent of 
those who violate the International Parental Kidnapping Crime Act of 
1993?
    Is it any wonder that the National Center for Missing and Exploited 
Children report that International Child Abduction out of the United 
States has tripled since 1986? While some are quick to point that the 
rise in international marriages in the United States have fueled this 
dramatic increase, I am certain that most of this increase could have 
been avoided if not for the inexcusable disregard for enforcement of 
the International Parental Kidnaping Act of 1993 by our Justice 
Department.
    Every child that has been abducted since 1993 has had their inherit 
birth rights as American citizens selectively stripped from them. 
Ironically, the institution that has stripped their rights is the very 
organization that has been entrusted by the American people to 
faithfully uphold the laws of this nation without prejudice.
    The brilliance of our founding principles, the constitutional 
system, and the birth rights our Declaration of Independence guarantees 
for every American to life, liberty and the pursuit of Happiness has 
been trashed by a few Justice Department officials who feel they are 
above the law. Instead, new principles have been created, the 
constitutional system has been selectively interpreted, and a new set 
of laws and priorities have been born in the hallways and cubicles of 
the Justice Department. They have selectively chosen to remove the 
birth rights to life, liberty, and the pursuit of happiness that every 
American is guaranteed from those children unlucky enough to be the 
victims of parental abduction.
    One only has to look at any maternity ward across this great nation 
to see that every child born today will be at greater risk of being 
abducted out of this country then those born yesterday. This is because 
of the clear message the Justice Department is sending the American 
people by not prosecuting this crime aggressively.
    In my case after a long emotional and financial drain, I was able 
to join the ranks of the far less than one percent of the cases that 
resulted in a warrant. This was only achieved after a six month full 
background check into my affairs, having to fly my present family out 
from California to Texas for an FBI interview, drumming up support from 
my Congressman and local media and thousands of man hours and at least 
one hundred letters. I believe it was my persistence that persevered 
and not the willingness of my U.S. Attorney to cooperate.
    I talked just today to the Swedish Police officer in charge of my 
case. I asked him if he was willing to share the recent leads gathered 
from the investigative Swedish television show with the FBI. He 
indicated that in three years, the FBI has never inquired about the 
case. He further stated, that if the United States Justice Department 
isn't interested in this case, then why should he. He indicated that he 
was glad to live in a country who stood up for their children, and for 
the first time in my 38 years of life, I was ashamed of my government. 
I vowed to help change a bad system.
    The United States is the most powerful nation on earth and with 
that power comes tremendous responsibility as well as opportunity. 
American Democracy delivers awesome power in the hands of its citizens, 
but sadly today it is not engaged fully and it is our children who 
harness the repercussions. Our U.S. Justice Department has taught 
Sweden, by their actions, that we do not care about our illegally 
abducted American children.
    If we show these other countries that we are serious by our actions 
and requests, then they start getting serious about the return of our 
children. The context very clearly starts here with our own Justice 
Department. If we don't treat the abduction of our children as a 
serious matter, than how can we expect those other countries involved 
to fight for our children's return.
    The miracle we can create today, is for the Justice Department to 
start taking this crime seriously and support the wishes of the 
American people and this Congress by strictly enforcing the 
International Parental Kidnapping Crime Act of 1993.
    If we are a country who neglects to protect our children, what good 
is the material prosperity in which we have been blessed? It is high 
time that we reclaim the sense of special destiny and purpose that our 
founding fathers created in our great country. It is time that we stand 
as world leaders by first enforcing the laws we have created to protect 
our youngest citizens, our children. This precious ideal lives in the 
hearts of many and our capacity to give it full expression can only be 
realized through the work of your committee in forcing the Justice 
Department to conform with a law that they do not wish to enforce. You 
are America's last hope. The voices of America's abducted children and 
those children destined to be abducted, are screaming out for your 
help. Can we dare pretend we do not hear as the Justice Department has, 
or can act boldly as the heroes these children desperately need? Thank 
you for your consideration.
                                 ______
                                 

 Front Page Article From The Ventura County Star In Southern California

           activist says government is trying to silence him

    Speaking Out: Critic Of International Abduction To File Formal 
                               Complaint

                  [By Phillip W. Brown, Staff Writer]

                           (October 22, 1998)

    A Simi Valley man who has criticized the U.S. Department of 
Justice's efforts to recover American children taken overseas illegally 
said Wednesday the agency has delayed attempts to regain his son in 
retaliation.
    Paul Marinkovich, founder of Simi Valley's International Child 
Rescue League, and his attorney will file a complaint with the 
department this week claiming federal officials are trying to 
``intimidate and silence.'' In testimony before the Senate Foreign 
Relations Committee this month, Marinkovich was highly critical of the 
agency's assistance during his search for his abducted child.
    Marinkovich and his attorney claim that during a Tuesday conference 
call with officials from the Justice Department, U.S. Attorney's Office 
and the FBI, officials threatened they would not cooperate with 
Marinkovich's investigation because of his recent criticism of the 
Department.
    ``They threatened to re-open false child abuse allegations against 
me and said they wouldn't deal with the Swedish government about my 
case,'' Marinkovich said. ``They said I was ruining people's lives by 
my testimony before the committee.''
    ``I want to get my son back, but I want to change a bad system 
also,'' he said.
    In 1996, after a divorce and custody battle, Marinkovich's ex-wife, 
Sindi Graber, took their son Gabriel to Sweden. She changed their 
names, remarried and went underground.
    Since then, Marinkovich has devoted his life to finding his son. 
His search has been restrained by bureaucracies in the United States 
and Sweden, even though he has court orders granting him full custody.
    Graber has been charged with felony parental abduction and child 
endangerment, and faces possible charges of passport fraud.
    Terry Schubert, with the Justice Department's Office of 
International Affairs, was a part of that telephone conference. She 
declined to comment Wednesday.
    ``This is a law enforcement agency that handles sensitive matters, 
therefore I cannot say anything,'' she said.
    The complaint follows Marinkovich's Oct. 1 testimony before the 
Senate Foreign Relations Committee. He criticized U.S. and foreign 
officials for ignoring and ``not taking seriously'' the problem of 
international child abduction.
    Marinkovich also criticized the Justice Department for its 
``ineffectiveness'' in issuing provisional arrest warrants in 
international parental abduction cases. Only one arrest warrant has 
ever been issued in more than 10,000 reported cases since 1993, 
according to the National Center for Missing and Exploited Children.
    In the complaint filed with the Justice Department's Inspector 
General, Marinkovich's attorney, Howard J. Fox, urges an investigation 
of ``these government officials who are deviating from their duties and 
using their powers to threaten citizens into silence.''
    ``It's time the department of Justice stopped treating the 
suffering, left-behind parents as criminals and instead focus its 
efforts on retrieving this nation's missing children,'' Fox said.
    Note: The statement that ``Only one arrest warrant has ever been 
issued in more than 10,000 reported cases since 1993, according to the 
National Center for Missing and Exploited Children,'' is inaccurate. 
Recent reports indicate that approximately 62 warrants have been 
issued.
                                 ______
                                 

                         International Child Rescue League,
                                              17068 Chatsworth St.,
                       Granada Hills, California, October 21, 1998.
RE: Complaint regarding the conduct of the Justice Department in 
relation to Paul Marinkovich

Inspector General Michael Bromwich,
United States Department of Justice,
Office of the Inspector General,
10th and Constitution Avenue, NW,
Washington, DC.
    Dear Inspector General Bromwich: I am Paul Marinkovich's personal 
attorney and the Director of Legal Affairs for the International Child 
Rescue League, Inc. Mr. Marinkovich has been engaged in a legal battle 
to liberate his son, Gabriel Marinkovich, from a life of international 
parental kidnaping.
    Mr. Marinkovich testified on October 1, 1998, before the Senate 
Foreign Relations Committee, at the invitation of Senator Jesse Helms, 
regarding his two-year battle to get his son back. Mr. Marinkovich was 
awarded sole legal custody of his son by a Texas State court on October 
21, 1996, but the boy was abducted by his non-custodial mother to 
Sweden. An indictment was subsequently issued by the Grand Jury for Ms. 
Graber's arrest on May 28, 1997 for violation of Title 18, United 
States Code, Section 1204(a). The case is further identified as 
criminal no. C-97-129.
    On October 20, 1998, I was present on a telephone conference with 
Mr. Marinkovich, Assistant United States Attorney Tim Hammer, Special 
Agent Abel Pena of the Federal Bureau of Investigation, and Ms. Terry 
Schubert of the Office of International Affairs at the Department of 
Justice.
    It was my distinct impression that Mr. Hammer and Ms. Schubert were 
attempting to verbally club my client into silence, threatening to open 
false sexual abuse allegations against him and warning him to never 
contact Mr. Hammer or Ms. Schubert about his son's case. Mr. 
Marinkovich was bluntly informed that he had no right to know anything 
about the Red Notice that was already supposed to be in place. It was 
further implied that the Department of Justice would not issue a 
provisional arrest warrant against the abducting parent due to Mr. 
Marinkovich's testimony before the Senate Foreign Relations Committee.
    Mr. Marinkovich has been exonerated of the false sexual abuse 
charges by courts in both this country and Sweden, has passed lie 
detector tests and court ordered psychological evaluations, as well as 
extensive investigation by the Federal Bureau of Investigation, and yet 
Mr. Hammer and Ms. Schubert attempted to use these false allegations as 
leverage to silence Mr. Marinkovich.
    Ominously, Mr. Hammer explicitly informed Mr. Marinkovich that Mr. 
Hammer would no longer approve any deal to facilitate the return of 
Gabriel by which the abducting parent would be charged with a lesser 
offense. Two months ago, Mr. Hammer offered to drop all charges if the 
abducting parent would return Gabriel. Now, Mr. Hammer has informed Mr. 
Marinkovich that the prosecution of the abducting parent takes 
precedence over the return of the child. This decision was made after 
Mr. Marinkovich testified before the Senate Foreign Relations Committee 
and participated in extensive media coverage.
    Thus, the punishment of Mr. Marinkovich for being persistent in 
locating his son takes precedence over the return of the child, a 
United States citizen.
    Please note that we were asked repeatedly at the outset of the 
conversation whether we were taping the conversation. By the end of the 
conversation, we understood the Justice Department's concern that there 
be no recording.
    Mr. Marinkovich has requested that a provisional arrest warrant be 
sent to Sweden where the abductor is suspected to be in hiding with the 
child. He has provided evidence clearly showing that Ms. Graber would 
met all the standards required for extradition. This would provide the 
Swedish authorities with the authority they need to expand their 
investigation and would further show that the United States is serious 
about the return of Gabriel Marinkovich. Ms. Schubert stated that this 
request would have to come from Mr. Hammer. Mr. Hammer stated that Mr. 
Marinkovich has no right to even inquire about a provisional arrest 
warrant.
    We were told that such an application is already at the Office of 
International Affairs but it has not, and will not, be sent to Sweden. 
I again believe that this is another punishment for Mr. Marinkovich's 
Senate Foreign Relations testimony and the resulting news coverage.
    The warrant must be sent immediately because the last appeal in 
Sweden is set to be heard in the high courts on November 9, 1998. The 
Swedish police have very recently observed furniture being moved out of 
the abductor's husband's house in preparation of a move following the 
hearing. They believe that this move will most likely result in placing 
the child further underground and exposing him to adverse conditions. 
We need this request sent to Sweden before the hearing date so the 
Swedish Police have the full authority from the United States 
Government to trace the abductor's husband's movements immediately 
after his November 9, 1998 appearance in the high courts.
    I have practiced law since 1985. It is my professional opinion that 
Mr. Hammer and Ms. Schubert were threatening Mr. Marinkovich with dire 
consequences if he continued to pursue looking for his son. It is 
further my opinion that these malicious efforts are a direct result of 
Mr. Marinkovich's testimony to the Senate Foreign Relations Committee 
and his ability to obtain publicity for his son's case in the media. 
The problem is that Mr. Marinkovich's effort to locate his son far 
outstrip the efforts made by the Department of Justice, thus causing 
political embarrassment.
    It is imperative for the health, safety and welfare of Gabriel 
Marinkovich and other missing children that you thoroughly investigate 
this matter to document why these government officials are deviating 
from their duties and using their governmental powers to attempt to 
threaten citizens into silence.
    Mr. Marinkovich has abided by the letter of the law and has not 
engaged in any, self-help measures despite being continually offered 
such services from many sources. I do not know that I would have had 
the same restraint if it were my child, given the open hostility and 
lack of effective effort that Mr. Marinkovich has encountered from his 
Department of Justice.
    I pray that you will join Mr. Marinkovich and myself in 
investigating these offenses and bringing the grievous facts to 
Congress and the American people. It is time that the Department of 
Justice stopped treating the suffering left-behind parents as criminals 
and instead focused its efforts on the international investigation and 
prosecution of those who violate the International Parental Kidnapping 
Crime Act of 1993, and to assist in the retrieval of this nation's 
missing children.
            Very truly yours,
                                             Howard J. Fox,
                                         Director of Legal Affairs,
                            International Child Rescue League, Inc.
                               __________

Prepared Statement of Attorney Jan Rewers McMillan, On Behalf of Thomas 
                              R. Sylvester

    Senator Thurmond and Members of the Subcommittee: I am the Michigan 
attorney representing the left-behind parent, Thomas R. Sylvester, 
whose only child, Carina, was abducted from Michigan in Austria on 
October 30, 1995 by her mother, an Austrian native. Mr. Sylvester and I 
have experienced first-hand the difficulties in dealing with the 
Department of Justice in our quest to obtain a criminal remedy against 
Carina's abductor under the International Parental Kidnaping Act, 18 
USC 1204 (``IPKA''). In the process we have been educated as to the 
shortfalls of both the criminal procedure and the underlying criminal 
remedy of IPKA. It is for these reasons that I sincerely regret that 
due to prior commitments I was unable to be present and participate in 
your hearings on October 27, 1999 on international parental kidnapping, 
I commend your interest in this matter and greatly appreciate your 
consideration of a problem experienced by many left-behind parents and 
guardians like Mr. Sylvester. I am also particularly grateful to 
Senator Mike DeWine for his outrage at the handling of the Sylvester 
case and his unflagging efforts to give Mr. Sylvester and other 
similarly-situated parents the assistance of the federal government 
they deserve.
    In addition to the compelling testimony of Lady Meyer, you were 
fortunate to hear the testimony of two American left-behinds, John 
LeBeau and Laura Hong. Their cases represent opposite ends of the 
spectrum on the effectiveness of a warrant and indictment under IPKA. 
In the LeBeau case, a warrant was ultimately issued and the abducting 
parent and children returned to the U.S. in its shadow, In the Hong 
case, no indictment or warrant was issued and neither the abductor nor 
the child were returned. These cases provide a good example to the 
Subcommittee of the value and effectiveness of a warrant and indictment 
under the IPKA in bringing back both the abductor and the abducted 
children even though the remedy intended is punishment of the criminal 
alone. However, it is important that the Subcommittee be apprised that 
an indictment and warrant under IPKA alone is insufficient. It must be 
acted upon swiftly and aggressively before it can be turned on the 
American parent as a basis for the court of the other country to deny 
the return of a child.
    My experience with the Sylvester warrant is obviously unique. 
However, there are similar elements in each and every case which has 
been brought to my attention and this Subcommittee's attention. These 
are as follows.
1. an inconsistency in the response by the u.s. attorney's office to a 
            request for an indictment and warrant under ipka
    Mr. Sylvester was fortunate in obtaining a warrant under IPKA from 
the U.S. District Court for the Eastern District of Michigan when the 
information was, presented. He had waited to do so until the 
finalization of the civil proceedings in Austria and after the abductor 
had refused to voluntarily comply with the order for return of Carina 
affirmed on appeal. Ms. Hong in her testimony refers to an IPKA warrant 
issued from her very district prior to her own request. Ease of 
obtaining an IPKA warrant was obviously not the case for Mr. LeBeau and 
Ms. Hong along with others such as Paul Marinkovich. Their stories, 
presented to this Subcommittee and the Senate Foreign Relations 
Committee last year, tell of a U.S. Attorney's Office (USAO) clearly 
under-informed on IPKA and willfully remaining so. Thus the 
availability of a warrant under IPKA varies from Cleveland to 
California, from Florida to Michigan. The determination of whether a 
warrant will be issued in any particular case is less a matter of the 
thoughtful discretion of the USAO than a matter of dumb luck.
    It is important to note to the Subcommittee that the standard for 
issuance of a warrant under IPKA should be consistently applied in all 
50 states and should be based on a clear understanding of 1PKA. Mr. 
LeBeau was incorrectly informed that a warrant could not issue under 
IPKA until all civil remedies had been exhausted, Ms. Hong was given a 
good deal of misinformation for the refusal of the issuance of a 
warrant in her case, most notably that a issuance of a state warrant 
was a condition precedent to the issuance of a federal warrant. The 
Cleveland U.S. Attorney even memorialized USAO ignorance of IPKA by 
writing that to seek an indictment against an individual in order to 
facilitate enforcement of a civil court order would be improper use of 
the grand jury.
    These circumstances suggest a lack of education on IPKA in the USAO 
and the absence of protocols in the U.S. Attorney's Manual on IPKA. 
These shortcomings could be remedied by the Department of Justice with 
an informational program as to IPKA followed up with the implementation 
of policy as to the handling of such cases with their inclusion in the 
U.S. Attorneys' Manual. This simple step appears not to have been 
covered in either the recent Joint Report to the Attorney General or in 
Mr. Robinson' s statement to this Subcommittee.
  2. once obtained ipka criminal warrants are not pursued by the usao
    For three years after the Sylvester warrant was obtained, nothing 
was done to act on it toward the ultimate end of obtaining a 
conviction. Even obtaining information from the USAO as to the options 
available and next steps was impossible. It was subsequently learned 
that the stumbling block for pursuing the warrant was Austria's ban on 
extraditing its own nationals. Without extradition of the abductor, no 
conviction could follow. Bearing this in mind, it seemed reasonable 
that ``provisional arrest requests'' could be made by the U.S. to the 
countries neighboring Austria to which the abductor traveled. After 
three years of pursuing this avenue, Mr. Sylvester just recently 
learned of such a request being made to Italy, which denied the 
request. Unfortunate as the response of Italy is, it is 
incomprehensible why it took three years for the request to be made. 
Interestingly, I myself learned of the availability of a ``provisional 
arrest request'' to neighboring countries not in response to my 
requests to the USAO for information as to options available but rather 
through Mr. Sylvester's networking with other parents.
    As found in the Sylvester case, if an IPKA warrant remains in 
effect in the States, but is not vigorously pursued, its existence will 
be used by the court of the country into which the child has been 
abducted to justify that court's not returning the child. The reasoning 
of those courts is that to return the child with the abductor would 
mean the abductor would be tossed in jail, necessarily separating the 
child and the abductor for some extended period of time. This, the 
court concludes, would not be in the child's best interests. As a 
result, the very existence of the IPKA warrant, the issuance of which 
is so hard fought by left-behind parents, if unpursued, will work 
against the left-behind parent in the courts of the country into which 
the child has been abducted. Further, in the Sylvester case, the 
lifting of the IPKA warrant is being demanded by the abductor before 
she will consider granting Mr. Sylvester any meaningful visitation with 
his daughter. Therefore, to avoid hindering the return of the child and 
even jeopardizing visitation with the child, an IPKA warrant must be 
acted on swiftly and urgently for the protection of all American 
citizens involved.
    3. the absolute ban on the extradition of the nationals of many 
 countries renders ipka warrants for the arrest of abductors returning 
                 to those countries wholly ineffective
    The success of an IPKA warrant, once issued and pursued, is 
dependant entirely on the ability of the abductor to be extradited to 
face trial here. Since the abductor is usually a national of the 
country into which he or she flees, the bilateral extradition treaty 
with that country controls. These treaties often contain a general bar 
against the extradition of the nationals of that country, thwarting 
entirely the usefulness of the warrant and, more broadly, the 
underlying criminal remedy. Although available and the extradition 
process underway, the warrant under IPKA in the LeBeau case worked only 
because of the threat of extradition from England, Had the abductor not 
fled from Denmark to England, the warrant would have been less 
effective and extradition no threat whatsoever. Because a suit was 
already underway to re-open the Hague Convention case, it is indeed 
quite possible that the LeBeau children never would have been returned 
had the abductor simply stayed in Denmark. This is the unfortunate 
reality of the Sylvester case.
    Therefore, the criminal remedy sought by IPKA is impossible to 
achieve in a large number of abduction cases. In order to effectuate 
the intended criminal remedy of IPKA, the Congress must look to the 
extradition treaties negotiated between the U.S. and those countries 
who refuse to extradite for a means of re-negotiation of those treaties 
to provide for some method for the return of these abductors.
    On behalf of Mr. Sylvester and all parents left-behind after 
international parental abductions, I express my gratitude to the 
Subcommittee and my hopes that these hearings will result in positive 
steps taken to improve the implementation of IPKA.
                               __________

    Prepared Statement of The International Centre for Missing and 
                           Exploited Children

    First Lady Hillary Rodham Clinton and Cherie Booth, wife of British 
Prime Minister Tony Blair, were the principal speakers at the launch of 
the International Centre for Missing and Exploited Children in 
Washington DC in April 1999. The purpose of this new organisation is to 
find and return missing children worldwide and end international child 
abduction, an abuse Mrs. Clinton called ``a human rights issue.''
    The International Centre for Missing and Exploited Children is a 
subsidiary of the U.S. based National Center for Missing and Exploited 
Children\1\ which has helped to return thousands of missing or abducted 
children to their families since 1984. The International Centre will 
have offices in the U.S. and in Great Britain. It will provide 
instantaneous dissemination of pictures and information on missing 
children through the Internet, advocate stronger laws to protect 
children, assist other non-governmental organisations, and offer 
training to professionals and law enforcement agencies around the 
world.
---------------------------------------------------------------------------
    \1\ NCMEC is a private, nonprofit organization mandated by the 
United States Congress, which serves as a national resource center and 
clearinghouse for information on missing children and child protection 
issues. Founded in 1984, NCNMC is located in the Washington, DC-area 
and works closely with the United States Department of Justice to 
assist families of missing children and the law-enforcement and social-
service professionals who serve them. Since NCMEC's inception, it has 
assisted police in more than 65,000 cases of missing children playing a 
role in reuniting more than 46,000 children with their families. NCMEC 
has been referred to as a ``high-tech search center'' by the national 
news media in the U.S. and is routinely visited by world leaders from 
around the globe who view it as a model for the creation of similar 
centers in their own nations.
---------------------------------------------------------------------------
    Another goal of the International Centre is to improve the working 
of the Hague Convention on the Civil Aspects of International Parental 
Abduction. The Convention is designed to discourage child abduction and 
to secure the prompt return of abducted children who have been removed 
from, or retained outside, their country of habitual residence, so that 
any subsequent custody decision can be made in the home jurisdiction. 
In the past few years there has been growing concern that the 
effectiveness of the Convention is being undermined by the failure of 
some signatory states to fulfil their obligations.
    The International Parental Kidnapping Act of 1993 makes it a 
federal crime to remove a child from the U.S. or retain a child outside 
the U.S. with intent to obstruct the lawful exercise of parental 
rights. Similarly, the Child Abduction Act of 1984 makes it a criminal 
offence in England. In some signatory countries, however, parental 
child abduction is not considered a crime.
    International child abduction is a growing problem. The recorded 
figures, which almost certainly understate the problem, are alarmingly 
high. The National Center for Missing and Exploited Children reports 
that over 1,000 American children are illegally transported or retained 
abroad every year (over 3 children every day). In Britain, Reunite (the 
National Council for Abducted Children) has recorded a 58 percent 
increase since 1995 in the number of children abducted or retained 
abroad by an estranged parent.
    International child abduction separates children not only from 
their families but also from their native countries. Putting an end to 
this abuse will require the cooperation of govemments and the public at 
large. The establishment of an international missing children's 
organisation is a good first step.
[GRAPHIC] [TIFF OMITTED] T0986.191

[GRAPHIC] [TIFF OMITTED] T0986.192

[GRAPHIC] [TIFF OMITTED] T0986.193

[GRAPHIC] [TIFF OMITTED] T0986.194

[GRAPHIC] [TIFF OMITTED] T0986.195

[GRAPHIC] [TIFF OMITTED] T0986.196

[GRAPHIC] [TIFF OMITTED] T0986.197

[GRAPHIC] [TIFF OMITTED] T0986.198

[GRAPHIC] [TIFF OMITTED] T0986.199

[GRAPHIC] [TIFF OMITTED] T0986.200

[GRAPHIC] [TIFF OMITTED] T0986.201

[GRAPHIC] [TIFF OMITTED] T0986.202

[GRAPHIC] [TIFF OMITTED] T0986.203

[GRAPHIC] [TIFF OMITTED] T0986.204

                                 Children's Rights Council,
                                  Washington, DC, October 27, 1999.
Re: Oversight Hearing on Justice Department's Response to International 
Parental Kidnaping

Senator Strom Thurmond, Chairman,
Criminal Justice Oversight Subcommittee,
U.S. Senate,
Washington, DC.
    Dear Chairman Thurmond and Members of the Subcommittee: This is a 
statement for the record regarding your important hearing on The 
Justice Department's Response to International Parental Kidnapping.
    Catherine Meyer, the new honorary president of the Children's, 
Rights Council, will testify at the hearing, as well as other witnesses 
concerned about the International Parental Kidnaping Crime Act of 1993.
    The Children's Rights Council has spoken out spoken out against 
parental kidnaping of children since our inception in 1985. Abduction 
often occurs in the context of custody battles. The sudden move to 
foreign countries remote from friends and other family members can have 
a lifelong negative effect on children.
    When Congressman George Gekas was preparing legislation that led to 
passage of the 1993 law, CRC was invited to be part of the planning for 
that legislation. We were pleased when denial of access (visitation) 
was included as one of the grounds for invoking criminal penalties 
under the statute.
    We urge the subcommittee to make certain that the Justice 
Department and other authorities charged with enforcing this law are 
aware that violations of court ordered access are forms of kidnaping 
and child abuse, and the perpetrators need to be punished, accordingly.
    A parent should not have to travel half way around the world so 
that the child can have court-ordered access to that parent. CRC does 
not favor arrests for minor infractions, such as a delay of a day or 
two in returning the child; however, intentional withholding of a child 
abroad during scheduled visits with the other parent are serious 
violations and should be prosecuted.
    While America moves to more effectively enforce anti-kidnaping 
laws, we must seek ways to PREVENT parental kidnaping from occurring in 
the first place. These ways include:
    (1) Require the states and foreign countries to create uniform laws 
against parental kidnaping. At present, all states treat interference 
by the non-custodial parent as a crime; but less than half the states 
(although this number is growing) treat kidnaping by the custodial 
parent as a crime;
    (2) Require the states and foreign countries to create a 
presumption for shared parenting when parents separate or divorce. 
Parents who seek to be actively involved in a child's life are less 
likely to kidnap if they are assured of such active involvement;
    (3) When parents are of two nationalities, require them to have a 
parenting plan in place approved by a court stipulating an access 
(visitation) schedule before allowing one parent to leave the country 
with that child;
    (4) Tighten the loophole in the Hague Convention Against Parental 
Child Abduction, by making it more difficult for a young child to claim 
that he or she wants to stay in the country to which the child has been 
taken. Having a child of 5 or 6 saying he likes his new country so much 
he wants to stay there, makes a mockery of child interviewing 
techniques;
    (5) Publicize the actions of countries like Germany, Sweden, and 
Arab states which favor their own nationals--be they mothers or 
fathers--rather than adhering to provision of the Hague Convention.
    The Children's Rights Council supports this subcommittee's efforts 
and offers to assist in any way we can. Thank you.
            Sincerely your,
                                             David L. Levy,
                                                     President CRC.
                               __________

                    Case of Danny and Michelle Cooke

    Two American-born children, two innocent and defenseless U.S. 
citizens, Danny Cooke, nine years old, a New Yorker, and Michelle 
Cooke, eight years old, a Bostonian, remain since 1992 held in a remote 
German village, Benningen, to reach which one takes a plane to Zurich, 
a train to Singen, and a bus to Binningen; or from Zurich, a train to 
Konstanz, another train to Singen and a bus to Binningen.
    In brief, this is the way that incredible injustice is being 
perpetuated:
    Christiane Koch (a German national) and Joseph Cooke (a U.S. 
American-born citizen) married here in Flushing, on September 1, 1989. 
(They met while Joseph was in the U.S. Army serving in Germany.) On 
February 8, 1990, their first child, Daniel Joseph, was born in North 
Shore Hospital in Manhasset, NY. On May 23, 1991 Michelle Natalie their 
second child, was born in Framingham Hospital, Boston, Massachusetts.
    In July of 1992 Christiane took Danny and Michelle to Germany to 
visit her family. Shortly after she called Joseph and told him that she 
was not returning to the United States and that he would never see his 
children again. In October Chrstiane, without Joseph's knowledge or 
consent, placed their children in foster care in Germany. Joseph), 
despite his efforts, could not locate his children for over one year.
    In February of 1994 Joseph and Christiane finalized their divorce 
in the New York State Supreme Court in Queens County. Judge Simeon 
Golar awarded Joseph full legal custody of his children.
    In April of 1994 Joseph appeared in Court in Singen, Germany, 
before Judge Dallinger with an order from the Supreme Court of New York 
ordering the return of these American children to their natural father. 
The German Court admitted that the German Youth Agency had erred in not 
contacting Joseph although they knew where he was through the 
children's passport. Judge Dallinger requested Joseph to stay in 
Germany for two months to get reacquainted with his children. Joseph 
complied. At end of the two months Judge Dallinger refused to return 
the children to their natural American father as ordered by the Supreme 
Court of New York.
    In July of 1994 Joseph returned to Germany to request Judge 
Dallinger to hold a hearing in the case. Successful, in September, 
Joseph returned to Germany to the German court. The German judge still 
refused to reach a decision. The German Court requested that Joseph be 
investigated. All reports and investigations found Joseph a stable 
citizen capable and willing to raise in the United States his American-
born children. In March of 1995 Judge Dallinger rendered his decision: 
his order of September 17, 1993 should remain; the children should 
continue to reside in Germany. On May 22, 1995, by letter, the 
children's mother, Christiane Koch, petitioned Judge Dallinger to 
return the children to the care of their natural, American-born father, 
Joseph Cooke. It was ignored.
    In April of 1995 Judge Simeon Solar issued an order for the return 
of Danny and Michelle to their custodial parent, Joseph Cooke. Judge 
Dallinger's decision was appealed to the court in Konstanz. A hearing 
was set for May 1995. Judge Dallinger's decision was upheld. The 
decision in Konstanz was appealed to the court in Freiburg. The 
decision in Konstanz was upheld: Joseph was a fit father but too much 
time had passed to return the children. The excessive time now argued 
as a reason for holding two innocent American citizens in Germany was 
created by the very same government now using it as an excuse.
    German legal counsel advised against any further appeals and Joseph 
by now had run out of money and was not receiving any help from anyone 
in the U.S. government.
    Joseph was asked twice by the German government to send money for 
the support of his children. Twice he answered such impudence by 
refusing and stating that he was ready, willing and able to support 
them right here in their own country where they belong.
    For the Christmas of 1997 their paternal grandmother, Patricia 
Alfaro Cooke, sent her grandchildren some Christmas gifts. They were 
returned to her in February of 1998 because $20.00 had to be paid in 
customs duties. In February of 1997 Patricia sent a birthday present. 
Unopened, the package was returned in late April.
    In June of 1998 Patricia Alfaro Cooke, the children's grandmother, 
was allowed to visit her grandchildren for an hour. She brought back to 
the children the Christmas gifts that had been returned. In November of 
1998, she was permitted to visit them for two hours on two different 
days. Mr. Ritter, possibly a social worker, agreed to allow her son 
Arthur, the children's paternal uncle, to accompany her on the coming 
1999 June visit to the children. In March of 1999 Patricia was allowed 
to visit her grandchildren for two hours and a half. Mr. Ritter 
suggested that Patricia should bring something to the other children 
living in the foster home. In June of 1999 Patricia and Arthur went to 
Germany to visit as agreed. Arthur was not allowed to see the children. 
Patricia was permitted to visit them for two hours and a half on two 
different days. At a meeting of Mr. Ritter, Patricia and Arthur, Mr. 
Ritter promised three times to Patricia and Arthur that Arthur could 
visit the children in November and asked Arthur to write to the 
children, introduce himself to them and ask them if they wanted to see 
him. Arthur did and the children replied that they wanted him to visit 
them. Shortly after Mr. Ritter wrote to Patricia that the foster 
parents would not allow any other visitors and that another meeting 
should be held in November of 1999 to discussed the concerns of the 
foster parents, concerns which were taken very seriously.
    In November 1999, Patricia and Arthur went to Germany. A meeting 
with Mr. Ritter, Mr. and Mrs. Weh and a German interpreter provided by 
Mr. Ritter took place. She was made to sign a promise not to ``kidnap'' 
her grandchildren. Arthur was now denied permission to see the 
children. One month after that meeting Patricia received from Mr. 
Ritter a mendacious confirmation of the meeting that she was requested 
to sign. In it, it was said, contrary to fact, that she had agreed to 
leave her grandchildren to live in Germany. She refused to confirm such 
a lie in her reply to him. He wrote to her, in an insolent, threatening 
undertone, that she should write German correctly and get herself a 
female translator to do it.
[GRAPHIC] [TIFF OMITTED] T0986.205

[GRAPHIC] [TIFF OMITTED] T0986.206

[GRAPHIC] [TIFF OMITTED] T0986.207

[GRAPHIC] [TIFF OMITTED] T0986.208

[GRAPHIC] [TIFF OMITTED] T0986.209

[GRAPHIC] [TIFF OMITTED] T0986.210

[GRAPHIC] [TIFF OMITTED] T0986.211

[GRAPHIC] [TIFF OMITTED] T0986.212

[GRAPHIC] [TIFF OMITTED] T0986.213

[GRAPHIC] [TIFF OMITTED] T0986.214

[GRAPHIC] [TIFF OMITTED] T0986.215

[GRAPHIC] [TIFF OMITTED] T0986.216

[GRAPHIC] [TIFF OMITTED] T0986.217

[GRAPHIC] [TIFF OMITTED] T0986.218

[GRAPHIC] [TIFF OMITTED] T0986.219

[GRAPHIC] [TIFF OMITTED] T0986.220

                                <greek-d>
</pre></body></html>
